<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




.  
   STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                                  2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                                _______

                SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS,
                          AND RELATED PROGRAMS
                          

                    HAROLD ROGERS, Kentucky, Chairman

  KAY GRANGER, Texas                 NITA M. LOWEY, New York
  MARIO DIAZ-BALART, Florida         BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania      C. A. DUTCH RUPPERSBERGER, Maryland
  THOMAS J. ROONEY, Florida          GRACE MENG, New York
  JEFF FORTENBERRY, Nebraska         DAVID E. PRICE, North Carolina
  CHRIS STEWART, Utah

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.



                Craig Higgins, Susan Adams, Winnie Chang,
                   David Bortnick,  and Clelia Alvarado
                            Subcommittee Staff

                                 ________

                                  PART 4

                                                                    Page
                                                                   
  Department of State and Foreign Assistance ................         1
                           
  Department of the Treasury International Programs .........       219
                                                                    
  United Nations and International Programs .................       281

                                                                    281
  Oversight Hearing on Accountable Soft 
  Power in the National Interest.............................       349
                                                                    
  Oversight Hearing on the Department of 
  State and Foreign Operations Programs.....................        483
                                                                    

                               ______

          Printed for the use of the Committee on Appropriations

                               _______

                    U.S. GOVERNMENT PUBLISHING OFFICE

  28-841                  WASHINGTON: 2018
                           
                             



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\                      NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                      MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                               PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                        JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                      ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                            DAVID E. PRICE, North Carolina
  KEN CALVERT, California                          LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                               SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                       BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania                    BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                              TIM RYAN, Ohio
  KEVIN YODER, Kansas                              C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                           DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                       HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                        CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee                MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington                DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                             MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California                     GRACE MENG, New York
  ANDY HARRIS, Maryland                            MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                             KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                           PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus

                        Nancy Fox, Clerk and Staff Director

                                     (ii)
                                     
                                     


STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2018

                              ----------                             


                                          Wednesday, June 14, 2017.

               DEPARTMENT OF STATE AND FOREIGN ASSISTANCE

                                WITNESS

HON. REX TILLERSON, SECRETARY, DEPARTMENT OF STATE

                  Opening Statement of Chairman Rogers

    Mr. Rogers. The hearing will come to order. Secretary 
Tillerson, thank you for being here today to discuss the 
Department's fiscal year 2018 budget request. I want to thank 
you also for your service to your country. I would like to 
thank the big Chairman, Frelinghuysen, for being here today 
with us. I know these issues are very important to him as well.
    I also want to recognize our distinguished Ranking Member, 
Mrs. Lowey. I am pleased we were able to continue working 
together as chair and ranking member of this Subcommittee. I 
want the Secretary to know that this Subcommittee has a history 
of bipartisanship, and I hope that will continue as we move 
through the appropriations process for this fiscal year. And I 
know the Secretary has been busy the last couple of days 
testifying on both the Senate side before two committees and on 
the House side before two as well.
    Mr. Secretary, these are, to say the least, challenging 
times for our country's foreign policy and national security. 
There are crises at seemingly every corner of the globe. As the 
nation's top diplomat, I know you are most keenly aware of 
that. From longstanding challenges, such as achieving Middle 
East peace, ensuring stability in Afghanistan and Pakistan, to 
maintaining cooperation among our Gulf partners, denuclearizing 
the Korean peninsula, tackling drugs, crime, corruption in our 
own hemisphere, and the critically important task of leading a 
global coalition to defeating ISIS, you have your work cut out 
for you.
    The President's budget request for the Department and 
foreign operations for fiscal year 2018 is $40.09 billion, 
which includes $28.8 billion in base funding, and $12.01 
billion in Overseas Contingency Operations, OCO, for funding. 
In total, that is a cut of 24 percent from the level included 
in the fiscal year 2017 Omnibus under which we now operate.
    While I support the President's effort to beef up our 
military through the defense budget, and we all do, the 
sweeping cuts proposed to the State Department and our 
international assistance programs are deeply concerning. Many 
of us share the views articulated so well in the last couple of 
days by Admiral Mullen and General Jones in their recent op-ed 
entitled, ``Why Foreign Aid is Critical to the U.S. National 
Security''.
    I appreciate that this budget request fully funds the 
Memorandum of Understanding with Israel. It is imperative that 
during such dangerous times in the Middle East, Israel be able 
to maintain its qualitative military edge. The budget also 
prioritizes programs to support the campaign to defeat ISIS, 
but the proposed cuts to security and economic assistance for 
many of our partners in this fight sends at best a mixed 
message about our commitment to them and to the fight.
    I hope you can reassure us today by addressing how the 
Foreign Military Financing program and Economic Support and 
Development Fund will meet the needs of partner countries 
engaged in defeating ISIS.
    Although the funding levels are reduced, I am pleased the 
request continues to focus on programs that counter Russian 
aggression. I understand from your statements last week that 
the President asked you to begin a reengagement process with 
Russia. I would like you to tell the Subcommittee what that 
entails, because from where I sit, their actions on so-called 
``areas of mutual interest'' continue to be problematic. A good 
example is North Korea--one of the greatest global threats 
today. Recent reports indicate Russia has stepped up their 
economic engagement with North Korea, intending to diminish the 
impact of China's economic sanctions. I don't have enough time 
today to go through the list, but with almost every top U.S. 
security priority, you will find Russia working against our 
interests in some manner, not to mention the arrest taking 
place this week on the streets of Moscow.
    I have noted many of the ongoing global crises that require 
diplomatic efforts, but they also underscore the tremendous 
need for continued investments in humanitarian assistance, 
democracy promotion, and support for global health and 
development programs. This budget proposal makes significant 
cuts in these areas that I believe are contrary to our nation's 
long history of leading the world, in helping the most 
vulnerable people during times of crises, conflict and unrest.
    Mr. Secretary, I hope you can reassure us that keeping U.S. 
personnel safe while serving abroad is at the top of your 
priorities. The recent attack in Kabul is a reminder that we 
must remain ever vigilant in the defense of U.S. personnel and 
facilities overseas. It will certainly be my first objective as 
we review your request and move through the appropriations 
process. I hope you will address how such a challenging task 
will be achieved with substantially fewer resources.
    Before I close, I want you to know that I take my role in 
providing oversight of this Department and the many foreign 
assistance programs very seriously. My first hearing as Chair 
of this Subcommittee was with the Inspectors General of State 
and USAID, to identify the most significant management 
challenges. I am sure I don't need to tell you there are many 
and they are indeed significant. I intend to address this issue 
further in my questions of you, but I believe there needs to be 
a position at the highest levels that can focus on the business 
of managing the operations and assistance of the Department of 
State.
    As you and I have talked briefly really early on about the 
need for a Deputy Secretary for Management and Resources, 
freeing you and the policymakers of the necessary time required 
to do the paperwork of running the Department. We look to 
working with you to identify your most pressing needs and 
support your efforts to maximize efficiencies, and find other 
cost-saving measures. The taxpayers deserve this level of 
scrutiny that you have underway in the Department.
    However, it is the Congress that has the Constitutional 
duty to fund the federal government, and this Subcommittee will 
uphold its responsibility by carefully considering the impact 
of the President's proposed funding and personnel reductions to 
State and foreign assistance programs. You have your work cut 
out for you, and we want to be there to help you in the chores 
that are important to all of us.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
       
    Mr. Rogers. Mrs. Lowey.

                    Opening Statement of Mrs. Lowey

    Mrs. Lowey. Thank you, Mr. Chairman. And Secretary 
Tillerson, thank you very much for joining us today. During 
your confirmation hearing, you stated, quote, ``Quite simply, 
we are the only global super power with the means and the moral 
compass capable of shaping the world for good. If we do not 
lead, we risk plunging the world deeper into confusion and 
danger.''
    I must say, I was very moved by this statement as a strong 
believer that our diplomacy and development efforts are 
critical to maintaining U.S. global leadership and protecting 
our national security. But after the dramatic 32 percent 
reduction in the fiscal year 2018 international affairs budget, 
I am truly struggling to reconcile your remarks with the 
President's disastrous plan. Ironically titled, ``A new 
foundation for American greatness.''
    Slashing development and diplomacy will not put ``America 
First,'' it will put American lives in danger, a fact 
underscored in a recent letter by 120 three- and four-star 
generals. Additional statements from your confirmation also 
confused me. You spoke about your time at ExxonMobil, where you 
saw the impact of development and global health programs, such 
as PEPFAR, describing it, quote, ``as one of the most 
extraordinary successful programs in Africa.''
    In fact, you reference Secretary Mattis' quote about 
needing more ammunition if we don't fund the State Department, 
and foreign policy and diplomacy goals should be elevated.
    Those comments do not comport with this budget's 
elimination of funding for: Food Aid; UNICEF; Family Planning; 
development assistance; climate change; programs for vulnerable 
children; and drastic reductions, such as the proposed 53 
percent cut to basic education; 52 percent cut to educational 
and cultural exchanges; 40 percent cut to prevention of 
trafficking in person; 26--I get ill as I go through these 
numbers--26 percent cut to the global health budget; and 12 
percent cut for PEPFAR.
    Frankly, and I know you must believe it, this would make 
Americans less safe by reducing our ability to stabilize 
regions on the cusp of extremism and to combat epidemics like 
Ebola. The United States will not maintain our global 
leadership if we slash our development and diplomacy budgets. 
By your own admission, the goal is to have other nations fill 
the gaps left by these cuts. That is abdicating our role in the 
world. We should not risk that void being filled by those who 
oppose our values or interests.
    You also referenced U.S. funding for international family 
planning as a, ``important level of support''. And yet, your 
budget would eliminate this funding. With this cut and proposed 
reductions to maternal and child health, we cannot maintain 
advances in maternal and child health. Quite simply, under the 
President's budget, lives that would have been saved will be 
lost.
    I am gravely concerned by this administration's posture 
towards Russia as well. The budget list countering Russian 
aggression as a key priority. Yet, you recently questioned why 
we should care about Ukraine, and propose cutting assistance by 
60 percent to countries facing Russian threats, including a 70 
percent cut to Ukraine. This budget would abandon our allies 
and encourage the worst behavior by Russia.
    Finally, we have heard from faith leaders, heads of 
businesses, military authorities, foreign policy experts, 
congressional colleagues on both sides of the aisle who all 
agree, a comprehensive national security strategy is only 
possible when defense is supported by diplomacy and 
development.
    Cutting these critical tools of our foreign policy is a 
surefire way to put our men and women in uniform in harm's way. 
I do hope you will explain the administration's strategy behind 
this budget, because, frankly, I am not sure there is one. I 
look forward to hearing your testimony. I look forward to 
working with you. And I look forward to hearing your view of 
the world and your responsibility of this very, very critical 
Department.
    Thank you very much.
    Mr. Rogers. We are pleased to have with us, Mr. Secretary, 
the Chairman of the full Committee, Mr. Frelinghuysen, who is 
now recognized.
    Mr. Frelinghuysen. Thank you, Chairman Rogers. And, Mr. 
Secretary, welcome to the appropriation process on the House 
side. You fill some historic shoes, and we want to wish you the 
best of luck, and obviously work cooperatively with you.
    Today's hearing is an important part of our oversight 
duties of this committee. Now that we have formally received 
the administration's budget request, the Committee will be 
undertaking a thorough analysis. After all, the power of the 
purse lies in this building. It is the Constitutional duty of 
Congress to make these types of spending decisions on behalf of 
the people we represent, whether they work here at home or 
whether they work abroad on our behalf.
    Mr. Secretary, there are many, as others have said, both 
the Ranking and Chair, there are many important programs in the 
State Department budget that support national security and our 
ability to influence events in the world. All of us have heard 
from our colleagues that the State Department, USAID, 
Millennium Challenge Corporation, and other agencies are 
critical to preventing conflict and reducing the need to put 
our men and women in uniform in harm's way.
    Mr. Secretary, I am also pleased, as the chairman noted, to 
see that your budget is focused on the campaign to defeat ISIS, 
al-Qaida and other terrorist groups that pose a threat to our 
country and our allies. Hopefully, your soft power will be able 
to match our military power and endurance. We are going to try 
to make that happen. I am also pleased with my colleagues to 
see your continued strong support for the state of Israel. That 
is a very special relationship and we need to keep it strong.
    However, many of my colleagues are as concerned about the 
magnitude of the cuts to the State Department, USAID programs, 
that suggested America is stepping back from the engagement--
from its engagement in the world. I hope that is not the case. 
I am sure that you will reassure us that it isn't. Frankly, the 
world is a better place when we are front and center.
    We know that events around the world impact the safety of 
Americans, America's businesses and jobs. Much of the work of 
the State Department, and may I say, and all of us up here have 
had the opportunity to interact with your foreign service 
officers. Their work is to be commended. So they, indeed, are 
the ones oftentimes in a position to shape events that provide 
stability and defuses conflicts in the countries where they do 
this type of work. And, of course, it is our job in this 
Committee to try and make the right kind of tradeoffs in the 
tight fiscal environment, keeping all this in mind.
    While we are talking about safety and security, I don't 
mean to pile on, Mr. Secretary, I have to say I was surprised 
by the depth of cuts in this budget to embassy security. In a 
world where our overseas diplomats, and let me commend them and 
you, our facilities, and our citizens pose a temptation to 
those who seek to do us harm or make a political statement or 
grab a headline, we must all agree more to harden these targets 
from attack. I am very skeptical about a reduction of 19 
percent in your budget, that relates to that particular 
account. But, once again, Mr. Secretary, we welcome you here, 
we look forward to working with you. I thank the Chairman for 
the time.
    Mr. Rogers. Mr. Secretary, we look forward to your 
testimony. Your written statement will be put in the record, 
and we would like for you to summarize it.

                Opening Statement of Secretary Tillerson

    Secretary Tillerson. Thank you, Chairman Rogers, Ranking 
Member Lowey, and distinguished members of the Committee. I 
would like to begin by saying, of course, we were all stunned 
to learn of this morning's shooting involving your colleague, 
members of congressional staff, and the Capitol Police. 
Representative Scalise is a friend of mine, and he represents 
many friends of mine back in Louisiana. It is painful for me to 
hear about those that were wounded.
    I also understand at least one Capitol Police officer was 
injured in the line of duty. We want to honor those law 
enforcement members, the emergency medical teams, those who 
responded for their courage in dealing with the situation 
quickly. I and my colleagues at the State Department pray for 
swift recovery for all of those injured.
    Today, I want to continue the conversation we started about 
the administration's State Department and USAID budget request 
for fiscal year 2018. As I said to your colleagues on the House 
Foreign Affairs Committee this morning, I would like to offer a 
point of view on the Russian sanctions legislation currently 
being considered by the Congress. I agree with the sentiment 
that has been conveyed by several Members from both parties 
that Russia must be held accountable for its meddling in the 
2016 election.
    As Congress prepares to vote on the sanctions bill, I would 
urge the Members of Congress to ensure any legislation allows 
the President and myself to have the flexibility to adjust any 
sanctions to meet the needs of what is always an evolving 
diplomatic situation with the Russians. It seems to me that we 
would ask for the flexibility to turn the heat up when we need 
to, but also, to ensure we have the ability to maintain a 
constructive dialogue.
    As we all know, America's global competitive advantages and 
standing as a leader are under constant challenge. The 
dedicated men and women of the State Department and USAID carry 
out the important and often perilous work to advancing 
America's interests every single day. That mission is 
unchanged. However, the State Department and USAID, like many 
other institutions here and around the world, have not evolved 
in their responsiveness as quickly as new challenges and 
threats to our national security have changed and are changing.
    The 21st century already presented many evolving challenges 
to U.S. national security and economic prosperity. We must 
develop proactive responses to protect and advance the 
interests of the American people. With such a broad array of 
threats facing the United States, the fiscal year 2018 budget 
request of $37.6 billion aligns with the administration's 
objectives of making America's security a top priority.
    While our mission will also be focused on advancing the 
economic interest of the American people, the State 
Department's primary focus will be to protect our citizens at 
home and abroad.
    Our mission is, at all times, guided by our longstanding 
values of freedom, democracy, individual liberty, and human 
dignity. The conviction of our country's Founders is enduring, 
that ``all men are endowed by their Creator with certain 
unalienable rights.'' As a Nation, we hold high the aspiration 
that all will one day experience the freedoms we have known.
    In our young administration's foreign policy, we are 
motivated by the conviction that the more we engage with other 
nations on issues of security and prosperity, the more we will 
have opportunities to shape the human rights conditions in 
those nations. History has shown that the United States leaves 
a footprint of freedom wherever it goes.
    Ensuring the security and prosperity of the American people 
and advancing our values has necessitated difficult decisions 
in other areas of our budget. But even having made hard choices 
to reduce funding, we will continue to be the leader in 
international development, global health, democracy and good 
governance initiatives, and humanitarian efforts.
    If natural disasters or epidemics strike overseas, America 
will respond with care and support. I am convinced we can 
maximize the effectiveness of these programs and continue to 
offer America's helping hand to the world.
    This budget request also reflects a commitment to ensure 
every tax dollar spent is aligned with the Department's and 
USAID's mission critical objectives. We believe this budget 
also represents the interests of the American people, including 
responsible stewardship of the public's money.
    I know there is intense interest in prospective State 
Department and USAID redesign efforts. We have just completed 
collecting information on our organizational processes and 
culture through a survey that was made available to every one 
of our State and USAID colleagues, as well as through 
individual listening sessions. From this feedback, we have been 
able to get a clear overall view of our organization.
    We have no preconceived notions about outcomes in our 
discussions about the goals, priorities, and direction of the 
State Department and USAID, are not token exercises. The 
principles for our listening sessions and subsequent evaluation 
of our organization are the same as those which I stated in my 
confirmation hearing for our foreign policy. We will see the 
world for what it is, be honest with ourselves and the American 
people, follow facts where they lead us, and hold ourselves and 
others accountable.
    We are still analyzing the feedback we have received, and 
we expect to release the findings of the survey soon. From all 
of this, one thing is certain. I am listening to what my people 
tell me are the challenges facing them, and how we can produce 
a more efficient and effective State Department and USAID. And 
we will work as a team with the Congress to improve both 
organizations.
    Throughout my career, I have never believed, nor have I 
ever experienced that the level of funding devoted to a goal is 
the most important factor in achieving it. Our budget will 
never determine our ability to be effective, our people will. 
My colleagues at the State Department and USAID are a deep 
source of inspiration and their patriotism, professionalism, 
and willingness to make sacrifices for our country are our 
greatest resource.
    I am confident that the U.S. State Department and USAID 
will continue to deliver results for the American people. I 
thank you for your time and look forward to your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Rogers. Mr. Secretary, thank you very much. I 
understand that you have nominated Eric Ueland as Under 
Secretary of State for Management. Subject to confirmation, he 
would fill that role. And I think it is terribly important for 
you to have somebody that is sort of looking after the shop 
while you are on foreign missions or involved with policymaking 
and the like.
    Do you not agree with that concept?
    Secretary Tillerson. Mr. Chairman, I think during this 
period of time where we are in the evaluation and we are going 
to undertake the redesign process, it is my intention to be 
very involved personally in that. You will find throughout my 
long career and my past life, I am a very hands-on manager, 
even in the midst of managing a heavy travel schedule and a lot 
of conflicts issues.
    I am bringing in others to assist me with that. I am 
interviewing others to come in to help with this redesign 
effort. So I will have their assistance as well. I would like 
to ensure that I have full line of sight into all of the 
aspects of those elements of running the State Department in a 
very unfiltered way. And I think when we complete the redesign, 
then we can consider how we want to utilize that position. But 
today, I would not want someone to come in and just continue 
what we are doing, because that is not our intent. We have to 
keep the Department running, obviously. But a lot of these 
processes are right at the heart of what this feedback survey 
is telling us have to be addressed.
    So I really want to put my attention and my personal 
efforts into that. When we have the redesign, then I think it 
would be timely to consider how that Under Secretary of 
Management can help us with the implementation.
    Mr. Rogers. I have confidence, obviously, in your 
capabilities because of your experience. Actually, running the 
State Department is a minor job compared to what you did in the 
private sector before you came here. I say that halfway 
facetiously, but only halfway.
    Mr. Secretary, we have long history and a good relationship 
with Colombia, one of our strongest partners in Latin America. 
Under this Committee's leadership, in particular, U.S. 
investments have made a positive difference in the lives of 
many Colombians, and now they appear to be on a path to peace, 
which we hope certainly is successful. That being said, 
Colombia continues to be among the major drug-producing and 
transit countries in the world. I am very troubled by the 
dramatic increase in the level of coca cultivation in Colombia. 
According to the State Department's own drug report released 
earlier this year, Colombia saw a 42 percent increase in 
illegal coca cultivation for 2014 to 2015. Official estimates 
expect 2015 and 2016 to continue that trend. That is 
particularly troubling, since the DEA reports that 90 percent 
of the cocaine in the U.S. is from Colombia, 90 percent.
    According to DEA, ``The United States can expect to see 
increased cocaine seizures, new cocaine users, cocaine-related 
deaths,'' quote. I have seen those results firsthand in my own 
district, as we all have.
    Mr. Secretary, in your judgment, does the Colombian 
Government have a credible counternarcotics strategy, and are 
they serious about tackling the coca production growth?
    Secretary Tillerson. In our recent discussions with the 
Colombian president on his visit, and I had my own opportunity 
for my bilaterals with him, I think there are some unintended 
consequences out of the Peace plan. And there are a number of 
elements of the Peace plan that cause us some concern, and we 
are going to continue to engage with them on how the Peace plan 
is ultimately implemented.
    But to your point of the coca production being up 
dramatically, one of their explanations to me was that they 
have a program as part of the Peace plan, once it is approved 
and implemented, that they will be paying farmers who were 
forced to cultivated coca plants under the FARC, they will be 
paying them compensation to convert their fields to other 
crops. This has led to an unintended overplanting of acreage to 
coca plants so they can collect more compensation.
    Now, whether this is all of the reason is not clear to us. 
But that was one of their explanations, that they made a 
mistake. Well, what we have said is, you have to get back to 
allowing the spraying of these fields, the destruction of the 
fields, and whatever is standing in the way of that, which, in 
the past is security, as you know, being able to secure areas 
so people could go in and actually spray these fields, because 
they have to be sprayed largely from the ground, it is 
difficult terrain to spray them from the air.
    We have to get back to eradicating these fields. So we are 
in direct conversation with them. I would also say--and I get 
into it later with you--we have a new initiative underway 
between Department of Homeland Security Secretary Kelly and 
myself and our Mexican counterparts, to take a completely 
different integrative approach to addressing the supply chain 
of narcotics to the United States, which deals with where is 
the supply originating from, whether it is coca plants out of 
Colombia or it is Fentanyl out of China. What is the 
manufacturing process within Mexico? What is the transportation 
distribution? What is the marketing and consumption? We are now 
addressing that through joint efforts to break the supply chain 
into components, which we will address together. Obviously, 
supply side in Colombia is going to be extraordinarily 
important as to our efforts to work with the Colombian 
government to step up eradication.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Rogers. I am glad to see that you are on this in a 
heavy way, and I appreciate that very much. And we wish you the 
best in that effort. Mrs. Lowey.
    Mrs. Lowey. Mr. Secretary, in all my years on this 
Subcommittee, I have never seen a budget request that is more 
of a fundamental retreat from the basic tenets of our foreign 
policy. This budget is simply insufficient to keep diseases and 
unrest away from our borders, and would fail to provide 
necessary services on which businesses and American citizens 
rely. Simply put, the President's America First budget would 
put Americans at risk. And as the Secretary of State, the chief 
diplomat, and our face to the world, a couple of questions:
    If you would explain, how would cuts to global health and 
development funding not jeopardize the progress we are making 
in saving lives and building a better and more secure world for 
children and their families? How can the United States, in all 
good conscience, leave millions of children and their family 
members vulnerable by denying treatment or preventative 
interventions? Have you considered the impact of withholding 
vaccines from millions of children, leaving them at risk from 
completely preventable illnesses and endangering maternal and 
child health globally?
    And by zeroing out Family Planning and reproductive health 
programs, how would this budget not, in effect, increase 
abortions worldwide? Many studies have shown that denying women 
access to family planning services results in more unintended 
pregnancies. With your proposed cuts, this would result in 
millions of unintended children to families with no resources 
to take care of them. I would appreciate your response.
    Secretary Tillerson. Well, I think some context, first, on 
the total budget itself being down 32 percent. Recognize we are 
coming off of a record year in fiscal year 2017. If we look at 
the budget relative to historic levels on an inflation-adjusted 
level, we are about at where we would be on an inflation 
adjusted level over 15 years. So there has been a tremendous 
increase in budgetary funds made available to the State 
Department and USAID over the past roughly 8 years.
    So in our view, and I think the President's view, is that 
level is not sustainable, given the other priorities that we 
have. Having said that now, let me speak directly to the 
impacts in the areas that you are--you have noted and they are 
very important areas to us as well.
    We have a $1 billion reduction to PEPFAR, a program that I 
think is widely recognized as the most successful, and I spoke 
about it in my confirmation hearing. That will still allow 
PEPFAR, our programs to address HIV/AIDS will be maintained at 
all current treatment levels, all patients, in 13 countries 
that we are currently working in, the focus areas where we 
think we are winning the war against AIDS, that will be 
maintained, no reductions there.
    In terms of new countries, what we are seeking is others to 
come in and join this fight, use the PEPFAR model. Well-proven, 
results-driven, and let's apply that in other countries as 
well. So we do intend to be very active as a convener, and also 
soliciting others to work with us. We worked very closely with 
the agencies and the directors that carry out the PEPFAR 
program, and they feel comfortable they can deliver the current 
level of care with the budget--the monies that are included in 
this budget.
    Secondly, we are fully meeting our 5-year pledge to fully 
fund Gavi for vaccines. This is the fifth payment of that 5-
year plan. We intend to fully meet those obligations to Gavi. 
There are other areas of the health programs that have had to 
be curtailed, again, tough choices, hard choices for us to 
make.
    We do have efforts in multiple parts of the State 
Department and USAID activities where we will continue to 
remain engaged, and continue to be interested in and continue 
to attempt to bring other donors, other sources of funding, ask 
for more pledges from others, including private foundations, 
but also working with other government and health 
organizations.
    We are not stepping away from these very important 
programs. For all the reasons that you have articulated, we 
agree with that entirely. This is just some of the tough 
choices we had to make, but we have been very careful to 
understand, in the case of PEPFAR and areas like that, what is 
the impact? We have been very engaged with the people who are 
delivering these services.
    Mrs. Lowey. Mr. Chairman, I just want to have one comment 
in conclusion. I am pleased that you are reaching out to the 
private sector. I am pleased that you are reaching out to 
foundations. The 2017 budget, of which we are very proud, was a 
bipartisan effort. The needs in the world for food, for 
clothing, for water, are so great that if you can be successful 
in reaching out and bringing in additional resources, wouldn't 
that be exciting, but don't cut the basic funds. And I do hope 
you will think through this budget seriously, and respond to 
the bipartisan constructive work we have done.
    I have been on this Committee for over 28 years, and I am 
proud of the bipartisan work we have done. Thank you. Thank 
you, Mr. Chairman.
    Mr. Rogers. Chairman Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Mr. Secretary, 
in your statement, you just said, if natural disasters or 
epidemics strike overseas, America will respond with care and 
support. I am convinced we can maximize the effectiveness of 
these programs and continue to offer American's helping hand to 
the world.
    Please share with the Committee some of your ideas for 
maximizing the effectiveness of some of these programs. Most of 
us have been on these panels, we have heard about redesigns, we 
have heard about surveys. I assume you came to the job with 
some of your own opinions about our delivery system.
    Secretary Tillerson. Yes, I did. You know, from some of my 
past experiences, all of which we were working towards the same 
objectives, whether it be trying to defeat malaria through 
Malaria No More, whether it was through HIV/AIDS programs at 
PEPFAR, whether it was through food aid. And I think there 
are--and as we talked to our State Department colleagues, and 
this is where some of this information is coming back to me, 
there are well-intended programs that have been appropriated. 
Sometimes the appropriation construct actually results in a 
less effective and efficient way to deliver the need. Food aid 
is one particular area.
    We believe, and our colleagues in the State Department 
believe the most effective way, and the most efficient way, to 
deliver food aid is through IDA, through the international 
assistance, rather than through Food for Peace, which is a 
well-intended program. But they have told us our experience in 
comparing those two methods of delivery is clearly IDA is far 
superior in its speed of delivery, its ability to get the 
needed aid to people quickly.
    So we have a number of models within the State Department 
that will inform us as to what is the best way to do this. And 
we need to take our own internal learnings and best practices 
and apply those based upon experience. There are others in the 
private foundation, private NGO, the NGO sector, that also have 
different delivery models, that we hear from them, if we could 
do it this way rather than that, we can be faster, which is 
going to be more efficient, and we are much more responsive to 
the needs.
    So, again, through part of this redesign is looking at how 
do we deliver on mission internally, and then, obviously, we do 
this through a lot of partners. But that is going to cause us 
to look at: How are we getting our work done? What are the best 
ways? And our people know, I mean, the people that are down 
there doing the work are going to tell us what it is, and we 
hear these examples coming out of the survey work already.
    Mr. Frelinghuysen. One comment. I think you are directly or 
indirectly complimenting some of the good people beneath you. 
Whenever we have the privilege of visiting a foreign nation, we 
meet with the embassy team. I do think there is a true amount 
of dedication there, and they really do know which programs are 
effective. So I hope during the survey and redesign process, 
you talk to the very men and women who have been part of the 
diplomatic service for 20 years to seek out their ideas as to 
how we can best spend--if there is less money, how we can spend 
it more effectively.
    Secretary Tillerson. That was a direct compliment, but more 
importantly, it was a direct recognition. We know where the 
expertise lies within the State Department, it is the people 
who are delivering. And that was the intent--and, again, that 
is the information of the survey. The survey was designed to 
have our people tell us, what is getting in your way? Your 
ability to do this?
    We are going to have, also, a former foreign service 
officer, some former ambassadors are going to be engaged in 
this redesign process. So we take advantage of people who have 
years of experience dealing with this.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Chairman. Ms. Lee.
    Ms. Lee. Thank you very much. Good to see you, Mr. 
Secretary. Thank you for being here. I, too, am really quite 
shocked at this budget. I have been on this Committee a while, 
and prior to this, the Foreign Affairs Committee. And I have to 
just go back to Secretary Mattis' quotes, the Secretary of 
Defense, he said, ``If you don't fund the State Department 
fully, then I need to buy more ammunition ultimately.''
    Now, I assume this $54 billion increase in defense and the 
30 percent reduction in your budget means that we are getting 
ready for more ammunition purchases and for wars. So I am just 
really quite dismayed to see this, given your statements and 
your history.
    Let me just go right to the HIV/AIDS PEPFAR and Global Fund 
cuts. This is outrageous. First of all, I understand--and I am 
happy to hear you say that we are going to maintain the 
treatment for patients. But I don't know if you are aware of 
this, but there will be approximately--new infections, people 
who will need treatment throughout the world--280,100 people.
    This is just outrageous. So we are not looking at the new 
infections, the preventative nature of what PEPFAR has done. We 
are trying to get to a world where we know, and the U.N. has 
said that we can see an AIDS-free generation. We are losing now 
with this budget. We are going backwards. We are going to lose 
the progress that we have made.
    I am not sure if you know the history of PEPFAR. Just very 
briefly, it was myself and the Congressional Black Caucus that 
took this to President Bush. President Bush, Democrats, 
Republicans, all of us led by the Congressional Black Caucus, 
we worked on PEPFAR, and we worked together in a bipartisan way 
up until now.
    And so, I just can't understand why in the world we would 
cut funding, maintain flat funding, if we risk this epidemic 
spiraling out of control. While I am very pleased to hear that 
people aren't going to be cut from treatment, what are we going 
to do about these hundreds of thousands of new infections of 
people who are looking to us, not to other countries, not to 
the private sector, but to us to lead and bring other countries 
together? But I know for a fact that countries are not going to 
put up any funding unless we lead in that. By us cutting, 
naturally, that gives everyone else an out.
    Secretary Tillerson. Well, as I indicated, we are going to 
continue to lead. At $5 billion, we are still leading. And I 
think when we talk to the folks that are managing PEPFAR, 
again, maintaining the treatment of all current clients and 
patients, some of those will move off of the rolls as their 
disease moves to a different stage, and we will accommodate new 
treatments as they move off, and that is their expectation 
within our 13 focus countries.
    There are, obviously--I know you know the subject quite 
well, and I know it reasonably well, there is a need to have 
these programs in other countries that we are not present in 
today. We are going to continue our efforts in this area 
working with others, and again, to attempt to attract 
governments, other governments, as well as other NGO 
foundations and whatnot, to take the program into countries 
that are currently not served. We have countries today that are 
not served under the past program. But I want to, at this 
level, we continue to be the leader, and I think, therefore, it 
gives us a convening authority as well as asking authority of 
people. We are doing a lot. If you look at the history of how 
much the American people have done in this regard, it is 
something to be very proud of. And we are very proud of it.
    So I don't want to indicate to you in any way that we have 
lost our commitment to continuing to fight this battle because 
we do--I think many of the health professionals believe we are 
turning the tide.
    Ms. Lee. Mr. Secretary, but we can't do this with a $470 
million cut to PEPFAR and a $225 million cut to the Global 
Fund, and eliminating the bilateral HIV/AIDS funding at USAID, 
we just can't do that. And I know the experts and I know people 
in the field; they are worried about this, because they know 
good and well that we won't be able to bring people on to 
treatment. And with new infections, we can't do our prevention 
now. And with the projected numbers of new infections, this 
budget is just not going to get it.
    And believe you me, the rest of the world is looking to us 
to lead. They won't step up unless we step up. And we know that 
we can achieve an AIDS-free generation by 2030. We can't do 
that if we back off now, Mr. Secretary.
    And so I would hope that you would reconsider this and 
really look at the history of this. And, finally, in the few 
minutes that I have left, I just want to see in terms of the 
cuts to the Bureau of Democracy, Human Rights and Labor, which 
is charged with upholding human rights abroad. Given what is 
taking place in Chechnya against LBGT individuals, gay men, it 
is outrageous.
    How are we going to address human rights if, in fact, we 
are cutting the budget at this level?
    Secretary Tillerson. Well, it takes a lot of advocacy and 
it takes a lot of engagement with those countries where these 
atrocities are occurring. As I indicated with Russia, we have 
quite a large number of issues on our table between us, and 
this is one of them. We are going to work through these issues 
in, hopefully, a way in which we can make progress, but I will 
tell you, it is early stages in our engagement with Russia. The 
past 4 years of no engagement has us starting with a lot of 
issues on the table.
    Mr. Rogers. Chairwoman Granger.
    Ms. Granger. Thank you for being here. Thank you for the 
job you are doing. You said at the beginning that you listened 
to people, and I think that is important. It is also important 
to listen to the Congress. We are your friends. We have done 
this for years. I called you over 4 weeks ago; never a call 
back, no one from your staff, nothing. And all I was doing is 
offering my help. I now chair a defense subcommittee. I did 
chair this Subcommittee for 6 years. I think the members of 
these subcommittees are the best you can find. They care for 
what they are doing. They have been involved for years. And we 
are dealing with very important issues. So I would ask you to 
end--the administration--to look at us as friends and help.
    I have two specific concerns that sort of go with both 
defense and foreign operations, which many of them do, because 
everyone who serves on this Committee or defense knows that 
they are just like this. There are things that we can't do 
defense-wise. We can certainly do them through our help to 
those countries. The same thing--those countries are helping 
us. Jordan, specifically, I would say. You couldn't ask for a 
better partner.
    If we do go different ways, and, for instance, cut to 
foreign military financing,--Mrs. Lowey asked a question. So if 
we cut that, who does it? How many countries go to Russia? How 
many countries go to China? There is a cost there, and it is 
not a dollar cost, it is a cost in lives. So I would say, what 
is the plan for that? And are we really--are you really 
considering it seriously. And then I have one more question 
when you answer that, or I will ask it if you like now.
    Secretary Tillerson. Well, as to the foreign military 
finance budget, as you indicated, it is down about $700 
million. We are fully meeting our commitments to Israel, fully 
meeting our commitment to Egypt, to Jordan, and to Pakistan, in 
those four countries where we have made prior commitments. That 
leaves us about $200 million that we can utilize with other 
countries for FMF. OMB has asked us to look at other ways to 
support countries for military finance, including where 
countries have the capacity to consider loan guarantee 
structures.
    But I also would want to make sure you understand that 
Secretary Mattis and myself have also set up a process where we 
have our staffs--he has a part of his budget, and we are not 
trying to supplant our budget with his, but there are some 
areas that are closely aligned to our same objectives in 
certain countries, where if we are insuring we are coordinating 
their budgets with ours, we think we can still meet a lot of 
the objectives of our foreign military financing.
    You are exactly correct. When we are not able or unwilling 
to enable purchases of arms from the United States, people are 
going to shop elsewhere. And we see the peddlers of arms from 
other countries appearing as well. We are very mindful of that. 
The President is very mindful of it. So, I think, we are being 
asked to try some different approaches with countries, and 
let's see if we can't maintain meeting the needs with a little 
less money. As I said, about $700 million is the difference.
    Ms. Granger. My second question has to do with the rumors 
and, of course, this is a place for great rumors but there are 
programs that have been funded through the State Department 
that will push--be turned to DOD, to Defense. As Chair of 
defense, I would ask you to look at that, and always know that 
we are trying to rebuild a military that has been cut year 
after year after year until it was--until finally, people that 
leave the military said, ``we are finally telling you, we can't 
do the job we are asked to do with this sort of money.'' I 
would ask you to be very mindful of that in moving any extra 
new programs into Defense.
    Secretary Tillerson. Well, that is certainly not what we 
have underway. So if you have a specific--I would appreciate 
your staff letting us know if they are hearing that something 
is going on. Secretary Mattis and I have a very open and close 
communication on a weekly and every-other-day basis, and we 
have been working this particular issue of how we ensure our 
funding in areas that is complementary to theirs, and theirs is 
complementary to ours. How we coordinate that. And there is no 
intention of transferring programs.
    We have suggested that in some of the DOD programs, and 
this has been the practice in the past, when Congress has 
authorized those, that those programs that Defense is carrying 
out require State Department concurrence. We think that is 
still a good mechanism to ensure that our respective 
organizations get the message that we have got to work together 
on these things, and he is committed to that as well.
    Ms. Granger. Thank you.
    Mr. Rogers. Mr. Ruppersberger.
    Mr. Ruppersberger. First, I am trying to decide how to 
approach you to begin with, to try to influence you to some of 
the things we think are important. We have specialties in this 
Congress. My specialty has been the last 15 years in 
intelligence and national security, and working on a lot of 
these other issues, too. The questions that were asked 
yesterday by the Senate and telling you that these deep cuts 
will hurt us, and they will.
    You know, you have a lot of experience. And I am glad you 
are where you are. Hopefully, you will use that experience, and 
I know this is your intent on what is right for America, not 
the political side. But the fact that you have managed one of 
the top corporations in the world, you know management. I think 
it is great that you are reaching out to employees on, what do 
you call it, redesign programs. That is very important.
    But I think right now, you know budgeting, too. Budgeting 
is about priorities. And there is a lot we have to do. And if 
you can bring money in from the private sector, that is fine. 
If you can save money, that is fine. But I think one of the 
things that I am very concerned about, and just in the last 
month or so, I probably have been in about 10 different 
countries: Iraq, Afghanistan, Yemen, a lot of these different 
countries. And when you came into office with the Trump 
administration, the morale--and every time we go to another 
country with your people out in the field--is not good at all. 
Now, that is not unusual when a new boss comes in.
    But what you see now, you see many positions that haven't 
been filled. You see individuals who are really career people, 
just like our intel people, our military people, that are 
throughout the world on a regular basis, out on our behalf. And 
when morale is bad, that is difficult. They are not going to 
tell the top boss that. But I really hope, and based on your 
experience, that you understand and see where the problems are.
    I am not going to quote Mattis again, I will quote him, but 
not the quote that has been used. The quote that I have is he 
talks about extremism, and he basically has said that extremism 
is because of lack of opportunity in these countries, 
insecurity, injustice and hopelessness. This is part of what 
the soft power does, the State Department.
    I am asking you, and this concerns me because we love 
America, and we are patriotic people, and forget the 
Democratic/Republican issue, it is about the United States of 
America, who is the best country in the world. But when we pull 
back, when we don't go on our budgeting and what you are doing, 
it gives China the ability to be the more powerful person in 
the world and take a position that we are pulling back.
    What I am seeing from my point of view, it gives Putin the 
ability to get whatever he wants. And I am glad you are 
communicating with him. That is fine. And you don't get places 
if you don't. But the fact that everything that we do and the 
way we have treated our European allies and some of the things 
that we have said, that really hurts our relationship.
    When the Chancellor of Germany says, we will deal with 
China now instead of the United States, I hope you can fix 
that. That is important. And all these different regions. And 
my question is: Do you see what we are seeing from where we 
are? And those of us who have been here for a while and have 
the experience, not only in national security, but what 
Chairwoman Granger said, I agree with 100 percent that we have 
the experience. You are in a powerful position. We want to work 
with you. I think you got everything it takes to do it. I am 
glad you decided to do this for your country.
    Where do you see this budgeting--remember, budgeting is 
about priority. Where do you see this putting us when we are 
pulling back? And that some of the things that members have 
said, where do you see us as it relates to Russia and China and 
losing our power in the world?
    Finally, I want to say, every quarter, you had to produce 
monies for your corporation. Government is different, some of 
the decisions that are made here will be 15-20 years out, and 
that is a big difference as far as some of the roles. 
Accountability, all of that, that is fine. So if you can answer 
the question about--I am more worried about losing our power 
and our ability and our reputation throughout the world with 
our allies first, but then the world generally.
    Secretary Tillerson. I think the best way for me perhaps to 
try to address that is to give you what was my assessment of 
how I found U.S. relations around the world in my first month 
as Secretary of State.
    But I will tell you, it is informed by the fact that in my 
old life I was very engaged with these same leaders and would 
just listen to them talk about the relationship with the U.S. 
and where I think it is today, and recognizing that that 
relationship that I walked into as Secretary of State was 
defined by 4 years of very high spending levels in the State 
Department.
    And I would tell you the relationships were not good. They 
were not good in Europe. They were not good in the Middle East. 
They were not good in Southeast Asia. And the reason they were 
not good is there was an absence of engagement. There was an 
absence of decisive engagement. And I heard this from them over 
and over and over.
    We are not pulling back in any way from our engagement with 
our allies. Rather we are leaning into the engagement. And I 
think, while our conversations with them are frank, sometimes 
they are blunt, and sometimes they are brutally honest, what I 
am hearing is they are glad we are back having these 
conversations. They appreciate the decisiveness of this 
administration. Even if they don't agree with some of the 
decisions--and they don't--at least it is clear where we are. 
And we are engaged. We are more engaged diplomatically, they 
tell me, than we have been in quite some time.
    And I can tell you, when I heard from the ASEAN countries, 
and I have had two ministerials with all the ASEAN countries, 
that was the message, that, ``Because you were gone for several 
years''--to your point--``China has moved in. Please, you have 
to help us push back.'' We are reengaging with ASEAN.
    Mr. Ruppersberger. My time is up now. I do want to say 
something about the people. You know as a leader in the 
corporate world, you are only as good as your team. There are 
big morale problems there, and I hope you can focus and address 
that, especially the people throughout the world that are 
transferred every 3 years to other areas of the country.
    Mr. Rogers. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Mr. Chairman, Mr. Secretary, first, thanks 
for your willingness to serve.
    You were already asked something about Colombia, and I just 
want to kind of go there again. I don't have to tell you that 
we spent a lot of money on Plan Colombia, and it was highly 
successful, and production of coca went down to 50,000 
hectares. Unfortunately, after the negotiations with the FARC, 
as you know, that has skyrocketed to 159,000 hectares of coca 
production.
    This Committee, led by the Chairman and the Chairwoman, put 
language in the fiscal year 2007 bill which, in essence, has 
some strings to make sure that we are incentivizing our friends 
in Colombia to lower production of coca.
    Your thoughts about the concept of making sure, too, that 
we do what we can to make sure that that continues, number one; 
and, number two, to make sure that money does not go to members 
of the terrorist organization FARC.
    Secretary Tillerson. Well, we have had, as I said, we have 
had discussions with the Colombian leadership, with President 
Santos, and questioned how could this happen, how could this 
be, that we are now in a peace process and everything explodes 
on us. And so I shared with you one of their explanations. So 
we are going to continue to press them, and if they need our 
assistance to go in and eradicate these fields, we must begin 
that process now.
    Mr. Diaz-Balart. I am glad to hear that, and I think we 
share that attitude, this Committee shares that attitude with 
you.
    Let me shift to Venezuela for a second. By the way, I am 
exceedingly pleased by the sanctions that this administration, 
very young administration, has imposed on some, frankly, 
problematic folks, including the so-called vice president, who 
is a narco kingpin, as has been noted by the administration, as 
well as the members of the court that, in essence, tried to 
eliminate the elected members of Congress. Could you please 
explain how--because the President's budget obviously is silent 
on programs that support democracy in these regions--so your 
thoughts about how the Department of State intends to support 
pro-democracy movements, opposition, et cetera, in places such 
as Venezuela?
    Secretary Tillerson. With respect to Venezuela 
specifically, as you well know, it is extremely challenging 
there right now, though I think we have made some important and 
significant progress within the OAS. We are going to continue 
to use the OAS as a vehicle to advance pressure on the regime 
to return to its Constitution, return to its called-for 
elections.
    But we also have to work with the opposition to help the 
opposition become unified. That has been one of the great 
challenges of the past, is the opposition can't seem to be of 
one voice.
    We are also convening with others. We have had 
conversations with the Vatican. We have had conversations with 
other countries. Mexico, in particular, is ready to take a lead 
on some of these issues. Because our view is, as you would 
know, better than I, Maduro uses America's interventions as a 
propaganda tool in his local campaign.
    So I think when it comes to Venezuela, we have to find out 
how we are effective, but be fairly low key about it and 
working through other organizations, and that is the approach 
we are taking.
    Throughout the region, though, in terms of how we 
strengthen democracy, strengthen anti-corruption, and rule of 
law, it is our efforts within the Triangle area, in particular 
of Latin America, we are going to be coming out. I think the 
President has plans to make a statement about his policies on 
Cuba as well.
    So we are working with Argentina, we are working with 
Brazil in ways that we strengthen, in Argentina, their 
emergence from that long period of socialism and Peronist rule. 
With Brazil, it is how do we stabilize the situation there.
    So we have an engagement in each of those important 
countries to speak to what the most pressing need is. And in 
particular, in the Triangle area, we know we have made some 
gains. We have got a lot of work to do. But we are making gains 
on anti-corruption, strengthening the courts, strengthening the 
power of attorney generals. We want to continue that.
    So we are directing, the resources we have are driven by 
where we can make the most impact and driven by where we 
believe we can show results from those.
    Mr. Diaz-Balart. Thank you, Mr. Secretary.
    Mr. Chairman.
    Mr. Rogers. Mr. Secretary, on Colombia and the eradication 
of coca and the like, wasn't it a part of the agreement with 
FARC that brought about the peace process to stop eradicating? 
Wasn't that part of the deal?
    Secretary Tillerson. I would have to look at the specific 
language, Chairman. I can get back to you on that.
    [The information follows:]

    The Colombian government and the FARC signed the final 
peace accord on November 24, 2016, which the Colombian congress 
ratified on November 30. The accord contains agreements on six 
agenda items: (1) rural reform; (2) political participation; 
(3) bilateral ceasefire and surrender of FARC weapons; (4) 
illicit drugs; (5) victims; and (6) end of conflict and 
implementation.
    In agenda item four of the peace accord, the Colombian 
government and the FARC outlined their goal to tackle the issue 
of illicit crops via a national and integral crop substitution 
and alternative development plan. This new eradication 
mechanism allows coca growing families to voluntarily 
substitute their illicit plantings for government-provided 
licit alternatives while receiving a short-term subsistence 
subsidy. The peace accord does not prohibit the Colombian 
government's use of traditional forced eradication methods.

    As you recall--and I know you know the history there--there 
was a peace plan that was rejected when it was put to a 
referendum among the people. It was modified and then agreed 
and approved by the Congress without taking it to the people.
    I think there is a reason the people rejected it. It had 
some problematic areas to it. It still does have some 
problematic areas around ensuring that those who have committed 
certain crimes, in particular crimes against humanity, not be 
given a free pass. So there are some human rights issues we are 
concerned with.
    In terms of the programs to eradicate the coca fields, that 
is something that our law enforcement people are looking at and 
working with them on.
    They indicated to us their commitment to undertake the 
eradication. Now, the way they do that is they buy--it is an 
arrangement where they essentially buy out, so to speak, these 
farmers that alleged they were coerced--they were forced by the 
FARC--to plant these coca fields. Now, again, what happened is 
during the peace process, they tell me, people went out and put 
more fields under cultivation to increase their buyout.
    Mr. Rogers. Well, we have seen buyouts don't work anywhere 
in the world, including the U.S. But the fact is that the peace 
process, peace agreement, included provisions that the FARC 
demanded, and that is to no longer eradicate and spray. And so 
in the meantime, 90 percent of the coca is coming out of that 
country, and it is growing every day.
    Secretary Tillerson. Yes. It is regrettable that efforts 
and a lot of money put into Colombia by the U.S. bring us to 
this point. So we have got to work with the Colombian 
Government to resolve this coca problem, but we have got other 
issues we need to resolve with them as well. And I think we 
are, I would just tell you, we are at a challenged place with 
them right now, but we don't want to abandon what has been 
achieved. And we certainly don't want to send it back into a 
conflict situation.
    Mr. Rogers. And, certainly, the Plan Colombia has been a 
smashing success, and we want to see that continue.
    Ms. Meng.
    Ms. Meng. Thank you, Mr. Secretary, for being here.
    I have a question about the office of the U.S. Special 
Envoy to Monitor and Combat Anti-Semitism. We have written a 
bipartisan letter and made repeated calls from Congress for you 
to fill this seat. By what date do you know if you will have 
appointed a new special envoy to monitor and combat anti-
Semitism?
    Secretary Tillerson. Well, I am sure, as you are aware, we 
have, I think, when I walked into the State Department, I think 
we have over 70 special envoys, special representatives, 
special ambassadors. One of the things that we are 
considering--and we understand why they were created and the 
good intentions behind why they were created--but one of the 
things we want to understand is, by doing that, did we actually 
weaken our attention to those issues, because the expertise for 
a lot of these areas lies within the bureaus. And now we have 
stripped it out of the bureau.
    And one of the questions I have asked is, if we are really 
going to affect these areas, these special areas, don't we have 
to affect it through the delivery on mission at every level, at 
every country? And by having a special person, an envoy out 
here, one of my experiences is mission then says, ``Oh, we have 
got somebody else that does that.'' And then they stop doing 
it.
    And so it was not the intent. I know the intent was to 
bring more attention to it. But I am back to how do we deliver 
on mission, how does this actually get done. And when we 
examine some of these roles, what we really find is we have 
diminished the delivery on that issue in every country because 
people don't think that is part of their mission anymore, it is 
somebody else's mission.
    This is some of the confusion that we are getting out of 
the listening survey. We are hearing confusion around what is 
the mission, who owns it.
    And so right now we are kind of holding on these things 
until we can understand and again get back to redesign. Those 
that are mandated by statute, we will be back to talk with you 
about those as to whether we think it is good to have it 
structured that way or whether we really think we can be more 
effective on those issues in a different way.
    So this will be a conversation for us to have, and we fully 
intend to grapple with the issue in discussion with the Members 
of Congress.
    Ms. Meng. I was under the impression that the State 
Department was going to fill the position. This position, as 
you know, is legislation sponsored by Congressman Chris Smith 
from New Jersey and signed into law by President Bush. This is 
an office that previously had a website which would have 
reports that help our country keep tabs on global anti-Semitism 
and advises other countries on how to combat anti-Semitism.
    So we, in a bipartisan way, are very concerned that there 
is no office to accomplish this. This is mandated by law. In 
the United States there have been in recent times over 100 bomb 
threats to Jewish community centers in both Republican and 
Democratic districts. So it is something that we are all very 
concerned about and hope that you will keep this office and 
commitment.
    Is it your position that a special envoy to combat anti-
Semitism is not necessary?
    Secretary Tillerson. No. As I said, we have made no 
determination on that. I think on the offices that are 
statutorily mandated and have a statutory requirement for 
certain activities, those are being met. We haven't pulled 
staffs out. We haven't made changes in that regard. But if some 
of the appointees have moved out because they were political 
appointees, I have just--I have made the decision that until we 
can determine that this is one that we know this is the best 
way to deliver, we are just taking a pause until we can 
understand is this really the best way to meet the intent of 
the statute.
    And it may very well be. And so I don't want you to leave 
this discussion thinking I have not made a decision as to 
whether I think that particular special envoy office should be 
left just like it is or whether there is a better way to 
deliver on the intent.
    Ms. Meng. Thank you. I yield back.
    Mr. Dent. Thank you, Mr. Chairman. Good afternoon, Mr. 
Secretary. Just a couple things. When President George W. Bush 
was in office, he and his people often talked about a national 
security strategy that was three-headed: diplomacy, defense, 
development. I shared that view. I think that is important.
    In my view, this budget seems a bit too focused on hard 
power, not enough on soft power and the tools that you have in 
the development and diplomacy realms. I would just be curious 
to get your perspectives on that, what you think about that.
    I returned from Germany recently on a delegation, and I 
think you need to be aware that there is a perception, at least 
in Europe--I am not saying elsewhere, but in Europe--that there 
is a loss of American leadership on issues like NATO and 
security issues, to trade, and even to the environment, and 
that they see a lot of political uncertainty over here, and 
they might even use the term ``instability''. And I think it is 
frightening to a lot of people in Europe.
    And my view is that in Europe they expect an American 
security guarantee. And you are right to insist on the 2 
percent, but they also reserve the right to complain about us. 
But they need our leadership. And I think they are scared 
because we are the rock they could always count on. And I just 
want you to be aware of that, and I would just be curious your 
reaction to that.
    Secretary Tillerson. I think the model you described from 
President Bush's era is one that I too believe is an 
appropriate approach. And I think in this particular budget my 
observation is I think what the President is doing is he is 
catching up on the strength, the hard power side of that 3-
legged balance. In his view, there has been a certain neglect 
to maintaining our force posture in our military, in particular 
in some parts of the Pacific region where we see the rise of 
China.
    And so I think the President has decided he is going to 
address that element of it first, but in doing that does not 
want to do that in a way that contributes to the deficit. So 
tough choices were made. And that is why I think what we have 
been asked to do is execute on the other two elements of that, 
along with other agencies, obviously, that execute on elements 
of diplomacy and economic development as well. It is not only 
the State Department that does it, that has resources, anyway, 
to advance those initiatives.
    So we know we have been given a challenge, and the approach 
we have taken is how do we deliver on mission with the 
resources we have available to us. And that is why I say our 
intent is not a discontinuance of anything, but to manage 
across a period of change, and a period of change from a 
budgetary standpoint and a budgetary priority from last year or 
the last few years to this year and perhaps the next couple of 
years. And that is why it is so important to me that we look at 
how we do this and use this as an opportunity to challenge 
ourselves as to how we can still deliver on mission.
    Mr. Dent. Understood. And I just wanted to share one other 
thing, too. On cultural exchange programs, something that is 
important, it is a 55 percent cut. And I am familiar with one 
of them, the Congress-Bundestag Youth Exchange Program, $4 
million. We invest in that. The Germans invest in it. The 
highest levels of that government will talk to me about it and 
say it is important. They participated in it.
    I think when we make these kinds of cuts, we have to think 
about not only our investment but others who are investing in 
the same types of programs, particularly allies. And 
particularly when they are relatively small numbers of dollars 
in multibillion-dollar budgets. I think we have to be a little 
bit more nuanced and precise because I think it sends a 
message--for a relatively small amount of money, it sends a bad 
message. And I just wanted you to hear that, particularly on 
some of these cultural exchange programs. In that case we are 
talking about former enemies who are now great allies. So any 
thoughts on cultural exchange?
    Secretary Tillerson. I think, you know, clearly, not just 
in allies, but even as we are trying to develop relationships 
with adversaries to give us the ability to talk to one another 
and to understand one another, these type of cultural people-
to-people programs are very important. I have said for many, 
many years, the best diplomatic tool really is economic 
development and economic relations between countries, because 
as people can tie their own economic well-being to this other 
nation and they see benefits of those relationships, that 
strengthens the understanding of the population of one another. 
The cultural exchange has only helped strengthen that.
    Mr. Dent. I see my time has expired, and I yield back. 
Thank you, Mr. Secretary.
    Mr. Rogers. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Secretary, good to have you here. I want to address 
with you development and governance support. And I come at this 
from years as the chairman and ranking member of the House 
Democracy Partnership, a bipartisan commission that engages 
parliament to parliament, staff to staff in strengthening 
parliamentary capacity in developing countries. Have a close 
collaborative relationship with USAID and its contractors, such 
as the International Republican Institute, the National 
Democratic Institute, RTI International.
    We have seen democratic practices improve in countries that 
are severely challenged by financial and political hardship and 
conflict. We are convinced that fights waged within the 
confines of parliament are often fights taken off the street. I 
know you share that conviction.
    I am very pleased that Ambassador Mark Green, has been 
nominated to head USAID. He has led IRI very ably in recent 
years. I take that as a positive sign for the future of 
international development and that agency.
    Now, in terms of your budget, it is hard to interpret 
exactly what is in store for governance support, because you 
have merged these categories of aid, Economic Support Fund, 
Development Assistance account, assistance to Europe, Eurasia, 
and Central Asia, among other accounts.
    But the news clearly isn't good because the overall cuts 
reducing economic development assistance, as best we can sum 
them up--and that includes democracy and governance programs--
the overall reduction is something like 40 percent. And then 
you add to that severe reductions or elimination of aid for 
specific countries, many of which are countries who we work 
with quite directly. I will just give you a couple of examples 
and ask you to respond.
    You define as low priority a number of countries that have 
made great strides. That doesn't mean they have arrived. It 
doesn't mean they have graduated. In fact, it means that they 
may be quite fragile and in need of the kind of support--often 
relatively modest support--that can help them make the 
transition to full-fledged flourishing democracies.
    Sri Lanka is a good example. Now, why on earth would we 
decrease overall assistance to Sri Lanka by 99 percent? Sri 
Lanka is a country that has had years of civil war, years of 
autocratic government. They finally got a coalition government. 
They have resolved their longstanding civil war. They are 
trying to put this negative past behind them. They are faced--
we are faced with heavy Chinese investment in the country. They 
are in a make-or-break situation. That is why HDP is engaging 
with them, and in fact has moved very quickly to engage with 
them. What are you thinking in dropping Sri Lanka from support?
    A couple other quick examples. Eastern Europe, countries 
aspiring to positive economic and political ties to the West, 
facing hostile Russian opposition every step of the way. This 
budget cuts Ukraine's economic and development assistance by 73 
percent, total assistance by 69 percent. Big cuts to Georgia, 
Moldova, countries similarly situated.
    And finally in the Middle East. Lebanon, a complicated and 
fragile democracy, a linchpin of the Middle East, economic and 
development assistance is significantly cut, overall funding 
cut by more than half. Tunisia, the one success story from the 
Arab Spring, we are engaging with Tunisia. We think you should 
be, that our government overall should be. But yet you are 
proposing a funding cut of 62 percent.
    And, by the way, you mentioned the Northern Triangle in 
Central America. I don't know what you mean by citing support 
for that because there the budget proposes to cut Central 
America's Northern Triangle countries by 39 percent.
    So can you please help me understand this?
    Secretary Tillerson. First, we worked with the bureaus for 
them to prioritize where they felt our greatest area of 
influence and needs are. But let me just talk generally as you 
go through that list of cuts.
    These are tough choices. They were not easy choices for the 
bureaus to make. But we are not disengaging. When you say we 
are leaving, we are quitting, that is not true. Yes, we don't 
have as much funding. Perhaps we cannot bring the same level of 
aid or assistance. But our presence is not going to be 
diminished. And that is why we are taking different approaches 
on the Triangle area.
    And I mentioned the effort there. We are hosting a day-and-
a-half conference jointly with the Mexican Government in Miami 
tomorrow and Friday, bringing the Inter-American Bank, bringing 
the World Bank, bringing private investors to promote economic 
investment and development in these countries, and a half a day 
on security and law enforcement to continue to strengthen the 
role of anticorruption, the attorney generals, the ability to 
prosecute, rule of law.
    None of that is going to end. We may not be able to offer 
the same level of direct program assistance in the country, but 
the engagement is not going to end. The people are not going 
away. Our level of diplomatic capability is not going to go 
away. And so it just means that we can't come with some of the 
tools we have had in the past, but it doesn't mean we are not 
coming at all.
    Mr. Rogers. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. We appreciate your willingness to 
be here with us today. Gleaning some key findings from your 
testimony, I think you are saying that you want to create a 
21st century architecture for diplomatic relations and foreign 
assistance; and, secondly, that perhaps more money does not 
equate to better outcomes. And third is--and I think this is 
very important, because there is a misperception in this 
regard--that there is going to be authentic engagement. I think 
that is absolutely necessary in this complex time, that we lean 
into these difficulties, and I agree with you that more money 
does not necessarily mean better outcomes.
    However, we always have to wrestle with these tensions, 
because it has been said here that we are looking for the 
proper synthesis of strong defense and smart diplomacy and 
sustainable development so that we can create the conditions in 
which other people have stability and we have security and we 
can benefit from all of this exchange. I think that is the goal 
mutually shared here by everyone. So we want to aggressively 
wrestle with you as to where those right balances are.
    Three specific things I would like to ask you about: With 
the commitment to eradicating ISIS and the horror that they 
have caused, particularly the genocide against Christians and 
Yazidis and other religious minorities--and the people they 
have killed the most, of course, are innocent Muslims--with the 
fall of Mosul quickly coming, I think it is important to 
quickly move toward what the administration has stated as a 
potential option, interim zones of stability, one of which 
could be the Nineveh Plain, which used to be a pluralistic area 
of Iraq where multiple ethnicity or multiple religious 
traditions lived side by side. This has implications for 
migration as well. As three-plus million people in that area 
have been displaced, where will they go?
    If in coordination with the Iraqi central government and 
the Kurdistan central government that we can create the 
security situation, integrating potential Christians, Yazidis, 
and others into military structures there so they can create 
the conditions for stability, maybe people can return home and 
recreate the pluralistic tradition in that ancient area. 
Because without that, the Middle East has no hope. We will lose 
the basis for any type of stabilization in society as a whole.
    Second, I want to ask you about the International Atomic 
Energy Agency and the commitment that you have to them. Look, 
we went through a very difficult debate about the Iran 
agreement. Part of that agreement--some of us voted against it, 
some of us voted for it--but part of that was obviously a more 
robust leveraging of the resources of the IAEA. I see that as 
the beginning of an evolving role for the IAEA internationally, 
to move from just nuclear security to nuclear verification. 
This has implications as well for North Korea if we can ever 
break that impasse.
    Finally, I want to talk to you about Egypt. The 
administration is engaged, I think, in a very appropriate 
effort to replenish the relationship with Egypt. We forget that 
there is a peace accord that has held. There is a roadmap for 
peace in the Middle East. It is between Egypt and Israel. The 
current President of Egypt has made some very courageous 
statements about minority rights, protecting religious 
pluralism, as well as trying to show leadership on the 
international stage.
    Anything that I think we can do to affirm that 
relationship, and, of course, then have the authentic 
friendship to be able to discuss hard things regarding human 
rights and the rest, I think is a very important priority to 
help restore Egypt's central role in creating conditions for 
stability in the Middle East.
    Secretary Tillerson. Let me try to comment quickly.
    On the De-ISIS campaign, and you mentioned Mosul, the State 
Department, working with USAID, the United Nations, and other 
aid agencies, has a model of approach. As the military, and we 
work this very closely with Secretary Mattis, General Dunford, 
and our military forces on the ground, as they clear and 
liberate areas, our role is to come quickly behind with 
security, law enforcement, using local forces that are trusted 
by local people to recontact the previous governance of that 
area.
    Many of these people fled ahead of ISIS. They are in 
Turkey. They are in other places. Find them, bring them back so 
they are ready to resume governance. And then to quickly 
restore basic needs--power, water, hospitals, schools.
    After east Mosul was liberated some weeks ago, we already 
have achieved all of those. We have 40,000 children back in 
school in east Mosul today. It is to create the conditions so 
that people that fled, this huge refugee problem we have, they 
want to come back.
    Mr. Fortenberry. Does that include minority populations, 
though?
    Secretary Tillerson. Now, I will tell you, encouraging 
minority populations to come back after the terrible atrocities 
that they suffered is challenging. And I think it is going to 
take time for them to see that the area really is stable, it 
really is under the control of people who will not harm them.
    So this is a confidence/trust issue with a lot of the 
minority populations in particular, which we recognize. Prime 
Minister Abadi recognizes it. That part, it will be a slow 
process, but that is the objective.
    We have Sunni nations now in the Gulf are engaged directly 
with Sunni areas of Iraq. They previously would not engage. You 
may have seen the Foreign Minister of Saudi Arabia made a 
historic visit to Baghdad. The Prime Minister of Iraq is going 
to make a historic visit to Riyadh and to Bahrain.
    This is all of our effort to say to the GCC countries: You 
must help us secure the future of Iraq, deal with your Sunni 
populations, and support the restoration, the rehabilitation, 
the humanitarian aid. We will work with Kurds and others on the 
Kurdish areas. We will work with the Arab Shia within Iraq. 
They are all Iraqis. They are Iraqis first. So we are working 
Iraq very hard.
    On the IAEA and our international organizations budget, you 
see the reduction that has been taken there, we are working 
through how to actually allocate that across international 
organizations. We have not come to a final decision other than, 
I would tell you, right now our intention is to fully fund the 
IAEA for the reasons that you have described.
    And on Egypt, we have a lot of work to do with Egypt on 
improving the human rights situation. We were extremely 
disappointed by the recent legislation that President Sisi 
signed regarding NGO registration and preventing certain NGOs 
from operating. We are in discussions with them about how that 
is harmful to the way forward.
    Mr. Rogers. Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman.
    Mr. Tillerson, thank you for being here. This isn't the 
first hearings you have done this week, I don't suppose, and it 
is probably not your last. But we do appreciate your time, and 
thank you for your service.
    I would like to talk about, generally, kind of a broad 
question, and then bore down on that just a little bit. I have 
spent a little bit of time in China. I was there a number of 
times over the last few years. I asked President Xi and Premier 
Li and others to respond to this idea. And I don't speak Greek, 
so you will forgive me if I mispronounce this, but it is a 
theory that I am sure you are familiar with, the Thucydides 
theory that if you have a rising empire and an established 
empire, that history shows that almost inevitably they come 
into conflict.
    And I think that is a fair description of us and our 
relationship with China at this point. We have been the 
established superpower for several generations. Right now I 
don't think we could deny that China is a rising power. There 
are a lot of people, a lot of economic power behind them, and 
now a very powerful military.
    So two questions for you. First is would you kind of give 
us your thoughts on that, on how we--because the last thing any 
of us want is any conflict with China. It is clearly not in our 
interest. It clearly is not in their interest. History shows 
that it is a very, very difficult thing to maneuver through 
where you have these two superpowers, or what will be 
superpowers, with very different interests.
    And if I could, as I said, bore down just a little bit and 
give an example of that. Sitting on the Intel Committee, there 
are a lot of things we are concerned about. China is a very 
strategic concern. But I will tell you, one of the things that 
bothers me a lot is their exploitation, from an environmental 
impact to a military consideration, of the South China Sea, and 
as you have commented on a number of times, them building up 
these atolls that are nothing but a piece of sand, hardly, out 
in the middle of the ocean and now militarizing them.
    In fact, in your written testimony, you talk about China's 
artificial island construction and militarization of facilities 
and that that is a threat to regional stability and, by 
extension, a threat to our stability. I am interested in your 
thoughts on those two ideas, if you would.
    Secretary Tillerson. The U.S.-China relationship has been 
defined for the last 50 years with Nixon's historic visit to 
China, the establishment of the One-China policy, which really 
created the conditions for there to be no conflict. And it has 
worked. For 50 years we have had no conflict with the Chinese.
    It created the conditions for China's economic growth, 
which we have benefited from. As you know, 500 million Chinese 
have moved out of poverty into middle class status. They have 
moved to the coastlines. There are a billion more that want to 
that same status.
    In our discussions with the Chinese at the highest levels--
and these are the conversations that I have with them at the 
highest levels--we recognize that China's economic growth has 
now put them in the position of the rising power. They 
recognize it. And we cannot constrain their economic growth. We 
have to accommodate their economic growth.
    But as their economic growth then translates into spheres 
of influence that then begin to threaten our national security, 
this begins to disrupt these conditions that have allowed us to 
live without conflict for the past 50 years.
    We are at an inflection point in the U.S.-China 
relationship for this reason. China has now risen to a point 
that we are approaching this inflection that you are referring 
to. They see it. We see it.
    Our conversations are around how are we going to maintain 
stability and a relationship of no conflict between China and 
the United States for the next 50 years. So we are not talking 
about what happens next year. We are not talking about what 
happens 4 years, 5 years from now. We are in conversations with 
them about how will we define this relationship for the next 
half century, recognizing that dynamics are underway.
    The Chinese have significant internal challenges of their 
own, with their own people. As their people rise in income 
level and in prosperity, move to the coast, the culture of 
China is changing, and they know that. That creates challenges 
for them.
    So we are in a dialogue with them and a journey with them 
to decide how do we live with one another the next half century 
and not come into conflict with one another. These are the 
nature of our discussions.
    Mr. Stewart. Sir, if you could--and I appreciate that, and 
there is so much I would add to that--but can you talk briefly 
about the South China Sea, the militarization of those islands 
there, and our response to that?
    Secretary Tillerson. There are three areas of particular 
emphasis where we are working together. One is addressing North 
Korea. Where North Korea has historically been an ally to 
China, I think they are coming around to the notion that North 
Korea is a liability to China.
    The South China Sea island building and militarization of 
the islands, we have told them: You are creating instability 
throughout the Pacific region that will bring us into conflict. 
Please don't do that.
    Now, how do we want to deal with that? And we are dealing 
with it regionally by strengthening our alliances with other 
countries that are being impacted by the island building and 
the militarization in particular.
    And then lastly is the economic rise. And what we have said 
to ourselves and our policy is, as important as trade is and as 
important as China's huge economy is, we cannot allow China to 
use that as a weapon. We cannot allow them to weaponize trade. 
And they are doing that today. And our message to them is: You 
will not buy your way out of these other difficult issues, like 
North Korea, South China Sea, with your trade.
    Mr. Stewart. Thank you. Thank you for that clarity.
    And, Mr. Chairman, I yield back.
    Mr. Rogers. The time of the gentleman has expired.
    Mr. Secretary, there may be a desire for some members of 
the Subcommittee for a second round of questioning.
    Let me do a poll. How many want a second round on this?
    Well, at least what we can do is limit the time. So this 
round you will have a 3-minute round. And let's try to move 
quickly, because the Secretary, we are nearing his hard leave 
time.
    Does the Secretary wish a 5-minute break before we do the 
second round?
    Secretary Tillerson. I am fine. We can keep going.
    Mr. Rogers. Thank you.
    Mr. Secretary, 6 weeks ago I took a CODEL to, among other 
places, Egypt, and we were meeting with the President on Palm 
Sunday morning for 2 hours when one of the church bombs went 
off. But while meeting with President el-Sisi, this was just 
after we had launched Tomahawks in Syria, he said something 
that really stayed with me. He said in this part of the world, 
at least, what that signified was America is back. And he was 
quite pleased. We found the same reaction in Beirut and Amman.
    So the President had, by all accounts, a very, very 
successful Middle East trip which left a lot of enthusiasm in 
that region. So it seems like we are sort of on the cusp of 
something pretty good taking place. Can you feel that? Tell us 
about that.
    Secretary Tillerson. The President's trip to Riyadh in 
particular--and the sequence of the trip was quite deliberate--
was to engage with the Saudis, obviously, as the leaders in the 
Arab world, as the custodian of the holy mosque of the Muslim 
faith, and to convene this Arab Muslim summit. Every leader 
around the world of a major Muslim country was there, and the 
President called upon them to take ownership for these 
extremist elements that are out there that they have to fix.
    He said: We can help you, but we can't do it for you. He 
was quite clear. He has been very forceful in saying to them: 
The time has come. The time has come. You have to own this. You 
have to address it.
    That was the message in the GCC roundtable, which I 
attended with him. He then took it to the larger global Muslim 
Arab world. And it has clearly motivated a number of countries 
now, I think, to understand things have changed. And we are 
back. We are back in a different way. We are back in a very 
decisive way. We are back in a way that we have no more 
patience for this. We have no more patience for this. You have 
to begin to address this.
    Two tangible outcomes of the summit were the creation of 
the center to counter Muslim extremism, which the Saudis, they 
built. The building is there. The President participated in the 
ribbon cutting. Two hundred people working at computer 
terminals, monitoring social media, monitoring messaging, 
inserting ways into messaging.
    That was just the beginning. That center is going to take 
on a number of other challenges, ranging from textbooks that 
are distributed in mosques which teach violence. This is from 
the old Wahhabism. They have already developed new textbooks to 
replace those. We said: You not only have to distribute the new 
ones, you have to get the old ones back. We have got to get 
them out of circulation, extending all the way to how they 
begin to educate young imams through the great theological 
centers. This message of violence will stop.
    And we are engaged with them about cutting off funding to 
terrorist organizations, and those who promote violence as 
well. So the second important outcome was the creation of the 
center to counter terror financing. We are marshalling Treasury 
resources here, intelligence resources. We are going to create 
a template on how to attack this with Saudi Arabia, an 
agreement, because there are some important agreements around 
intelligence sharing, how you actually use your own laws to get 
at these.
    When we have that template built and the Emiratis are ready 
to sign on, we are going to approach every GCC country. And 
then we want to develop a suitcase, I call it, that we can take 
to lesser developed countries in Africa, South America, 
Southeast Asia, because this problem is existing. The terror 
financing networks now encircle the globe. And we have got to 
cut off the funding. If we can cut the funding off to these 
organizations, they can't transport people around the world, 
they can't bribe officials to be able to move illicit equipment 
around the world, we can begin to really degrade the spread of 
violence.
    This is a long journey, but we are putting in place tools 
to get at the elements that allow this to continue to exist and 
allow it to continue to be transferred to other parts of the 
world.
    So these were important outcomes. Now we have to follow 
through and actually put them into action.
    Mr. Rogers. Well, it is exciting. And it is obvious we are 
on the verge of something big here. And we appreciate the 
thought that went into that and in the execution of that plan.
    Mrs. Lowey.
    Mrs. Lowey. Thank you.
    On April 18, you wrote to the Congress to certify that the 
conditions of the Iran Nuclear Agreement Review Act of 2015 
were met as of that date. One sentence later, you referred to 
Iran's role as a leading state sponsor of terror and explained 
that the National Security Council will review the Joint 
Comprehensive Plan of Action to evaluate whether the suspension 
of specific Iran sections pursuant to the JCPOA is vital to the 
national security interests of the U.S.
    With the influx of billions of dollars to Iran as a result 
of sanctions relief, what is the administration's strategy to 
combat Iran's non-nuclear destabilizing activities in the 
region, particularly Iran's funding of terrorist groups and 
supply of weapons? And what are we doing to prevent Iran from 
transferring advanced weaponry to nonstate actors in the region 
who might use these weapons against our allies? How are we 
confronting destabilizing Iranian action in Lebanon, Syria, 
Yemen, and Iraq?
    And if we had more time, or you can just add it to that, I 
would like to know about Russia's efforts in that regard.
    Secretary Tillerson. The Iran policy is under review 
currently. I think one of the, as I think about Iran and the a 
whole-of-country approach, I think one of the unintended 
consequences of the JCPOA was that our relationship with Iran 
got defined by a very narrow slice of concerns: nuclear 
weapons. And as we spent all of our time focused on that, we 
completely ignored all the other hegemonic activities that you 
have just described.
    We now approach the Iran policy with a whole-of-country 
approach, and we see the JCPOA as one small part of it. We are 
developing our policy toward Iran more broadly, and the JCPOA 
will just be a piece of it. And whether the continuance of the 
JCPOA is useful to our policy or whether it is 
counterproductive to our policy is part of this review.
    As you know, the JCPOA for compliance comes up every 90 
days, which is followed by a waiver to the sanctions. So we are 
coming up on the next report. I can tell you the President does 
not like the JCPOA agreement. I don't like the JCPOA agreement. 
Iran's compliance, the compliance mechanisms under the 
disagreement, have a very low bar. It is not that hard for Iran 
to comply.
    And it ultimately does not solve the problem. I have 
characterized JCPOA as the same mistake we made in North Korea. 
We just booted it down the road for somebody else to deal with 
later.
    So we do believe we have to look at this as a whole-of-
country strategy. You have seen us already issue additional 
sanctions for missile tests. We are developing policies of how 
we respond to Iran's support of the conflict in Yemen, how they 
are supporting the conflict in Syria, how they support 
Hezbollah, and their interference in Iraq's efforts to stay 
unified. Those are all of the challenges in our policy which we 
are developing in terms of our responses, and we expect to have 
that concluded here relatively soon.
    Mrs. Lowey. Thank you.
    Mr. Rogers. Ms. Granger.
    Ms. Granger. Thank you.
    First of all, let me say the change in the opinion of Iran 
in that agreement is very much appreciated. A lot of us were 
very concerned about that.
    You stated that we now think China sees North Korea as a 
liability. Can you tell me what changes or signs that you saw 
from China to come to that opinion and what do you think China 
is willing to do?
    Secretary Tillerson. Well, that is what we are working with 
the Chinese to have them realize. I wouldn't want to suggest 
that they have come to the full conclusion, but I think it is 
clear that China now sees how destabilizing North Korea can be 
to the region.
    The last thing China wants is a war, another war in Korea. 
It will set their economic development back decades, and they 
know this. And so they have a huge incentive to not put us in a 
position to have to take military action to remove this threat. 
But the President has said that option is on the table, and he 
means it.
    Regrettably, the situation in North Korea has come to a 
point where we have no runway left. We cannot land this plane 
any longer. And for years and years people kept saying: Well, 
we will just--we will get there. We will get there. There is 
nothing left. They are there.
    So we have to reverse what North Korea is doing. And our 
approaches and our strategies--and some of this is done 
quietly, without a lot of visibility. That is the way we get 
things done.
    But China, I think, first, they have affirmed their policy 
is a denuclearized Korean Peninsula. We have been very clear, 
to give China room and to give North Korea room, as to what our 
policy is not trying to do. And I have articulated at the U.N. 
and elsewhere we do not seek regime change, we do not seek a 
collapse of the regime, we are not seeking an accelerated 
reunification, we are not seeking a reason to come north of the 
38th parallel.
    We are seeking denuclearization. Fix that and we are all 
great, and you will be great. And China has indicated to us 
those four statements have been crucial to their ability to 
change their posture as well.
    Ms. Granger. Thank you.
    Mr. Rogers. Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Mr. Secretary, I will tell you, it is very hard for me to 
understand how you can support this--and I say Steve Bannon's 
budget--given your presentation today. This 29 percent cut just 
doesn't seem to be consistent with your responses.
    A couple of things: Cuba. I co-chair the Cuba Working 
Group. It is bipartisan. And even though there is disagreement 
with regard to normalizing relations with Cuba and allowing 
Americans to travel to Cuba, allowing businesses to do 
business, even though we do this with Vietnam, normal 
relations, Vietnam and China--Cuba is still, for the most part, 
embargoed. Yet I see in your budget it allocates 24 million for 
this unnecessary and counterproductive and Radio TV Marti.
    It has been well documented that these funds have been 
misused in the past and are essentially aimed--of course, we 
know that what it is doing, trying to undermine Cuban 
sovereignty and regime change. I would think that you would 
look at this and see other areas where it could be better 
utilized in terms of your overall mission in the State 
Department.
    Secondly, once again, Steve Bannon's budget, deconstruct 
the administrative state. When you look at the largest 
humanitarian crisis that we have seen since 1945, in Yemen, 
South Sudan, Nigeria, and Somalia, over 20--now it is 30 
million people facing starvation. An additional 50 million 
people are severely hungry. Yet you have cut 1 billion from 
international development assistance and eliminated the Title 
II Food Aid account. How do you justify these enormous cuts 
while millions of children are severely malnourished and depend 
on this critical funding for lifesaving food and care?
    Secretary Tillerson. With respect to Cuba, notwithstanding 
the changed policy of the past administration and all the 
benefits that we would acknowledge have come about because of 
that, to Cuban citizens and to American citizens as well, as I 
said to someone in the hearing yesterday, that is the sunny 
side of that deal.
    The dark side of that deal is the Cuban Government and the 
Cuba regime haven't changed their behavior or their treatment 
of people one bit. All the prisoners are still locked up. All 
the opposition gets locked up. The Ladies in White still get 
harassed. And there is no more freedom in Cuba today than there 
was before this opening.
    So we have four statutes on the books that govern our 
relationship with Cuba and the blockade. Our view is we are 
supposed to follow and enforce the law. So our approach is not 
to undo as much as possible the beneficial aspects to the Cuban 
people to give them a better life. We want that. But the law 
says we are not to be facilitating or we are not allowing the 
financing or flow of moneys to the regime, and that is 
occurring under some of the reopening arrangement. So we have 
to address that.
    Now, if the Congress, if it is this body's view that we 
should change the relationship with Cuba, repeal those laws, 
change the blockade, we will take the direction from the 
Congress on that. But that is not the current situation. So the 
administration intends to enforce those statutes that have been 
on the books a very long time.
    Ms. Lee. And have not worked.
    Mr. Rogers. Mr. Diaz-Balart. 
    Mr. Diaz-Balart. Mr. Chairman, thank you very much.
    Mr. Secretary, on China, I agree with you, you talked about 
how that regime is weaponizing trade. Along with my colleague, 
when she talked about North Korea, I just hope that we keep the 
pressure on because I do think that China plays the long ball, 
a long game, and sometimes I think that they are playing with 
us. And so I just know that--I have liked what I have heard 
from the President, but I just hope that we keep the pressure 
on.
    Let me just ask a couple of questions, because I keep 
hearing about how we are pulling back. Now, we have some 
differences on your budget, and we will work through those 
differences. But let us talk a little bit about your policy and 
the President's policy. I keep hearing about this pull back. My 
understanding is you are going to keep pressure on Russia. Is 
that correct? Yes or no?
    Secretary Tillerson. We are going to keep the pressure on 
Russia.
    Mr. Diaz-Balart. All right. So there is no reset?
    Secretary Tillerson. No. You can't reset what----
    Mr. Diaz-Balart. All right. The Jordanian are allies.
    Secretary Tillerson. We can't erase all that bad behavior.
    Mr. Diaz-Balart. All right. Okay. Good. I appreciate that 
because all of a sudden somehow, I hear all these things about 
pull back, but, let's look about what happened a little while 
ago.
    Jordan, Morocco, our Middle Eastern allies, particularly 
Israel--I hear that they are very happy that this alignment 
towards Iran is no longer the case. Am I seeing that wrong? The 
alignment towards Iran has changed, and now we are actually 
going to be confronting Iran with their terrorism, correct?
    Secretary Tillerson. If there is one thing that unifies the 
area, it is the threat from Iran.
    Mr. Diaz-Balart. Would it be fair to say that the United 
States is now going to be leading from the front, not from the 
rear?
    Secretary Tillerson. Well, we are going to be very clear 
and very decisive with our security--national security, our 
counterterrorism efforts, what we are willing to do. And the 
President has already demonstrated this with two major actions.
    Mr. Diaz-Balart. I would agree with that. I just want to 
make sure, because there is a lot of noise and there is a lot 
of static. So there is no pullback in leadership. On the 
contrary, there is resolve in leadership, is what I am seeing. 
And I just want to make sure that I haven't misread something.
    Now, again, you and I will have disagreements on budgetary 
issues, and we will work through those, as clearly the Chairman 
will. But what I am seeing is leadership and leading from the 
front, not behind. I will tell you, some of us see that as 
highly refreshing.
    I yield back.
    Secretary Tillerson. No, we are clearly leaning into our 
role in the region and elsewhere, and having very difficult, 
frank, honest, tough conversations with our allies and friends. 
And when you do this, yeah, it gets a little uncomfortable from 
time to time. And we are not going to agree on everything. We 
don't have to agree on everything. But we have to agree on the 
priorities and we have to agree on our common threats, and in 
that area we clearly aligned.
    Mr. Diaz-Balart. And, again, it is important to know who 
your allies are and treat them as allies and who your 
adversaries and enemies are and confront them like that. And I 
like the fact that there I don't see any confusion. So I am 
grateful for that, Mr. Secretary. Thank you for your service.
    Mr. Rogers. Mr. Ruppersberger.
    Mr. Ruppersberger. I have two quick questions.
    The first one, you mentioned you wanted to build up the 
military. I agree. I think we need balance, when you build the 
military, on the domestic side too.
    But I think if you look at the real reason where our 
military has been the last 3 years, it is because of 
sequestration. And you know as a business person that budgeting 
is about priorities, and you can't cut everything across the 
board. Every four-star general, I know Chairwoman Granger will 
tell you, that has come before us in the last 3 or 4 years on 
Defense Approps has said that sequestration has done more to 
hurt us than any other issue that we have to deal with. And I 
would hope that you would work with the Trump administration 
and with us and whatever to do away with this law that makes us 
weaker.
    The other thing, one of the most serious issues we are 
dealing with--we know the Russia-China threat, and you have 
talked about that--it is cyber attacks, cybersecurity, and it 
is something that we really need to focus on. Russia is as good 
as we are. China steals $2 billion a year from us. They even 
cyber attack our fertilizer companies to get information.
    Now, I know the Trump administration now has an executive 
order establishing the American Technology Council. Reed 
Cordish, who happens to be from my hometown, Baltimore, is 
coordinating that. Something has to be done on our, first, 
government network, which you are a part of in the State 
Department, but just generally the whole issue of cyber.
    And so I am wondering whether, first, whether you agree 
with me on the sequestration and you will work with us on that. 
But on the cyber level, the State Department, being all over 
the world, and which your mission is, is really susceptible to 
a lot of cyber issues. And where you are, what moneys you need, 
and whether that is a high priority for you. Those are my two 
questions.
    Secretary Tillerson. I think all of us would agree 
sequestration is a blunt force instrument. I am not an 
appropriator. I respect the role of the appropriators. It is 
not the way to run the railroads. And I think Secretary Mattis 
has spoken on that as well.
    With respect to cyber, quite frankly, I think this is one 
of our most daunting challenges, for the government, for the 
private sector. We have created systems that have brought 
enormous prosperity, wealth, convenience, changed the way our 
lives work day in and day out, but we left a lot of doors open 
as those were being created.
    The government systems require significant attention. Some 
of it is hardware. Some of it is software. A lot of it is what 
I call peopleware. And so until we can address the hardware, 
software, the systems itself, our best defense is our people. 
They have to recognize when an attack is underway. They need to 
not open the door for someone.
    I have looked at our cyber training at the State 
Department. I think it is lacking, based on my private sector 
experience. And we have to help our people understand how 
vulnerable we are and how big the mistake, as little as they 
may think it is when they click on something, how huge the 
consequences of that could be.
    So until we can address the bigger problem, we have got to 
rely on our people defending the systems.
    Mr. Ruppersberger. I represent NSA, and you are right--
    Mr. Rogers. The time of the gentleman has expired. We are 
really running short here. The Secretary has to leave very 
soon. Can you be brief?
    Mr. Dent. One question.
    Mr. Rogers. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Secretary, I have concerns regarding the embassy security 
and the budget in light of the overall budget cuts to State and 
the USAID. While the actual funding level for embassy security 
was relatively similar to prior years, I am concerned that the 
overall budget cuts are going to lead to cuts to the embassy 
security accounts. And I would just like to hear your view on 
that. Thank you.
    Secretary Tillerson. We have kind of looked back to 2016, 
because there were a lot of--there were additions to 2017, some 
in the buildings part of the budget. If you look at DS, 
diplomatic security budget, it is actually up 11 percent from 
2016. As we look at the buildings and part of the embassies and 
facilities part of the budget, it also was up.
    We can continue our current program meeting our embassy and 
facilities' needs, certainly, through 2018. The cut will begin 
to influence our planning going forward.
    We are very mindful of the Benghazi ARB, and we are 
stressing to ourselves that we have to meet those 
recommendations, that we cannot allow ourselves to fall below 
those.
    So some of the cut is in maintenance areas, which, you 
know, you can only live with that so long. And then some of it 
is scheduling of the building construction operations 
themselves and how those are actually likely to be executed.
    Mr. Dent. Thank you.
    Mr. Rogers. Ms. Meng.
    Ms. Meng. Thank you.
    Secretary, I am very concerned about the processing of 
visas for foreign-born doctors who seek to practice medicine in 
the U.S. They account for about 14 percent of the residency 
matches in American hospitals every year, and they 
disproportionately serve rural and underserved communities. We 
have reports from constituents that these applications by these 
doctors this calendar year have been denied at historically 
high levels, and often, many are being processed so slowly that 
these doctors lose their residency placements.
    My first question, can you commit to examining this issue 
and working together to ensure that qualified doctors' visas 
are processed in a timely fashion and that they are not being 
categorically denied so that our fellow Americans are able to 
receive the medical care they need here in the U.S.?
    My second question, I will be quick, in your confirmation 
hearing, you said that study after study confirms that when you 
empower women in developing parts of the world, you change the 
future of the country. And I agree with you. An adolescent girl 
can't be empowered if she misses school due to lack of access 
to basic hygiene and sanitation needs.
    A woman who is fleeing a disaster still needs menstrual and 
reproductive health needs met if she is to focus on economic 
stability and security of her family.
    Your proposed budget, though, calls for slashing water and 
sanitation hygiene, or WASH, work performed by U.S. agencies as 
well as work performed by the U.N. in this area. How can we 
empower women to change the future of their countries if they 
don't have the basics to stay in school or participate in the 
economy due to immediate concerns they may have about water and 
sanitation needs?
    Secretary Tillerson. With respect to the visas for doctors, 
I assume you are speaking to the J-1 visa program? I have taken 
a quick look at that as well as taking a look at kind of how 
our--how is visa issuance trending generally. I don't detect 
any change in the number of visa applications that have been 
rejected, you know, through the adjudication process. It is 
running about a third. And that is what it has historically run 
is about a third, as best as I can tell.
    So I will look into this further, since you have asked, and 
we would be happy to get back to you.
    [The information follows:]

    The Department of State remains committed to facilitating 
the legitimate travel to the United States of qualified 
individuals who want to participate in U.S. medical residency 
programs, and we continue to seek new ways to improve the 
student and exchange visitor visa process. The Department 
provides priority appointments to visa applicants in this 
category as a further demonstration of our support for exchange 
visitor programs.
    While we acknowledge the importance of the work that will 
potentially be performed by the participants of these alien 
physician exchange visitor programs, this does not exempt the 
participants from the need to demonstrate their qualification 
for a nonimmigrant visa according to the provisions of U.S. 
law. Each year we work closely with representatives from 
physician associations to provide information and to facilitate 
expedited processing for urgent cases to permit physicians to 
report to their programs on time. Under section 214(b) of the 
Immigration and Nationality Act (INA), in order to be 
classified as a nonimmigrant, an applicant must prove to the 
consular officer's satisfaction that he or she is not an 
intending immigrant, that he or she is entitled to a 
nonimmigrant status under INA 101(a)(15), and that he or she 
will abide by the conditions of that nonimmigrant 
classification. All visa applications are adjudicated on a 
case-by-case basis, and if an individual applicant is unable to 
provide sufficient evidence to establish to a consular officer 
that he or she meets these requirements, the consular officer 
must refuse the visa. I can assure you that each of these cases 
are very carefully reviewed and given every consideration 
consistent with U.S. immigration law.

    Ms. Meng. We would love to work on this issue to make it 
more efficient.
    Secretary Tillerson. Yes. This is--again, I don't detect 
that there has been any change in how we are handling that. But 
the whole visa, as you can probably appreciate--the whole visa 
process and consular affairs, we think is a big opportunity as 
well, so we want to attack that.
    On the women's issues, again, tough decisions we have had 
to make about where to curtail certain spending, work with 
others to see if we can bring other agencies in to the issue. 
We are not withdrawing from the importance of the issue to us.
    Mr. Rogers. Mr. Fortenberry.
    Mr. Fortenberry. Secretary, quickly, can we return to one 
of the points I raised earlier with regard to entering zones of 
stability. You made the comment that as areas are being 
cleared, we are filling those in with initial securitization 
efforts and then allowing for government structures to 
redevelop.
    I fear, though, that without a larger footprint in this 
regard, particularly in the Nineveh Plains area, we aren't 
going to create the long-term conditions for resecuritizations 
as well as revitalization and repatriation of the ancient 
communities who once were housed in that area.
    So we have done considerable work thinking as well as 
putting down potential measurable outcomes in this regard. I 
would love to be able to have the opportunity to get that to 
you. Because, again, I see this as inextricably intertwined 
with the future stability of the Middle East. It is not--of 
course, it is a clear issue of justice for the people who are 
so affected by genocide but to restore a once flourishing 
pluralistic area, restore its conditions where true form of 
nationalists, of which the Middle East is desperately in need 
of. If we lose that, there will be a tendency to default back 
to tribal ethnic allegiance, and we will never be in front of 
this problem.
    So is there a way to continue to dialogue with you in this 
regard?
    Secretary Tillerson. Well, most certainly, and we would 
welcome the discussion.
    In terms of the whole stabilization, we are looking at 
stabilization of Iraq broadly when the de-ISIS campaign ends. 
We have got a number of issues there in terms of Iranian 
militias, some foreign fighters who need to go home. We are 
working with Prime Minister Abadi on how he is going to deal 
with Shia militia groups that have been engaged in the fight, 
and they have been important to the fight, Kurdish forces that 
are important to the fight, been engaged in the fight.
    When all this is over, how do we secure Iraq? And that is 
going to involve us and working with Secretary of Defense 
Mattis over what is the security arrangement the U.S. is 
willing to undertake with the government of Iraq? What do they 
want in the way of our help to secure and create that stability 
so that these regions--much of this, they need to get back to 
the original constitution. A lot of elements of the original 
constitution were never implemented, which gave the opportunity 
for regional autonomy. That led to a lot of this conflict.
    Mr. Fortenberry. That is the point.
    Secretary Tillerson. Yes, we would be very happy and 
willing to engage.
    Mr. Fortenberry. Thank you.
    Mr. Rogers. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Secretary, first a quick note on Egypt. I am happy to 
hear your strong criticism of the anti-NGO law. You know that 
that law was actually sitting there. It was passed in 
parliament last November. President el-Sisi reportedly 
hesitated to sign it because of strong international criticism, 
including people like Senators McCain and Graham, recently 
signed the anti-NGO law. And most reports suggest that he did 
it encouraged by the embrace of President Trump.
    Now, what you are saying today is very much at odds with 
that. And so the question is: Did Egypt misread U.S. 
intentions, and what should we do about it?
    Let me ask you about an appointment that the U.S. blocked 
that the United Nations, and that still puzzles me and, I 
think, needs to be explained. This involves Salam Fayyad, who 
was nominated to be U.N. Special Representative to Libya.
    He had great qualifications, and the Israeli ambassador to 
U.S., Ron Dermer, has called him a peace partner, the first 
Palestinian who cared about the Palestinians.
    Nikki Haley made a puzzling statement implying that somehow 
the appointment of Mr. Fayyad would be detrimental to Israel. 
So my question is, what in the world happened? Does the 
administration view the blocking of Salam Fayyad a person who 
has arguably been probably the most constructive partner we 
have engaged with regard to Israeli-Palestinian peace. Does 
that--does the administration regard that as a way to support 
Israel? Did the Israeli Government ask for Salam Fayyad to be 
blocked? Was the blocking of Mr. Fayyad maybe linked to a 
possible U.N. appointment of Tzipi Livni? I mean, that was 
speculated about. Of course, she would also be a great asset to 
the U.N.
    Was Mr. Fayyad denied simply because he is Palestinian? 
Because of his nationality? As you know, no one--one doesn't 
need to be a representative of a state to be appointed a U.N. 
Representative.
    Is it the administration's position that support for Israel 
and support for the appointment of a well-qualified Palestinian 
to a post at the U.N. are mutually exclusive?
    Secretary Tillerson. Well, first, with respect to President 
el-Sisi signing of the NGO bill, as I indicated, that was a big 
disappointment to us. There was no--to my knowledge, and I was 
involved in some of the discussions between the President and 
President el-Sisi, there was no discussion that would in any 
way have encouraged him to sign that. So--and, certainly, we 
were not encouraged. In fact, we had indicated to them that 
they--he should not sign it. It came up in my bilateral with 
him. And I know that others and the national security advisers, 
they also asked that he not sign that. So----
    Mr. Price. Why?
    Secretary Tillerson [continuing]. Why? We are in 
conversations with him now. I mean, they have received calls 
where we told them, you know, what is going on? Why did you 
sign this? So it may have been a miscalculation on his part. I 
can't really tell you. But we have expressed our disappointment 
on that.
    On the second matter, I just have to be honest with you, I 
am not that intimately familiar with it, but I will look into 
it and talk to Ambassador Haley as well and do a more 
thorough--I am happy to get back to you with an answer.
    [The information follows:]

    Our approach to managing Israeli-Palestinian issues in 
multilateral fora is guided by three main policy priorities: 
(1) combatting anti-Israel bias and efforts to delegitimize 
Israel in the U.N. system, (2) preserving space for a 
resolution of the Israeli-Palestinian issue, and (3) supporting 
Israel's affirmative efforts to normalize its role in the 
international community.
    The United States actively opposes anti-Israel bias across 
the U.N. system, including by lobbying other countries to join 
us in voting against biased resolutions, reports, and actions. 
As long as there is abusive action against Israel at the United 
Nations, it is incumbent upon the United States to provide more 
balance. As Ambassador Haley made clear at the time of the 
decision, appointing Mr. Fayyad to the role of Special 
Representative of the U.N. Secretary General was not in service 
of that balance. Nor was the decision taken at the behest of 
the Israeli government nor was it part of a quid pro quo 
regarding specific positions for Israeli nationals.

    Mr. Price. I would appreciate you doing that.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Secretary, in your statement this morning, 
you described the many evolving challenges to U.S. national 
security and economic prosperity. You also said that we must 
develop proactive responses to protect and advance the 
interests of our country and spoke of the importance of 
engagement with other nations on issues of security and 
prosperity.
    In the weeks ahead, the subcommittee will examine closely 
the President's budget request for fiscal 2018, assess its 
impacts, recommend funds that enable us to achieve these shared 
goals.
    It has been a long couple of days for you to testify before 
these four subcommittees on the Hill. You have been very 
generous with your time and your attention and your thoughts 
and ideas, Mr. Secretary, and we are very appreciative of your 
appearance here and willingness to undergo this exam.
    So thank you for your service to the country. Good luck in 
this role. We are impressed with your knowledge of what you are 
doing. We want to be helpful, and we wish you well.
    Secretary Tillerson. Thank you, Mr. Chairman.
    Mr. Rogers. The subcommittee stands adjourned.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     

                                          Wednesday, June 14, 2017.

           DEPARTMENT OF THE TREASURY INTERNATIONAL PROGRAMS

                                WITNESS

HON. STEVEN MNUCHIN, SECRETARY, DEPARTMENT OF THE TREASURY

                  Opening Statement of Chairman Rogers

    Mr. Rogers. The Subcommittee on State Foreign Operations 
and Related Programs will come to order. Although our hearts, 
heads, and souls are in another place as we speak here this 
morning--this afternoon, and before we proceed with the 
hearing, I want to take a moment to say that our thoughts and 
prayers are with our friend, Steve Scalise and his family as 
well as the Capitol police officers and staff injured by the 
shooting this morning. This is a very troubling and sad time.
    We hope and pray for a full and quick recovery for all 
involved. We are also deeply grateful for the men and women on 
the Capitol Police who selflessly dedicate themselves to 
protecting all of us each and every day.
    I want to thank the Secretary and members of this committee 
for their understanding and flexibility in accommodating the 
necessary delay in our hearing today.
    We want to welcome our witness, the Secretary of the 
Treasury, Steven Mnuchin. We look forward to discussing the 
Department's budget request for international affairs programs 
as well as sanctions, terrorist financing, and anti-money 
laundering programs.
    We want to acknowledge all members who are present. We hope 
that others will come as we proceed. And, of course, our 
ranking member, Mrs. Lowey.
    I am confident that our full committee is exceptionally in 
good hands under Chairman Frelinghuysen's leadership, and I am 
pleased that Mrs. Lowey and I continue to work together in my 
new role.
    Mr. Secretary, this hearing is your maiden voyage with this 
subcommittee. I understand you have recently met with your G-20 
counterparts in Germany, attended the World Bank-International 
Monetary Fund spring meetings here in Washington, and consulted 
with your G-7 counterparts in Italy. We appreciate the amount 
of time and travel that you have undertaken to prepare for 
today.
    We hope to hear from you on how the President's buy 
American and hire American policy is being received by our 
trading partners; whether we are getting international 
cooperation on sanctions against Russia, North Korea, and Iran; 
and how other donor countries are responding to the President's 
proposed cuts to foreign assistance.
    The Department's budget request is for $1.5 billion for 
international programs, which is $295 million, 16 percent below 
the enacted level.
    This funding is primarily for contributions to 
international financial institutions, such as the World Bank, 
regional development banks, and other multilateral development 
funds, and also for Treasury's technical assistance program. 
These institutions provide opportunities for the United States 
to extend its influence around the globe in the effort to 
reduce poverty and foster economic stability.
    Frankly, I am concerned that the proposed cuts to these 
programs, coupled with the drastic reductions to other 
international assistance programs, are not in our short- or 
long-term strategic interests given the global turmoil 
confronting the United States and her allies. Nonetheless, they 
must demonstrate their effectiveness, purpose, and transparency 
to U.S. taxpayers. Therefore, the Committee will scrutinize the 
budget request for these institutions in a manner that balances 
our fiscal constraints with the desire to maintain U.S. 
participation and leadership.
    Mr. Secretary, thank you for spending a good part of your 
day with us. As I said earlier, the Committee takes our 
oversight responsibility very seriously. You should expect a 
good number of questions about the Department's budget and 
policies, and we would appreciate timely and substantive 
responses.
    Let me now recognize Mrs. Lowey, ranking member of both 
this subcommittee and the Full Committee, for any statements 
she would like to make.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
                    Opening Statement of Mrs. Lowey

    Mrs. Lowey. Thank you. And before I begin, I want to join 
the chairman in sending my thoughts and prayers to our 
congressional family who were shot this morning in Alexandria, 
Virginia, especially the majority whip--God bless you--of the 
House, Steve Scalise, members of the staff, and our brave 
Capitol police officers. We wish them all a speedy recovery. We 
are continually grateful to the Capitol Police for the risks 
they take every day to ensure our safety and the safety of the 
American people.
    Secretary Mnuchin, I join Chairman Rogers in welcoming you 
here today. As we know, international financial institutions, 
such as the World Bank and the International Monetary Fund, 
play a critical role in reducing global poverty and are 
essential to the success and sustainability of U.S. global 
development efforts.
    When managed correctly, these institutions help low-income 
countries, create strong economies, encouraging nations to 
become more self-reliant, and contribute to the global 
marketplace.
    These institutions have proven their worth over decades, 
rebuilding Europe after World War II, spurring economic growth 
in dozens of countries, and bringing electricity to millions of 
people. Through U.S. leadership and these institutions, our 
country has steered the international development agenda.
    But the President's fiscal year 2018 budget would undermine 
our influence by slashing contributions through international 
financial institutions by 35 percent, in some cases, ending all 
funding and in other cases, falling far short of previous U.S. 
commitments.
    If this administration is focused on efficient spending of 
taxpayer dollars overseas, drastic cuts to institutions that 
maximize our resources, aid in the sustainability of 
development programs and create new markets just don't make 
sense.
    A diminished U.S. role at international financial 
institutions would provide an opportunity for other countries 
to fill the space. Reducing our ability to influence the 
international development agenda and advance American values 
and national security priorities.
    Sadly, the administration's budget makes clear the 
President thinks putting America first means taking a major 
step back from the international stage, which is a catastrophic 
formula for the economic and security, well-being, of the 
United States.
    We saw this misguided approach just 2 weeks ago with the 
administration's decision to withdraw from the Paris climate 
agreement. This decision will have catastrophic consequences 
for our Nation as would the administration's proposal to 
eliminate all funding for the climate programs, especially the 
Green Climate Fund.
    This initiative is not only critical in the fight against 
climate change in developing countries, it is instrumental in 
creating U.S. jobs and moving forward U.S. national security 
interests. Failure to meet our previous commitments--this is a 
commitment of the United States of America--to the fund further 
risks international U.S. leadership at a time when it is needed 
most.
    Mr. Secretary, the Treasury Department leads the world in 
disrupting terrorist financing networks and enforcing sanctions 
against some of the world's most dangerous countries, such as 
Russia, Iran, and North Korea.
    With increased aggression from each of these three 
countries, your Department's work is critical. And today, I 
hope you will provide details regarding new sanctions you 
mentioned during your testimony to the House Ways and Means 
Committee last month.
    In addition, I look forward to discussing Russia, 
particularly, the impact existing U.S. and EU sanctions are 
having on Putin, and whether the threat of new sanctions would 
impact Russia's activities in the Ukraine and Syria.
    And finally, I hope you will address the administration's 
plans for additional sanctions to address Iran's continued 
financial support of terrorism, human rights abuses, export of 
weapons, and ballistic missile testing.
    Mr. Secretary, thank you for being with us today. I look 
forward to your testimony.
    Mr. Rogers. Mr. Secretary, we want to recognize you now for 
your statement. Your written statement will be inserted in the 
record. And we invite you to summarize it, about 5 minutes 
briefly.

                 Opening Statement of Secretary Mnuchin

    Secretary Mnuchin. Thank you. In an effort to give you more 
times for questions, I will not read my written statement, but 
I do want to just take a moment to recognize today's tragic 
events.
    This is a moment when we unite together in support of our 
colleagues, who are the victims of this attack, especially 
Steve Scalise, and acknowledge the bravery of the Capitol 
Police and our first responders. My thoughts, prayers, and 
support are with them. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Rogers. Thank you.
    If the gentleman would like to offer a statement, we are 
happy to hear it. If not, we will proceed to questions.
    Secretary Mnuchin. Well, I was more than happy to--since 
the statement has already been provided, in an effort to give 
you more time for questions, I was going to offer to skip it. 
But if you think we have enough time, I am more than happy to 
make the statement.
    Mr. Rogers. No, I think we can proceed to questions. I 
think that----
    Secretary Mnuchin. Okay.
    Mr. Rogers. We do have a shortage of time on your side and 
ours, so thank you for that courtesy. We will abide by the 5-
minute rule and hope that everyone gets a chance to be heard.
    The Joint Comprehensive Plan of Action suspended nuclear 
sanctions against Iran, but numerous economic and trade 
sanctions are still in place. This is because the government in 
Tehran and its affiliates continue their illicit activities of 
sponsoring terrorism, developing and testing ballistic 
missiles, and supporting human rights abuses. More must be done 
to put an end to Iran's destabilizing activities. We need a 
tough policy on Iran that is backed up not just by rhetoric but 
by action.
    Mr. Secretary, what steps is the Treasury Department taking 
to respond more aggressively to Iran's illicit activities?
    Secretary Mnuchin. Mr. Chairman, let me, first, say that I 
believe that this part of the Treasury is some of the most 
important functions that we perform around terrorist financing 
and intelligence.
    Let me just say, I am spending about half of my time on 
this area, and I absolutely believe that sanctions work, that 
the reason why Iran came to the table was only because we and 
our allies put sanctions on them. I do have concerns about the 
deal that was signed. I think the sanctions have been very 
effective. I can assure you that the President and I will 
continue to use sanctions against Iran to the maximum amount 
available by law.
    We have rolled out additional sanctions since I have been 
in office, and we will continue to look to do so.
    Mr. Rogers. U.S. assistance is intended to aid those who 
are suffering from famine, poverty, disease, not to enrich 
their governments, especially if their government is corrupt or 
violent or provide safe haven to terrorists.
    For years, the State and Foreign Operations bill has 
included a prohibition against providing U.S. foreign 
assistance to governments that either provide sanctuary for 
terrorists or otherwise support international terrorism.
    Such a restriction is not difficult to apply with regard to 
bilateral assistance. But I would like to hear from you on how 
this prohibition might be applied to multilateral assistance. 
To what extent are you able to ensure that payments to the 
multilateral development banks are not used to provide 
assistance to countries that support terrorism?
    Secretary Mnuchin. Mr. Chairman, I agree with you 
completely that this is a very important issue, and although I 
am new at the multilaterals, I can assure you that we will do 
everything within our power. We do have tremendous influence, 
and our allies agree on this, that we will make sure that in no 
way do payments that go to the multilateral development banks 
end up supporting countries that support terrorism.
    Mr. Rogers. Or extra governmental units?
    Secretary Mnuchin. Yes.
    Mr. Rogers. Yes.
    Secretary Mnuchin. I am agreeing with you.
    Mr. Rogers. Yes.
    Last year, Secretary Lew told the subcommittee that the 
U.S. needed to not only pay its current MDB commitments but 
also pay its arrearages. If not, he said, the U.S. would lose 
credibility and would create conditions for violence and 
terrorism. This year, the Department proposes to cut U.S. 
contributions by one-third compared to last year, increase U.S. 
arrearages to a record $1.9 billion, and in some cases, reduce 
U.S. contributions compared to pledges made by the prior 
administration.
    Explain to us how U.S. participation and contributions to 
multilateral development banks serves U.S. interests in 
general.
    Secretary Mnuchin. Well, let me first say that in looking 
at our request, we put this in the context of the President's 
overall budget. We had to make some very difficult decisions on 
cutting back things to fund additional contributions to the 
military, which the President thinks is very important, and 
also our desire to have a balanced budget.
    I can assure you that in my meetings, both with the G-7, 
the G-20, as well as with the World Bank, and the IMF, I do 
believe these programs advance our international interests and 
are quite important in advancing our foreign policy.
    In regard to the arrearages, well, let me make two comments 
on--yes. We have requested, again, making difficult decisions, 
cut back from previous commitments under the Obama 
administration. When those commitments were made, my 
understanding is that it was clear that those commitments were 
subject to appropriations and approvals. So I am not concerned 
on that issue about us cutting it back.
    In regards to our unpaid commitments, as you know, I am a 
little bit new to government accounting. So I, too, questioned 
why we had these commitments still on the books. Again, my 
understanding is that this has to do with the way we make 
commitments, and we make commitments subject to appropriations. 
So to the extent we were going to use the money and just pay 
off previous commitments, these entities would not be able to 
use it going forward.
    So our preference is prioritize the money to go forward, 
given that we have limited money to spend, and not to pay off 
previous commitments. Although, I am somewhat concerned that, 
eventually, we do have to clean up this accounting.
    Mr. Rogers. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    Mr. Chairman, before I proceed with my question, there is 
an important issue that I think I should bring to Mr. Secretary 
before we proceed. It really affects the integrity of the 
committee process.
    Specifically, during recent news reports, that the White 
House has instructed the executive departments and agencies to 
ignore or not to respond to official requests from ranking 
members of subcommittees of jurisdiction and Members of the 
minority party of Congress.
    If this is true, this is a serious departure of comity 
between the executive and legislative branches of our 
government. Before moving forward, I just want the Secretary's 
assurance that all letters to your department and questions for 
the record will be answered in a timely fashion notwithstanding 
the party affiliation of the requester?
    Secretary Mnuchin. Yes. Let me first say, I am not aware of 
any such instructions, and, yes, we would respond to questions 
or comments or letters from you.
    Mrs. Lowey. Thank you. Thank you.
    Mr. Secretary, we have sought incentives to bring Russia in 
step with the world community, but Russia's foreign policy 
goals remain elusive. Russia has done very little to encourage 
implementation of the Minsk agreement, instead, has reinforced 
militants in eastern Ukraine with a goal of prolonging the 
conflict.
    Far from cooperating with the United States, Russia seems 
to take every opportunity to counter our interests working 
directly with the Taliban, bolstering Assad, arming Iran, 
tampering in U.S. and European elections. Yet, I am dumbfounded 
when I watch the news and continue to see the President 
appeasing Mr. Putin.
    It has been reported that the White House is seriously 
considering unilaterally rescinding sanctions against Russia. 
Is this true?
    If so, what has Russia done to be rewarded with sanctions 
relief? Should sanctions be lifted without, first, requiring 
the Russians to withdraw their annexation of Crimea? What about 
acknowledging Moscow's influence campaign during the 2016 
election?
    Senators Cardin, McCain, and Graham are pushing legislation 
that would place tough new sanctions on Russia. And on Monday, 
Senate Majority Leader McConnell filed an amendment to the Iran 
sanctions bill that codifies existing Russian sanctions and 
adds punitive measures against Moscow between of interference 
in Ukraine, actions in Syria, cyber hacking activities.
    Would you share with us the administration's position on 
imposing new sanctions, and does the administration have a 
coordinated international strategy on imposing sanctions 
against Russia? And do you believe that the threat of new 
sanctions or removing sanctions will have any effect on Putin?
    I apologize. All that in a minute and a half.
    Secretary Mnuchin. Thank you. You have brought up some very 
good questions that I am pleased to respond to.
    So, first, let me just assure you that there is no 
intention for us to remove the Russian sanctions. I have no 
intention of doing that, nor have I heard anybody in the 
administration suggest that be the case. We intend to enforce 
the existing sanctions at this point and the Minsk agreement. I 
would also say that I believe that the sanctions programs, I 
have discussions at the National Security Council with my 
counterparts on sanctions, whether it is Secretary Tillerson or 
Secretary Mattis or General McMaster. We all believe very much 
in these sanctions programs, and they are an integrated tool in 
our foreign policy.
    Mrs. Lowey. Thank you very much.
    And I am happy to yield back my 50 seconds, I think. And I 
will save the next question for the next series.
    Mr. Rogers. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.
    And, Mr. Secretary, thank you for your willingness to 
serve.
    In May, the administration imposed targeted sanctions 
against eight members of the so-called supreme--Court of 
Justice of Venezuela. Due to the court's undemocratic decision, 
it stripped the elected national assembly of its power, and I 
think that was a great step by the Administration.
    In February, the administration also sanctioned the so-
called Vice President, Mr. El Aissami, who was handpicked by 
the dictator there, and he was sanctioned for his role in narco 
trafficking. Again, I think those are very, very important 
steps, and I thank the administration and you for doing that.
    Are you considering further sanctions, perhaps, something 
more broad in scope? I don't have to tell you the Maduro regime 
continues to oppress its people. There are over 60 dead, 
peaceful demonstrators, have been killed. And it is really, 
rather aggressive and now has become a murderous regime. Any 
thoughts about potentially doing further sanctions? 
Particularly, when we saw recently that a U.S. company, by the 
way, did a $3 billion bond deal with Venezuela, which we know 
where that money is going to go. That money is going to be used 
to further repress. So any ideas on that?
    Secretary Mnuchin. Well, let me just say I do share your 
concerns with the situation there. We are monitoring it very 
carefully. We took great consideration into the sanctions that 
we have issued. We think they are very important. I might add, 
the sanctions on the vice president, that was my first day in 
office----
    Mr. Diaz-Balart. That is a good start, Mr. Secretary. That 
was important.
    Secretary Mnuchin. A result of a very long review by our 
intelligence people, and we will continue to use sanctions as 
appropriate.
    I want to say, we want to be careful in making sure that 
sanctions don't hurt the people of Venezuela. We will use them 
against illicit funding and illicit activity, and we will 
continue to monitor the situation.
    Mr. Diaz-Balart. Again, I commend you for what you have 
done so far, and I look forward to working with you on that 
important issue.
    Secretary Mnuchin. Thank you.
    Mr. Diaz-Balart. Let me now go to a different part of 
world. Office of Foreign Assets Control (OFAC) has exceptions 
to the issuance of general licenses authorizing certain 
transactions with the Palestinian authority. I have been very 
concerned, a lot of us have been very concerned with the 
Palestinian authority. Frankly, they fund terrorists. They 
literally give salaries to those who commit acts of terrorism.
    And so, again, I don't know if you have had any opportunity 
to look at that, but I am hoping that we can work together to 
look at how we can curtail funds going to, again--and I 
understand that our funds are not being directly used for that, 
but we all know that funds are fudged a little bit. So, again, 
I look forward to working with you.
    Any thoughts on that? Because I think it is totally 
unacceptable.
    Secretary Mnuchin. Thank you. And, again, I share your 
concerns in the area and look forward to working with you on 
it.
    OFAC does have an enforcement division that is able to take 
appropriate actions against individuals and entities that do 
not adhere to the requirements under the general license, and 
we will continue to do that. So it is something that we can 
enforce, and we look forward to working with you and your 
staff.
    Mr. Diaz-Balart. I look forward to that. And I have liked 
what I hear about sanctions. They can be very effective. And 
that is an area, that I think, frankly, we can do better, and I 
look forward to working with you.
    Secretary Mnuchin. Thank you.
    Mr. Diaz-Balart. Let me, then, now go to North Korea. We 
have had in other subcommittees, other briefings, classified 
briefings and nonclassified briefings. But what everybody knows 
is that regime in North Korea is highly dependent on China. And 
I have always thought that if China ever got serious about 
curtailing North Korea's nuclear ambitions or their rogue 
attitude, that could have a lot more influence.
    I was pleased to see the President talk about that and 
approach that. Any thoughts about potentially being tougher on 
China and making sure that they understand--that we understand 
that they have a major role to play?
    I think this concept of just saying, well, they are trying, 
which is not the attitude that I have seen from this 
administration, which is welcome. That had been the attitude 
for the previous administration. So any thoughts about maybe 
doing some--being a little bit tougher on China to make sure 
they actually put more pressure on North Korea?
    Secretary Mnuchin. Well, let me first assure you that, 
again, this administration shares your concern about the 
situation in North Korea, which we take very seriously. 
President Xi and President Trump had a very good summit. I have 
had the opportunity to meet my counterparts several times both 
there and at the G-20. I look forward to seeing them. I will be 
traveling with the President to the G-20 in July. I will be 
meeting with my counterparts again, and I can assure you we are 
working closely and having very serious discussions with China 
about helping on this issue.
    Mr. Diaz-Balart. Thank you.
    Mr. Rogers. Mr. Ruppersberger.
    Mr. Ruppersberger. Welcome. Our country is the greatest 
country in the world. And I think one of the reasons is when 
our forefathers created the check and balance between the 
administration, Congress, and the judiciary.
    Those of us in Congress who have been here for a while 
specialize in different areas. I have specialized in 
intelligence and national security for the last 15 years, and 
with that, I have gone to probably 50 different countries and 
dealing with those issues.
    What my concern is that the cuts to those countries that 
are working with us combating terrorism and how it will affect 
our national security, especially true for some of the most 
fragile, unstable, and conflict prone regions that we provide 
assistance, financial assistance to, and they are really more 
susceptible to home-group terrorists, and we see that over and 
over again. And some of the terrorist groups that we are 
fighting against are these countries that we are cutting.
    Now, more and more affected areas and fragile states are 
driving regional instability, which increases poverty and 
weakens hopes for economic growth and prosperity. What are your 
thoughts on World Bank spending on fragile or conflicted area 
states, and how does the spending help our national security? 
What are the impacts of U.S. not meeting our financial 
obligations and upcoming international development association 
account replenishment rounds as it relates to national 
security?
    And that is the first question. I have a couple more to 
follow up.
    Secretary Mnuchin. Well, again, let me first say that I 
appreciate the work that you have done and know how important 
these issues are on intelligence. As you said these 
institutions, I believe, play a very important role.
    So I want to just put this in perspective. We have made 
difficult cuts. Again, the majority of this was really with the 
intention to fund the military to its proper level.
    The IBRD, right now, we do not have anymore commitments to 
the IBRD. IDA, which we have cut back some of the commitments, 
we are still proposing over 1.1 billion in current spending to 
IDA, which will make us either the number one or number two 
contributor to IDA. I think we do appreciate where IDA is 
making these commitments.
    So we have tried to maintain, really, the important issues. 
We have scaled back the Asian Development Fund, and we have 
scaled back some others. But, again, we have tried to be very 
clear in where we are dedicating our resources that can be the 
most effective in the context of the budget.
    Mr. Ruppersberger. You know, you are a very smart man. You 
have been very successful. You wouldn't have been confirmed by 
the U.S. Senate if you weren't very, very good at what you do.
    Secretary Mnuchin. Thank you.
    Mr. Ruppersberger. But there are disagreements, and there 
is a lack, sometimes, of when the new administration comes in, 
of expertise and experience because you haven't been there and 
doing the same things that a lot of people have been doing for 
a long time, especially a lot of Members of Congress.
    You mentioned the military; you are going to have to cut 
because of the military. I think if General Mattis was here, he 
would tell you if you cut the State Department, you cut the 
different areas, that he is going to have to double the 
military.
    I happen to be on Defense Appropriations, and sequestration 
has hurt our defense, has hurt our whole country, and I hope 
you could work with us to deal with that terrible loss, 
sequestration. You know, budgeting is about priorities. It is 
not about cutting across the board.
    Secretary Mnuchin. I agree with that.
    Mr. Ruppersberger. But I would hope that you would really 
look and work with us, because it is about working together in 
the end that what impact these cuts in the State Department are 
going to have. You know, the--not the morale of the people who 
are in this area, but soft power is important.
    And what I am very concerned about is America being weaker. 
The President said we have to make America great again. We are 
the greatest country. We always have been, and we fight hard 
and we do things that are right. But I am concerned that this 
pullback is going to allow Russia or China--basically, Russia, 
our enemy, is going to allow them to step in. You already have 
the chancellor of Germany saying, okay, United States, you 
don't want us, we will bring China, and China would love this.
    You don't think Putin doesn't love the fact that--what he 
wants to do is to make the West weaker. You don't think he 
doesn't love the fact that people are--we are pulling back and 
the Chinese that take control or power, that we turn our back 
because of statements made by the President on our allies since 
World War II? These are issues that really would make us 
weaker.
    Could you respond to the issue of China and Russia becoming 
stronger and us becoming weaker because of some of the 
decisions we are making especially as it relates to soft power 
and the State Department?
    Secretary Mnuchin. Well----
    Mr. Ruppersberger. I am saying that as an American, not a 
partisan issue at all.
    Secretary Mnuchin. Sure. Let me first say, I am the first 
one to say there are parts of this job that I have come with 
lots of experience, and there are parts that I have not had as 
much experience.
    I can tell you the Iranian sanctions and the terrorists 
financing, I feel I have gotten a Ph.D. in my last 100 days, 
because we have an enormous very, very capable staff at the 
Treasury who are able to help me and support me. I could never 
do this job without the important career staff that we have.
    Mr. Ruppersberger. That is smart. You are only as good as 
your team. You know that.
    Secretary Mnuchin. I do believe that the President has 
shown some very significant leadership in foreign policy. And I 
think, particularly, with the recent trip to the Gulf, one of 
the things we are very proud of is we signed an MOU with Saudi 
Arabia, and our Gulf partners, around setting up a terrorist 
financing center there.
    I think this is something that over the next 10 years is 
going to be an incredible investment and much, much more cost 
effective than what we would be spending on military and other 
things.
    This is something we do not have in the budget. We are 
going to come back for additional funding, since it was signed 
after we submitted the budget.
    In my conversations with all my foreign counterparts, I 
think they understand our role and what we are trying to do. 
And----
    Mr. Ruppersberger. My question was how does it relate to 
Russia and China having more power, more influence, and us 
losing our influence globally. That was my question.
    Secretary Mnuchin. Okay. Well, I will comment more on 
China. I have not had any interaction with Russia. But as it 
relates to China, I can tell you we are in a very serious 
economic dialogue with them now about rebalancing our economic 
relationship. I think that we have made it very clear to them 
that it needs to be rebalanced, and we have had very clear 
discussions with our allies about the role of the U.S. We are 
not looking in any way to pull back from our leadership 
position on very important issues.
    Mr. Rogers. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Secretary, welcome.
    Secretary Mnuchin. Thank you.
    Mr. Fortenberry. I think the exact quote from General 
Mattis was, ``if we cut these multinational programs--
multilateral programs, then send me more bullets.'' So I think 
that on the one hand, I am very sympathetic to your position, 
in that particularly, as a new administration, it is absolutely 
necessary that we go back and reexamine our multilateral 
commitments, to ensure that they are fostering the goals of 
humanitarian necessity, economic cooperation, cultural exchange 
and also stability in our own national security.
    With that said, we don't want to end up, though, with a 
contradiction, whereby in our effort to increase our military's 
capacity, that we end up hollowing out the very things that 
build up the conditions for international stability. The 
military tells me, send us in last. Do everything that you can 
to build up the toxic relationships that lead to goodwill and 
friendship and take away the possibility of twisted forms of 
ideology or nationalism.
    So you have got 13 multilateral programs under your 
authority, some of which are maintained, some of which are 
significantly cut. And, again, I am trying to do two things at 
once here: Be sympathetic to the reality that you ought to be 
reexamining these for metrics of outcomes that are consistent 
with what we want to see; namely, stability in our own security 
but also opportunity for others and ourselves.
    But at the same time, I think it is necessary to explain 
the rationale why these particular suggestions that you have 
undertaken. Particularly two; the global agriculture and food 
security program, which houses the Feed the Future initiative, 
which was a very strong bipartisan initiative to try to shift 
the types of assistance that we are undertaking to those who--
to create capacity in one of the most pressing needs of the 
world in addressing the significant sources of poverty and 
sustainable food production. All tied, again, to stability and 
ultimately, our own national security.
    The second one being the global environment facility. 
Again, our money is leveraged very significantly with other 
donors that goes to, really, clear values of the United States 
in terms of protecting against wildlife trafficking, which 
leads to terrorist financing, creating the conditions in which 
biodiversity is advanced and environmental goals are protected.
    So those are two that I wanted to, specifically, ask for 
your rationale. In light of the earlier comments that I--I 
understand, and I think we ought to go through this exercise 
together of examining our multilateral commitments to ensure 
that there are sound metrics that meet our shared goals.
    Secretary Mnuchin. Sure. Well, let me just comment on the 
environmental ones first.
    Our main cutbacks were to the Clean Technology Fund and the 
Strategic Climate Fund. The Global Environment Fund, we are 
still requesting that we fund, although at a slightly lower 
level. So it was really prioritizing our dollars. I think, you 
know, that as it relates to--that is the one that we think is 
the most effective and has the direct contributions.
    As it relates to the agricultural and food security 
program, we are more than happy to work with your office and 
get your views on that. Obviously, the final decisions of 
appropriations is subject to this committee. You have a lot of 
experience in this, and I respect that.
    To the extent that we needed to move money around to that 
you think we do not have the exact right goals, obviously, we 
will work with you on that.
    Mr. Fortenberry. I think, Mr. Chairman, that is, perhaps, 
the most generous answer I have ever heard from a Secretary in 
a cabinet before. Thank you. Because what that states is a 
willingness to try to partner, to think constructively about 
this right mix of what we are achieving that is consistent with 
our goals under limited budgetary circumstances.
    More money does not necessarily mean better outcomes. But 
we do have to have a rationale behind why we are moving money. 
But--so I am greatly appreciative of that offer, and we will 
take you up on that.
    Thank you, Mr. Secretary.
    Secretary Mnuchin. Thank you.
    Mr. Rogers. Ms. Meng.
    Ms. Meng. Thank you, Mr. Secretary, for being here today. I 
also want to ask about sanctions. Increasingly, we here in 
Congress and the President rely on the Treasury Department to 
keep America safe through its work on sanctions against 
adversaries such as Russia and hostile regimes such as Iran.
    I am sensitive to the fact that this reliance creates an 
increased workload for you and your staff and requires 
additional resources. In fiscal year 2016, the Office of 
Terrorism and Financial Intelligence was funded at $117 
million, and that amount was increased to $123 million for 
fiscal year 2017.
    For the coming year, however, President Trump's budget 
calls for a paltry $116.6 million. I anticipate Congress will 
continue to rely on you to perform an increased amount of 
sanctions work. And with that in mind, and were this committee 
to see fit to appropriate the Office of Terrorism and Financial 
Intelligence more than the requested $116.6 million, do you 
think the Department would be able to effectively use these 
additional funds?
    Personally speaking, I would like to see this particular 
account funded at a rate that is at least as high as it was 
funded for fiscal year 2017, $123 million.
    Secretary Mnuchin. Thank you. First of all, let me assure 
you, I think this is indeed, the most important function that 
we have within Treasury, or at least right up there with 
collecting our revenues and financing the government.
    When we submitted the request, the intent was to keep it 
flat, similar to what we were doing with other intelligence 
functions. When we submitted the original request, we had not 
yet had the omnibus for this year. So the fact that it was 
going down was really a function of we got more money than we 
thought we were going to at the time when we submitted this.
    In essence, the intention was to keep it flat with last 
year, and we ended up getting some more money, which we will 
very wisely put to use.
    As I mentioned, you know, since then, we have made an 
additional commitment to wanting to expand our area of this, 
and we will be coming back for additional funding for that.
    Ms. Meng. Great. Thank you.
    My other question is also about the Global Agricultural and 
Food Security Program. Does the Trump administration's decision 
not to request funding for this program in fiscal year 2018 
reflect a judgment by the administration that the program does 
not support U.S. priorities? And what circumstances, if any, 
might the administration request future U.S. contributions for 
GAFSP, and will the United States seek changes in the way that 
it is managed?
    Secretary Mnuchin. Again, let me just say that we do have 
sufficient funding that--we do think it is a--it is a 
technically strong agricultural project that supports some of 
the world's poorest countries. I am just looking at this, and I 
believe that we have met our commitments to them under the 2012 
matching pledge, which is now ending.
    Therefore, that was the reason why we are not focused on 
additional for 2018. We are currently determining how it fits 
into the long-term budget plan. But, again, this is something 
we are happy to work on with the committee as we move forward 
on it.
    Ms. Meng. Thank you.
    I yield back.
    Mr. Rogers. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Secretary, good to be with you again.
    Secretary Mnuchin. Thank you.
    Mr. Dent. Just a couple of things, not to a specific issue 
but to a broader thought.
    You have been very articulate about the need to raise the 
debt ceiling. The country can't default on its obligations. You 
would like to see us do that cleanly. I would like to just 
suggest to you, if you could take this back to the White House, 
that we are opted to enter into a bipartisan budget agreement 
and tie the debt ceiling to that before the end of July. I 
think that would be extremely important to provide not only 
stability for the markets but budgetary stability for all of 
us.
    I suspect you will get a lot of bipartisan support from 
many members on both sides of the aisle on this committee, not 
saying everybody but a lot, and it would be extremely helpful. 
So I want to share that.
    Secretary Mnuchin. Thank you. I appreciate that, and I will 
definitely take that back.
    Mr. Dent. I hope they move on it quickly.
    Secretary Mnuchin. I do as well.
    Mr. Dent. I know you do. And you should be a very good 
vicar for such a cause. Thank you.
    On the Export-Import Bank, Secretary Mnuchin, you know that 
the bank is a--as you know, it is demonstrated to be a real 
value for taxpayers by consistently returning money back to 
Treasury. The bank also allows U.S. businesses of all sizes to 
compete in the global marketplace; however, despite the broad 
bipartisan support of Ex-Im Bank, its operations remain limited 
to smaller projects as its--under 20 million as its board is 
stifled by a lack of quorum. In fact, last year, in this bill, 
State Foreign Ops, Senators Graham and I each inserted 
amendments to allow the board to function without a full 
quorum. We think it is extremely important that we do so.
    So as Secretary, what are your thoughts on the bank's value 
to our economy, and do you feel the Treasury would stand to 
gain from returning exempt to its full operational status?
    Secretary Mnuchin. First, let me say that we absolutely 
support putting more people on the board and returning it to 
its operational status. That having it only be able to make 
very small loans is concerning and problematic and does not fit 
our interests.
    Having said that, I do think, and we have begun to do some 
work on this at Treasury, once there are new board members and 
we are making loans, I do think we need to make sure that the 
board looks at the concentration risk, make sure that it is 
making loans only when there are not good private alternatives, 
and that it is moving forward on U.S. interests.
    But, yes, I fully support, as does the President, reopening 
the bank for business.
    Mr. Dent. And I am good with the types of reforms that you 
have just suggested. I think that is important that we maintain 
much more rigorous oversight.
    Also, one other thing too. It appears that the nominations 
to the board are--don't seem to be moving very quickly over in 
the Senate for whatever reasons.
    And absent, you know, confirmations, would you be willing 
to support the language that the Senator Graham and I put in 
last year to allow the board to function without a full quorum, 
similar to what we did in the late 1990s? It would allow you 
then to move forward and to process the loans over 10 million?
    Secretary Mnuchin. I have not looked at that. But one of 
the suggestions I would make is, if it were passed, I would--
there may be a situation where cabinet members could serve on 
the board until we appoint full-time people.
    Mr. Dent. Okay. Well, we just want to get moving. Thank 
you.
    And in my remaining time, I know you talked a little bit 
about Iran prior to my being here, but as you know, the 
Revolutionary Guard in Iran, influence can be seen across 
Iran's political and economic leadership. And as you are also 
very much aware, the United States Treasury maintains a number 
of sanctions on Iran.
    In light of the Revolutionary Guard's impact within Iran, 
how are you working to insure that the companies or financial 
institutions that are reentering the Iranian market avoid 
possibly going with the Revolutionary Guard?
    Additionally, in an effort to maintain the full force of 
the sanctions and to avoid accidental dealings with the 
Revolutionary Guard entities, what steps are you taking to 
maintain an accurate list of the entities controlled or owned 
by the Revolutionary Guard's affiliates?
    Secretary Mnuchin. Again, let me assure you that we are 
very concerned about the activity in Iran, their support for 
terror, their missile programs. As I have suggested, you know, 
we have concerns about the JCPOA. I assure you that OFAC is 
actively looking at the situations. We have rolled out more 
sanctions where appropriate. We will continue to use those 
tools.
    As it relates to any companies that are doing business, 
U.S. companies or foreign companies that have U.S. parts, we 
have to issue licenses. I can assure you those are discussions 
that we will be having at NSC before we issue licenses.
    Mr. Dent. Thank you.
    And I yield back with 2 seconds remaining.
    Mr. Rogers. I thank the gentleman.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Secretary, welcome to the committee.
    Secretary Mnuchin. Thank you.
    Mr. Price. I want to begin by underscoring what my 
colleague, Mr. Dent just asked you to take back to the White 
House, that is the need sooner, rather than later, for a 
bipartisan agreement not just on the debt ceiling but also on 
the budget numbers with which we are working for fiscal 2018. 
That is an important request, and I endorse it wholeheartedly.
    The prospects right now, honestly, are to slog through the 
summer with an unworkable budget allocation and with 
unworkable--therefore, unworkable appropriations bills. And 
then when we have to, at the end of the fiscal year, scrambling 
and doing everything possible to avert a government shutdown 
and then, hopefully, at that point coming up with a budget deal 
that lets us appropriate adequately for fiscal 2018.
    For once, let's anticipate that. For once, let's get ahead 
of the game, do the budget agreement now that will let us do 
our work and avoid that kind of destabilizing scramble at the 
end of the fiscal year. I very much endorse that suggestion. 
That would be wonderful and tie it to a clean debt ceiling 
increase would, of course, be desirable as well.
    I will turn, like a number of members, to sanctions and ask 
you specifically about the JCPOA in a couple of regards. We are 
one month away from the second anniversary of the finalization 
of the agreement, as you know, the International Atomic Energy 
Agency continues to certify that Iran is in compliance with 
this agreement. And of course, you oversee the implementation 
of the economic sanctions against foreign entities, and 
therefore, you are drawn into this in a very important way.
    I want to ask you three brief but related questions: The 
administration announced on April 18 of this year that they 
will be conducting a review of the joint comprehensive plan of 
action. Have you been involved in this review? And what is the 
status of that review?
    In that connection, you are well aware that new sanctions 
are under consideration in both Houses and that renewed 
sanctions for Iran's nonnuclear bad behavior, the continuing 
threats from Iran, those sanctions have brought bipartisan 
support.
    However, it is important to leave the JCPOA intact. I would 
assume you would agree with that. And there seem to be some 
gray areas as to where nuclear or nonnuclear sanctions might 
intersect or overlap or where there might be serious disputes 
about that.
    So are you actively monitoring these legislative efforts in 
the House and Senate, and are you actively advising as to how 
to avoid doing anything that would be in violation of the 
JCPOA?
    And finally, just to pick up on what others have said about 
staffing. You have, I think, said earlier you spent half your 
time on Iran sanctions. That is----
    Secretary Mnuchin. Sanctions overall, just not Iran.
    Mr. Price. Sanctions overall. Well, either way. Either way, 
that is a lot of your time. So the question does arise, what 
about these senior positions that are unfilled at your 
department, and is this one area where you are going to need 
some help?
    The 27 positions requiring Senate confirmation unfilled, 
only eight of those have nominations. Does this--how much of--
how many of these positions would be applied to the sanctions 
area? I mean, is this hampering your ability to do this work?
    Secretary Mnuchin. First, let me just comment on the 
positions, and then I will come back and talk about the JCPOA.
    We have identified, and we have made offers to people and 
have accepted offers for every single position within the 
Treasury. The reason why they have not been announced yet is 
because most of these positions require FBI background checks 
for their security clearance. Given the number of reviews that 
the FBI is doing throughout the government, that is somewhat 
time-consuming.
    I want to assure you that we have taken staffing very, very 
seriously. Filling all these positions in the Treasury was my 
highest priority. I think we literally interviewed hundreds and 
hundreds of people to find the best people to come in. I 
believe we have--our Under Secretary will, hopefully, be 
confirmed by the full Senate shortly.
    As it relates to the JCPOA review, I am part of that. It 
would be inappropriate for me to make any comments on that 
until we finish the review. But, again, I can assure you that 
is something that is being done at the National Security 
Council, and I am significantly involved in that.
    Mr. Price. Mr. Chairman, I know the time has expired, but 
the question about the ongoing legislative efforts, can you 
respond quickly to that?
    Secretary Mnuchin. We are monitoring the recent legislative 
efforts. I think the only issue we have in particular with them 
is really around some administrative issues around licensing 
and things like that.
    Mr. Rogers. The chair wishes to announce that the Secretary 
is on a tight timeframe here. We have two members who have not 
had a chance to ask questions. I hope the Secretary might be 
able to give us a little leeway here in that regard.
    Secretary Mnuchin. I do. We will try. I think we have a 
little bit of leeway. Unfortunately, we moved a lot of things 
around.
    Mr. Rogers. I understand.
    Secretary Mnuchin. And we have a commitment we just could 
not meet, but----
    Mr. Rogers. And I appreciate you doing that this morning, 
especially.
    Secretary Mnuchin. Obviously, very understandable given the 
situation.
    Mr. Rogers. And, of course, we have the Secretary of State 
coming here in 10 minutes.
    Secretary Mnuchin. Okay. We are fine for another 10 
minutes, and then we will let him take over.
    Mr. Rogers. All right.
    Mr. Stewart.
    Secretary Mnuchin. You can ask him a lot of the same things 
you have asked me about sanctions.
    Mr. Rogers. I am sure we will.
    Mr. Stewart. Thank you, Mr. Chairman.
    Mr. Secretary, it is good to see you again. It has only 
been a few days. It is good to be with you. I am going to--I 
guess, I don't want to say beat a dead horse, but maybe we are, 
maybe we are beating the other side of the dead horse. But I 
want to come back. As you know, as your role here with the 
committee, sanctions is, of course, one of the most important 
things we can do to work together.
    I look back, I met with the senior military official. I am 
going to quote him, so I am not going to tell you who it is. I 
will quote him roughly.
    He said, ``Russia is the only existential threat that we 
face. China is the most difficult challenge that we face, but 
North Korea is the most dangerous challenge that we face.'' And 
I share that view. General Mattis has said, essentially, the 
same thing within the last few days.
    I go back to my B-1 days when I was a young officer flying 
a B-1 in the Air Force. This is in the 1990s, and one of the 
things we prepared for was an attack on North Korea, because we 
were trying to preclude them from developing nuclear weapons. 
We failed at that, because we know that they have that.
    Our goal now is to stop them from putting nuclear warheads 
on top of ICBMs that are capable of reaching U.S. cities. I 
believe that we are failing in that. If you had asked me a year 
ago or 5 years ago, could we stop them from, you know, 
putting--militarizing the warheads, putting them on ICBMs 
again, threatening the USA, I would have said no.
    I was in China about a year ago. When I came back I said, I 
don't think we can stop them. I just don't see the pressure 
points. I was in China a couple of months ago, and I actually 
came home quite encouraged. I feel like things had changed. 
And, frankly, it was because of the new administration.
    People felt like there was--I hate the phrase--but a new 
sheriff in town, and that maybe this administration was going 
to be more serious than the previous administration in 
confronting this.
    However, we see them moving forward on not nuclear programs 
only but now more worrisome on the ICBMs and their missiles. I 
am just going to ask you simply--I won't elaborate. I would 
just ask you simply. It appears to me up to this point we are 
failing in stopping them. Can you tell us--I mean, how can the 
process be improved? What will this administration do that we 
haven't done that would bring pressure to bear on North 
Koreans, as far as sanctions or and the economic pressure 
points, to be hopeful they will maybe change their behavior on 
this?
    Secretary Mnuchin. Well, again, I can assure you that the 
President shares your concerns. The Secretary of State, myself, 
Secretary Mattis, and others all are very involved in this. We 
are committed, and we think that China is critical to working 
with us. We are committed to continue to put pressure on them. 
As I have said before----
    Mr. Stewart. Could I agree with you on that, your comment 
regarding China? That is one of the primary reasons I came back 
more encouraged, because they seem to be more sincere in their 
commitment to work with us than they ever had been before.
    Secretary Mnuchin. I cannot comment on history, but I 
believe they are sincere in their commitment to work with us 
now.
    Mr. Stewart. All right. Well, thank you. We want to help 
you with this. As I said, I think it is one of the most 
important issues that we will deal with. You deal with it in a 
kind of sidebar, bit of a tangent, but it is a very, very 
important role that you and your--and that members of the 
Treasury will play in doing that. So we look forward to working 
with you on that.
    Mr. Chairman, I yield back.
    Mr. Rogers. The gentleman yields back.
    Ms. Lee.
    Ms. Lee. Thank you very much.
    Good to see you, Mr. Secretary. First question, hopefully 
in the spirit of bipartisanship, I will ask this one. The 
bipartisan group of members sent you a letter on May 8 
regarding South Sudan. All co-chairs of our bipartisan caucus 
on Sudan and South Sudan as well as the chair and ranking 
members of our House Foreign Affairs Committee wrote to you 
requesting that your agency take urgent action to target the 
financial interests of high-level military and political 
officials in South Sudan.
    Now, you responded about the ongoing--so you are aware, 
then----
    Secretary Mnuchin. Yes.
    Ms. Lee [continuing]. Of the ongoing situation in South 
Sudan. Violence continues to ravage that country. And we have 
decided that the only way that we can really approach this at 
this point, and we do you know many things and it just has not 
worked, would be to stop the profiteers from lining their 
pockets while their citizens starve.
    Now, I know this office, the Financial Crimes Enforcement 
Network, I think there is a proposed $3 million cut. But I want 
to find out, what do you need in order to get this resolved so 
that we can, hopefully, get a positive response to you--firm up 
with regard to how to impose sanctions on these individuals?
    And my second question is, we are hearing that the 
President, the administration, may reinstate the requirement 
for OFAC to issue licenses for travel related to and from Cuba. 
I would like to know if you have looked at quantifying the 
costs associated with processing licensed applications and make 
some determinations about those resources, and could they be 
better applied towards trafficking terrorists or targeting 
illicit money laundering instead of coming down hard on 
Americans who just want their basic right to travel to wherever 
they want to travel?
    Secretary Mnuchin. Let me just comment that the cut, the 
small cut, on FinCEN, which you have referenced, is similar to 
the OFAC--is similar to the other issue, which is just a timing 
issue of when we submitted the budget.
    As it relates to Cuba, I am part----
    Ms. Lee. As it relates also to South Sudan in terms of when 
we will know whether or not you will charge these individuals.
    Secretary Mnuchin. South Sudan, will--we continue to be 
concerned there. We are working on that, and we will work with 
your office as soon as we have reached an issue. But I can 
assure you that is something that we are concerned about.
    And then as it relates to Cuba, the Cuba policy is under 
review. I am part of that, and again, it would be premature to 
discuss it at this time.
    Ms. Lee. Okay. Once the new policy is announced we will get 
back to you and talk to you about resources.
    Thank you.
    Mr. Rogers. Mr. Secretary, thank you for being very lenient 
with your time and the difficult arrangements we have had to 
make in view of this morning's event. So we deeply appreciate 
your taking the time to be here with us.
    Let me ask this final question. For decades, there has been 
a steady stream of criticism about accountability and 
transparency of World Bank and IMF expenses. In particular, 
employee compensation. The executives of those organizations 
make salaries more than either--our President--our Speaker of 
the House or our majority leader of the Senate.
    When governments are fiscally constrained, is it prudent 
for the World Bank and IMF to provide private sector salaries 
while the rest of our governments are hurting?
    Secretary Mnuchin. Well, I think that is a valid concern. 
As you said, they are somewhere between government entities and 
private entities, and I think that will be something that I 
will be looking at and working with the boards of both 
institutions on.
    Mr. Rogers. We will be watching that as well.
    Secretary Mnuchin. Thank you.
    Mr. Rogers. Mr. Secretary, thank you so much for being us 
with.
    Secretary Mnuchin. Thank you.
    Mr. Rogers. We hope to see you soon. We want to be of help 
to you.
    Secretary Mnuchin. Thank you. Thank you very much.
    Mr. Rogers. The hearing is adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    


                                            Tuesday, June 27, 2017.

               UNITED NATIONS AND INTERNATIONAL PROGRAMS

                                WITNESS

NIKKI R. HALEY, U.N. AMBASSADOR

                  Opening Statement of Chairman Rogers

    Mr. Rogers. The Subcommittee will be in order.
    It is a pleasure to welcome Ambassador Nikki Haley to her 
first hearing before this Subcommittee to testify on the fiscal 
year 2018 request for the United Nations and other 
international organizations.
    Ambassador Haley, it has only been 5 months since you were 
sworn into this office as our country's representative at the 
United Nations (U.N.). Already you have distinguished yourself, 
making it clear that you are willing to challenge the status 
quo in order to make the U.N. a more accountable body and one 
that, in your words, ``better serves the interest of the 
American people.''
    The U.N. and other international organizations perform many 
tasks that are laudable and have bipartisan support. These 
organizations feed the hungry, aid the sick, protect the 
vulnerable, and help to stop the spread of nuclear weapons.
    This good work, however, is often overshadowed by 
bureaucratic red tape and inflexibility. In a world that is 
changing faster than ever, often the U.N. is left playing 
catchup to world events rather than helping to shape them.
    In the U.N. General Assembly, commonsense reforms are 
frequently obstructed by a group of countries who benefit from 
the status quo. In the U.N. Security Council, resolutions that 
would promote peace and security are often blocked by China or 
Russia. Many U.N. peacekeeping missions, which start out well 
intentioned, seem to grow bigger rather than smaller and go on 
longer than planned or are necessary.
    Furthermore, it is unacceptable that we find U.N. 
peacekeepers abusing the very people they were sent to protect. 
Many U.N. organizations still lack transparency and meaningful 
protections for whistleblowers. And many organizations continue 
to unjustly target Israel, using these organizations as a 
mouthpiece for propaganda that only serves to inflame tensions 
in that region. The list goes on.
    What is required are meaningful reforms, which address the 
problems that I have mentioned, while making better use of 
resources to advance the causes that we support.
    Ambassador Haley, I know you share many of these concerns. 
You have started down a path of reform, and we want to be 
helpful as you go along that path.
    Now, turning to your budget request for fiscal 2018. The 
request for the U.N. and other international organizations, 
including U.N. peacekeeping is $2.2 billion. That is about 40 
percent less than the fiscal year 2017 that we are now living 
through.
    While I appreciate the State Department's recognition that 
we need to bring down the costs, the Subcommittee lacks basic 
information on the administration's plan to accomplish that. 
The budget justification does not specify which organizations 
are funded or at what amount or what the impact these cuts 
might have on our national interests.
    What we have been told is that the administration is 
reviewing these organizations and looking for ways to make them 
more efficient, less costly, and pushing for others to pay 
their fair share. This is long overdue. But since Congress 
ultimately has the power of the purse, we need to know in 
detail the impact of your funding proposals. I would encourage 
you to consult with us on these efforts as quickly as possible.
    Regardless of how we get there, we must ensure that our 
national security interests are maintained and the United 
States continues to lead.
    Ambassador Haley, you have stated that one of your goals is 
to restore trust and value at the United Nations. We support 
you in this effort. We look forward to working with you as you 
fulfill this great responsibility that you have been asked to 
undertake. We are proud of your work, and we are proud that you 
are here with us today.
    Let me now recognize Mrs. Lowey for any remarks she may 
like to make.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
                    Opening Statement of Mrs. Lowey

    Mrs. Lowey. Thank you, Mr. Chairman.
    Ambassador Haley, I join Chairman Rogers in welcoming you 
today. As the U.S. Ambassador to the United Nations, your words 
carry a great deal of weight. You represent the diplomatic aims 
of the United States of America. When you speak, the world 
listens.
    Since becoming Ambassador, you denounced Russia's actions 
in Syria, outlined the importance of human rights, and stated 
that humanitarian assistance was one of your top priorities. I 
have been impressed with your actions at both the Human Rights 
Council and the Security Council. More than ever we need strong 
leadership at the U.N., and I commend you for your comments.
    Unfortunately, the administration has taken every 
opportunity to contradict your statements, demonstrating that 
an, ``America First,'' strategy requires a massive step away 
from global engagement and the United Nations.
    There is no better example than the President's fiscal year 
2018 budget, which would minimize the U.S. role in humanitarian 
assistance, human rights, cut funding to the U.N. regular 
budget, and eliminate all funding to critical U.N. agencies, 
like UNICEF, U.N. Women, and the U.N. Population Fund.
    Throughout my career, I have consistently supported 
vigorous U.S. engagement at the United Nations. The U.N. is 
instrumental in advancing our national security interests and 
confronting terrorism, infectious disease, humanitarian crises, 
famine, and climate change.
    However, we know the U.N. is not perfect, particularly the 
anti-Israel bias at the U.N.'s Human Rights Council. But 
frankly, I cannot understand how this administration intends to 
influence the U.N.'s agenda, help those most in need, and 
advance U.N. reform if it disengages and severely cuts our 
contributions. Without a seat at the table, our voice not only 
won't be heard, it will be replaced with voices of countries 
who don't share our interests.
    The proposed budget cuts would be far reaching and 
catastrophic, including a 37 percent cut to the Contributions 
for International Peacekeeping Activities that would lead to 
violence, increasing the chances that our armed services would 
be sent to regions they never need to go; a 27 percent 
reduction to the Contributions to International Organizations 
account, which would cut funding to critical agencies, such as 
the IAEA and the WHO, curtailing their operations and putting 
the world at greater risk from nuclear weapons and infectious 
diseases; and zeroing out contributions to U.N. agencies such 
as UNICEF, the World Food Program, which would lead to children 
dying from preventable diseases and abandon the 20 million 
people currently at risk of famine.
    These reductions would take an especially severe toll on 
women and girls who already bear the brunt of crises and face 
discrimination in too many corners of the world. Reducing our 
commitment to improving the lives of women and girls abroad is 
not American values as I know them.
    Working to reduce global suffering is a bipartisan goal, 
one that is rooted in the fundamental generosity of the 
American people and our country's national security needs. 
Foreign aid is not a Democratic or Republican cause; it is an 
American cause and the right thing to do.
    In March, you said, ``People who have worked with me know 
that I have no tolerance for unmet promises and inaction. My 
team is about action, reliability, and results. We demand that 
of ourselves, and we expect it of others.'' Your words and your 
actions to date give me some hope.
    But looking at this budget, I worry we lose the high 
ground. We lose our ability to rally other nations in times of 
crisis and abdicate our leadership in the world. At this time 
of unprecedented human suffering, we are looking to you to 
ensure these fears do not become realities.
    At this time, Mr. Chairman, I ask unanimous consent to 
place in the record a letter from Mars, Walgreens, and Becton 
Dickinson & Company in support of our full fiscal year 2018 
funding of United States financial obligations to the U.N., as 
well as a letter from nine former U.S. Ambassadors to the U.N. 
urging support for payment of assessed and voluntary 
contributions to the U.N.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Rogers. Without objection, the letters will be placed 
in the record.
    Mrs. Lowey. Thank you.
    [The information follows and additional information can be 
found on pages 333-335:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. We are pleased to have the chairman of the full 
committee with us today, Mr. Frelinghuysen.
    Chairman.

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Thank you, Chairman Rogers. I too want 
to welcome Ambassador Haley to the Committee and welcome her 
testimony and her leadership on many critical issues.
    Madam Ambassador, as we sit here today, the United States 
is the largest contributor to the United Nations budget 
reflecting our position as the world's largest economy and our 
nation's ideals to help others in need.
    In addition, our taxpayers support the lion's share of the 
funding for such important agencies, the World Food Program, 
the United Nations High Commissioner for Refugees, that are 
absolutely vital as the world's largest humanitarian disaster. 
And I am sure there will be a focus on it today.
    What is happening in Syria deepens, and famines develop in 
places like Yemen, South Sudan, Somalia, and Nigeria. We know 
too that we have 62 million people that are displaced or in 
refugee status. So the world is in a mess, and part of our 
obligation is to address it as Members of Congress and as you 
as our representative to the United Nations.
    I am concerned, while I believe in the notion of burden 
sharing--I think the administration has it right--there have 
been some significant cuts to a variety of agencies and 
operations which do concern me. For example, the White House 
budget office seeks to eliminate all funding for the 326 
million international organizations and programs account and 
has suggested a 40 percent cut to the U.N. peacekeeping budget.
    As you are aware, the United States has contributed more 
than $2 billion to the U.N.'s $8 billion peacekeeping budget 
last year. May I say, we don't excuse bad behavior of those who 
are part of those peacekeeping teams, but better those teams 
than our military, in those instances, being involved.
    It is my long view that it is important to work with 
international bodies such as the United Nations. And may I put 
in a plug also for the amazing network of NGOs, nongovernmental 
agencies, including the work of the Gates Foundation. I hope 
that we marry our own financial efforts with a lot of those 
private faith-based efforts. I think that is absolutely 
essential.
    With that said, I do not believe that the deep cuts to 
foreign assistance proposed by the administration are 
sustainable or advisable for a nation that expects to protect 
its own national security and the freedom of people everywhere.
    If our goal is to promote peace, combat poverty, and 
provide humanitarian assistance where needed, we have to 
encourage U.N. reform. And I agree with a lot of the sentiments 
of Mr. Rogers that we must do it while supporting important 
programs that are absolutely needed.
    In our discussion with Secretary Tillerson, we pointed out 
what you know well: we need to marry our diplomatic power, the 
soft power, with military power to be effective.
    Again, I welcome you to the Committee, and admire your work 
at the United Nations.
    Thank you, Mr. Chairman.
    Ambassador Haley. Thank you.
    Mr. Rogers. Madam Ambassador, we want to turn to you now 
for your statement. The written statement will be placed in the 
record. We invite you to summarize it for us.

                 Opening Statement of Ambassador Haley

    Ambassador Haley. Thank you, Chairman Rogers, Ranking 
Member Lowey, Chairman Frelinghuysen, distinguished members of 
the Subcommittee. Thank you for the opportunity to discuss the 
United Nations and international organizations.
    Five months and two days ago, I was sworn in as U.S. 
Ambassador to the United Nations. I came into this position at 
a time when many Americans felt a deep sense of betrayal at the 
U.N. in the wake of the passage of Resolution 2334.
    At my confirmation hearing, I made the following promise: 
If I am privileged to be the U.S. Ambassador, I will never sit 
passively while America's interests and America's friends are 
run down at the U.N. Five months later, I can say that I 
haven't been quiet on the issues important to the United 
States, and I can say this: I have kept my promise.
    Our friends and our rivals know that America has, once 
again, found its voice at the United Nations. The international 
community is now very clear about what the U.S. is for and what 
the U.S. is against. It wasn't long after my confirmation that 
my promise was put to the test.
    In early April, the Syrian regime dropped chemical weapons 
on Syrian children. We forced the Security Council to hold an 
open emergency session, which some members didn't want. We drew 
a red line: If the U.N. would not act collectively, the United 
States would act alone, and we did.
    We brought new accountability to the North Korean regime. 
When North Korea continued its illegal missile test, we brought 
all the nations of the Security Council together, including 
China and Russia, to impose new sanctions. Even as we focus on 
North Korea's nuclear and missile threat, we also continue to 
highlight the barbaric human rights violations the regime is 
committing. Otto Warmbier's death brought home to Americans the 
brutality that North Koreans have known for decades.
    The same clear voice we have used to take on our 
adversaries we have also used to support America's values and 
America's friends. Thanks to U.S. leadership, human rights are 
at the forefront of the U.N. agenda.
    For the first time ever during the U.S. Presidency of the 
Security Council, we convened a meeting dedicated solely to the 
protection of human rights and their relationship to conflict. 
We made the case that human rights violations and conflict are 
directly related. History has played out that when governments 
don't respect the rights and voices of the people, conflict 
will soon follow.
    We have also called out the U.N. Human Rights Council for 
legitimizing human rights violators at the expense of their 
victims. We have put forward reforms to make the Council what 
it was meant to be, a place of conscience for nations and 
justice for victims. I traveled to Geneva earlier this month to 
make it clear to the Council that continued U.S. participation 
is contingent on adoption of these reforms.
    On a related note, the U.S. mission now refuses to tolerate 
one of the U.N.'s most disreputable and dangerous habits: 
obsessive bashing of Israel. We forced the withdrawal of a 
false and biased report, and we have steered the Security 
Council's monthly debate on the Middle East away from unfairly 
targeting Israel and toward the true threats in the region, 
such as Iran and Hamas.
    In the areas in which the U.N. has real value, we have 
built on its good work. Peacekeeping is one of the most 
important things the U.N. does. We are reviewing each of our 
peacekeeping missions with an eye toward ensuring that we have 
clear and achievable mandates.
    We are also working to ensure that troops are ready, 
professional, and committed to the safety of civilians on the 
ground. Troops in the U.N. peacekeeping mission in the 
Democratic Republic of the Congo, for instance, have long faced 
charges of sexual abuse and other serious misconduct.
    We inserted clear instructions into the mission's most 
recent mandate to enforce performance standards of troops. 
There is no place in any U.N. peacekeeping mission for 
predatory and abusive troops.
    Our peacekeeping reforms are aimed at producing more 
effective missions for vulnerable citizens. We will hold 
governments accountable to their responsibility to protect 
their own citizens while also cutting down on waste and 
inefficiency.
    We have adapted the mission in Haiti to changing conditions 
on the ground and are on target to save at least 150 million 
for the year. We will continue our reform efforts when we take 
up the peacekeeping mission renewal this month in Darfur, 
Sudan. Our efforts will hold the government accountable to 
improve humanitarian access.
    Mr. Chairman, thank you for this opportunity to highlight 
our efforts to reassert U.S. leadership at the United Nations. 
It is hard to believe that it has just been 5 months since I 
moved my family to New York to begin this exciting and 
challenging new chapter.
    I look forward to more progress in the months ahead, and I 
welcome your questions. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rogers. Thank you very much, Madam Ambassador. The 5 
months have passed in a very speedy way, but I guess that old 
saying about time passes when you are having fun applies here.
    There is an immediate matter that has just come about, and 
the White House is alleging that the Syrian Government is 
preparing or has been preparing for another chemical attack 
inside Syria. What can you tell us about that, and what would 
we do?
    Ambassador Haley. Well, I think the White House put out a 
statement, and I think that is accurate. They have seen 
activities that are similar to preparations of a chemical 
weapons attack, much like what we saw on April 4. And I believe 
that the goal is, at this point, not just to send Assad a 
message, but to send Russia and Iran a message, that if this 
happens again, we are putting you on notice.
    And my hope is that the President's warning will certainly 
get Russia and Iran to take a second look. And I hope that it 
will caution Assad from the fact that we don't want to see 
innocent men, women, and children hurt again.
    Mr. Rogers. Thank you.
    Let me ask you about peacekeeping costs. Back when I 
chaired the Commerce, Justice, State Subcommittee in the 1990s, 
one of the issues that we made some progress on at that time 
was the peacekeeping assessment rate. However, the U.N. 
continues to overcharge the U.S. compared to other countries. 
We pay more than China, France, Russia, and the U.K. combined. 
Meanwhile, overall peacekeeping costs have skyrocketed. In 
2006, there were 16 peacekeeping missions at a cost of $1.15 
billion to U.S. In 2016, there were 18 missions, just two more 
than 2006, yet the cost more than doubled to $2.5 billion.
    Because many of these missions seem to be on autopilot, we 
included language in the 2017 bill that Ms. Granger put 
together directing the Secretary to work with the U.N. to 
evaluate and prioritize peacekeeping missions and to consider a 
drawdown when mission goals have been achieved.
    What can you tell us about your efforts to get other 
countries to pay their fair share? And what can you tell us 
about your efforts to review current missions? Can any of them 
be downsized or even terminated?
    Ambassador Haley. Thank you, Mr. Chairman, for your 
question.
    I will tell you that it is something that we took on the 
second we got there. With every peacekeeping renewal that came 
forward, we stepped back and said, is it actually helping the 
people on the ground? We looked at what the political solution 
was. We also looked at the environment of how the troops--were 
they trained, were they doing their job, all of those things, 
and was it necessary with looking at what a possible exit 
strategy would be.
    Every mission is different. So there is no way just to cut 
and change those. But what we have seen in the U.N. in the past 
is, if there was a challenging area, they thought they would 
just throw more troops at it. Well, if the troops aren't 
trained and the troops don't have equipment, then what is the 
point of sending the troops?
    So looking at each renewal, what we have done is try to get 
the spending smarter. And we have drawn down each of the 
peacekeeping missions to make sure that nothing will harm the 
citizens on the ground.
    And I will tell you, I am very pleased with my team. As of 
last week, we were dealing with budget negotiations at the 
U.N., and the U.N. peacekeeping budget we were able to 
negotiate down $.5 billion already.
    And we will continue to look at each mission with the 
importance of peace and stability in the area but also with the 
importance that we are not going to continue to do this just 
because we always have.
    Mr. Rogers. Well, the U.S. contribution rate right now is 
at just over 28 percent. It is in the statutes of the U.S., 
however, that there is a cap on the percent that the U.S. is 
allowed to pay is 25 percent. And it will be the work of this 
Chairman, and I hope the Subcommittee and Full Committee, and 
the Congress, to keep that rate at 25 percent, no more, to 
abide by the law. What do you say to that?
    Ambassador Haley. I think that you can comfortably do 25 
percent, because I have talked with the Secretary-General. We 
have looked at the missions. He is aware that the U.S. would go 
down to 25 percent, and that it is sustainable.
    He too has been reform-minded and realizes that 
peacekeeping missions have gotten too large or ineffective. And 
so on certain ones, he has been a very good ally in working 
with us on what needs to happen in peacekeeping missions and 
making sure these reforms go forward. So I think you could 
comfortably know that if you went to 25 percent, you are not 
harming an area from peace and stability.
    Mr. Rogers. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    As you heard, I am concerned that the President's budget 
would make America less safe by diminishing our position at the 
U.N. First, is there a value to U.S. participation in the U.N. 
and its specialized agencies like UNICEF, U.N. Women, the World 
Food Program, the IAEA, WHO, and the U.N. Population Fund? And 
what impact will the President's budget have on continuing the 
war on al-Qaida, the Taliban, and ISIS, our leadership on the 
Security Council, our ability to impose meaningful sanctions on 
Syria, North Korea, Iran, and other rogue nations?
    And in your opinion, is participation in the U.N. in our 
national security interest, and is it important for our nation 
to pay its dues on time and in full? And when the U.S. makes a 
commitment, does the Trump administration stand behind it?
    Ambassador Haley. Thank you for all of those questions, and 
I will do my best to answer them.
    I can tell you that the way I looked at this position was 
my job was to go to the U.N. and find value and to report back 
honestly what I saw in terms of what was good and what could 
use improvement.
    I know that the President's budget sits in one place, and I 
know that Congress will decide where it is going to be. I see 
my role as to have you utilize me for information so that you 
can make the decision and you and the President can come 
together on what that budget should look like.
    I have seen value in the U.N. What I can tell you is every 
ambassador that goes to the U.N. is considered the best and 
brightest of the President. They have the ear of their 
President. Negotiations are very possible at the U.N. and do 
happen and they happen very quickly.
    So I think that when you are a part of an organization, it 
is what you make it. What I am trying to do is make sure that 
the U.S. voice is strong. I am trying to use it for 
negotiations in every way possible. I am trying to use it to 
push foreign policy, which I think it is a great avenue to do 
that. But at the same time, the U.N. has fat around the edges. 
And I can tell you that other of my colleagues at the U.N., 
when we talked about reforms, whether it be peacekeeping or the 
regular budget, they are all in support of that and they 
actually all want to see value for their dollar as well.
    There are many good organizations that do good work for the 
U.N. and help people around the world. I think the best way to 
approach those organizations going forward is ask them the hard 
questions, because I think a lot of those organizations assume 
that you will always give them money, and in a lot of cases, 
they do great work. But we all have to trim around the edges, 
and we all have to say, are we spending in a smart way? Are we 
actually giving the American taxpayers value for their dollar? 
And is it actually doing what it is supposed to to help the 
people on the ground?
    So I do see signs of improvement. I do see that we could do 
a lot more improvement. But I absolutely see the U.N. as a 
place where the U.S. can lead through voice, through actions, 
and continue to be the leader that it has been but continue to 
show our power a little bit more.
    Mrs. Lowey. I appreciate everything you said. But 
specifically, could you comment on the effectiveness of UNICEF, 
U.N. Women, the World Food Program, IAEA, WHO, and the U.N. 
Population Fund? Is there value?
    Ambassador Haley. So there is value in some of those, 
obviously. UNICEF, I went to Jordan and Turkey to look at the 
Syrian refugee situation. And I can tell you the work that 
UNICEF is doing on the ground is fantastic, and they really are 
changing lives there in Syria for the better.
    When it comes to the World Food Program, I am proud to say 
that we do have an American leading the World Food Program now 
and a former Governor of South Carolina, David Beasley, and he 
also understands that our goal is to make sure that we are 
being effective in delivery and that we are making sure that we 
are getting the access to those that really need it.
    I think that the IAEA, certainly, that is an important one 
as we are looking at the nuclear situations that we have and 
threats that are around the world. We need to keep that. OPCW 
is another one that I know we have seen value from--especially 
with the chemical weapons usage and to be able to manage that 
appropriately.
    So there are some good ones, but I do think that we need to 
always think about how we can spend smarter and what we can do 
to make sure it is most effective.
    Mrs. Lowey. Thank you very much. We will save the rest of 
the questions.
    Ambassador Haley. Thank you.
    Mr. Rogers. Chairman Frelinghuysen.
    Mr. Frelinghuysen. Briefly, on Syria, I like the notion of 
a red line. Over the last couple of years, it was sort of 
unclear what our foreign policy is relative to Syria. I think a 
lot of Americans are unaware of how committed we are to Syria, 
that we have troops on the ground doing some amazing things.
    Some have suggested that they are in a bad place doing good 
things. Is there a shift? Where are we relative to the issue of 
regime change? Or is our focus on the annihilation and 
destruction of ISIS? Has there been any--could you clarify what 
our foreign policy goals are in Syria?
    Ambassador Haley. Syria is very, very concerning. And I 
went there, you know, to Jordan and Turkey, myself, as well as 
to the Israeli border to see what the situation on migration 
was as well as the status of the refugees there on the ground.
    We are at a place where a political solution is going--it 
has to happen. The conflict there now has so many players in it 
that it has caused it to be more complex, but it is important 
that the U.S. be involved.
    I think that it set Syria back quite a bit when the red 
line was drawn a few years ago and not followed through on. One 
of the best things that happened, I think, was when Assad did 
do the chemical weapons attack against those men, women, and 
children, the fact that the U.S. acted so quickly and that the 
President made that decision and struck as fast as they did, 
the overwhelming response I got from ambassadors was, it is 
good to see the U.S. lead again.
    And I think in seeing the warning that the President put 
out last night, it is very much letting them know, we are not 
going to give you a pass for using chemical weapons on men, 
women, and children.
    It would be good if we could get the Iranian influence out. 
That needs to happen. I think Assad is beyond brutal. I think 
he is barbaric in many ways. I don't see a healthy Syria with 
Assad in place.
    But the U.S. priority has and continues to be to defeat 
ISIS. And we also believe that a healthy Syria won't happen 
with Assad in place. So I don't think we have to pick one or 
the other; I think that ISIS is always going to be our 
priority. But I think we should always be realistic about the 
dangers of Assad and what that leadership means.
    Mr. Frelinghuysen. Thank you.
    Thank you, Mr. Chairman.
    Ambassador Haley. Thank you.
    Mr. Rogers. Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Good morning.
    Ambassador Haley. Good morning.
    Ms. Lee. Good to see you, Madam Ambassador.
    Ambassador Haley. Good to see you as well.
    Ms. Lee. Let me first say, I wanted to associate myself 
with the remarks of our ranking member, Congresswoman Lowey, 
and just preface my remarks by saying--and I say this each time 
we have one of our top officials here--that I am reminded of 
Steve Bannon's statement that their agenda and their goal was 
to deconstruct the administrative state.
    And as I see these budget cuts across the board, it is 
unbelievable how we are just really deconstructing our 
government, our role in the world. And to see our officials 
supporting this and justifying it is quite troubling.
    I wanted to ask you, one, about Africa. I see that you have 
a 72 percent cut from the Africa Development Foundation. And it 
is my understanding now that this administration is viewing the 
continent of Africa from a military perspective rather than 
providing for development assistance, aid, trade. They are more 
military engagement. New York Times laid that out pretty 
clearly yesterday.
    Is this, again, consistent with what we are seeing now in 
terms of disengagement from the continent of Africa in terms of 
our development assistance and playing more into the military 
engagement?
    Ambassador Haley. I think that the U.S. is very much--very 
much has Africa on its radar, because we look at the 
instability in certain areas of Africa. We are very aware of 
the famines that are taking place and what that is doing and 
the fact that they are manmade and that we have political 
challenges as well as access challenges to humanitarian issues.
    Having said that, I will tell you that I work closely with 
General Mattis as well as General Dunford on the African issues 
in the areas. When we are dealing with peacekeeping efforts, I 
always check with them to make sure that we are keeping the 
right amount of force there and that we are doing the right 
things.
    We just worked on the G5 Sahel to make sure that we were 
working with the African countries to make sure--as well as the 
AU, to make sure that we are countering terrorism in those 
areas, and we are very focused on famine.
    So I would tell you, we are not disassociating from the 
issues in Africa. I will be going there in the fall to make 
sure that we look at it hands on and are dealing with it with 
the proper way from the United States. But what the U.S. is 
looking to do is work through the U.N. to get a lot of those 
issues resolved. And just like we did with the G5 Sahel and as 
we are doing with each peacekeeping mission, we will continue 
to do that.
    I have met with the head of the AU as well as continue to 
work with the African ambassadors on these peacekeeping 
missions as well as on funding as we go forward.
    Ms. Lee. Well, you do know this budget impacts the 
continent of Africa in many, many ways as it relates to their 
development needs from the past. Look at famine, for example. 
You know, the security situation, of course, is intertwined 
with access to food in many of these countries. Yet the cuts in 
peacekeeping, you know, will impact the humanitarian assistance 
in South Sudan, Somalia. This is going to worsen if our 
peacekeeping mission is cut.
    How are we coordinating our efforts with regard to famine, 
and are countries stepping up? We did close to 1 billion. We 
want to know what is taking place with other countries. And are 
you or your office, are you helping to facilitate the--I think 
it is now 6 billion that is needed to address the famine?
    Ambassador Haley. Yes. And first of all, thank you for the 
1 billion towards the famine effort. It was very important and 
very much needed.
    I think that my job is really to help facilitate between 
the President and Congress on how we can come together on how 
to properly fund the things that are needed. And so I can tell 
you, I have been very engaged in terms of the famines. We are 
watching those closely. Yes, other countries are contributing, 
but we are encouraging them to contribute more because the 
situation is dire.
    South Sudan fell off the famine list, but it is still a 
very dangerous situation, and it is--the food and security 
there is continuing to be a problem.
    And then you add Somalia and you add in Nigeria and Yemen. 
Our focus is very much on the port in Yemen to make sure that 
humanitarian access is coming through. It is making sure that 
we are fighting Boko Haram and Al-Shabaab as we go forward, and 
then just making sure that we are looking at the political 
solutions in all of those.
    Ms. Lee. So we are leading in the effort, though, to try to 
raise the additional funds?
    Ambassador Haley. You will see us be very strong on African 
issues and African peace and stability.
    Ms. Lee. In terms of the famine, are we trying to leverage 
our 1 billion to get to the 6 billion from other countries?
    Ambassador Haley. Yes, we are. We are working with the 
Secretary-General on that, and, yes, we are keeping famines at 
the forefront.
    Ms. Lee. Okay. Let me ask you one more question with regard 
to UNFPA. Unfortunately, of course, we have defunded UNFPA. And 
when we met, we talked about where that 70 million in funds 
will be going, and you indicated you would let us know. Do you 
know yet where--we haven't heard back from your office with 
regard to where that 70 million is.
    Ambassador Haley. Yes. We did send a letter to your office 
shortly after to let you know exactly where that is going. But, 
basically, the administration did not fund UNFPA because we 
know that the UNFPA has associations with a Chinese company 
that does forced sterilization. And so for that reason, they 
did pull that away.
    Having said that, all of that money went directly to global 
health to make sure that the same things were happening but 
just in a way that the U.S. agreed with. And so that is--we are 
still as focused on women and children. We are still as focused 
on family planning and focused on all those health and 
humanitarian issues that we need to be.
    Ms. Lee. Okay. Thank you very much, Ambassador Haley.
    Ambassador Haley. Thank you.
    Mr. Rogers. I now recognize the immediate past chairwoman 
of this Subcommittee, Ms. Granger.
    Ms. Granger. Thank you very much.
    Thank you for being here and the work that you are doing.
    Ambassador Haley. Good morning.
    Ms. Granger. I have two questions. One has to do with the 
U.N. Security Resolution 2334 that you mentioned when you 
opened, where we asked that that be repealed or fundamentally 
altered. So it is no longer so one-sided against Israel, a very 
anti-Israel resolution, and so what is your continuing support 
of that, to that change?
    The other question I have--first of all, I want to say how 
much I associate my comments with Mrs. Lowey and Chairman 
Frelinghuysen about the cuts and what we are doing. I served 
for 8 years on the Subcommittee on Foreign Operations and 
chaired it for 6 of those years and then have served on 
Defense.
    And it wasn't until I served on that Subcommittee that I 
really understood and saw worldwide how important that 
partnership is. And it is not just the money the United States 
gives. It is the partnerships, the leadership. And we are the 
world leaders. And so when we say--when we go say peacekeeping 
is important as well as a strong defense, we mean it. And I 
think some of the cuts have sent just a shockwave around the 
world saying, is the United States stepping back?
    You mentioned trimming around the edges, but some of these 
cuts are massive and they are just devastating. And I learned 
so much on that Subcommittee of having meetings like this. But 
going and seeing it and really understanding how much we give, 
I would beg you to really to stand firm in that.
    Of course, we need to use our American dollars well. But 
our leadership is irreplaceable. So I would like to know, you 
know, what is the future? What do we see? We are also your 
partners in the Congress. You know, it is the administration, 
it is the Congress. And we work together. We have different 
responsibilities. But how are you going to work with the 
Congress so that we will have our voices heard and our bills 
respected? Thank you.
    Ambassador Haley. Thank you. And I am going to take the 
cuts first, if you don't mind.
    I think that--I really do want to be a conduit between 
Congress and the President. I think that we can very easily 
come together in which everybody is happy. I will tell you that 
the cuts that the President and the administration proposed did 
send shockwaves through the United Nations, and it did put 
everyone on notice.
    But I do think that wasn't necessarily a bad thing. I think 
that if he was intending to send a message, he did. What we saw 
in return is they all understand that we won't be taken for 
granted anymore. They all understand that we expect to find 
value in the U.N. They all understand that reforms are needed, 
because it has been archaic for a while, and that they realize 
they have to support us in that. They do realize that we are 
now watching the U.N. very closely. So all of those things are 
actually really good.
    Now we have to say, okay, where do we go from there. The 
U.S. is a leader and needs to continue being a leader on so 
many of these issues. And I think that there is a way that we 
can come together on what that looks like so that we can go 
forward.
    Because it is very true: If we are not helping on the 
humanitarian efforts, if we are not helping in the peacekeeping 
efforts, it does cause instability, and it does worry us on 
that front. And our job is to make sure every area is stable so 
that we can focus on our country and focus on making sure that 
everything is okay.
    So I certainly look forward to partnering with the 
administration and Congress to make sure that you get a budget 
that you can work with, and I will certainly work with whatever 
you give to make that happen.
    In reference to 2334, I did put everyone on notice that the 
U.S. saw that as a kick in the gut, and that it was something 
that really put a dark cloud over the U.N. and made people 
question why we were there. Since then, there is not a lot of 
talk about 2334. They know not to bring it up. I don't see an 
option to repeal it. That is a very hard thing to do, to repeal 
it. But what we are trying to do is change the rhetoric.
    And I can tell you, my first hearing on Israel, I didn't 
know that much about it, but I had heard; I could not believe 
how abusive it was. It was like the kid in the schoolyard that 
gets beaten up. They were just continuing to beat him up 
because they could. And now what we have said is, we are not 
going to put up with that anymore. You know, we are going to 
call out every time you do something. We are going to call you 
out every time there is any sort of bias situation, and we are 
going to call out so that there is fairness in the situation 
and balance.
    And so we certainly have a long way to go, but I will 
continue to be loud on all of those things.
    Ms. Granger. Thank you.
    Ambassador Haley. Thank you.
    Ms. Granger. I trust you will. Thank you.
    Mr. Rogers. Mr. Ruppersberger.
    Mr. Ruppersberger. First, I usually don't say this, but I 
am very impressed with your testimony.
    Ambassador Haley. Thank you.
    Mr. Ruppersberger. I look at your background, you were a 
Governor, so you managed. And when you are a Governor or in 
local government, it is endgame. You have to balance your 
budget. You have to manage people.
    So far I know a lot of us in this country are concerned 
about where we are. It was mentioned about Bannon's 
deconstruction of the administration, which worries us. But 
when I see people like General Mattis, Dunford, and now you 
that communicate, that speak truth to power, and I think that 
is important.
    You know, our President has a tendency to tweet sometimes. 
I say, please tweet--please lead not tweet, whatever that is. 
But you have to deal with that. And I am not asking you 
questions about your boss. But just your answer that you just 
gave about there are some good things about letting the world 
know that we are going to hold you accountable for expenses and 
those type of things.
    Now, with that said--oh, and I do want to get into the red 
line too. When I look back at President Obama--and he did good 
things, some things that didn't go as well. I think when you 
say there is a red line, you don't follow through, a lot of the 
countries and ambassadors, leaders that I have met with, our 
allies were very concerned, are they going to back us. And we 
need to make sure we project that.
    America is the greatest country in the world. We don't have 
to make it better. We are always going to work to make it 
better. But we have to make sure that our allies know we are 
there. And so what I want to hopefully--that when we say we are 
going to be behind something, we do it.
    If you look at the world right now, you need strength to 
have peace. And we have the strength and we need to project 
that. And, hopefully, that will bring peace. Now, that is my 
statement.
    Let me get to North Korea. North Korea, you know, is 
building a nuclear weapon. It is very dangerous. It could hit 
the United States. It is probably the most dangerous issue 
today. I mean, we have Russia, China, we have ISIS, we have all 
those things that are happening. There is also, you know, right 
now, more information about Iran and North Korea working 
together.
    On May 17, you made a statement about North Korea, and you 
said, ``I would caution the countries that have worked well 
with China. They have really tried to help us in our 
communications with North Korea, but we have seen where they 
have strength in sanctions. Other countries are trying to fill 
that void. And I will tell you that if you are a country that 
is supplying or supporting North Korea, we will call you on it. 
We will make sure that everyone knows who you are, and we will 
target those sanctions towards you as well.''
    I am leading to Russia, by the way.
    Ambassador Haley. Yes.
    Mr. Ruppersberger. What other countries might be helping 
North Korea skirt international sanctions, and what should our 
response be to these countries, including Russia? I am 
particularly concerned about Russia filling the void. China 
seems to be coming closer to us right now, working with us, and 
helping North Korea avoid the important impacts of 
international sanctions. China wanted to delay for a long time, 
but I think they are getting to a point they realize they can't 
keep doing that, and they don't want chaos there either.
    So could you answer the question about what we need to do, 
your statement, and where we go from here?
    Ambassador Haley. So I agree with you, North Korea is a 
huge concern for us. I think you are dealing with a leader who 
is paranoid. He thinks that we are trying to assassinate him. 
He thinks we are trying to overthrow him. And through that, he 
is making decisions that would lead to massive instability in 
the region.
    Having said that, we have been strong. We had the Security 
Council come together, and we did just enforce new sanctions, 
in which China and Russia were with us, enforcing new sanctions 
on those companies that had anything to do with the missile 
launches of what happened a couple of months ago.
    We are continuing that pressure. The pressure on China 
can't stop. What we have seen is, while they have worked with 
us and while they are continuing to work with us, North Korea 
started to attack them publicly, and we have seen them calm 
down and back off a bit.
    And so that pressure needs to continue to stay there. We 
have to have China doing what they are supposed to. At the same 
time, all other countries need to make sure they are enforcing 
the sanctions that the Security Council has already put in 
place. And we are continuing to try and get countries to do 
that.
    Yes, I am concerned that Russia may backfill North Korea. 
That is always a concern. It tends to be their habits that, 
when there is a void, they try and fill it. We are seeing more 
and more of that internationally. We don't have proof of that, 
but we are watching it carefully.
    And I think that at this point, we just need to keep the 
pressure on China. We need to keep our eyes on Russia. And we 
need to continue to let the North Korean regime know we are not 
looking for regime change and we are not looking for 
assassinations. We just want them to stop the nuclear activity.
    Mr. Ruppersberger. I have 20 seconds, but I do want to get 
into the issue of our threat, again, with Russia and Russia 
coming back and warning us. Where is the status there? What 
should our strategies be about the red line and we will react 
and then Russia's response?
    Ambassador Haley. In terms of this morning?
    Mr. Ruppersberger. Yes.
    Ambassador Haley. Well, I think Russia is obviously wanting 
to step away from Assad, but you can't do that at the time 
that--Russia has been a friend of Assad. We have said that he 
is a liability and they should see it that way.
    It is important that Russia realize we know the connection 
between Assad, Iran, and Russia, and we are going to continue 
to call them out on it. And I think they have to make a 
decision. Either they allow Assad to go forward with a chemical 
weapons attack and they get associated with it or they try and 
get this to stop.
    Mr. Ruppersberger. I yield back.
    Ambassador Haley. Thank you.
    Mr. Rogers. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.
    First, Madam Ambassador, if anybody has any question about 
the importance of what one person can do with clarity and 
leadership, they just have to look your way. And I will tell 
you that you have been a breath of fresh air, and it is great 
to have somebody there who understands the world as it is and 
not as we hope it is.
    We can talk about hopeful deals about, in the mid-1990s, to 
stop North Korea from getting nuclear weapons and that was 
hailed as this great deal and that didn't work, or we can go 
closer to where we are today and talk about wonderful, hopeful 
deals with the Russians and Assad to eliminate chemical 
weapons, and that obviously was hailed, but hope is not always 
good public policy. So, again, you are a breath of fresh air.
    To Mr. Ruppersberger, I want to work with him. I tend to 
agree with everything he said, and he and I agree on a lot of 
things. I want to work with him, because, for example, speaking 
of North Korea, in 2013, the largest stash caught smuggling in 
violation of the U.N. sanctions against North Korea was 240 
tons of weapons materials to North Korea from Cuba. Strangely, 
the previous administration sanctioned corporations associated 
with North Korea, but they for some reason excused the Cuban 
side. That is something I would like to work with you, Madam 
Ambassador.
    I know the President has been really good about now 
treating that regime as it is. But the issue with smuggling 
weapons in North Korea is something that has not gotten--I 
think--enough attention. And I want to work with the gentleman 
from Maryland, but I also hope to work with you on that.
    Let me shift to Venezuela. You have been exceedingly clear 
there. Human rights violations continue to happen. More than 70 
people have been killed in demonstrations just asking for 
democracy. Leopoldo Lopez was seen shouting to his wife from 
prison that he has been tortured in prison.
    The OAS, by the way, has tried with a new secretary 
general, and I think we have to commend him for his efforts, 
but I think--I can't speak for him, but I think the OAS has not 
been as aggressive as we would like and I think even he would 
like.
    Any thoughts about what potentially the U.N. could do to 
deal with this worsening political and humanitarian crisis 
happening in Venezuela?
    Ambassador Haley. Thank you. First of all, we will continue 
to work with you as well on North Korea and those that choose 
to supply them with arms, as we are watching that very closely.
    When it comes to Venezuela, We have tried to bring as much 
attention to Venezuela as possible. The situation is worse than 
what you see on TV. It is a dire, dire situation, which is 
rapidly deteriorating.
    One of the things we did was we called an emergency 
Security Council meeting on Venezuela to get the Security 
Council to engage on this issue. They were all not happy with 
me calling that meeting. They all said that this was not about 
peace and security, which I beg to differ. It is definitely 
about peace and security. And they said that it needed to be 
taken up in the Human Rights Council.
    The Human Rights Council has never taken up Venezuela 
because Venezuela sits on the Human Rights Council, along with 
Cuba, along with Saudi Arabia, along with China. And so when 
you look at that, it really calls into question what the value 
of the Human Rights Council is when it comes to things like 
this.
    Having said that, we had the Security Council meeting 
anyway. We did discuss the situation. It is something that I 
wish the OAS would have been able to have success with.
    Having said that they haven't, it is important for us to be 
watching this carefully and continuing to call out Maduro for 
what he is doing and making sure that the rest of the world 
knows we are not taking our eyes off of Venezuela.
    Mr. Diaz-Balart. And you have been very clear.
    If I may, Mr. Chairman, let me focus on the Human Rights 
Council. Obviously, we understand that there is value in all of 
these international organizations. However, it is difficult to 
take somebody seriously if they don't take themselves 
seriously. And when you have a Human Rights Council made up of 
the world's worst human rights violators, and then yet we are 
asked to help fund it, it is clearly not an easy task.
    You have been vocal about it, but any ideas as to potential 
for reforming or for getting the U.N. to get serious about 
having a Human Rights Council that is actually not just bashing 
democracies like Israel and supporting dictatorships like 
Castro or Maduro, or et cetera?
    Ambassador Haley. I think the Human Rights Council can be a 
very important body if it functions properly. And that is the 
reason I actually went to Geneva to speak in person to them as 
opposed to just sending a statement from New York.
    And I told them that the United States wants to stay with 
the Human Rights Council, but they have to make changes for us 
to do that. And certainly, they need to have more competitive 
races so that we don't have these bad actors sitting on the 
Human Rights Council.
    They have to stop things like Agenda Item 7, which is 
specific just to Israel, where we don't have that specific to 
any other bad actor or country that we have in there. And we 
need to see them bringing up issues like Venezuela when it 
happens, because that is the role.
    I think the United States has a decision to make. We are 
always going to be strong on human rights, as we think that is 
directly correlated to peace and security. But do we continue 
to be on the Human Rights Council to do that? And that is up to 
the Human Rights Council. We have made our intentions known, 
and we hope that they will respond and act accordingly.
    Mr. Diaz-Balart. Mr. Chairman, thank you.
    Mr. Rogers. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Madam Ambassador, let me add my welcome to the 
Subcommittee, and congratulations on your appointment.
    Ambassador Haley. Thank you.
    Mr. Price. I would like to recollect a decision you made 
early in your tenure, February 10. Apparently, without any 
prior warning or expression of concern, the United States 
blocked the appointment of Salam Fayyad to become the next U.N. 
special representative to Libya.
    Now, Mr. Fayyad's qualifications for that position seem 
undeniable. He is former prime minister of the Palestinian 
Authority. He served as prime minister of the Palestinian Unity 
Government. He has worked at the World Bank, the IMF, the Arab 
Bank, and the West Bank in Gaza, the Federal Reserve Bank in 
St. Louis.
    He is probably the Palestinian leader with whom we have 
worked most productively, and the Israelis as well. Ron Dermer, 
the Ambassador, Israel's Ambassador to the U.S. called Mr. 
Fayyad a peace partner, the first Palestinian leader, he said, 
in the century who cared about the Palestinians.
    Your statement was brief but puzzling. You seem to imply 
that the appointment of Mr. Fayyad would be to the detriment of 
Israel and that blocking his appointment was an act of support 
for Israel. My question is, what happened? Did you or the 
administration view the blocking of Mr. Fayyad, a person who 
has arguably been one of the most influential and constructive 
Palestinians in support of the two-state solution, was that a 
way to support Israel? Did the Israeli Government ask us to do 
this?
    Now, there was some speculation that the blocking or 
approval of Mr. Fayyad would be linked to a possible U.N. 
appointment for Tzipi Livni, who, of course, would also be a 
great asset to the U.N. I haven't seen any recent reports about 
that.
    Was there any link to Fayyad's appointment to the potential 
appointment of Livni or another Israeli? Was Mr. Fayyad denied 
simply because of his nationality? Would any Palestinian have 
been blocked? As you know, this isn't a state representative. 
You don't have to be a state representative to be appointed a 
U.N. representative.
    So bottom line question: Is it the administration's 
position that support for Israel and support for the 
appointment of a well-qualified individual of Palestinian 
nationality to appoint at the U.N. are mutually exclusive?
    Ambassador Haley. Thank you, Mr. Price, for your question.
    I will tell you, Mr. Fayyad is what you say. He is very 
well qualified and is a good, decent person. I have heard great 
things about him.
    But it was not about Mr. Fayyad. It is about the fact that 
the U.S. does not recognize Palestine as a state. And because 
we don't recognize Palestine as a state and because that is how 
he was presented, we did oppose that position.
    We also at the same time brought to the attention of the 
Secretary General that here you have never had an Israeli that 
has held that high of a position, but you are putting a 
Palestinian in that position, and it needs to be fair and 
balanced.
    But the reason that we oppose Mr. Fayyad is that we don't 
recognize Palestine as a state, and Israel, yes, supported our 
decision in that.
    Mr. Price. Well, that does raise two questions. A, was this 
to be a state representative? And, B, would not that reasoning 
exclude anybody of Palestinian nationality simply by virtue of 
the status of the Palestinian Authority as certainly something 
considerably short of a state? But are we just saying that no 
Palestinian need apply?
    Ambassador Haley. I think at this point, since we don't 
recognize Palestine as a state, that is something that we are 
trying to be--we are trying to work with Congress. And what 
everyone has said, that we don't recognize Palestine as a 
state. It is the reason we are not involved in UNESCO, is 
because once they allowed Palestine to be a part of UNESCO, the 
U.S. withdrew funds--or withheld funds starting in 2011.
    And so I am trying to be consistent with what we have done 
in the past and what we continue to do. And so that is the 
reason that Mr. Fayyad was not--that we objected to Mr. Fayyad.
    Mr. Price. With due respect, that simply isn't an analogy. 
The question about UNESCO is a question that has to do with 
its--explicitly to do with its recognition and admission of 
Palestine as a state.
    You are here talking about a man's nationality. Not going 
to be a state representative. An eminently well-qualified 
individual, with a background with the Israelis, the 
Palestinians, and the U.S. that would suggest some unique 
abilities.
    You didn't say that the Israelis directly initiated this or 
requested it. This was our initiative. Is this some kind of new 
policy that no Palestinian can possibly, as long as the Middle 
East conflict is unresolved, that no Palestinian can be 
approved by this country to any kind of U.N. appointment?
    Ambassador Haley. Thank you, Mr. Price.
    What I can tell you is that we saw abusive actions 
happening at the U.N. towards Israel. And as long as those 
abusive actions are happening towards Israel, our job is to 
bring balance to the U.N. And putting Mr. Fayyad in that 
position would only have added to the bias against Israel, and 
that is not something we wanted to do.
    One of the things I said was we have the backs of our 
allies. And it was important for us to realize that, if Israel 
had been abused the way they were in the U.N., that all things 
needed to be considered as we were dealing with that. And if we 
don't recognize Palestine as a state, we needed to acknowledge 
also that we could not sit there and put a Palestinian forward 
until the U.S. changed its determinations on that front.
    Mr. Rogers. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Madam Ambassador, welcome.
    Ambassador Haley. Good morning. Thank you.
    Mr. Fortenberry. You have heard many expressions of our 
gratefulness for your leadership. But let me add, your passion 
as well as your steadfastness. We are very grateful for your 
willingness to appear here before us, but also the larger 
signals that you are sending regarding our appropriate new type 
of engagement with the international community.
    If I could, I want to show you something that was 
personally very impactful to me. I don't know if you can see 
this.
    Ambassador Haley. I can.
    Mr. Fortenberry. This is a gentleman named Omar, and this 
is in the town of Sinjar. And as you very much recall, Sinjar 
was a site where ISIS attacked and was on the verge of 
slaughtering massive amounts of the Yazidi community, women and 
children, men who were left as well.
    Due to the United States' quick intervention, many, many 
lives were saved. This gentleman, after Sinjar was cleared, he 
is now in the United States, but he returned to his town.
    And, again, he professes the ancient faith tradition of 
being a Yazidi. But when he went back to his own home, the 
Christian church next door was in absolute rubble. And with his 
own hands he fashioned this wooden cross and put it on top of 
the Christian church. And he said to me personally, he said, 
``These were my brothers.''
    In this area of northern Iraq, you have had a long 
tradition of pluralism where ancient faith traditions, 
Christian, Yazidis, other religious minorities as well as 
Muslims, have lived together and have created a tapestry based 
upon this idea of human dignity which flows from human rights.
    When ISIS began their direct extermination campaign against 
the Christians, the Yazidis, and other religious minorities, 
the House of Representatives rallied, and we passed a 
resolution declaring--we declared it unanimously--that what is 
happening there is genocide. Secretary Kerry, to his credit, a 
few days later followed with the full weight and moral 
authority of the United States Government, declared it to be so 
as well.
    What I would request of you, respectfully, is that you 
continue this essential work of elevating this issue, this 
fundamental assault on human dignity, this principle of 
civilization, before the body which you represent.
    If we could urge you, and if you would be willing to take a 
leadership role, to introduce a resolution, similar resolution, 
that says what is happening to these ancient faith traditions, 
who have every right to be there in northern Iraq, in Syria, as 
much as anyone else, what has happened to them is genocide, it 
continues to press the issue of international consciousness as 
to their plight, but also creates the gateways of the types of 
policy consideration which can potentially help the 
resecuritization, revitalization, as well as the repatriation 
of people who have had to flee and are nearby. So this has huge 
implications for migration as well.
    So is that something that you could consider and undertake, 
building upon the last conversation we had?
    Ambassador Haley. So, yes, we would like to work with you 
on that. But also the fact that when I got to the U.N., ISIS 
accountability--U.K. had been trying to get ISIS accountability 
moving forward for a while. And I think Iraq was very concerned 
about it, and they were worried that it was going to turn on 
them.
    We have since been able to get Iraq to start to consider 
this and move forward. So we have actually made great progress 
on ISIS accountability. It is so important for so many reasons. 
When these mass graves are found, the evidence is hard to keep 
if we are not actually collecting it. We can decide how to deal 
with it later, but it is very important.
    And certainly, with the minorities in the area, it is 
continuing to be more and more of an issue, and we need to put 
ISIS on notice. So the idea of having an ISIS Accountability 
Act, whether it is Yazidis, whether it is Christians, any of 
those, hopefully it will continue to let them know we are going 
to be watching, we are going to try and have accountability in 
that system. But we look forward to working with you on those 
resolutions.
    Mr. Fortenberry. If we can pursue this, it does several 
things. First of all, it gives the remnant of the community 
still there who had to flee, who are in the Kurdish areas, in 
camps in Turkey, many of whom are unaccounted for, in Lebanon 
as well, we are also talking about Syrian refuges who have had 
to flee as well, it gives them a sense of hope that there may 
be the possibility of, again, security measures forthcoming--
the administration has already talked about interim zones of 
stability--that we give the chance for, again, some measure of 
security that people can go back and reclaim their ancestral 
homelands.
    This is not only essential because of the issue of human 
rights and justice. It is essential for the long-term stability 
of the Middle East, which is inextricably intertwined with our 
own national security.
    Thank you, Madam.
    Ambassador Haley. I agree. Thank you.
    Mr. Rogers. Ms. Meng.
    Ms. Meng. Thank you, Madam Ambassador. Thank you and 
welcome.
    Ambassador Haley. Thank you.
    Ms. Meng. I wanted to follow up on your comments earlier 
about the U.N. Human Rights Council. And I was encouraged to 
see many of our European friends join us in boycotting its 
recent session regarding Agenda Item 7. I know you have talked 
about it. Do you have more specific steps on what it will take 
to remove Agenda Item 7? And what steps would you recommend the 
U.S. take if it is not removed?
    Ambassador Haley. Well, Agenda Item 7, you know, even from 
the like-minded countries in Geneva, when I met with them, they 
admitted that it really did diminish the Human Rights Council 
from being legitimate. And so they see it as a problem.
    I think that the U.S. is going to have to engage on this. I 
think we are going to have to try and talk to some of our 
friends about why they continue to push Agenda Item 7. And I 
have spoken with Secretary Tillerson about this as well. And so 
we are prepared to actually try and call different groups to 
see if we can get them to back off of Agenda Item 7.
    This is very much about--you can still bring violations up 
on Israel, but you can do it under Agenda Item 4. We don't need 
to have 7. And so I think it is going to take some coordination 
between the U.S., U.N, the State Department, and maybe even the 
President to get them to consider pulling Agenda Item 7 off.
    They are going to want something in return. That is the 
unfortunate part. But I think we can put enough pressure that 
maybe that is not the case.
    And we really haven't thought about whether that is the red 
line in terms of getting off the Human Rights Council. What I 
said to the members of the Human Rights Council is we want to 
stay on the Human Rights Council, but give us a reason to stay 
on. Show us that there is a reason to stay and that it is 
valuable.
    And so my hope is that they take it seriously, which I 
think they did, and I hope that they start to move forward. But 
we continue to call them out when we don't think they are 
acknowledging an issue or a challenge that the Human Rights 
Council should take up, and then we are praising them when 
working it as well.
    Ms. Meng. Thank you.
    My next question is about Hezbollah. It remains one of the 
world's most dangerous terrorist organizations. And although 
U.N. Security Council Resolutions 1559 and 1701 call for 
Hezbollah to be disarmed, the group continues to dramatically 
increase its weapons arsenal. It is estimated that the 
terrorist organization now has more than 150,000 rockets and 
missiles, more than 10 times what they had when Resolution 1701 
was adopted at the end of the second Lebanon war.
    Its arsenal, missiles and military hardware, surpasses that 
of many nation-states. Is the U.N. Doing anything to address 
the blatant violations of these resolutions by Hezbollah and 
its primary backer, Iran?
    Ambassador Haley. I very much appreciate you bringing this 
up, because that is something that should be on all of our 
radar. I recently went to Israel and the Palestinian Authority, 
and one of the things we did was go to the Lebanese border. And 
as we did, we saw what Hezbollah was doing. We saw that they 
are setting up.
    But the worst part is now they are building missiles and 
rockets right there in Lebanon, and the government is looking 
the other way, for whatever reason.
    We have a mission there. UNIFIL is there. And I actually 
spoke with the Israeli general as well as the U.N. envoy for 
UNIFIL there. They had two different stories. Israel has their 
back up. They know something bad is going to happen, and they 
are literally on notice ready. And we should all be concerned 
about that, and we should all be aware of that.
    UNIFIL, I am meeting with Secretary General today to 
discuss the fact that we have got to make sure that our 
troops--our U.N. troops in Lebanon are actually looking at what 
Hezbollah is doing and not turning the other way. They are not 
going into the areas where we know this is happening.
    And I think if they do nothing else but document and get us 
proof so that we can take Security Council action or do 
something along those lines, that is what I think needs to 
happen, and that is what I am going to try and encourage and 
work with the Secretary General on today.
    But you are exactly right. It is a real concern. And when 
the governments stop paying attention and when we don't have 
our U.N. organizations doing the right thing to make sure that 
we are at least acknowledging things are happening, then that 
is something that we have to change immediately.
    Ms. Meng. Okay. Thank you. I yield back.
    Ambassador Haley. Thank you.
    Mr. Rogers. We will now proceed with a second round, if 
that is okay with the Ambassador.
    Ambassador Haley. Yes, sir. Okay.
    Mr. Rogers. In 2015, the U.N. Security Council adopted 
Resolution 2231 calling upon Iran not to undertake any activity 
related to ballistic missiles designed to be capable of 
delivering nuclear weapons, including launches using ballistic 
missile technology. Iran continues to test ballistic missiles 
in defiance of that resolution as recently as last January.
    What action is the administration taking to persuade the 
international community to pressure Iran to abandon its 
ballistic missile program and abide by its commitments? Is the 
Security Council capable of addressing Iran in violating 2231?
    Ambassador Haley. Well, I think that it is no surprise that 
Iran is not abiding by a resolution. They are known not to do 
that. I think that anywhere there are problems in the world, 
Iran seems to be associated. And it is a concern. They have 
been in violation of that resolution in terms of testing, in 
terms of actual missile launches, as well as exporting weapons 
to the terrorist organization. So it continues to be a real 
problem.
    Yes, we would love to sanction Iran, and, yes, we will 
continue to be loud about it, and, yes, Russia will veto it. 
And that is the concern that we have when it comes to the 
Security Council.
    So I do think it is something the U.S. needs to look at, 
and I also think it is something that we need to continue 
pushing at the Security Council as best we can.
    Mr. Rogers. Is change of power in Iran an option?
    Ambassador Haley. I don't know.
    Mr. Rogers. Okay.
    Last month, the Associated Press reported that the World 
Health Organization routinely spends about $200 million a year 
on travel, more than it spends on AIDS, tuberculosis, or 
malaria. Travel. What is more, the article reported that staff 
routinely ignore rules designed to keep those costs in check.
    Now, I understand that this is an international 
organization mission around the world. Easy for them to lose 
sight that they are also stewards of public funds. I understand 
the importance of being able to travel. But do you need to stay 
at five-star hotels and fly first class on the taxpayers' 
money? What do you think?
    Ambassador Haley. Your concerns are valid. It is the reason 
why we need to look at every single organization that we give 
money to, to remind them that we are watching and remind them 
that spending in a responsible way is important.
    I can tell you that, since all this has happened, I know 
there is now a new Director at the World Health Organization. 
And, certainly, the Secretary General will continue to watch 
this closely as it did make and get quite a bit of attention.
    But it goes back to what I continue to urge the members of 
this committee, which is let's help keep all of these 
organizations responsible by asking the questions and making 
sure that they actually are putting that money towards those 
people we are all trying to help as opposed to any sort of 
overhead that is not needed.
    Mr. Rogers. Does the U.N. or any of its affiliations have 
enough rules and regulations in place to enforce the reasonable 
use of the expenditures for travel?
    Ambassador Haley. Well, I think it is something that I will 
bring up with the Secretary General today in terms of what can 
we do to have more transparency so that we see these things as 
they are happening or on the front end as opposed to finding 
out after the fact. But I do think there is more work to do on 
that.
    Mr. Rogers. Well, they are being excessive.
    Ambassador Haley. Very much so.
    Mr. Rogers. There needs to be some policing of expenditures 
like this.
    Quickly, let me ask you about Russia, who continues to 
undermine our efforts--Russia continues to undermine our 
efforts and the efforts of the Security Council on a whole host 
of issues.
    Nowhere has this been more apparent than in Syria where 
Russia has repeatedly used its veto to block measures to help 
the Syrian people and hold the Assad regime accountable. 
Despite those actions, I understand that President Trump has 
asked the Secretary to begin a reengagement process with 
Russia.
    What are your impressions thus far of Russian actions in 
the Security Council? How will a reengagement with Russia 
affect our interests and priorities at the U.N.? And if Russia 
continues to block our efforts in the U.N., will you continue 
to call him out on it?
    Ambassador Haley. Yes. I will always call out anyone that 
is challenging the United States. That is something that I can 
do well.
    I will tell you that when it comes to Russia, we have 
called them out multiple times, whether it has been with 
Ukraine--the U.S. just renewed the sanctions for Russia on 
Crimea. And in dealing with Ukraine, I think that we have 
called out Russia for how they continue to partner with Assad 
in hopes that we can somehow separate that.
    I think that Russia has continued to stop any resolutions 
from passing in reference to Syria. The last resolution on the 
chemical weapons, we were able to separate China and Russia for 
the first time. So Russia was standing on an island by itself 
in support of Assad. And so I do think that there is a chance 
they might see that he is becoming a liability.
    Having said that, Russia's tentacles are spreading out 
everywhere, and we need to be conscious of that. And I think it 
is in the U.S. interest to have dialogue with Russia and to try 
and find out where we can agree.
    On counterterrorism efforts, I think we absolutely can 
agree with Russia. On Syria, it would be good for us to talk to 
Russia on Syria and see if we can get them to work together 
with us on that. On North Korea, I think that if we could get 
them to also send a warning to North Korea, that could be 
helpful.
    So I think that it is important for us to be honest and 
call out countries when they do something wrong, but also try 
and find out, if there are certain issues that we think we 
could use their help on, try and keep that communication line 
open.
    Mr. Rogers. Thank you.
    Ambassador Haley. Thank you.
    Mr. Rogers. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    I want to return to the UNFPA issue, because it was earlier 
this spring that the Trump administration notified Congress of 
its determination that UNFPA was in violation of the Kemp-
Kasten provision.
    In my judgment, this determination was arbitrarily reached 
without a single visit to a UNFPA program. It distorted the 
facts based on unsubstantiated fabrications.
    In truth, UNFPA is a trusted partner that provides critical 
family planning obstetrics, pre- and postnatal services to 
women and their babies who would otherwise go without care.
    I understand you recently returned from the Zaatari refugee 
camp in Jordan where the U.S. supports UNFPA's programs for 
pregnant mothers. I understand 7,400 babies have been delivered 
in the camp without a single maternal death.
    A couple of questions. Were you able to visit these clinics 
during your visit? Were you briefed by UNFPA providers? How are 
U.S. interests served by pulling our support from UNFPA?
    The administration has the authority to allow UNFPA's 
humanitarian work, such as their work in Zaatari camp, to 
continue. How will you ensure that UNFPA's maternal health 
achievements are maintained, particularly in areas experiencing 
humanitarian crisis where no other providers of obstetric care 
are available?
    For example, UNFPA is the only provider of services in 
Yemen, Syria, Jordan, and South Sudan. What has the impact been 
to single out this provider?
    And let's remind ourselves, Kemp-Kasten is about 
involuntary sterilization and coercive abortion. Let's remind 
ourselves that any dollar spent in China is deducted dollar for 
dollar from UNFPA's budget.
    Why would you want to take assistance away from Zaatari 
refugee camp, a provider that is delivering 7,400 babies, 
helping people where they are going through such misery? I just 
don't understand it. Could you respond?
    Ambassador Haley. Sure. I agree with you on the importance 
of women's health, certainly with girls as well. I think that 
you will continue to see U.S. being a leader when it comes to 
women's health and trying to keep women and girls safe going 
forward.
    Having said that, it is just about which avenue do we do 
that. And UNFPA was not funded by the administration because of 
the relations of forced sterilization with a Chinese company. I 
think that that is what set it off, but I think there were 
probably a couple of other differences.
    Having said that, the global health organizations are 
receiving that same amount of money. We will make sure that 
that care gets out to all those areas that need it, because it 
is in the U.S. best interests to help them continue to have 
healthy babies and to make sure that everything is safe in 
terms of that. And I think you have seen that the Bush 
administration did the same thing.
    Ms. Lowey. I would like you to share with us the 
capabilities of the health organizations that are going to 
displace UNFPA health practitioners in Zaatari or other places 
where they have been so successful. Can you tell me that other 
health providers--just take one--are going to move in Zaatari 
refugee camp where 7,400 babies have been delivered by UNFPA, 
can you give me information that the other health providers 
have that skill?
    I have had three children, eight grandchildren. I am not 
sure I would go to just any health provider. I would want 
someone who has the skill to help me deliver those babies. 
Could you send me information about that?
    Ambassador Haley. I understand your concern. And, yes, we 
will send you additional information, especially with Zaatari 
camp, to let you know.
    Ms. Lowey. Now, has this transfer already begun since UNFPA 
has been asked to leave, or is there a gradual transition so 
that all the women can continue to get those important 
services?
    Ambassador Haley. I will get that information for you. When 
I was at Zaatari camp, that did not come up in terms of an 
issue that they brought to our attention. And so let me look 
into that, and I will make sure that we can get you some 
information on that.
    [The information appears on pages 330-332:]

    Ms. Lowey. When you were there, was UNFPA still in place?
    Ambassador Haley. I did not see any officials from UNFPA. 
The ones that I saw were the UNRWA officials. Those were the 
ones that I met with. And we looked at the schools. We went 
around the camp in other areas. But I did not see any officials 
from UNFPA.
    Mr. Rogers. Mr. Diaz-Balart.
    Ms. Lowey. Thank you.
    Ambassador Haley. Thank you.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Ambassador, you spent some time speaking about reform, the 
need to reform UN peacekeeping missions. And so one of the 
issues I wanted to talk to you about is, for the past few years 
this Committee under the leadership of Chairman Rogers and 
Chairwoman Granger have asked the Obama administration and 
Department of State to conduct an accounting, like a census, of 
the refugee camps near Tindouf in Algeria.
    And the U.S. has been providing, as you know, humanitarian 
aid for about a quarter of a century. We have been funding the 
U.N. peacekeeping operations, MINURSO, for over 25 years.
    And here is my concern, that despite all this money and the 
urging of UNFC, UNHCR, and a number of refugee rights groups, 
there has never been a true accounting of how many people we 
are actually helping in those refugee camps.
    Now, this spring, again, thanking you once again for your 
leadership, the UNFC again voted to include a provision calling 
for this census or registration to occur when MINURSO's mandate 
was renewed in late April.
    So I just want to--I am hoping that we can work with you 
and you can work with this Committee, this is something that 
this Committee has been doing now for a number of years, 
because I think it is important to just have more transparency, 
making sure that the money that we are spending, and it is been 
a long time and a lot of money, that it is, in essence, going 
to what we think it is going and to help the actual refugees.
    So I am just hoping that we can--that is one of those 
issues we can work together on.
    Ambassador Haley. Absolutely. And just to clarify, is that 
Western Sahara that you are----
    Mr. Diaz-Balart. Yes.
    Ambassador Haley. Referring to----
    Mr. Diaz-Balart. Yes.
    Ambassador Haley. I will tell you that we were very careful 
in working on that resolution. We had issues with the POLISARIO 
as well as the Moroccans in the Berm, and we would not renew 
the mandate until they both removed themselves from that, and 
they did. We are working on the registry and telling of the 
importance, and we are going to continue to make sure that we 
follow that mandate as needed. So we look forward to working 
with you on that.
    Mr. Diaz-Balart. Thank you.
    And, lastly, going back to Iran, you have been very, very 
emphatic and very clear on your concerns with Iran. Now they 
have a lot more money. You know, I fear that we are, you know, 
to quote, this is almost like deja vu all over again with the 
North Korea nuclear plan.
    Ambassador Haley. Yes.
    Mr. Diaz-Balart. Which was hailed as this wonderful saving, 
it was going to stop the North Koreans from pursuing nuclear 
weapons. And, in fact, we know that didn't work.
    It is probably unfair, and you may not want to answer this, 
because this is just asking for your opinion.
    I don't believe that the Mullahs in Iran have given up 
their goal of developing nuclear weapons. It is pretty clear 
that they are moving forward on missile technology, including 
ballistic missiles and intercontinental missiles.
    And so when you see all that, would it be fair to ask you, 
do you believe that the leadership in Iran has, in essence, 
given up their nuclear ambitions or--and I understand if you 
don't really want to answer that.
    Ambassador Haley. No. I have no problem answering that.
    I think in reference to the JCPOA, we are not seeing any 
sort of violations of that. Having said that, I strongly 
disagree with what happened with the Iran agreement, because 
all we did is delay something that is going to happen. They are 
going to continue their nuclear capabilities. And we just gave 
them a lot of money to do it with.
    And my concern is everybody they are associating with are 
all the groups that we are trying to defeat. So they have 
aligned themselves with all these terrorist organizations. So 
not only did we give that capability to Iran, we are now giving 
it to those terrorist organizations we are trying to defeat.
    Mr. Diaz-Balart. I imagine it would be fair to assume then, 
and I think the facts show it, that those organizations that 
Iran has always helped are now, if anything, more flush with 
cash because Iran has the money.
    Ambassador Haley. They are. I mean, you can go from Hamas 
to Hezbollah to all the other areas that there is a problem, 
and you see there is this surge of weapons going into their 
hands and money being used for different things, and you have 
to wonder did we help do that.
    Mr. Diaz-Balart. Right. Madam Ambassador, in 30 seconds, I 
just want to again reiterate, it is such a breath of fresh air 
to have somebody with your clarity and somebody who is willing 
to speak out and once again put the United States on the right 
side of history. So thank you.
    Ambassador Haley. Thank you.
    Mr. Rogers. Thank you.
    Ms. Lee.
    Ms. Lee. Thank you very much.
    Ambassador Haley, I had asked you about the 70 million 
UNFPA, where that money--following up from Congresswoman 
Lowey's question--which organizations are receiving that now. 
You indicated you sent us a letter. And I have this letter and 
I want to mention--and I didn't ask that question just to ask 
the question. I asked the question because I want to know.
    In your letter--and I want to read you what you said in 
your letter. You said--and I won't read the entire letter--but 
you said, ``My staff will see that your office receives this 
information as soon as possible, and I hope that you will find 
it helpful.''
    That was your letter. We did not receive the information 
with regard to where that $70 million has been transferred to. 
So we need to know which organizations received that $70 
million.
    Ambassador Haley. I agree----
    Ms. Lee. This letter did not address that.
    Ambassador Haley. Well, I apologize that you have not 
gotten the information. I agree that you need to know where it 
goes, as I want to also be able to tell you where it goes. So I 
will get you that information immediately. And I do apologize 
if my staff did not forward that to you.
    [The information appears on pages 330-332:]
    Ms. Lee. Thank you very much.
    And on the camp, it is my understanding, the Zaatari camp, 
that you were personally invited to visit the UNFPA clinic and, 
I don't know, yourself or your staff refused to visit or speak 
to the officials there. That is just what we heard.
    Ambassador Haley. We wouldn't refuse to visit anything. I 
mean, when we go to areas our goal is to see the entire camp, 
to see all the aspects of the camp and to see everything. And 
we especially try and look at the areas that are controversial. 
That is the reason we went and looked at UNRWA. That was the 
reason we wanted to see it, is because we want to see the good 
and the bad and see it for ourselves. So we would never have--I 
would never have knowingly declined that invitation.
    Ms. Lee. No, I just wanted you to know that rumor was out 
there, and I wanted that clarified by you.
    Ambassador Haley. Thank you very much.
    Ms. Lee. And also, I just have to say, with regard to just 
receiving information, letters from this administration, at 
least we received a letter from you, which we are not receiving 
from most officials in this Trump administration.
    Also, with regard to Cuba, I know the policy now and where 
it is going. It is going in the opposite direction of where you 
stated we want to go in terms of Russia's theory and North 
Korea in terms of engagement.
    And so I am just concerned and wonder how you think this 
will--I am concerned, but how do you see American diplomacy in 
the Western Hemisphere given our going back to a 50-year-old--
55-year-old failed policy now of disengagement rather than 
engagement given all of the issues of human rights and all 
other issues that we deal with, with Russia, Syria, North 
Korea, and the world. Cuba, what makes it so unique?
    Ambassador Haley. Well, I think that what we saw is when 
the Cuban policy was reversed a couple years ago, I think what 
we saw was an uptick in tourism, facilities in terms of hotels 
and those types of things. But they weren't owned by small-
business people. They were owned by----
    Ms. Lee. No, I understand that. I am just talking about the 
diplomatic engagement in the region now in terms of moving--in 
terms of America's leadership in the Western Hemisphere. You 
talk about it in Russia, Syria, North Korea, but what is 
happening in the Western Hemisphere.
    Ambassador Haley. No. We want--look, our goal is to make 
sure that government treats its people well.
    Ms. Lee. I understand that. We want to make sure our 
government treats our people well, including everyone here.
    Ambassador Haley. That is right. But I do think the 
administration has made their point that we want to help the 
small businesses and the Cubans. We don't want to help the 
military.
    Ms. Lee. No, no, I understand, Ambassador. I am talking 
about American diplomacy in the Western Hemisphere. What does 
that do to our leadership with other countries in the Western 
Hemisphere?
    Ambassador Haley. I don't think we lose on that.
    Ms. Lee. We don't lose on it.
    Ambassador Haley. I don't think we saw any gains since the 
reversal. I don't think we will, you know, we are going to see 
any losses. I think what it does is it shows that we very much 
care about human rights and how governments treat their people. 
And it is not just words. It is action.
    Ms. Lee. What about Russia, Syria, North Korea?
    Ambassador Haley. We care about all of them.
    Ms. Lee. We care about that, but we are engaging, you said.
    Ambassador Haley. And we have called all of them out. And 
we continue to take actions on all of those. Venezuela is 
another one.
    Ms. Lee. But we are not embargoing and preventing people 
from engaging in normal relations with these countries, but we 
are with Cuba, still.
    Ambassador Haley. Well, I think we are doing that with 
other countries. I mean, it is one of the things in South Sudan 
we are trying to do as well, is arms embargo and sanctions in 
terms of that. And I think that we will continue.
    Ms. Lee. But we still travel to South Sudan.
    Ambassador Haley. We do. And you can still travel to Cuba. 
But we just are saying we don't want Americans to fund the 
military and the government.
    Ms. Lee. Yes, I understand that.
    Ambassador Haley. I don't think Americans want to do that 
either.
    Ms. Lee. Yes, I understand that. Okay. So we are going 
backwards with regard to the Cuba in terms of U.S. engagement 
in the region.
    What about the Inter-Parliamentary Union? How do you see 
our noninvolvement in the IPU? We are trying--some of us want 
us back in. What do you think we should--are we missing out on 
anything by allowing the U.S. to be part of the IPU?
    Ambassador Haley. I think I can get you more information on 
that.
    [The information follows:]

    The United States is aware of the mission of the 
InterParliamentary Union (IPU) to promote positive democratic 
change through its international membership of national 
parliaments. Rejoining the IPU at this time would require, in 
addition to congressional authorization, a more thorough 
understanding of the financial and other implications of this 
action in the context of our current foreign policy priorities.

    Ambassador Haley. What I can tell you now is we have really 
taken, in these short 5 months, we are trying to look at the 
U.S. engagement in a lot of different organizations and what 
the U.S. role is going to be.
    I know that the priority is U.S. strength and U.S. voice 
and to make sure we are being as proactive on situations as we 
can be. And so as we go forward, we will be looking at our 
relationship and our involvement in a lot of different areas. 
And I think that you have seen in terms of NATO and you have 
seen in terms of some others, what we are trying to do.
    Ms. Lee. But I am asking about the IPU. Will you----
    Mr. Rogers. The time of the gentlelady has expired.
    Ms. Lee. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Madam Ambassador, let me briefly touch on a quick point, 
put my accent on this delicate issue regarding Salam Fayyad as 
well. I didn't see his potential representation to the Libyan 
issue as some sort of proxy for declaration of a Palestinian 
state. He is not representing that he is a, if you will, a 
citizen of the world. Extraordinarily qualified on many fronts 
and deeply respected by the Israelis.
    So if we are going to move past a lot of the intractable 
positions, I think that trying to find persons who have been 
eager to wade in some of the most difficult, delicate positions 
on behalf of their own people but also reaching out and 
rejecting the concepts of violence and call for armed struggle, 
I think it is helpful that we potentially rethink some of this.
    I want to talk to you briefly about the International 
Atomic Energy Agency. Obviously, we have an Iran agreement. 
Many of us voted against it. Many of us voted for it. I 
happened to vote against it because of what I could see as the 
potential for unleashing ballistic missile problems, as we have 
seen.
    Nonetheless, the agreement is in place. It is holding, as 
you referenced. The IAEA is a critical factor in determining 
verification of this.
    I see their role as evolving very rapidly in the 21st 
century. It is an organization that has a defined security 
component, making sure nuclear facilities are safe and 
safeguards in that regard.
    But I think we have a lot of work to do as one of the 
leaders in the space of nonproliferation to assure that they 
are rapidly moving in their own culture toward one of 
verification. If we are able ever to get past, again, the 
intractable problem with the North Koreans, obviously the IAEA 
would play a critical role in helping determine verification 
moving forward.
    So I think that is one of their challenges internally, and 
I think we can lead on that in moving that culture by engaging 
with the other multilateral partners to assure that they are 
evolving appropriately. I see that as their 21st century role 
critically.
    Third, I wanted to talk to you about food security. Let's 
be the leader in food security internationally. I mean, that is 
who we are in America. That is what we make in abundance. Our 
ability to feed ourselves and then feed hungry people 
throughout the world has been a backbone not only of our 
humanitarian outreach, but also trade policy as well as 
creating the conditions to fight poverty internationally.
    Again, moving toward the 21st century, though, combining 
that with innovation and assuring sustainable development of 
small-scale agricultural enterprises, I think the combination 
of all these things, again, creates the infrastructure 
internationally for stability and humanitarian purpose. So, 
again, as you are shaping your tenure, I hope that is an accent 
point.
    Finally, when you are encountering problems with other 
countries who we have seemingly robust interest, dialogue, and 
relationships with, but they keep voting against you, let us 
know. I am sure you put together some type of report as to who 
stands with us on critical issues and who doesn't.
    But I think a direct communication with us helps those of 
us who have immersed ourselves in international affairs to be 
able to talk directly to representatives from particularly 
other parliaments, but also their ministers, saying, Why are 
you doing this? Explain this double standard or explain this 
contradiction. We can help you.
    Ambassador Haley. Thank you.
    I can say in reference to IAEA, I think it is going to only 
become more and more important. And so I agree with you that 
verification is going to be extremely important going forward 
as we are seeing more and more nuclear issues start to surface.
    Food security is something that the U.S. should always feel 
very strongly about. It is the reason why I went to Jordan and 
Turkey in terms of making sure that there was humanitarian 
access and making sure that we could get the food into Syria. 
It is the reason why I am going to Africa in the fall, is to 
make sure that the famine situation, to actually see what the 
food security issues are and that we are dealing with them 
appropriately, not just from the U.N. situation, but also from 
the U.S.
    We are continuing to see more and more manmade-type famines 
that are concerning. And I think that the U.S. has always been 
what I see as the moral conscience for the world. And so I 
think it is very important for us to engage on food security 
and those issues, especially in regards to the famines, as we 
go forward.
    And then, yes, I will absolutely use Members of Congress. I 
have done that already, but I will do more. It is very helpful 
to me in the budget negotiations to call on Congress and what 
Congress expects of the U.S. I have told them that Congress has 
told me to show value in the U.N. And so I have made you all 
the heavy on that, and I will continue to do that.
    And also, with resolutions, I will make sure that when we 
are encountering issues, that we let you know what those are 
and see if we can get help. We can use all the help we can get. 
So we appreciate it.
    Thank you.
    Mr. Rogers. Mr. Ruppersberger.
    Mr. Ruppersberger. I would like to switch to cybersecurity, 
which is very important to our national security. It is 
probably one of the biggest threats the U.S. faces from cyber 
attacks. Cyber attacks can be employed by anyone, a foreign 
country, a terrorist group, a patriotic citizen of a foreign 
country. It can go on. Individuals anywhere in the world.
    A destructive attack can, quite simply, cripple a country, 
including the United States, grid systems, financial 
institutions, all these different things. And we know that 
China has been stealing billions of dollars from our country on 
an annual basis, even cyber attacking fertilizer companies 
because they are in that business.
    Now, a destructive attack, which we have--the first one in 
this county was Sony. And, unfortunately, that destructive 
attack could take place with certain Americans in our country 
right now. So we have to be aware. Destructive attack meaning 
not only stealing information but shutting down the system.
    Now, it seems that Russia, again, is very active, 
aggressive, probably as good as any country in the world as far 
as cyber attack is concerned. For example, they shut down 
Estonia over a statute issue. And they provided cyber weapon 
capabilities tables in the Ukraine when Russian affiliates shut 
down that country's power supply. Just recently, within the 
last 6 months, they continued to do that, and also in Estonia.
    These attacks are a threat to every country. And I know a 
long-term solution to cyber attacks is way off in the future. 
But even if we get our act together, which we have a long way 
to go in the United States, we also have to deal with it in a 
global area, eventually.
    Now, my question. I want to get your thoughts on U.S. 
cybersecurity policy as it relates to the U.N. Do we need 
treaties or a focus on cyber norms?
    As a follow-up, are we moving towards an agreement on an 
internationally recognized definition of critical 
infrastructure? And I say that because critical infrastructure 
does have different definitions and meanings. So we have to 
focus on that. Should a destructive attack on Sony 
Entertainment or a meddling with our election system be 
considered critical infrastructure?
    And finally, do we have any clear red lines when a cyber 
attack would trigger a rights of self-defense response. That is 
an issue out there now we are dealing with. Should an 
influenced campaign be considered an act of war, such as 
Russia?
    Ambassador Haley. Thank you. I will do my best to answer 
that. I can tell you--
    Mr. Ruppersberger. In 5 minutes, you have got to get as 
much in as you can.
    Ambassador Haley. I understand.
    So cybersecurity is important. I think that you are seeing 
other countries now see it as ammunition, and they are using it 
in different ways. And we have seen that play out with multiple 
countries. And I think that that is not going to slow down. I 
think we are going to continue to see that.
    Having said that, I know the U.N. has been trying for a 
long time to put cybersecurity under the U.N. We have opposed 
that because we don't want Russia and China to get involved in 
that. I think the U.S. has to make sure that we are defending 
ourselves but also protecting that aspect.
    Having said that, I think the U.S. needs to really look at 
the cybersecurity situation across the world because it is just 
a matter of time before we continue to see more and more 
issues.
    I do think that, when it comes to the definition of 
critical infrastructure, I will get you some information on 
that, because I am not real sure.
    [The information follows:]

    The term ``critical infrastructure'' has the meaning 
provided in section 1016(e) of the USA Patriot Act of 2001 (42 
U.S.C. 5195c(e)), namely systems and assets, whether physical 
or virtual, so vital to the United States that the incapacity 
or destruction of such systems and assets would have a 
debilitating impact on security, national economic security, 
national public health or safety, or any combination of those 
matters.

    Ambassador Haley. But any way that we can be helpful in 
working toward cybersecurity, we want to be. And so if you have 
any ideas with the U.N. that you would like to see me do, I am 
more than happy to work on that. Because I do think it is kind 
of the unspoken bit of ammunition that is not talked about at 
the U.N., and I think that it is something that I don't mind 
raising attention towards.
    Mr. Ruppersberger. Okay. Thanks.
    You did say one thing. And we all are having, at least, we 
are having a problem, it is not you, but getting back to us. 
Unfortunately, when we ask for information from different 
agencies, we want to get back. You just said you would get back 
to me and to Congresswoman Lee. Will you get back to me on that 
issue, on the cybersecurity?
    Ambassador Haley. Yes. So anything that I have said to any 
of you that we will get back to you on, you will hear from us. 
And I really----
    Mr. Ruppersberger. I hate to ask this question, but it is 
not coming back. So I want to hold you accountable.
    Ambassador Haley. No, and I want you to hold me 
accountable. As a governor, I thought that was always very 
important, to make sure that we communicated. And with a lot of 
the Members of Congress, we have been in communication. And so, 
yes, I will get back to you. And if I don't, you can call me. 
But I promise you----
    Mr. Ruppersberger. Well, if we call you, who is your top 
staff person? That is who you go to.
    Ambassador Haley. This one right here.
    Mr. Ruppersberger. What is his name?
    Ambassador Haley. He is right here in D.C. and----
    Mr. Ruppersberger. What is his name? What is your phone 
number?
    Ambassador Haley. Jon Lerner, and I will get you his 
number. So----
    Mr. Ruppersberger. Okay. Thank you.
    I yield back.
    Ambassador Haley. Thank you.
    Mr. Rogers. Then gentleman yields back.
    Mr. Stewart.
    Mr. Stewart. I appreciate it, Mr. Chairman, and your 
patience. I was chairing my own Subcommittee on Intelligence. 
So I apologize for being late.
    I am so glad I could be here, though, Ambassador, and spend 
a few minutes with you, if we could. And I have been looking 
forward to this. And I know that you have talked about a lot of 
issues that are very important, and there is one that I would 
like to address with you as well. And if you would allow me to 
set the table just a little bit.
    The United Nations Refugee and Works Agency for Palestinian 
Refugees, UNRWA, as you know, they obviously count on donations 
from the United States. We are one of the primary donors. I 
suppose we are the largest donor. And yet, in my opinion, they 
perpetuate the Palestinian, the refugee crisis, by this ever-
envolving definition of a refugee. It now encapsulates, for 
example, citizens from other countries that are living in 
Jordan, some who have been relocated to now what we consider 
their homeland, Gaza and the West Bank.
    We end up with something like 6 million individuals who are 
considered refugees, and that, in my opinion, makes a peace 
process impossible, because there is no way in the world that 
Israel can agree to a right to return when your definition of a 
refugee is so expansive that it would include about the number 
of people that are living in Israel now or something close to 
it.
    And I think if we could refine that definition of refugee 
to a more realistic and, frankly, a more fair definition and 
move the peace process forward by doing that, it is something 
that I have been pushing for several years now with, as you can 
image, some mixed success, maybe frustrating success, but I 
think it is one of the keys to a definitive and a lasting peace 
there. And that is you can't expect 6 million people to come 
home as refugees and for Israel to just say that is okay.
    Help me with this, will you please, and how we can move 
forward on this.
    Ambassador Haley. So I had heard multiple things about 
UNRWA. And so, again, it is the reason I wanted to see it for 
myself and get an idea.
    First of all, I do think that there need to be revisions to 
UNRWA. I think that when you look at the population, as you 
stated, I think you are exactly right in terms of getting a 
clear definition of what is considered a refugee.
    The other thing is U.S. is the largest donor to UNRWA, and 
I think that it would be beneficial to the peace process, as 
well as just true to who we are, that we somehow always 
leverage the UNRWA donations that we give with the fact that 
they are still continuing martyr payments. And I know that you 
all are dealing with that with the Taylor Force Act. But that 
is something that we always should condemn and tell them that 
we don't agree with and that we don't want to see that happen.
    Having said that, I can tell you also that UNRWA, there are 
some things that they do very well. And when it comes to the 
education, when it comes to healthcare, when you go into these 
camps, UNRWA is a viable part of making sure that they are 
educated and healthy. We don't want an uneducated, unhealthy 
Palestinian that is just going to resent Israel more. It is in 
our best interest to make sure that we are giving them whatever 
they can do.
    But I think that UNRWA has--are now--they are feeling 
embolden and, once again, in the unbalanced world of how the 
Israel bashing is taking place, they are now trying to get 
assessed contributions at the U.N., and we are trying to do 
everything we can to stop that so that that doesn't happen. 
Because I think if they get assessed contributions, we won't be 
able to control the refugee population, we won't be able to 
control the martyr payments, we won't be able to control a lot 
of things that we think are not helpful to the peace process 
and Israel.
    Mr. Stewart. And I appreciate your response. And it is 
certainly not my interest, nor yours, for us to make things 
harder there for the children or for those who are actually 
relying on these.
    Ambassador Haley. Right.
    Mr. Stewart. We recognize that, in some cases, they do good 
work.
    But if you are interested in the peace process--and I am 
not lecturing you, by the way, Madam Ambassador. I understand 
that we probably agree on this. I am more speaking beyond you 
and I.
    If you are interested in the peace process, then you have 
to concede that this is a nearly impossible ask that we are 
asking the state of Israel to accept. And a redefinition, while 
still protecting those who are dependent on these funds, while 
still accepting that there are actual refugees who were 
impacted by policies a generation ago that we can probably 
reach out and allow them to return to the state of Israel, to 
their homeland, or what they consider their homeland. But it is 
not 6 million people.
    And, again, I consider it one of the primary obstacles. 
Now, there are others, no doubt about it. But, to me, this is 
one of the primary obstacles that we have to overcome. And we 
would just encourage you to use whatever tools are available, 
not just the power of the purse, as you have indicated, but the 
power of persuasion, as you are very good at, and the 
administration using that lever as well to try to redefine and 
open doors that just haven't been for many, many years now.
    And with that, Mr. Chairman, in my 7 seconds, I yield back. 
Thank you.
    Ambassador Haley. And I do agree with you. Thank you.
    Mr. Stewart. Thank you.
    Mr. Rogers. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Madam Ambassador, I would like to return to the U.N. 
peacekeeping budget and ask you to clarify the answer I heard 
you give the chairman about the level of contribution that your 
budget proposal would enable us to make.
    First, let me to just set the table briefly. There are a 
couple of ways to look at U.N. peacekeeping. One, which has 
some prominence among White House staff, and sometimes the 
President himself, the so-called nationalist view seems to view 
not just U.N. peacekeeping but international engagements, in 
general, as some kind of drain on this country, almost a scam 
whereby other nations take advantage of us. I assume that is 
not your view.
    U.N. peacekeeping can also be viewed as a force extender 
for the United States, a development extender, a stability 
extender, a mechanism to help our country get help from other 
countries. Burden sharing, development assistance that would 
otherwise fall solely to us. That means cost savings.
    We have had a firsthand view of this through the work of 
the House Democracy Partnership engaging with parliaments in 
developing countries, a lot of whom have had U.N. peacekeeping, 
and some still have it. We are talking about Liberia, Timor-
Leste, Haiti, Guatemala, Georgia, Lebanon. Some of those 
missions have been wound down. Others are winding down.
    Liberia is a good example. I mean, what would be going on 
Liberia conceivably without U.N. peacekeeping. Certainly, a 
history of awful conflict there, but now a country that seems 
to be inching its way toward legitimacy and viability as a 
parliamentary democracy.
    That is good for our country and its interests. It also, 
just looking at it in economic terms, it prevents many a failed 
state and many a situation where our security expenditures 
might be much, much greater.
    So U.N. peacekeeping missions have that function. We all 
know they need to be rationalized, made as efficient as 
possible. But they are a force extender for our country.
    If that is the view, if that is the predominant view, then 
what does the 37 percent cut in contributions to U.N. mean? The 
budget proposal, according to State Department documents, could 
permit us to fulfill an assessment rate as low as 14 percent. I 
thought I heard you say that we could maintain a 25 percent 
contribution to these operations. That doesn't seem consistent 
with what we have heard in this budget justification.
    So are you acknowledging and accepting that 25 percent 
level? Are you acknowledging that the budget proposal will have 
to be modified to meet our obligations?
    Ambassador Haley. So I do think that the President's budget 
was helpful in putting countries on notice and putting the U.N. 
on notice, and I think that is why every peacekeeping mission 
we are now changing to be more effective in terms of making 
sure that we are not throwing troops for the sake of throwing 
troops, but we are actually looking at are they trained, are 
they equipped.
    The other side of it is the accountability side. I think it 
is a very true statement to say there are troop-contributing 
countries that see this as a moneymaker, and they are not 
holding their end of the deal. And so the accountability side 
of if there is sexual exploitation, if there is any sort of 
corrupt actions or things that they are doing wrong and not 
taking care of the people on the ground, action needs to 
happen.
    And I can say that this last week there were multiple 
examples of rape to minors as well as sexual assault in a lot 
of different areas by the Congolese troops there were in the 
Central African Republic. We sent a message and sent a letter 
to the Secretary General and said it was unacceptable and all 
600 of those Congolese troops have been taken out of the 
Central African Republic.
    So the change in tone in the way we deal with peacekeeping, 
that we expect that the people on the ground are taken care of, 
I think is important. I know there is a difference between the 
President's budget and what you have to entertain, and my goal 
is to be a conduit and to make sure that I can help you be 
effective in what you decide to spend on as well as keep the 
President informed.
    He is very aware of what I am doing and what reforms I am 
trying to push in place. And I think it shows that you can cut, 
if we were already able to cut half a billion off of this 
budget, you know, just at this time of year, we can do more.
    And so the goal is to really bring peace and stability to 
an area in the most efficient and effective way, and I think 
that the 25 percent would accomplish that.
    Mr. Rogers. We are running close to the Ambassador's 
appointment expiration. So we need to be as brief and terse as 
we can.
    Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Madam Ambassador.
    Ambassador Haley. Good morning.
    Mr. Dent. Just real quickly. On UNICEF, I just want to just 
touch on that. Do you agree that investments in maternal and 
child health benefit the goals and image of the United States 
abroad? And if so, what steps do you plan to take to continue 
to protect such programs and the work of entities like UNICEF?
    Ambassador Haley. Well, I think UNICEF does amazing work. 
And I saw that firsthand in Jordan and Turkey in the schools 
that they have. But not only with that, they are really 
assisting children in transitioning out of what has been a 
traumatic situation. But they are doing it also with 
psychosocial support, which I think is needed more than 
anything else right now for those kids coming out of the Syrian 
crisis.
    But just looking at the schools and how they are effective, 
I think it is important that we maintain a strong relationship 
with them in terms of how children are being handled and what 
we are doing in terms of all the well-being of their 
populations. And so I have been very pleased with what I have 
seen them serve so far.
    Mr. Dent. Okay. Now, just on the budget matters, just 
quickly. I have always believed in the three-prong approach: 
diplomacy, defense, development. And, obviously, this is a very 
challenging budget that has been presented to us regarding the 
State Department.
    Do you feel that the existing mix of development, 
diplomacy, and defense investments provides the right set of 
tools to address the broad range of national security and 
instability threats facing our interests and our allies abroad? 
And how do you think our contributions to the U.N. support our 
security objectives?
    Ambassador Haley. So I think that is actually a very good 
point in that one of the things that I did when I went to look 
at the Syrian refugee crisis was what is the U.S. doing and 
what is the U.N. doing in reference to the Syrian conflict. 
Because we don't need to be viewing this or handling this as it 
is Year 1, because now we are in Year 7. And so we need to take 
a Year 7 approach.
    In looking at that, what I found was the Jordanian 
Governments and the Turkish Governments are doing an amazing 
job taking care of the Syrian refugees. They are doing 
healthcare. They are doing education. They are giving stipends.
    I will tell you, in Jordan alone, they give stipends. And 
those are used by debit card, whether it is at a bank, whether 
it is a grocery store, anywhere, they are using eye scan, there 
is zero percent fraud in what is happening in Jordan, which is 
phenomenal, especially having that they have taken in a million 
refugees.
    Then you go to Turkey, and you look at the fact that they 
have taken in 3 million refugees in such a short amount of 
time. And you have Turkish doctors in 3 months training the 
Syrian doctors so they can take care of their own populations.
    But both of these countries are double shifting in schools. 
Jordanian and Turkish students are going in the morning. 
Syrians are going in the afternoon. Their roads are getting 
congested. Because Syrians are such great entrepreneurs and 
very well skilled, they are competing for jobs.
    So, basically, what I found is those countries are 
stretched at this point, and we need to support them. If they 
are being good host countries, we need to make sure we are 
giving them support. It is not just about food and water 
anymore. Now it is about what can we do to assist them with the 
education and the health issues that they are taking on.
    And so I have spoken with the President about how I think 
the U.S. needs to support these host countries, and I have 
actually already met with the Secretary General on how we shift 
from a Year 1 to a Year 7 plan so that U.N. funds will go 
towards assisting those host countries.
    And so the Secretary General and I and the Jordanian 
Government are going to be meeting about what they need, and 
then we are going to meet with the Turkish Government on what 
they need.
    That is a long answer to say we have to keep development as 
part of the mix, along with the diplomacy and the military 
forces that we use, because it is all interconnected. And if we 
do those things, then I think that we are making the most of 
what we have.
    Mr. Dent. Well, I suspect you are going to get an 
appropriation greater than what the President asked for at the 
end of this process, if we get an agreement on the numbers.
    One thing, finally, I just wanted to mention one other 
issue, U.N. peacekeeping and particularly as it relates to 
Central African Republic. From your experience at the U.N. thus 
far, have you identified any best practices for U.N. 
peacekeeping and stability operations that help ensure positive 
and sustainable results? And are there any aspects that you 
emphasize when considering whether to support the 
reauthorization to such missions? Because I know we have had 
some corruption issues with some of these peacekeepers.
    Ambassador Haley. Absolutely. And so what we are doing is 
we are putting in best practices with every single renewal that 
we have done. And the best practices could be accountability of 
what is expected from the troops when it comes to sexual 
exploitation and corruption. It could be clearly defining the 
mandate so it is not so general and broad but it talks about 
exactly what is expected. It is holding the governments 
accountable, because, as you know, in a lot of the governments 
where we have peacekeeping missions, they have actually been a 
hindrance and not a support to the peacekeeping process. And I 
think it is also making sure that we are doing what we can to 
take care of the people on the ground, knowing that our end 
goal should always be to lift up their government in a way that 
they can do for themselves.
    And so these best practices we are putting in place with 
every single mission to make sure that it is being handled 
properly. And I think the idea that we were able to get the 600 
Congolese troops out of the Central African Republic when they 
were doing so many different abuses really goes to the heart of 
what that accountability means and what we hope the troop 
contributing countries will realize as we go forward.
    Mr. Dent. Thank you. Yield back.
    Mr. Rogers. Ms. Meng.
    Ms. Meng. Thank you. I will ask the two questions together 
to save time.
    My first question is, there are reports that 3,000 Yazidi 
women were trafficked by ISIS last year, and the United Nations 
Office of the Special Representative of the Secretary-General 
for Sexual Violence in Conflict reports that a girl can be 
trafficked for $13,000. This indicates that trafficking of 
women and girls contributes to the financing of ISIS 
activities.
    Generally speaking, how does the U.N. currently track the 
trafficking of women and girls? And what more can the U.S. 
mission to the U.N. or Congress do to partner with the U.N. in 
this effort?
    My second question is, post-9/11, the U.N. Security Council 
Resolution 1373 mandated targets on freezing terrorist assets, 
thwarting money laundering, and blocking arms trafficking. In 
2014, the U.N. Security Council passed a legally binding 
resolution requiring all member states to put domestic laws in 
place that will help prosecute anyone who travels abroad to 
join a terrorist organization. In 2016, the Security Council 
called on countries to share biometric and biographic info 
about terrorists with immigration and border authorities.
    How does the administration plan to build on the work of 
Presidents Bush and Obama in this regard?
    Ambassador Haley. Okay. In reference to the trafficking of 
women, I know that it is something that the Secretary-General 
actually has taken a big interest in, and I think that is why 
he is not only just looking at the trafficking, but he is also 
looking at the accountability of the troops as they are in 
different areas.
    We are working very closely. We just met with the Yazidi 
activist as well to find out what is happening and what we 
could better do, so we are keeping communications. But then 
also that ISIS accountability is hugely important that we get 
that passed through the U.N., and so we are working closely 
with the UK on that, because I think that is going to go a long 
way in what we can do. And we will continue to look for ways 
that we can be helpful. And let me know if I can partner with 
you on anything that you want to do.
    In terms of the Security Council resolutions, I have to 
say, my biggest concern with Security Council resolutions is 
that not all countries follow them. And so that is the 
frustrating part of we can do a resolution, but if we can't get 
them all to actually act on the sanctions or act on the 
mandates or do those things, that is the part that I found to 
be the most frustrating.
    I think that the administration very much wants to do all 
they can. They have made ISIS and terrorist groups a priority. 
I think that it is something the administration is laser 
focused on in terms of what we are doing with terrorist 
activity and what we are doing to stop terrorist activity, 
whether it is militarily, whether it is with sanctions, whether 
it is with arms embargoes.
    I think those are all things that we will continue to have 
on the radar that the administration fully believes in. And I 
will continue to push all U.N. countries to make sure that we 
are not doing these resolutions for the sake of doing these 
resolutions but that they are actually following them as well.
    Ms. Meng. Thank you. I yield back.
    Mr. Rogers. Madam Ambassador, you have been generous with 
your time.
    Ambassador Haley. Thank you.
    Mr. Rogers. We have kept you a little bit beyond what we 
had hoped, but thank you for being here.
    As the Subcommittee and the Full Committee and the full 
House and the conference with the Senate, as we weigh how much 
funding for what takes place, I hope the recipients of these 
funds at the U.N. and the other agencies around the world that 
we contribute to, I hope they realize that we are watching now 
very carefully how they control their spending. And we will be 
judged on what we do just as they will as well.
    These are severe cuts that the administration has come 
forward with. Now, I remind everyone, Presidents propose; 
Congress disposes. And we will be watching to see how these 
organizations control their spending, which is our spending. I 
hope somebody will tell them that we are watching and we will 
continue to watch until we are able to pass these bills.
    Thank you very much for your initial appearance before our 
Subcommittee. I think you have been a hit. You have been very 
responsive. You have answered questions with candor. You know 
what you are doing. That is very apparent. We like your 
enthusiasm for this job and this undertaking and the energy 
that you obviously have to make it work. So, Madam Ambassador, 
we wish you well.
    Ambassador Haley. Thank you.
    Mr. Rogers. We are on the same team here with you, and we 
are going to try to be of help to you as you carry out our 
country's work at the U.N. And perhaps the most important thing 
that I like about you is you don't speak with an accent. Thank 
you, ma'am.
    Ambassador Haley. Thank you very much. And I want to thank 
the Committee for your time, and know that we are a partner in 
getting you the answers that you need as you make the decisions 
going forward.
    Mr. Rogers. Thank you.
    Ambassador Haley. Thank you.
    Mr. Rogers. The subcommittee is adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       

                                       Wednesday, November 1, 2017.

  OVERSIGHT HEARING ON ACCOUNTABLE SOFT POWER IN THE NATIONAL INTEREST

                                WITNESS

HON. MARK GREEN, ADMINISTRATOR, U.S. AGENCY FOR INTERNATIONAL 
    DEVELOPMENT

                  Opening Statement by Chairman Rogers

    Mr. Rogers. Good morning everyone. The hearing will please 
come to order.
    Ambassador Green, thank you for being here today, and 
congratulations on your confirmation as Administrator of U.S. 
Agency for International Development (USAID). I am pleased to 
see you in this new role and I am confident you will do a good 
job. You are back on your old hunting grounds here in the 
House, and we are glad to see one of us elevated to such a high 
position.
    I understand this is your first hearing since being 
confirmed, so let me welcome you to the Subcommittee. We look 
forward to hearing your testimony. We will be getting underway 
with the hearing. I also want to recognize our ranking member 
of the Full Committee and this Subcommittee as well, Mrs. 
Lowey.
    Mr. Ambassador, you are probably aware that this 
Subcommittee has a history of bipartisanship--we work 
collaboratively toward many of the same goals, and I expect 
that will continue as we look to complete the appropriations 
process for this year.
    Today's hearing is appropriately entitled: ``Accountable 
Soft Power in the National Interest.'' First, accountability. 
Given the difficult but necessary task ahead of us to reduce 
the nation's debt, all spending must be scrutinized and 
prioritized. As Chairman of this Subcommittee, I take my role 
in providing oversight of USAID and the other agencies 
delivering foreign assistance very seriously. In fact, my first 
hearing this year was with the Inspectors General of the State 
Department and USAID to identify the most significant 
management challenges. We must work together to ensure there is 
accountability for every dollar provided to USAID. That is in 
USAID's best interest, it is in the interest of the people and 
countries that we are trying to help, and it is what the 
hardworking tax-payers deserve.
    Second, Soft Power. This term has gotten a lot of use in 
the last 10 months. The now-famous quote by General Mattis that 
``if you don't fully fund the State Department, then I need 
more money for ammo'' sparked a real debate about the 
importance of soft power. The intensity of these discussions 
was elevated with the submission of the President's fiscal year 
2018 budget request, which included a 33-percent cut to State 
and USAID operations and assistance.
    The Committee rejected many of those cuts, but we still had 
to make tough choices within a reduced allocation. What is 
clear is the bipartisan support for continued investments in 
soft power, particularly at a time when diplomatic and 
development challenges have grown not only in numbers but in 
complexity.
    And, finally, In the National Interest. There are certain 
programs that are commonly recognized as beneficial to our 
national interest. For example, helping stabilize the economy 
of pro-Western governments facing Russian aggression, like 
Ukraine, or supporting a key partner, like Jordan, as they work 
through tough economic and social challenges as a result of the 
conflict in Syria.
    However, programs that are not always as obvious can still 
have a positive impact for our country if they are well planned 
and executed and those on the receiving end are aware the help 
is from the American people. For example, the President's 
Emergency Plan for AIDS Relief, known as PEPFAR, does more than 
just save lives from the scourge of AIDS. Five years after the 
program was launched, Pew research polls showed that American's 
favorability was higher in Africa than anywhere else in the 
world. In many countries like Nigeria and Kenya, it was over 80 
percent. That means in places where there could have been 
desperation and vulnerability to extremism and radicalization, 
there was hope and gratitude for America's support. Mr. 
Ambassador, I am sure you know this first-hand from your time 
in Tanzania.
    These examples can be found across the board in clean water 
programs, investments in conservation, agricultural 
development, education, and many more. If a country's people 
are healthier and more educated, if their economy is on the 
move, and if they have accountable government institutions 
based on democratic principles, that country will be more 
stable, and the U.S. will be more secure.
    So, we know these investments are important. That is why 
dozens of generals and admirals have said foreign aid is 
critical to U.S. national security. But we also have our 
limits. We cannot do all things for all people, particularly 
when the needs are so great. Other donors need to step up and 
do their part. That is why we are pleased the President is 
focused on this issue of getting others to pay their fair 
share. We are seeing progress on the defense side with NATO, 
and Ambassador Haley is working to renegotiate our rates at the 
U.N. Today, I would like to hear more about what has been 
accomplished so far on development and humanitarian aid and 
what we can expect to see in the months ahead.
    Mr. Ambassador, we look forward to hearing your testimony 
on these and many other important issues. I urge you to 
remember this is a partnership. Congress has the constitutional 
duty to fund the federal government, and we take that 
responsibility very seriously on this Subcommittee.
    That duty does not stop with the appropriation. It also 
includes oversight of how your agency is organized and the 
execution of your funding. We will be closely watching 
proposals to reorganize the State Department and USAID and look 
forward to a briefing and report on any changes once the 
administration reaches a consensus. If we work together, I 
believe we can accomplish some great things. But I urge upon 
you, this is a two-way conversation.
    Before I close, let me take this opportunity to thank the 
men and women of USAID, who are doing important work during 
difficult times, both abroad and here at home. We recognize and 
appreciate their service to the country.
    Now, let me recognize my ranking member and copartner, Mrs. 
Lowey.

                    Opening Statement of Mrs. Lowey

    Mrs. Lowey. Thank you, Mr. Chairman.
    And welcome, Administrator Green. I really want to thank 
you for joining us today, and I am pleased that you are at the 
helm of the U.S. Agency for International Development.
    USAID is an essential component of our national security, 
and I am confident that you believe, as do I, that 
international development is critical to maintaining U.S. 
global leadership and protecting our national security. I was 
happy to hear you say last month that, quote, ``America is and 
will remain the world's leading humanitarian donor.''
    But I do remain confused about how you intend to do more 
with less, especially if the less you speak of is the 
President's proposed fiscal year 2018 budget. As you are aware, 
it included the complete elimination of food aid, family 
planning programs, development assistance, and climate change 
initiatives. While USAID should always look for more efficient 
ways to spend taxpayer dollars, you must agree that these cuts 
would make U.S. citizens less safe, betray American values, and 
fail to advance U.S. international interests. For example, if 
we are looking to do more with less, we should prioritize, not 
end, partnerships with multilaterals as they propel our dollars 
further toward meeting shared goals.
    I am hopeful the Senate and the House will work together to 
pass a fiscal year 2018 State and foreign operations 
appropriations bill to maintain U.S. global leadership on 
humanitarian and development assistance and that you and 
Secretary Tillerson will effectively utilize the funds we 
appropriate as intended to advance our international 
objectives.
    I am increasingly concerned by rumors regarding the 
reorganization process occurring at the State Department and 
USAID, which is now being reviewed by the Office of Management 
and Budget. I want to make it very clear: There is always room 
for improvement, but arbitrary funding cuts should not drive a 
reorganization to, number one, reduce staffing positions; two, 
cut valuable programs; and, three, walk away from international 
agreements and treaties.
    You should instead take a hard look at what you do best, 
what you don't, how to improve in the latter areas. Yet, 
despite repeated requests for more information, my staff and I 
have thus far not seen, with the exception of the President's 
30 percent cut to the budget, any concrete proposals beyond, 
quote, streamlining our policies, maximizing our foreign 
assistance.
    As Chairman Rogers and I outlined in a letter to OMB 
Director Mulvaney earlier this fall, congressional agreement is 
necessary for long-term sustainable reform at State and USAID 
to be successful. I am hopeful that you will shed some light 
today on the proposals provided to OMB from USAID and how these 
recommendations would help rather than hinder our foreign 
policy goals.
    Desperate conditions in the world's weak, failing, and 
failed states drive hopeless individuals away from their homes 
and into violent extremism and poverty. Through U.S. 
international development efforts, we are able to combat 
terrorism, prevent global pandemics, provide economic 
opportunities, bolstering U.S. national security and preventing 
our men and women in uniform from being put in harm's way. But 
it is imperative that we do not forget U.S. foreign assistance 
is one of the best examples of American values and, quite 
simply, the right thing to do.
    So I want to thank you. I have great confidence in your 
ability and your vision. Thank you so much for joining us 
today, and I look forward to your testimony.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Rogers. Ambassador Green, we look forward to your 
testimony. If you would try to keep your comments within 5 
minutes to give us more time for questions, that would be 
appreciated.
    Thank you for being here. You are recognized.

                 Opening Statement of Ambassador Green

    Mr. Green. Great. Thank you. Thank you, Mr. Chairman, 
Ranking Member Lowey, and members of the Subcommittee, many of 
whom I served with. It is good to see all of you again.
    As former foreign policy and defense leaders have often 
said and as was cited in the opening remarks, in a world as 
complex as ours, with our national security under greater 
threat than, perhaps, ever before, we need to be able to deploy 
the entirety of our State craft toolbox. This must include our 
most sophisticated development and humanitarian tools.
    At USAID, we embrace this mission. One sign of this is our 
close working relationship with DOD. We currently have 26 staff 
serving with American's military men and women in our combatant 
commands and the Pentagon. DOD, in turn, has assigned 16 
officers and representatives to work alongside our staff in 
supporting development priorities. In response to the recent 
disasters in Latin America and the Caribbean, DOD supported our 
disaster assistance response teams. In Syria, our stabilization 
and humanitarian experts are working hand in glove with DOD and 
State to help stabilize Raqqa and to allow for the safe return 
of displaced families.
    But beyond this formal collaboration, our skills and 
expertise in humanitarian operations and international 
development help our nation respond to, counter, and prevent a 
long list of ever-growing threats. Our development initiatives 
address conditions which, left unchecked, can lead to the kind 
of frustration and despair that transnational criminal 
organizations and terrorist groups often try to exploit.
    Furthermore, USAID's work responds to the challenges often 
arising arriving from displacement of families and communities. 
We counter the conditions that often drive mass migration, 
including into the U.S.
    Third, we help strategic allies respond to the burdens of 
hosting displaced families. We also work to repair the fabric 
of countries and communities torn apart by conflict and war in 
ways that hopefully will solidify military success. In 
particular, we know helping the most vulnerable and most 
targeted has to be a big part of this strategy. When religious 
and ethnic minorities are attacked, such as Christians and 
other minorities in Iraq, we rally local and international 
civil society and the private sector to join us.
    We don't have all the answers to such complex problems. 
That is why, in the case of Iraq, as many of you know, I am 
able to announce that we have issued a Broad Agency 
Announcement. This is a process to gather innovative ideas from 
the public, including the affected communities themselves, on 
ways to support the safe and voluntary return of internally 
displaced persons in Nineveh.
    There are also concrete ways beyond our development role 
which contribute to national security. For example, USAID plays 
a key role in the interagency international strategy to prevent 
and mitigate the threat of infectious disease outbreaks, 
epidemics, and antimicrobial resistance under the Global Health 
Security Agenda. As another example, we help counter illicit 
activities, from trafficking in persons to trafficking in 
wildlife, which criminal and terrorist organizations often 
leverage to fund their operations.
    Mr. Chairman and Members: at USAID, we do take our role as 
stewards of taxpayer resources very seriously. To that end, we 
are undertaking a number of employee-led reforms that will 
boost both our effectiveness and our efficiency. Because 
responding to the growing number of humanitarian crises is a 
core part, I believe, of American global leadership, we are 
working to elevate and refine our humanitarian assistance 
efforts. Because we don't believe that traditional development 
assistance is always the most effective approach to our work, 
we are reinvigorating our engagement with the private sector. 
We aim to move beyond mere contracting and grantmaking towards 
true collaboration with the private sector, and that means 
soliciting outside ideas and opportunities in program design, 
technology, adaptation, and even cofinancing where we can. As 
part of this, we are also undertaking steps that we hope will 
bring new partners to our work by reaching out beyond our 
relatively small group of traditional partners.
    Because we don't believe that assistance should ever be 
seen by our partners as inevitable or a substitute for what 
they should take on themselves, we have made clear that the 
purpose of our assistance should be to end the need for its 
existence. I am asking our team to measure our work by how far 
each investment moves us closer to the day when we can explore 
transitioning away from a traditional development relationship. 
We would not walk away from our work or our prior investments 
but seek to forge a new bilateral partnership that serves the 
strategic interest of both countries.
    To help our partners in their development journey, we will 
aim to prioritize programs that incentivize reform, strengthen 
in-country capacity, and mobilize domestic resources.
    In conclusion, Mr. Chairman, while our nation is facing 
many challenges, as you have laid out, you can be confident 
that the men and women of USAID are providing many of the 
programs and tools that will, indeed, make our country 
stronger, safer, and more prosperous in the years ahead. And we 
are doing so while embracing our role as good stewards of 
taxpayer resources, the resources generously provided through 
this subcommittee from the generosity of the American people.
    Mr. Chairman, thank you, and I welcome your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Rogers. Thank you, Mr. Ambassador.
    We need to remind ourselves from time to time that this 
country does have a strong conscience. And you represent the 
agency worldwide that expresses that sentiment.
    I recently led a group of our Committee Members on a trip 
to Ukraine and Georgia. Those countries are making remarkable 
strides despite facing tremendous pressure and occupation from 
Russia. I believe their commitment to continuing reforms and 
improving their economies is real, but they need and want our 
help. In Georgia, where two entire provinces are now occupied 
by the Russians, we looked at a USAID program on the 
Administrative Boundary Line that is helping to counter Russian 
influence by assisting families that were displaced from South 
Ossetia.
    This is an important time for them. It would be a mistake 
to pull back from these investments and that is why we have 
prioritized those countries in the House bill. For example, in 
Ukraine, the current enacted level is $410 million. The 2018 
request from the administration was only $204 million, a cut 
almost in half from what we had enacted for this year. The 
House bill maintains Ukraine's assistance level at $410 
million. A little over half is for democracy and development 
programs. The 2017 level for Georgia totaled $100 million. The 
2018 request is $34 million, a reduction of more than half of 
the enacted level. The 2018 House bill maintains Georgia's 
assistance level at $100 million, slightly over half for 
democracy and development programs.
    I know you have experience in this region. We met with the 
Prime Minister and the Speaker of the House and other 
dignitaries, the Foreign Minister and so on, in Georgia. I was 
very impressed. Here is a country, a small country, and 
extremely poor, boundaried on the north by Russia, on the south 
by Azerbaijan and Armenia and Turkey, and the Black and the 
Caspian Seas on either end. It is not always a pleasant 
atmosphere there.
    What can you tell us about how USAID will support efforts 
to counter Russia and your views on this region as a priority 
for our assistance?
    Mr. Green. Thank you, Mr. Chairman. And you are right. I do 
have some personal experience. I was an election observer. 
Actually, my first observation was in Ukraine. I think my last 
observation with IRI was in Georgia. So I have had the honor of 
witnessing both and, in both cases, like you, was terribly 
impressed with the work that so many are doing as they strive 
to look Westward.
    I often talk about our role in walking side by side with 
countries as they undergo their development journeys. In the 
case of both Ukraine and Georgia, that journey is a Euro-
Atlantic journey, which they have stated very clearly. I think 
it is a high priority for us to help them on that journey. And 
that means helping them take on, really, the preconditions that 
need to be met in order for them to gain greater membership and 
involvement in both NATO and potentially the EU. And so that is 
where I put most of our efforts. That is taking on corruption; 
It is one of the biggest challenges they have. In some cases, 
weak institutions is a challenge. But a third one, one that is 
not simply USAID but involves all of the U.S. Government, is 
energy independence. That is, perhaps, one of the greatest 
barriers that they face. They are still largely dependent upon 
Russia for their energy. And that, of course, makes them very 
vulnerable economically. So helping them to diversify their 
energy is a key part of what we all seek to do. But I share 
your views. It is a high priority. Ukraine is one of our larger 
missions. And, of course, Georgia has long been an ally and has 
embraced the West. And my own view is that we should recognize 
that, embrace and build upon it.
    Mr. Rogers. Well, part of your budget, the so-called 
countering Russia groups of money, there are just two places, 
to my knowledge, in the world where they are facing the Russian 
aggression physically now, and that is Ukraine, and now it is 
Georgia. We went to the checkpoint of the Ossetia province 
where the Russian's have seized. We went to the checkpoint, and 
there was the Russian military encampment, which forbade any 
entry or exit. And the people that live there aren't able to 
get to their herd of cattle or schools for their children 
because of Russian occupation. Two separate provinces of a very 
small country where they are facing it today.
    So thank you for putting focus on the counter-Russia 
effort. I think it is important for us especially at this time.
    Mrs. Lowey.
    Mrs. Lowey. In your first address to the USAID employees, 
you spoke about how we could help partner countries by 
prioritizing programs that show measurable impact, incentivize 
reform, diversify our partner base, foster local capacity 
building, and mobilize the partner's own domestic resources. It 
is difficult to reconcile these worthy goals with the 
administration's budget request for USAID and the hiring freeze 
that is hamstringing your staff.
    Are the goals you articulated shared by others in the State 
Department and the White House? And what concrete steps have 
you taken since your confirmation to make these goals a 
reality? And if programmatic resources are cut, what impact 
would that have on your plan for the agency?
    Mr. Green. Thank you for that question.
    First, I believe that my views are shared throughout much 
of the administration. I am less than 3 months on the job. So I 
don't quite have all the answers, nor have I had all of the 
conversations. But we are being involved more and more in 
interagency discussions on many of the challenges that you are 
talking about. And I think that the opportunities grow for us 
to share our vision and to push our vision forward.
    In terms of domestic resource mobilization, it is a high 
priority for me. It was started in the last administration by 
my predecessor. Modest efforts. They have proven very 
successful in Central America. We seek to build upon that and 
expand upon it. As any nation undergoes its development 
journey, obviously, the ability to mobilize domestic resources 
for priorities is a key part of that. And so we can assist them 
in strengthening their domestic resource collection and 
mobilization, help them with transparency and accountability. 
And so that is a key part of what we need to do.
    We also need to bolster our private sector engagement in 
this time of more limited resources. And we are seeking to do 
that by getting the private sector involved earlier in the 
conversation. All too often, traditionally, we see programs 
constructed. And then, at the last moment, we reach out to the 
private sector and say: Hey, can you help us with this?
    What we seek to do, as we are doing in the case of the IDPs 
in northern Iraq, is, instead, early on, say: Look this is what 
we see; what are your ideas?
    So we are hoping to get greater involvement, including by 
new partners, in program design and even program cofinancing. 
We think that will make dollars go further.
    But make no mistake, with limited resources, we will never 
have enough money to do all that we want to do. However, 
limited resources will force us to prioritize, and will force 
us to stretch our dollars as far as we can. And there is no two 
ways around it. It forces tough choices.
    Mrs. Lowey. I know we will continue that discussion. But I 
want to get to another issue.
    I am greatly disturbed by the reimposition of the global 
gag rule, particularly this administration's unprecedented 
decision to expand this terrible policy to all global health 
assistance. I want to be very clear: Lives will be lost as a 
result of this decision. And through our leadership on global 
health, the United States has saved millions of lives, earned 
the gratitude and goodwill of people around the world. By 
inserting the global gag rule into every area of our global 
health work--malaria, TB, pandemic preparedness, nutrition, 
vaccinations, and more--we undermine our effectiveness and make 
it harder to reach the most vulnerable, particularly women and 
children.
    We have seen the past implementation of the global gag rule 
has proven that it does not decrease this rate of abortions or 
unwanted pregnancies. And given these facts, if you could share 
with us the data the administration is using to justify its 
reimposition and expansion to all global health areas with no 
connection to pregnancy, I would be appreciative.
    Mr. Green. Thank you. Thank you, Congresswoman Lowey. You 
have made your views clear privately as well as publicly. And 
you and I have had some robust conversations, obviously, on the 
topic.
    You know, what I can tell you is that we will continue to 
be the largest bilateral global health donor. Those resources 
will continue to be made available. In terms of the specific 
issue that you pointed to, as you and I have discussed, we are 
in the process of working with the State Department to collect 
data around its implementation. My understanding is that report 
will be brought forward to us this month, now that it is 
November 1st. And our commitment to you is to share that data 
with you, playing it straight, as I indicated we would. And so 
we will bring that to you--to this Subcommittee for review. 
Obviously, it is vitally important that we make sure that 
policies do not disrupt programming in the global health area, 
particularly maternal and child health, which is a commitment 
of not just the last administration but I think the American 
people.
    Mrs. Lowey. I thank you. And I think my time is up. But I 
look forward to continuing this discussion and the ways that 
you can really evaluate, honestly and fairly, the impact of 
this policy.
    Mr. Green. You have my commitment.
    Mrs. Lowey. Thank you.
    Mr. Rogers. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    And good morning, Ambassador, Administrator, Congressman 
Green. Great to see you here, my friend. And the President made 
an outstanding choice. He couldn't have made a better choice 
for this position, and I am delighted the Senate confirmed you. 
So, well done.
    Mr. Green. Thank you.
    Mr. Dent. Your life's work is going to continue in this 
role, I know.
    Just a few quick questions. I want to touch on three 
issues: one dealing with engineering projects, one dealing with 
water security, and one dealing with Power Africa.
    First one on engineering. USAID funds a considerable amount 
of infrastructure in developing countries. But there is concern 
that this is being done without proper engineering oversight. 
The concern was highlighted in a 2014 construction assessment 
report produced by USAID, which detailed about $5.6 billion in 
construction over a 2-year period. The assessment noted that 
nearly 45 percent of the building projects had no proper 
engineering or architectural oversight, which can lead to 
problems during construction, cost, schedule increases, and 
potentially structural failure.
    So I guess the questions are these. How is USAID looking to 
improve project outcomes and costs on construction projects? 
And could the agency do more to engage American engineering 
firms to help address this challenge?
    Mr. Green. Thank you, Congressman Dent.
    You know, in relative terms, we actually don't do that much 
in the way of infrastructure. Not as much as we used to. We, 
though, take what we do do very seriously. Much of it is in the 
Middle East. Much of it is in Afghanistan. And obviously those 
are areas where we have to make sure that we get it right.
    We recently renewed a memorandum of understanding with the 
Army Corps of Engineers to make sure that we are doing this 
correctly, that we have sufficient oversight in place. We have 
also developed a number of relationships which will allow us to 
surge our support in this area, if needed. But I will make sure 
to go back and double-check. I have not seen the 2014 report 
myself, but I will take a personal look at it and make sure 
that we continue to have appropriate controls in place for 
oversight.
    Mr. Dent. I would appreciate that. Thank you, Ambassador.
    Also, water security. As you know, a lack of safe drinking 
water makes people desperate. And desperate people do desperate 
things. And water scarcity is known as a threat multiplier in 
Syria, Yemen, and likely elsewhere. Many infectious diseases, 
Ebola, cholera, are also caused or exacerbated by unsafe 
drinking water and poor sanitation facilities. What more will 
USAID do under your leadership to get ahead of water-related 
security threats, be they conflict, disease, or famine due to 
water scarcity?
    Mr. Green. Thank you for the question. And a good important 
question.
    I think water security, and clean water generally, is, I 
think, increasing in our awareness. I am not sure that, in the 
past, we necessarily had a full appreciation for how important 
it is to every other aspect of what we do.
    In terms of the global water security, we have appointed a 
global water security coordinator to our programming, which is 
part of our commitment to this Subcommittee and to Congress to 
make sure that we fully implement the Water for the World Act. 
And we will do so. But this is an area, I think, where there is 
tremendous opportunity to partner and engage with the private 
sector. There are a number of NGOs and for-profit businesses 
that are exceptionally good in this area, and I think we can 
partner with them closely to accelerate what we are doing here.
    In addition, because of how closely this is related to the 
work that we do in food security, in Feed the Future, we are 
looking for ways to make sure that is better integrated so that 
we get maximum optimum outcomes from both sectors.
    Mr. Dent. Thanks for that answer.
    Quickly, to Power Africa, as you know, it has been a very 
successful initiative with interagency focus. According to a 
2017 annual report, Power Africa has mobilized more than $54 
billion in commitments from about 140 public and private sector 
partners demonstrating that this is a model that leverages U.S. 
investment, you know, for far greater impact.
    Will electricity access remain a development priority for 
the United States in the sub-Saharan Africa? And can you tell 
the committee about the role you see for Power Africa in the 
Trump administration?
    Mr. Green. Thank you.
    First, access to affordable, available, reliable 
electricity is vitally important, not for its own sake but for 
what it means in the ability to work with temperature sensitive 
medicine and obviously to process food. So it is vitally 
important in a number of ways. Yes, it will remain a priority. 
One thing that I am doing personally is taking a look at our 
Power Africa program and seeing what it is that we can do to 
make it go even further and be even more effective.
    In so many parts of the African Continent, the barrier to 
reliable, affordable energy are policies of the host country 
government which are counterproductive. Sometimes it is 
artificially low tariff rates which don't allow for sustainable 
projects. Sometimes it is lack of regulatory capacity. So I am 
taking a close personal review to see if there are ways that we 
can accelerate and expand what we do. I think the Millennium 
Challenge Corporation's involvement in Power Africa, in a 
number of places like Ghana, I think, has shown how a compact 
which carefully incentivizes reforms can be very effective. And 
so we are going to look at that closely.
    Mr. Rogers. Ms. Lee.
    Ms. Lee. Thank you very much. Thank you for this hearing.
    Good to see you, Ambassador.
    Mr. Green. Good to see you.
    Ms. Lee. I, along with Chairman Dent, were in West Africa 
recently. We visited Ghana, Nigeria, Cote d'Ivoire, and Gambia. 
Everyone is very excited about your appointment and really glad 
to see you heading up a very important agency.
    In May of this year, a Navy SEAL was killed. Two other 
personnel were injured during an operation fighting Al Shabaab 
in Somalia. The recent horrific tragedy of four soldiers being 
ambushed and killed in Niger. And we understand that soft power 
diplomacy is really our link to our national security. I can't 
understand why, given what is taking place on the continent of 
Africa, why the President's proposed budget cuts, I think it is 
about $3 billion in aid to Africa. This includes programs, such 
as global health, peacekeeping, emergency food relief, and I 
believe that this administration is turning its back on soft 
power diplomacy and humanitarian aid while increasing the 
military presence and overall militarization of U.S. foreign 
policy, especially on the continent of Africa.
    In fiscal 2017, for example, Niger received over $58 
million in Food for Peace contributions. Yet this, as I 
understand it, program is proposed to be eliminated, the Title 
2 Program, totally. And so, given what is taking place on the 
continent of Africa, how can we justify cutting our development 
assistance programs and eliminating this program, which, of 
course, is going to do nothing but create more despair and 
instability in an already fragile nation? And, of course, we 
know that countries like China, they are stepping in to fill 
the void. And here we have--now, you talk about prioritizing 
resources. Well, yeah, an increase in $70 billion in defense. 
You know, where does that come from? It comes from your budget. 
And so I would like to know how aggressively you push back on 
some of these budget cuts, recognizing the importance of your 
agency, or do you agree with them?
    Mr. Green. Thank you for the question.
    First off, interestingly, as you know, in many cases, the 
strongest supporters of USAID and the development sector are 
often the military and retired military. They don't want to do 
what we do. And so, oftentimes, it is the retired generals and 
admirals that are our fiercest and strongest advocates. So I 
think they agree with you as to the importance of all of this.
    The first trip I took overseas as Administrator was to the 
Horn of Africa, Sudan, South Sudan, and Ethiopia. First off, 
because it gave me a chance to see programs that I wasn't as 
familiar with, the extraordinary humanitarian needs in places 
like South Sudan; Feed the Future and what we are doing in 
resilience building in Ethiopia. And so really quite important.
    Part of my obligation, I think, to you and to this 
Subcommittee is to do the best I can to be truthful about what 
I see as the needs. And so that is a big part of what I am 
doing in my almost 3 months that I have been is doing a deep 
dive look at what some of these challenges are. And I will 
continue to do that.
    And some of the places that you pointed to are some of our 
biggest challenges and some of our biggest opportunities. I 
personally believe that Gambia is a great opportunity where we 
saw democracy bloom. And it would be, in my view, a mistake to 
let it wither on the vine. And so I am looking for ways to 
expand our work there.
    In Nigeria, we have this significant security challenge but 
humanitarian assistance needs to get there. One thing I will 
say, just to help put things in context, we are the largest 
contributor of humanitarian assistance in the world, and no one 
else is even close: 29 percent of all the humanitarian 
assistance in the world comes from the U.S., and it is more 
than number two and three combined. The humanitarian needs are 
growing. And, you know, I think it is a key part of who we are 
and our projection of values, and a lot of it is provided in 
Africa. And we have to, my opinion, keep that going.
    Ms. Lee. Mr. Ambassador, we were also in Gambia. And I know 
that the leadership in Gambia, they want to see more USAID 
presence there. Actually, we have very minimal presence, I 
believe, from what I remember when we were there. But also I 
know that, even though we are the largest contributor of 
humanitarian assistance, these cuts are going to create more 
instability. And, in fact, China is going to fill in the void. 
And, you know, hopefully your agency understands that these 
cuts are going to lead to more instability in USAID countries. 
I mean, I can't see any alternative, and I think we have--
hopefully you can make that argument.
    Thank you.
    Mr. Green. One point to pick up on because of your interest 
in Gambia, as you know, we haven't had a mission in Gambia 
directly. We have worked out of Dakar. And I want to take a 
close look. I met with former Prime Minister Tony Blair, who 
has significant interest--policy interest in Gambia, and we are 
exploring ways to try to build some of the capacity. Because I 
agree with you. I think it is an opportunity.
    Mr. Rogers. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Ambassador, welcome. Let me add my voice to those who 
have congratulated you in seeing you achieve this position 
because I know your life's work has been spent around solving 
complex humanitarian problems and trying to build out the 
systems for justice and self-sustainment. I think this is a 
perfect fit for you. As the chairman said, you are among 
friends. Everyone on this committee has chosen to be here 
because we do deeply understand that the ideals of USAID and 
America's--the rest of America's very generous commitment to 
trying to solve humanitarian problems from which we benefit, 
both economically and culturally, but also creating 
international stability, is essential for our national 
security. These are the motivating factors for everyone here. 
So we are partners; we are friends. And that means, of course, 
we ought to be in constant dialogue about how we achieve 
mutually shared goals.
    In that regard, I appreciate the--in your opening remarks, 
you raise the issue of Nineveh plain in northern Iraq. The 
difficulties of Iraq are well-known to us all. But in that 
particular area where you had a tapestry of religious plurality 
for centuries, where Christians and Yazidis and Muslims and 
certain other religious minorities lived side by side. When you 
lose that, you create a vacuum in a space that is not only an 
impediment to justice to allow the peoples of these ancient 
traditions, their rightful--return to their rightful homeland, 
but also the conditions for ongoing pluralism. And so this is 
why this is absolutely critical.
    I want to show you something. Last year, when the House 
unanimously passed the genocide resolution that declared what 
was happening to Yazidis and Christians and others to be 
genocide, followed then by Secretary Kerry's announcement, 
there was a gentleman in the balcony who was a Yazidi from 
Sinjar. And this is a picture of him. He returned to Sinjar 
after the area was cleared, but it still was not safe. He was 
actually under fire and returned to his home. But next to his 
home was an ancient Christian church, and this is what he saw: 
a pile of rubble. And he fashioned a cross out of two wooden 
pieces of board that he found and put it on that ancient 
Christian church. I met him afterward, and I asked him why he 
did this. He said: These were my brothers.
    Again, when you lose the conditions for plurality, mutual 
understanding, building bridges between different people, the 
prospects for a long-term form of healthy nationalism and peace 
in that very conflicted part of the world will go away. So I 
think it is of utmost urgency, given the genocide resolution 
and given your agency's being on point in solving the most 
pressing humanitarian problems, that we move beyond. I 
appreciated the fact that you emphasized and have made this a 
priority. But when you say we are looking for innovative ideas 
from a broad coalition of partners, the problem is the window 
of time here is very, very narrow. There is an urgent crisis. 
You have millions of displaced people--Yazidis, Christians, 
others in Kurdistan, Lebanon, a few other places--who have a 
right to return. If there is resecuritization, the possibility 
of revitalization, then we can have the conditions for 
repatriation. I would suggest that this is not a matter of a 
year. It is probably a matter of 3 to 6 months. Or then the 
pressures for migration increase; we lose the possibility again 
of reestablishing this ancient tapestry of religious pluralism 
and, again, the possibility of healthy nationalism there.
    So my point in bringing this up, and I have a couple of 
other things I think I will have to get to in the next round, 
is to suggest that there is an urgency here. And if you could 
further refine what we are talking about as innovative ideas 
from a broad coalition of partners, I think it would help, 
because we, by sometimes necessity, sometimes bureaucratic 
constructs, are slow to react, and this demands an urgent 
reaction.
    Mr. Green. Thank you. And as you know, I share your 
concern.
    The (BAA) Broad Agency Announcement process that we have 
announced is actually swift, at least by bureaucratic terms. It 
is a matter of months. It is among the fastest mechanisms that 
we have. And part of it is we want to make sure that we are 
able to get input from the community themselves, and this 
process will allow us to do that. One of those things that I 
learned as I came to the job not quite 3 months ago was the 
depth of devastation that is taking place in the Nineveh plain. 
But you pointed to the right thing. This is not a matter of 
singling out a minority. It is pluralism. And that is a key 
component of the greatness of Iraq's past and hopefully the 
greatness of its future supporting marginalized communities is 
a key part--a core value of USAID and a key part of our work 
and needs to continue to be. And in this case, you know, we are 
focusing, as you have suggested, in doing our best to mobilize 
such support.
    Mr. Fortenberry. I do represent the largest Yazidi 
community in America, by the way. And if there is an 
opportunity for----
    Mr. Green. Cornhuskers all----
    Mr. Fortenberry. On their traditional flag, it is a yellow 
background with a big red--and I call it husker red--symbol on 
it. But I am quite certain they would be very eager, very 
rapidly to plug into this process.
    Mr. Rogers. Mr. Ruppersberger.
    Mr. Ruppersberger. Firstly, Ambassador, you have a very 
good reputation, and all your past experiences I hope will do 
you well in this job.
    I want to talk about the Philippines. I know the President 
is traveling to Asia, and I think that is going to be one of 
his stops. And there has been a really tough situation, a 5-
month battle in the southern Philippines where literally I 
think ISIS almost took control. There were bloody battles 
there, and I think the government took back the control. And I 
know we have committed resources to help the region. Now, can 
you talk about the USAID's role in the Philippines after the 
defeat of the extremist southern part of the country? And 
please talk about the recovery aid package, and what lessons 
have we learned and can apply to make sure that we are using 
our resources correctly in that area and our funds?
    Also, the other thing is, with President Trump's visit, I 
want to get your thoughts on the Philippines' war on drugs, the 
concerns raised about humanitarian abuses, and generally, what 
do you think of Duterte's current state of the Philippines and 
the United States relationship?
    It is going to be interesting to see President Trump and 
Duterte, because, from my point of view, it seems sometimes 
they have the same type of personality.
    Mr. Green. Thank you, Congressman. I was in the Philippines 
about the week before Duterte took office. I was there to close 
out the MCC compact that was there. And I was struck by the 
enormous potential that is in the Philippines and the business 
community and working families all across the country, but also 
struck by just how big it is, 7,100 islands. And I think we 
have seen, sadly, how that has played out in terms of extremist 
elements and criminal elements in the southern part of that 
country presenting tremendous, tremendous problems.
    We are helping out with humanitarian assistance. One of the 
undertold stories near Mindanao are the size of the internally 
displaced communities that are there, what that is going to 
mean, and how long that is going to take to repair 
infrastructure and provide services to the people. So that is 
something that we are taking a close look at to see how we can 
be helpful.
    I share your deep concerns about the extrajudicial 
killings. There is just no two ways about it. And we should be 
very direct on that. I share those concerns myself.
    It is in our interest, as I know you agree, for there to be 
a stable, decent vibrant economy and government in the 
Philippines. And so we are working with civil society there to 
build and strengthen its role, working to strengthen the rule 
of law, both law enforcement but more significantly with the 
judiciary system helping to strengthen it. And as you have 
noted and it is really true in so many other parts of the 
world, hard power successes, if you will, really then lead to 
where we come in. And it is repairing. It is helping to 
rebuild. It is helping to strengthen. It is helping to counter 
some of the extremism and the elements that caused damage in 
the first place. And there is so much potential with the 
Philippines, and they are obviously important to us. You know, 
there will be a lot of work to do.
    Mr. Ruppersberger. You know, we do have a challenge with 
Duterte. But I think, as time goes on, because the strong 
relationship that this country has had with the Philippines 
since World War II, I have noticed that his anti-U.S. rhetoric 
has slowed down. I think he tried to make friends with China, 
and he realized they are not the best friends to have. So we 
haven't heard as much lately. So I hope we can be successful. 
And I think, you know, what you do in your role can be a 
leverage to help our State Department and hopefully President 
Trump try to get the Philippine relationship under control.
    I yield back.
    Mr. Rogers. Chairman Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Ambassador, congratulations. I don't think that there has 
ever been anybody with more experience, more talent, and more 
common sense, who knows the world and who also understands 
Congress, not only in this position, frankly--that is for 
another conversation, Ambassador. The President chose extremely 
wisely. So we are thrilled that you are here, Ambassador.
    Let me bring you closer to our hemisphere, Venezuela. The 
political crisis there has now created a humanitarian crisis. 
And the Maduro regime has in essence assailed democratic 
institutions, free media, and, really, nearly all aspects of 
civil society in Venezuela. USAID's work in Venezuela focuses 
primarily in strengthening and defending these institutions, 
and so how have your programs--or are they evolving or 
adjusting to the increasingly grave and, frankly, really 
dangerous situation for democracy and human rights activists on 
the ground in Venezuela?
    Mr. Green. Thank you for the question, and as you know, I 
share your deep concern. I think it is a crisis, and I think 
that what happens in Venezuela affects the entire hemisphere. 
So it really does matter and affects our national interests.
    Currently, USAID is supporting 20 human rights groups, 
strengthening their capacity. A big part of what we are doing, 
given how difficult and dangerous it is to be on the ground--we 
really don't right now have the capacity to work much on the 
ground--we are doing a lot of scenario planning and a lot of 
contingency planning and trying to mobilize the kinds of 
humanitarian assistance that can come in and make a difference, 
because the humanitarian catastrophe is occurring; it is 
happening before our eyes.
    Mr. Diaz-Balart. Ambassador, one of the things that--and I 
don't necessarily want to highlight individuals or groups--but 
one of the things I am hoping that you are looking at is 
supporting, whether it is the families of political prisoners 
in Venezuela or the youth and the student protesters who, in 
many cases, have been murdered in the streets and other key 
members of the opposition in Venezuela, so I am hoping that 
those are folks that hopefully you will be looking at----
    Mr. Green. Yes.
    Mr. Diaz-Balart [continuing]. As your programs look at 
Venezuela.
    Let me now shift to Colombia. Chairman Rogers has been 
very, strong about making sure that funds, U.S. taxpayer funds, 
don't go to, for example, members of a terrorist organization, 
the FARC, or that funds that are used--if in fact the 
democratically elected government in Colombia started getting 
serious about controlling their narcotics production. But given 
the Santos administration's peace deal with the FARC, how much 
of USAID's attention and programming, and specifically--and I 
don't know if you don't have to answer this specifically right 
now, but regarding, for example, the Justice for a Sustainable 
Peace, or the Inclusive Services for the Population Affected by 
the Armed Conflict, also the Reintegration and Prevention of 
Recruitment programs. Is USAID, geared towards supporting those 
efforts? And if, for example, there would be a semicollapse of 
that peace process or it suffers setbacks, can these programs 
move forward independently and relatively unimpeded?
    Mr. Green. Great questions. I have been to Colombia twice 
myself in the last 2 or 3 years. And what I was struck by most 
of all was the lack of connection between the central 
government and many of the rural areas. And in my view, that 
has led to some of the problems that we are seeing. So we are 
trying to foster that connection and trying to reinforce it. A 
good part of what we have been trying to do is to create strong 
licit alternatives to the illicit substances being produced, 
because that is a catastrophe and obviously a road in the wrong 
direction.
    In terms of some of the contingency planning you are 
talking about, we are always contingency planning. We are 
always talking to our partners and trying to monitor conditions 
on the ground. Colombia has enormous potential. And, obviously, 
there are still some lingering concerns.
    Mr. Diaz-Balart. I can't speak for the Chairman, but I do 
know that Chairman Rogers has been a steadfast supporter and 
leader on the issue of Colombia, and this Subcommittee has been 
there. So we look forward to working with you. Thank you.
    I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    On that subject of Colombia, the coca production there is 
exploding since the agreement was signed and ratified. What can 
you say about that?
    Mr. Green. A data point that I have is, about 2 months ago, 
I had the chance to meet with the President of Costa Rica in a 
social setting, and I asked him casually how things were going 
in Costa Rica. And he said: Not well. We are seeing the worst 
coca flowing around that we have seen in many, many years.
    So that is obviously a terrible situation. Again, our role 
in this is trying to provide alternatives, strengthening 
alternatives. But there are deep concerns. And of course the 
opportunities for fulfilling the hopes of the peace deal, as 
you get closer and closer to the Presidential elections, get 
harder and harder to see fulfilled. So there are challenges to 
keep watching.
    Mr. Rogers. Major problem for the U.S. We have an 
unprecedented epidemic in the country on the use of drugs, 
opioids especially. And practically all of the cocaine coming 
into the U.S., especially by the southwest border, is from 
Colombia.
    I love Colombia. I have been there as well many times. Made 
great progress. But this is one area that is hurting us 
severely that I hope we can focus on.
    Mr. Green. Mr. Chairman, I can add that just last week I 
was in Mexico City meeting with my mission directors from the 
Northern Triangle countries as well as the U.S. Embassy in 
Mexico and also business leaders to learn more about and to 
gauge the depth of the crime challenges, the narcocrime 
challenges. And so we are definitely focusing on this because 
you are right: this is a direct challenge to the national 
security of this country.
    Mr. Rogers. Thank you.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Ambassador, let me add my welcome to the Subcommittee. 
Earlier this year, I was delighted to hear of your 
appointment--I might even say relieved to hear of your 
appointment--to the position you are holding because we know 
you and we know your commitments and we have a great deal of 
confidence in your leadership prospects.
    As Ranking Member of the House Democracy Partnership, HDP, 
you know very well that we have worked together in Georgia, in 
Ukraine, in Kenya, and Indonesia, and other countries where the 
struggle for democracy has generally been promising but 
certainly needs support from our country. The International 
Republican Institute, which you headed, is a vital instrument 
in making that happen. And in that role and, before that, as 
Ambassador, you have shown your dedication to strengthening 
democratic capacities of governments around the world, 
improving the effectiveness of our assistance.
    Many people have expressed to you today our concern about 
the budget that early on came from President Trump. One of the 
most alarming aspects of that budget was the proposed cuts, 
deep cuts for the State Department and USAID funding. We are 
still hoping we will have a bipartisan budget agreement that 
will let us enact bipartisan appropriations bills. But I do 
give the chairman and this Subcommittee a good deal of credit 
already for working in a cooperative fashion to reject and 
correct some of the worst aspects of that budget, including 
cuts in areas like global health and governance.
    So that is what I would like to turn to for my question, 
and that has to do with governance support, which is an area of 
expertise and concern for you and something that, of course, 
affects you and your agency directly. Governance is basic to 
everything else. If governance in a country fails, chances are 
everything fails. So I would like to ask you two questions. In 
your view, what is the role of governance assistance and 
democracy capacity-building activities at USAID? How 
specifically does that further U.S. national security? And what 
priority do you place on governance assistance going forward? 
It is, of course, one of many areas of international 
assistance, and there is a competition for funds. As we compete 
for funds, I wonder how we prioritize this assistance and, in 
particular, what kind of targeting we might need to do.
    As you know, HDP and IRI on various occasions have been in 
the situation of advocating against a premature termination of 
assistance. We all know that governance support is one of those 
areas that you cited where we hope eventually the support won't 
be needed. But there are a lot of dangers in prematurely 
cutting that off. In a budget-constrained environment, there 
are going to be needs to set priorities. So I wonder how you 
target governance assistance. And how do you deal with the 
possibility that targeting could risk leaving some countries in 
the lurch, graduating them, so to speak, from governance 
support prematurely?
    Mr. Green. Thank you. As you know, a topic near and dear to 
my heart.
    As a general matter, part of what I hope to do in my time 
at USAID is to begin to develop those kinds of benchmarks and 
measurements that will help us understand better what country 
capacities are, governing capacities on a whole wide range of 
topics. And it is the topics that are the subject of many of 
our programs. I think what we need to do is to look for ways to 
better attack what those capacity flaws are and to prioritize 
strengthening them so that we help a country on that journey 
and come to understand when it is appropriate to talk about a 
new kind of relationship.
    I think democratic governance is one of those areas that 
must be part--is a key part of measuring that. You are right: 
the investments that we make of precious resources are not 
sustainable in the long run if they are not followed by 
citizen-responsive governance. And sometimes I have to remind 
people in the work that I do it is not just governance; it is 
democratic governance. Authoritarians are often pretty good at 
governance; they are just not much good at anything else or in 
line with the values that we care about. So it is citizen-
centered, citizen-responsive governance. And to me, it needs to 
be an important part of the work.
    To go along with it, I think what we should do is be 
looking at things like domestic resource mobilization, the 
ability of countries to collect their resources in a 
transparent, equitable manner, and to have transparency in the 
allocation of resources so they have skin in the game. That 
would also help us take on what is another key part of 
responsive governance, and that is corruption. You know, we 
oftentimes do naming and shaming, and there is a place for 
that. I think it is also attacking the systems that lead to 
corruption so that we fix the flaws, help fix the flaws in the 
system.
    All of those things are important. You can count on me to 
try to find ways to prioritize democratic governance wherever I 
can because I think it is a vital part of making sure that the 
investments that we make lead to sustainable results.
    Mr. Price. Thank you.
    Mr. Rogers. Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman.
    Ambassador, Congressman, et cetera, Mark, it is good to be 
with you. I often think on the time we spent together in 
Africa. And it was my first trip to Africa for my wife and I. 
And it is one of the defining moments in our service so far. 
And thank you for your leadership and service.
    And I am going to set up a proposition for you. And I think 
this is an easy one, but I think it is one worth discussing. 
And it is more broad; it is much more broad than what we have 
discussed here so far. You know, I am a former military guy. It 
is where I spend most of my time here in Congress, not all my 
time, obviously, but on national security and issues regarding 
intel. And you know as well as anyone in this room--I think you 
know as well as any admiral or general because of your 
exposure--that the world is a dangerous place. It is chaotic, 
and it is getting more-so, not less so. And the reality is, the 
U.S. has to lead. And a lot of people resent that. A lot of 
people don't like it, but it is just the truth. We have to 
lead. And if we don't lead, then who in the world will? Or 
another question is China will, but they will lead us in a very 
different direction. Vladimir Putin would love to be the world 
leader, but he will lead us in a very different direction.
    And my point is this, Ambassador: We are told all the time 
that USAID and humanitarian efforts often preclude the 
necessity for military intervention. And I think that is true. 
I don't think it is true as often as many people think. I mean, 
essentially, the argument is: Help us make butter or you are 
going to have to give us guns. Again, I think that is the case 
sometimes, but I don't think it is the case as often as a lot 
of people think for two reasons. One is primarily of geography, 
but the second is this: the scope of the problem. We can't feed 
the whole world. And if that is the criteria for precluding 
conflict, we are going to fail for that reason alone. And the 
second is, even if we could, we don't fix many of the problems 
that lead to conflict, but we can fix some of them.
    So my question to you is this: For the American people, 
there are examples. Will you talk about the areas that you are 
working now that either have or that you hope will preclude the 
need or the necessity for military intervention or expanded 
military intervention? Help the American people understand why 
your work is so important for our national security.
    Mr. Green. Thank you, Congressman. In some ways, a 
philosophical question, but for us it is a very practical one. 
You are right: There are parts of the world, say Tunisia, where 
we are helping Tunisians to strengthen their governing 
institutions and to provide the kind of opportunity for their 
young people that is motivating and causing them to reinvest in 
institutions which will gird them against some of the extremist 
voices that are in the neighborhood. So that is an example.
    Mr. Stewart. Could I elaborate on that and agree with you 
very quickly?
    Mr. Green. Sure.
    Mr. Stewart. I mean, 4 or 5 years ago, Tunisia was on the 
edge of a knife. Remember we had the assault on our Embassy 
there. They could have gone the other way. And we didn't use 
military intervention. It was the soft power that made the 
difference in Tunisia.
    Mr. Green. The example I often point to is from my time as 
Ambassador. The 1998 Embassy bombings, in some ways one of the 
earliest signs of al-Qaida, was its attack on the Embassies in 
Dar es Salaam and Nairobi. Ten years after the 1998 bombing, I 
was Ambassador. President George W. Bush arrived like he was a 
conquering hero. Streets were lined 10 deep. And President Bush 
was smart enough to say: Look, this is not about me at all. 
This is about all the investments that the American people made 
along the way to help them take on their poverty-enhanced 
challenges, challenges of AIDS, challenges of malaria, 
challenges of destitution. And what we did when we did those 
things is I think we encouraged the Tanzanian Government to say 
I think they are on our side, so we are on their side. So I 
think these projections of our generosity and our technical 
assistance are vitally important for helping to shape the 
world. We are not perfect. We are flawed. There is no way the 
world gets better if we step into the shadows.
    Mr. Stewart. You make a good point there too. And sometimes 
our flaws are obvious and sometimes they are used as a reason 
to degrade and degenerate against the good. No doubt about 
that. Again, I know you could list others. My time is almost 
up. I will just conclude with this. And I am glad you mentioned 
Tunisia, but we could have listed others, but Tunisia was a 
place. I mean, we had Libya intervention with U.S. soldiers 
there at the time, there now. We obviously have on the other 
side Egypt and the Middle East, which is a very, very chaotic 
part of the world, a dangerous neighborhood. But in this one 
case, we were able to make a difference, and we did it without 
military intervention. And I remember meeting with the 
President of Tunisia and him begging us: Will you please help 
us?
    And we did, and I am grateful we did, and I am thankful for 
your work. We want to support you.
    Mr. Green. Thank you.
    Mr. Rogers. Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman.
    Welcome, Administrator Green, and congratulations again.
    My question is about women. Women invest in the health and 
education of their families, which create more stable 
societies. An adolescent girl can't participate in basic 
education opportunities if she misses school due to lack of 
access to basic hygiene and sanitation needs. A woman fleeing a 
disaster still needs menstrual and reproductive health needs 
met if she is to focus on economic stability and the security 
of her own family. This is why menstrual hygiene management is 
so important. It enables women and girls to participate in 
education and the economy. Studies have shown that when girls 
don't have access to education, they are more likely to be 
recruited by militant terrorist groups.
    The proposed budget, though, calls for slashing Water and 
Sanitation Hygiene, or the WASH program, funding, which 
includes menstrual hygiene management. We can't empower women 
to change the future of their countries if they don't have the 
basics to stay in school or participate in the economy due to 
immediate concerns they may have about water and sanitation 
needs. How specifically is USAID including menstrual hygiene 
management in its WASH program development on a broad scale?
    Mr. Green. Thank you, Congresswoman.
    I know you have been a very eloquent advocate for this 
topic.
    So a couple of ways. First, on the more specific, we 
include such items as part of our kits in disaster response. So 
it is a key part--it is a recognition of the importance of 
clean water and sanitation in disaster cases. So we do that. We 
additionally work with NGOs and U.N. partners to make sure that 
such items and services are available as much as we can.
    In terms of the WASH program, we have already named--in 
fulfillment of our obligations to you and the Subcommittee--we 
have already created the position of Global Water Coordinator 
to help oversee the planning that we do in fulfillment of the 
Water for the World requirements. I will make sure that our 
staff consults with you so that we are working closely to make 
sure that work fulfills the intentions of Congress.
    Ms. Meng. Just more broadly, nearly a quarter of the 
world's children live in conflict- or disaster-stricken 
countries. How has USAID been working to ensure children are 
protected from exploitation and violence in humanitarian 
settings? And in your opinion, how can USAID increase focus on 
addressing challenges facing children and youth around the 
world?
    Mr. Green. A challenging broad question because the needs 
are so great. Let me respond in a couple of ways. In terms of 
helping exploited children, the response is a combination of 
law enforcement, awareness building, victim services, and 
referral networks. All of those we do and we support.
    But, secondly, you are pointing to what is probably the 
greatest realization since I have come to this position. My 
background was on the development side. And I worked on a 
number of our best known development tools. I have been struck 
by the level of humanitarian need. I mean, I guess I really 
wasn't fully prepared for that. We have nearly 66 million 
displaced people in the world today. And I bring that up in 
this context because, as I visited camps in Sudan and South 
Sudan, I was struck by how many of them were children. And in 
places like Darfur, they are born in those camps, and they are 
being raised in those camps. And how they are able to get basic 
nutritional services, basic educational services, health 
services, it is an enormous challenge for us, and somehow we 
have to meet that challenge because, if we fail to meet it, you 
wonder where those children are going to be 10 years from now 
and how they are not going to fall prey to some of the worst 
influences. So it is something that causes me to stay up at 
night. It struck me more than anything else.
    Ms. Meng. And in talking about budget cuts and priorities, 
will you commit to the empowerment of women and girls and 
protecting them and, like you mentioned, the increasing record 
numbers of people who have been born or are fleeing because of 
these dire humanitarian situations?
    Mr. Green. Women's empowerment is a key part of our 
programming and will continue to be. It is. It is something we 
try to take into account in all the programming we do.
    Ms. Meng. Thank you. I yield back.
    Mr. Rogers. That concludes the first round of questions, 
comments.
    Mr. Ambassador, I know you are a busy man, but do you have 
time for us to do another round of questions if we keep it 
brief?
    Mr. Green. Sounds great to me. The brief part sounds really 
good to me.
    Mr. Rogers. Let's go for another round. And we will hold 
the time limit to around 3 minutes, rather than 5, to give 
members a chance to at least bring up some of their concerns.
    One of my big concerns is the legacy of USAID being a poor 
manager, that the management of the Agency is famous for 
struggling, poor planning, poor monitoring, lack of local 
capacity and qualified personnel, coordination with other 
agencies, and financial and information management. In fact, 
the Inspector General, who was our first witness before this 
subcommittee sometime back, made a great point of mentioning 
top management challenges at USAID. Addressing those chronic 
problems would not only enhance USAID but also the credibility 
and legitimacy of foreign assistance itself. What can you tell 
us about how you plan to remedy these chronic management 
problems identified by the IG?
    Mr. Green. Thank you, Mr. Chairman.
    First, let me say that I enjoy a great working relationship 
with the OIG. We have met. She or her representative sits in 
our senior management meetings. And one of the first executive 
memos that I sent out across the Agency was a joint one with 
her talking about the key role as a partner that I see the OIG 
playing, especially as we take on issues of talking about 
redesign. These are key things that we need to have as part of 
every decision that we make. In terms of the recommendations 
that had been left unaddressed when I came in, as I believe the 
OIG will tell you, we are working through them deliberately and 
getting as many done as quickly as we can to make sure that we 
do this the right way. Again, I view the OIG as a key partner 
in our work. You know, we need to jointly take on concerns that 
are there. And so that is our commitment and will continue to 
be to this committee.
    Mr. Rogers. I appreciate the fact that you are interested 
in her advice. But there is another adviser we want you to pay 
attention to, and it is this subcommittee and the Congress. I 
was just chatting with Mrs. Lowey a few minutes ago. You have 
more discretion, larger amounts of money to disburse by your 
discretion than most any agency head I can think of, which is 
the way it should be. We should give you flexibility and give 
you the funds to do your chores. But in exchange, we need 
information and we need oversight and we need responsiveness.
    USAID has a bit of a reputation for not being able to 
provide information on its programs and funding in a timely and 
comprehensive manner. It is a real communications problem that 
we have had long before you came here that we are hoping that 
you can remedy. What do you say?
    Mr. Green. First off, you have my personal commitment. I 
will be up here all the time. As we take a look at many of the 
programs that we have, many of the responsibilities and 
authorities that you have provided, they require congressional 
notification. My commitment to you is congressional 
consultation. Coming in and informing you of choices, of 
decisions, is not consultation. We instead plan to be very 
deliberative in our discussions with you.
    As a practical matter, none of these things are sustainable 
if we aren't in a dialogue with all of you, if we aren't 
sharing ideas. There shouldn't be surprises. And so that is our 
commitment to you. On some of the steps that we have been 
looking at as we strengthen humanitarian assistance, I know 
that this Committee has been briefed. And that is the practice 
that we plan to undertake, is briefing as often as we can. I am 
personally available to come up any time. But we want it to be 
a constant dialogue. It is the only way that we get sustainable 
outcomes.
    And then, finally, and maybe it is because I come from this 
institution; Congress has a lot of good ideas. You know, we are 
trying to bring in from every part of the community, every part 
of this community the best ideas we can find to take on these 
challenges. Every now and then, it actually comes from Congress 
as well. So we will do our best to make sure that you are 
included in discussions.
    Mr. Rogers. You know, we read a lot about and have 
conversations a lot about the proposed reorganization of State 
and USAID. Here we are 11 months into the administration, and 
we don't yet know even the parameters of the supposed 
reorganization that is being planned. This is more than passing 
interest. This needs to be aired out. And Congress needs to be 
a part of that airing out.
    OMB is reviewing the reorg, as I understand. Will you also 
commit to briefing this Committee and submitting the report 
required by the 2017 omnibus before making any organizational 
changes?
    Mr. Green. Yes. We will comply with all of the requirements 
of the omnibus bill, all the congressional notifications and 
consultations. You can count on that. Again, we have already 
started that process but want to make sure that it is a 
continuous dialogue. So yes.
    Mr. Rogers. You kept it a pretty good secret from us.
    Mr. Green. Well, in terms of briefings, we did brief your 
Subcommittee staff in terms of a couple of measures that we are 
looking at. But the redesign plan was submitted on September 
12. OMB has 180 days to look at it. In terms of what comes out 
the other side, to be honest, it is premature. But you will 
absolutely be consulted as we go.
    Mr. Rogers. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. Following up on the chairman's questions, while 
Congress and the administration continue to grapple with the 
fiscal year 2018 budget process, I remain very proud of what we 
accomplished together in the fiscal year 2017 omnibus. Among 
our other achievements, the bill provided adequate investments 
in our diplomatic and development programs.
    Three quick questions. Can you explain the reports from 
implementers about funding being delayed or canceled, with the 
administration citing budget uncertainty? I recently heard a 
class of USAID Foreign Service officers was abruptly canceled. 
Can you explain the reasoning for this? Will we be able to 
effectively implement USAID programs if we are unable to bring 
into the Foreign Service new talent? Congress has been alerted 
that the Development Innovation Ventures program was put on 
hold. Feed the Future priority countries were scaled back. 
Numerous education and health programs have been shortened or 
canceled altogether. Do I have your commitment that fiscal year 
2016 and 2017 resources are being fully implemented according 
to the agreements reached with Congress? And I would just like 
to say, as you see, Mr. Ambassador, that you have a fan club in 
this committee. It is a very bipartisan committee. We all are 
focused on doing the best we can. And if there are recommended 
changes, we certainly can review them together. But what is 
happening now is unconscionable. It is inappropriate. I have 
been in the Congress a long time. And as a person who is really 
committed to these programs, who has seen the success of these 
programs, I understand that they all aren't successful, and we 
have to evaluate them together. But it is now November. Please 
explain.
    Mr. Green. Sure. Thank you. First, in terms of the delays 
of funding, I have heard some of those reports. I am concerned. 
We have looked into it. I suspect that a lot of this is due to 
how late in the year the omnibus bill was signed. It wasn't 
signed until May. I have actually sent out numerous 
communications all across the Agency that money should be 
mobilized and should be fully implemented as intended by 
Congress. We will live up to all of the commitments that were 
made in that bill and with 2016. So we will in fact program all 
those dollars.
    On a previous occasion, you had asked me about the $990 
million in famine funding. That was fully obligated by the end 
of the fiscal year per our commitment to you. A fair bit of 
that was actually committed up at UNGA in the pledges that we 
made. So we will absolutely live up to our obligations and make 
sure that we do that. I will continue to look into these 
reports. But again--and meet with your staff to go over 
specifics. But our understanding, a lot of that has been in the 
delay of the money reaching us.
    But absolutely we have throughout the agency asked for full 
implementation. There is no intention on our part to hold back, 
none at all.
    Mrs. Lowey. I think it is important for the record to note 
that the money being held up is from fiscal year 2016, not 
fiscal year 2017.
    Look, in conclusion, I just want to say I know your goals 
are similar to our goals. This is the eleventh month--January, 
February, March--and there is so much uncertainty: People are 
leaving. They don't know whether they are going to be retained 
out in the field. There is a real concern of who is going to be 
servicing these programs, who is going to stay, who is going to 
leave. And many outstanding people that you and I and all of us 
would love to see in these positions are moving on to other 
things because they don't know what is happening next.
    So I don't know if you have a closing comment on that 
issue, but I am extremely concerned. I have been working on 
these programs a long time. I have never experienced anything 
like this.
    Mr. Green. Again, we will be very happy to follow up with 
you on the 2016 dollars. That is simply not what I have heard. 
We are not going to hold anything back. There is no reason to. 
We will fully implement. We will follow all of the agreements 
struck with Congress. Absolutely. We want to see the success of 
these programs. I personally want to see the success of the 
programs.
    With respect to the story that you are referencing, we have 
not eliminated positions. We are still under a hiring freeze. 
As of today, we are still under a hiring freeze. Before I 
arrived at this position, we had asked for an exception for 
that class that was involved, and it was denied. And that is 
where that comes from.
    Mrs. Lowey. I just want to say, Mr. Chairman, as you can 
see from this hearing, we all have great respect for your 
leadership. And maybe we have to have a joint meeting for the 
person who is making these decisions because, whether it is 
purposeful or not, in my judgment, the department is being 
destroyed, the programs in the field are being destroyed, and 
we should be able to make decisions about programs that are 
effective, programs that are not effective, and I know we could 
do them together. So the fact that this is November and this 
administration has had since January, I think that is totally 
unacceptable. But I thank you again for taking on this work, 
and I look forward to working with the chairman and this 
Committee.
    Mr. Green. If I can just add one element, I would be very 
happy also to attend a meeting that we convene with some of 
those who have raised concerns about the financial flow 
because, again, there is no interest here in holding it back. 
These are our obligations, our commitments to all of you. So I 
would be very happy to explore that further.
    Mrs. Lowey. I thank you for your comments, and I look 
forward to following up with our Chairman to see what next 
steps will be because I know everyone who has chosen this 
Committee is committed to its work. Thank you.
    Mr. Rogers. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Ambassador, in your opening comments, you mentioned 
part of your mission is to do what we can to stop wildlife 
trafficking. Obviously, the loss of species is a concern, but 
also as that leads to terrorist financing networks and the 
disruption of basic important local economies and a sustained 
ecosystem. I want to bring something to your attention that we 
are working on. In Botswana, there is the Okavango, which is a 
pristine wilderness area made possible by the highland waters 
that come down from Angola and Namibia. Botswana does an 
incredibly good job of managing this through private 
concessions under government authority but clearly need to be 
aggressively working with both the countries of Namibia and 
Angola for its long-term sustainability. As Angola moves out of 
its difficult period, there is, my understanding, a memorandum 
of understanding between our Defense Department and Angola. 
There is a new President coming in shortly. We have spoken with 
them. There is a group of Members working on a new concept. I 
have spoken as well with the Namibian representatives who are 
also interested in this idea of a transnational conservation 
area.
    So there is a piece of legislation that is being worked now 
that hopefully will be introduced shortly. It would primarily 
potentially involve the Interior Department and Wildlife and 
Fisheries, but there is going to be some nexus I suspect with 
you as well. This, again, is a significant idea to think beyond 
national boundaries as to how you create the conditions of a 
holistic ecosystem which is beneficial to communities and 
persons and allows for the more proper migration of wildlife so 
that, again, they are sustained over time, leading to economic 
benefits versus just simply resource extraction, which may 
disrupt really an environmentally pristine area. There are also 
geopolitical benefits of this as well in that we are bringing a 
creative, innovative, entrepreneurial vision of sustainability 
versus other countries that just want to pull stuff out. I 
bring that to your attention because this is coming your way 
shortly.
    The second issue, quickly, is I have spent some time 
studying an OPIC endeavor, Overseas Private Investment 
Corporation, in which they are doing exactly what you pointed 
out you want to explore as to how you better leverage private 
sector and even the private market dynamics to create 
sustainability of charitable or humanitarian projects. Here 
OPIC participates in a private equity fund. So does the Gates 
Foundation. So there are certain social metrics that are built 
into actually a private profitmaking venture, which returns the 
U.S. Government money. But it is targeted to sustainable 
medical systems among the poor, cross-subsidized by the wealthy 
because they go to the same clinics because these clinics work. 
So we can have a longer discussion about that, but it is one of 
the more innovative things I have seen out there that actually 
makes us money, does not require troops to stand there and 
guard the facility in order for it to be successful, and is 
leveraging the best of the private market, even though it seems 
peculiar that the United States is indirectly involved in the 
private equity fund.
    Mr. Green. Very quickly, I met with the Secretary of 
Interior last week, and we just began our conversations about 
some of the international conservation programs, which I think, 
A, are a great part of our heritage, and B, a skill set that we 
can help export. We can help build the capacity of other 
countries towards ecotourism and sustainable ecotourism. So I 
will take a look at the legislation. I am aware of some of the 
concepts, and really preserving those corridors are obviously 
key in a number of ways.
    Secondly, one of the things that I have also picked up 
since I have been on the job is I am now a member of the board 
of OPIC by being Administrator. I have had one board meeting. 
We have begun those discussions. I think that we need to make 
sure that our development finance institutions, including 
USAID's Development Credit Authority, are closely aligned. We 
need to deploy all of those tools in so many situations to make 
the dollars go further but, more significantly, to better 
access private capital. Eighty percent of the money that is 
flowing from America to the developing world is commerce. It is 
private commerce. It is remittances. And we need to be able to 
tap into those. If we don't, we are working with such a small 
piece of the pie; we are really not leveraging development 
outcomes. So it is a very exciting area.
    Mr. Rogers. Ms. Lee
    Ms. Lee. Thank you very much, Mr. Ambassador.
    Following up on Congresswoman Lowey's point about money 
being obligated, the $990 million in emergency funding for the 
famine relief, that money you confirmed has been obligated.
    Mr. Green. Completely obligated.
    Ms. Lee. Now, the fiscal 2018 budget requested elimination 
of title II food aid, which, again, didn't reflect quite a 
sustained response from this administration, given the ongoing 
famine crisis. We know now, in Yemen, Somalia, South Sudan, 
northern Nigeria, these crises aren't going away. So, by the 
elimination of the title II food aid, I mean, I don't know what 
options there are, given what you indicated in terms of our 
commitment.
    Secondly, let me ask you about these new partnerships. Now, 
several years ago, we wrote language into the bill that we want 
a report back on the utilization of minority and women-owned 
businesses. USAID has been one of the worst in the Federal 
Government in terms of making sure African-American, Latino, 
and Asian-Pacific-American businesses are part of the mix in 
terms of USAID operations. So I would like you to look at that 
and send us a report on how you intend to use them and what is 
going on in this.
    And, finally, just with regard to UNFPA, when the money was 
transferred it was $32.5 million transferred from the 
International Organizations Bureau to USAID. Ambassador Haley 
came before us and said that all of the money would go to 
global health. So I want to make sure that USAID is using this 
money for women and children, you know, whatever global health 
now, however that is defined as it relates to USAID's mission.
    Mr. Green. On the third point, I will get back to you. I 
will confirm that for you. In terms of what we are doing to 
bolster diversity, it has been a high priority of mine since 
the day I arrived. I think it was my first executive message 
that went out was to reaffirm and expand diversity in the 
workplace and diversity in programming priorities, a key part. 
We have also expanded what we are doing with minority-serving 
organizations in terms of, not just business, but recruiting 
for our staff.
    Ms. Lee. We had an HBCU, Historically Black Colleges and 
Universities, strategy. So we need an update on that.
    Mr. Green. Yes. We are meeting with them and expanding to 
the Hispanic-serving institutions as well.
    Ms. Lee. Good.
    Mr. Green. I also had the very enjoyable experience of 
working with Donald Payne, Jr., of welcoming the class of the 
Donald Payne, Sr., fellowships, and we are going to continue 
that program. So you have my commitment. We are going to 
continue to bolster it. We need to find the best talent we can, 
and if we are not tapping into those organizations and 
institutions in the minority community, we are not going to get 
there. And, secondly, it is a key part of our projection of 
American values around the world.
    Ms. Lee. Minority-owned businesses, 8(a) programs.
    Mr. Green. Absolutely.
    Ms. Lee. Okay. And then, finally, on the famine, the cut of 
food aid, the elimination of the food aid program, how do you 
intend to sustain famine relief if in fact there is no money?
    Mr. Green. So, as you know, the budget request didn't 
eliminate food aid. It simply put it all into the international 
disaster assistance accounts, but it is not as much as it was; 
you are absolutely correct. And it is a challenge. And it does 
create challenges. It does require choices. I will say one 
thing that we have begun to see: We are seeing more partners 
increase their share. Germany, Japan, the EU, Qatar, Saudi 
Arabia. But the needs are still outpacing the available 
resources. I want to just be honest with you.
    Ms. Lee. Thank you.
    Mr. Rogers. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Ambassador, as our time is running out here, I want to flag 
one area for your response for the record, if I may. This is 
basic education, the support of basic education. That has been 
a major priority of this Subcommittee. And you shouldn't 
conclude otherwise from the fact that it hasn't been directly 
discussed here this morning. So I am going to be submitting a 
question for you to respond to for the record having to do with 
the nature of that commitment, what kind of priority you give 
it, the relationship to development potential in countries, the 
potential for countering radicalism, and so forth. We know how 
important it is, and I do want to get some information on the 
record as we write our future bills.
    What I want to give you a chance to respond to orally is 
what I take to be a major emphasis of your statement before us 
and your plans going forward, and that is the increasing use of 
public-private partnerships in our aid programs. We all know 
that the flow of funds into developing countries has become 
more diversified, not so much just development assistance 
anymore; it is supplemented by philanthropy, by remittances, by 
private investment, and so on. And so USAID's work is going to 
be increasingly to stimulate that kind of support and those 
partnerships.
    There is a converse proposition, though, and that is, just 
as you need to stress the potential of seed money to leverage 
support and funding from other sources, I think it is also 
important for us to have an assessment of how the removal of 
seed money or the reduction of seed money potentially would 
have effects far beyond just the direct funds expended. I 
assume you would agree that is a peril as we consider foreign 
aid budgets. It is a promise and a peril. I wonder if you would 
elaborate further on how you are going to--on your plans going 
forward in this area. We of course would welcome a submission 
for the record. But anything you want to say here as well.
    Mr. Green. Thank you. Thanks for the question. And you are 
pointing at what is in some ways the most significant 
development in development these days, and that is the ability 
to leverage catalytic investments in ways that produce 
development outcomes. It has been--again, I am not quite 3 
months on the job, but it has been one of the strongest and 
most rewarding lessons that I have learned. I was at the World 
Food Prize event in Iowa a couple of weeks back and the 
dialogues around it. And meeting with a number of the 
companies--Syngenta, with whom we unveiled a new partnership; 
Keurig Green Mountain, with whom we unveiled a new partnership; 
the work being done by a number of agribusinesses to help 
Africa take on the fall armyworm--there are all kinds of ways 
where USAID can use its convening power, its ability to lower 
risk and risk share, and also to provide some modest 
availability of credit, the outcomes are almost unlimited. But 
it is important that we coordinate those tools better than I 
think we have done in the past or really had the opportunity to 
do. But I think there are tremendous opportunities.
    And we are even seeing it in the humanitarian space. In the 
response to the outbreaks of Ebola in Guinea and West Africa, 
the number of private institutions and businesses that came 
forward as a response to some of the grand challenges that we 
issued showed remarkable success in development of new 
technologies that just mobilized our ability to respond. We 
just have to keep that going because of the nature of the 
challenges and the depth of the challenges that we face.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    Mr. Ambassador, let me turn quickly and lastly here to 
Afghanistan. USAID has been investing resources in Afghanistan 
for a very long time now. There have been some accomplishments, 
but there is still a long way to go, and resources are finite. 
Assistance levels to Afghanistan have been declining steadily, 
but we are still talking about a significant amount of money, 
$650 million in fiscal year 2017. President Trump recently 
announced his administration's new South Asia Strategy, and the 
Committee recently received the updated civilian and diplomatic 
strategy for Afghanistan. In your opinion, what can we do to 
create a real and lasting impact in Afghanistan?
    Mr. Green. Thank you, Mr. Chairman. Right now, at USAID, we 
are in the process of developing our 4-year plan to align with 
the President's announced South Asia policy. And as you know, 
the pillars of that are security and governance and corruption. 
And that is what we are developing responses to, but also the 
humanitarian assistance side. Those Afghans who are returning 
from Pakistan and their integration and creation of economic 
community and community connectiveness, those will be key parts 
of it.
    You know, clearly a successful Afghanistan is vitally 
important to the U.S. in our broad-based battle against violent 
extremism. But you are right: I mean, obviously patience is not 
unlimited, and we all need to see results and progress. And we 
will share, obviously, our strategy with you. But we are 
working on it to try to take those on.
    I think also looking for ways to create licit economic 
opportunity and away from what we have seen the reports of 
poppy growing is vitally important as well. That is in our 
interest. So we are developing a strategy to align with the 
President's policy, and we will share it with you as it is 
completed.
    Mr. Rogers. We appreciate the fact that your staff and your 
partners are working in incredibly difficult conditions in 
Afghanistan. We want to thank them for their dedication and 
their service. But operating in that conflict environment also 
makes it difficult to get eyes on projects that you have for 
the best possible oversight. How can you ensure, if you can, 
that U.S. funds aren't getting into the wrong hands?
    Mr. Green. Thank you, Mr. Chairman. And it is, as you point 
to, a significant challenge. But it is a challenge not only on 
the ground; it is a challenge to the systems of USAID. We have 
developed a vetting system that we use to try to make sure that 
every last dollar goes to where it is intended and, most 
importantly, doesn't go into the hands of the wrong people. We 
are able to use technology well. We do have some people on the 
ground, but it is vitally important. And so we are spending a 
lot of time on it. It slows down, for us, the responsiveness, 
but it is absolutely important. It is our highest guarantee or 
assurance that we are going to focus on this because it goes to 
the integrity of USAID.
    Mr. Rogers. Mr. Ambassador, we really appreciate your being 
here today. We have kept you longer than perhaps you had hoped, 
but we have covered a lot of good ground. We appreciate your 
testimony here today. More importantly, we appreciate your 
service to your country, again. We are thrilled that you are 
where you are. We think that you are perfectly situated, with 
your experience, for this new assignment. So good luck to you. 
Count on this Subcommittee as your friend and supporter. And we 
will try to give you what you need as best we can. So thank you 
for your service.
    You are the face of America to most of the rest of the 
world. You and your Agency are present everywhere in a good 
sense. And so we wish you well in putting on the best face for 
this country abroad. Thank you, Mr. Ambassador.
    Mr. Green. Thank you, Mr. Chairman. Thank you.
    Mr. Rogers. The hearing is adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 

    

                                           Thursday, March 9, 2017.

  OVERSIGHT HEARING ON THE DEPARTMENT OF STATE AND FOREIGN OPERATIONS 
                                PROGRAMS

                               WITNESSES

ANN CALVARESI BARR, INSPECTOR GENERAL, U.S. AGENCY FOR INTERNATIONAL 
    DEVELOPMENT
STEVE LINICK, INSPECTOR GENERAL, U.S. DEPARTMENT OF STATE AND 
    BROADCASTING BOARD OF GOVERNORS

                  Opening Statement of Chairman Rogers

    Mr. Rogers. Good morning. The hearing will come to order.
    I want to welcome everyone to the first hearing of the 
Department of State, Foreign Operations, and Related Programs 
Subcommittee for the 115th Congress. In particular, I want to 
acknowledge our Full Committee chairman, Mr. Frelinghuysen, 
and, of course, our Ranking Member, Mrs. Lowey.
    I am confident our Full Committee is in exceptionally good 
hands under the chairman's leadership, and I am pleased that 
Madame Ranking Member Nita Lowey and I can continue our work 
together in my new role, and one that she has been in for some 
time here.
    I am honored to serve as chair of this Subcommittee. I am 
committed to making sure that all members' perspectives are 
considered as we work to address some of the world's most 
complex issues.
    As a Subcommittee Chair, I have always liked to begin our 
annual hearing process with a review of the management and 
operations of the agencies under our purview. This year is no 
exception. A broad array of issues currently confront the State 
Department and USAID, and no doubt, today's knowledgeable 
witnesses can shed light on many of those issues.
    So we would like to welcome to our Subcommittee this 
morning Mr. Steve Linick. Inspector General for the Department 
of State and Broadcasting Board of Governors; and Ms. Ann 
Calvaresi Barr, Inspector General for the U.S. Agency for 
International Development, the Millennium Challenge 
Corporation, the U.S. African Development Foundation, the 
Inter-American Foundation, and the Overseas Private Investment 
Corporation.
    As independent and objective representatives within the 
Federal Government, your work is very important to the 
Committee, and your willingness to testify today is much 
appreciated. We need to know what is and what is not working 
within your agencies so we can make decisions about how to 
responsibly allocate scarce Federal resources.
    As I take a deeper dive into the budget at State, I am 
troubled about repeated findings by the State Department IG 
regarding the Department's lack of focus on program management 
and oversight, especially of grants and contracts; the fiscal 
and security risks associated with shared responsibilities 
across the Department without clear lines of accountability; 
the absence of a centralized financial management system; and 
the need for a strategic plan to proactively detect and respond 
to information security risks.
    I am also concerned by the USAID IG's work regarding 
financial and other risks when working through foreign 
partners, including host governments; shortcomings in 
monitoring programs to ensure they are meeting their objective, 
particularly in areas of conflict; OPIC's reluctance to embrace 
oversight from your office; and MCC's ability to properly 
assess the capacity of countries to develop, plan, and execute 
compacts.
    We look forward to hearing more of these issues from you 
today. I hope you will not only identify problems that you see 
at these critically important agencies but also provide advice 
on potential solutions, ensuring that appropriate funds are 
spent efficiently and effectively, with measurable benchmarks 
and outcomes. That is an essential responsibility of our 
Committee.
    As a matter of housekeeping for members, we will follow the 
5-minute rule during the question-and-answer period of the 
hearing. Members will be recognized in order of seniority based 
on who was seated at the start of the hearing, going back and 
forth between parties. I don't plan to cut anyone off in mid-
sentence, but if everyone could keep their questions and 
comments to about 5 minutes, that would be appreciated.
    Let me take a moment now to thank Mrs. Lowey for her many 
years on this Subcommittee and also as ranking on the Full 
Committee that we worked together over the past 6 years. And 
now, hopefully and gladly, we are back into a good working 
relationship. We may not agree on all the issues, but we are 
partners in shepherding bills to the President's desk, and we 
long for and yearn for regular order on this Committee. And she 
is a loyal soldier and partner in that effort.
    So let me yield to the ranking member of the Committee, 
Mrs. Lowey.

                    Opening Statement of Mrs. Lowey

    Mrs. Lowey. I thank you, Chairman Rogers. It has been a 
pleasure for me to work with you in both of your capacities. I 
look forward to continuing our good, straightforward 
relationship. This is a wonderful Committee. It is so very 
important. And we are going to, I know, work together with all 
our colleagues when they arrive too because of the important 
work ahead of us.
    And I join Chairman Rogers in welcoming Mr. Linick and Ms. 
Calvaresi Barr. You have come to the Committee at a significant 
time. The President will soon release his so-called skinny 
budget, which is reported to cut State Department activities as 
much as 37 percent. Such unsustainable budget cuts threaten our 
diplomatic and development activities, will weaken our national 
security, reduce our standing in the world, and cost the United 
States more in the long term.
    In addition, budget cuts to the inspectors general, along 
with the reported potential ouster of IGs throughout multiple 
agencies, would go to the absolute heart of eliminating 
accountability.
    In fact, if President Trump ever meets basic standards of 
transparency by disclosing his tax returns, inspectors general 
must be on the front lines of ensuring that agencies' official 
actions are not influenced by the President's personal 
financial interests.
    You must have the tools to ensure taxpayer dollars are 
spent wisely, efficiently, and effectively. Waste, fraud, and 
abuse not only violate the trust of the taxpayers, they 
undermine our nation's security.
    As inspectors general, your challenging task of providing 
independent oversight of U.S. investment overseas is further 
complicated by the numerous nongovernmental organizations and 
private contractors on which the State Department and USAID 
rely for implementation. These partners, which are 
indispensable to providing expertise and extending our reach, 
must be thoroughly evaluated to ensure taxpayer dollars are put 
to good use.
    The security and safety of U.S. civilian personnel around 
the globe, particularly those in areas affected by conflict, 
humanitarian crisis, political instability, or terrorism, are 
of utmost concern. And I look forward to hearing your 
recommendations on budgeting and steps USAID and the State 
Department can take to improve oversight, best secure U.S. 
personnel abroad, and protect taxpayer dollars.
    Lastly, I continue to be concerned about a lack of 
coordination in our public diplomacy, as it often appears that 
efforts to inform and influence foreign opinions of the United 
States are disjointed, unconnected, working at cross-purposes. 
I would like an update on how the BBG and the State Department 
coordinate public diplomacy and address barriers to these 
efforts' effectiveness. Your insights on obstacles at the State 
Department, BBG, USAID and MCC, be they structural, cultural, 
or resource-driven, and steps we in Congress can take to make 
improvements would be welcome.
    So I thank you for your ongoing commitment to ensuring our 
engagements overseas are accountable and efficient, and I look 
forward to continuing working together with our distinguished 
chairman and members of the Committee to accomplish the very 
important goals that certainly are going to deal with major 
issues ahead of us.
    Thank you.
    Mr. Rogers. I thank the gentlelady.
    Let me now recognize Mr. Linick. If you would please try to 
keep your remarks around 5 minutes to give us time for as many 
questions as possible. Thank you for being here.

                    Opening Statement of Mr. Linick

    Mr. Linick. Thank you.
    Chairman Rogers, Ranking Member Lowey, and members of the 
subcommittee, thank you for inviting me to testify today 
regarding the work of the Office of the Inspector General for 
the Department of State and the Broadcasting Board of 
Governors, the BBG. We appreciate the Subcommittee's continued 
interest in and support of our work.
    OIG oversees the operations and programs of the Department 
of State and the BBG, which include more than 70,000 employees 
and over 270 overseas missions and domestic entities. These 
agencies are funded through combined annual appropriations, 
fees, and other income of more than $43 billion. Unlike other 
inspectors general, we are statutorily required to inspect all 
posts every 5 years.
    In practical terms, these factors mean that a relatively 
small OIG is responsible for oversight of thousands of 
employees and billions of taxpayer dollars. For example, we 
have only about 80 inspectors, who are responsible for over 270 
posts, and less than 100 auditors to review the expenditures of 
tens of billions of dollars.
    Now I will turn to some highlights of our recent oversight 
work. First, one of OIG's top priorities is protecting those 
who work for the Department around the world. Although the 
Department has made improvements in overseas safety and 
security, challenges remain. Through our inspection and audit 
work, OIG continues to find critical vulnerabilities that put 
our people at risk. Specifically, we have reported on physical 
security deficiencies at overseas facilities, weaknesses in the 
process of developing emergency action plans, and health and 
safety concerns.
    Second, the security of the Department's information 
systems is a focus of our work. The Department has spent 
substantial resources over the past few years, but IT security 
and management continues to be a significant challenge.
    Last, OIG has closely examined the Department's management 
of contracts and grants, an area that involves substantial 
resources. In fiscal year 2016 alone, the Department's 
obligations in these areas were more than $33 billion. The 
Department faces continuing challenges in managing its 
contracts and grants, particularly as these vehicles become 
increasingly complex. In the previous fiscal year, we have 
issued numerous reports related to these topics and opened 
several, many criminal and civil, investigations related to 
contract and procurement fraud.
    Our priority recommendations for each of these areas focus 
on systemic issues that have the potential to improve the 
Department's overall operations. By way of example, regarding 
physical security deficiencies, one root cause we have 
identified is that the two Department bureaus, the Bureau of 
Diplomatic Security and the Bureau of Overseas Building 
Operations, have overlapping responsibilities for crucial 
physical security issues. We have recommended that those 
bureaus develop and implement formal standardized processes to 
prioritize physical security needs, which would allow the 
Department more effectively to prioritize, fund, and plan for 
security upgrades.
    With respect to IT security challenges, we have recommended 
that the Department implement a strategy to identify, assess, 
respond to, and monitor risk. Such a Department-wide approach 
would enable the Department to better understand its current 
risk profile, identify opportunities to improve risk 
management, and communicate risk.
    Since I have been inspector general, OIG has undertaken a 
number of initiatives that allow us to use our limited 
resources more prudently and help us improve our oversight of 
the Department and BBG. For example, we are issuing management 
assistance reports and management alerts that are designed to 
alert senior Department leadership to significant issues that 
require immediate corrective action.
    We use these reports to bring specific issues to the 
attention of the Department and BBG management quickly, without 
waiting for the conclusion of the longer term audits or 
inspections. We also have adopted a new approach for our 
inspections. To target our resources most efficiently, we now 
use a risk-based model that considers a variety of factors, 
including a post size and threat profile. We believe that this 
model will allow us to focus our resources on higher risk posts 
that warrant increased oversight.
    In closing, I would like to discuss the impact of OIG's 
work. In my written testimony, I have included some financial 
information that demonstrates how OIG helps return money to 
American taxpayers. We are certainly proud of these efforts, 
but focusing on these measurements does not fully reflect our 
most important work, that is, helping to safeguard the lives of 
people who work in or visit our posts abroad and protecting the 
Department's information, reputation, and the integrity of its 
programs. This work is a source of immense pride to OIG's 
employees.
    Chairman Rogers, Ranking Member Lowey, and members of the 
Subcommittee, I want to thank you again for the opportunity to 
testify today. I also want to emphasize that OIG's 
accomplishments are a credit to the talented and committed 
staff that I have had the privilege to lead; and I want to take 
this moment to publicly thank them for their incredible work. I 
look forward to your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    Mr. Rogers. Thank you.

                Opening Statement of Ms. Calvaresi Barr

    I now recognize Ms. Calvaresi Barr. If you would, try to 
keep your remarks within 5 minutes.
    Ms. Calvaresi Barr. Thank you, Mr. Chairman.
    Chairman Rogers, Ranking Member Lowey, and members of the 
Subcommittee, thank you for the opportunity to discuss our 
oversight of U.S. foreign assistance agencies.
    Today I want to share information that speaks to the 
efficacy of U.S. foreign assistance delivered through USAID and 
the other agencies we oversee. U.S. foreign assistance goals 
are broad and demanding. USAID and other agency programs 
support economic growth, combat disease, address food 
insecurity, and promote democratic reform. These programs also 
respond to humanitarian crises and aim to counter threats to 
global stability and to our national security.
    While USAID's global impact is well-documented and points 
to many foreign assistance achievements, our work has shown 
that poor planning and monitoring, a lack of local capacity and 
qualified personnel, and difficulties coordinating joint 
efforts have limited the agency's potential reach. 
Nonpermissive environments can exacerbate these challenges.
    For example, in Afghanistan, insufficient planning and a 
lack of data and systems unraveled the mission's multitiered 
strategy to narrow monitoring gaps. The strategy was used on 
just one of 127 awards.
    In Guinea, Liberia, and Sierra Leone, a lengthy award 
approval process and the government's inability to handle cash 
transfers delayed USAID's Ebola response.
    In Pakistan, USAID has yet to achieve most of the 
development objectives Congress called for, due in part to 
competing agency priorities.
    In Haiti, and West Bank and Gaza, the governments currently 
lack the capacity to sustain USAID-funded projects and programs 
once USAID investment ends.
    Our work also demonstrates the extent to which USAID 
programs are vulnerable to exploitation. Our agents exposed 
fraud schemes in cross-border Syria assistance programs that 
involved collusion between vendors and implementers, product 
substitution, inflated billing, and false claims. Subsequently, 
160 complaints were filed and 30 investigations launched, 
resulting in 6 program suspensions, valued at $305 million, 17 
suspensions and debarments, and $19.5 million in savings.
    In western and southern Africa, we continue to crack down 
on illegal activities, such as theft and trafficking of USAID-
funded medical commodities. Indictments, local arrests, and 
seizures not only raise awareness and deter criminal activity 
but help ensure life-saving medicines reach their intended 
beneficiaries.
    Through the Syria Investigations Working Group that we 
stood up, we have sent a total of 34 referrals regarding 
potential wrongdoing to bilateral donors and public 
international organizations, which receive about 40 percent of 
USAID's Syria response budget.
    While these examples point to the need to remain proactive, 
they raise questions about the administration of USAID 
programs. Our recent reforms will add more rigor to our 
assessments of USAID operations and yield more targeted 
recommendations for eliminating the vulnerabilities we have 
documented.
    Our strategic crosscutting approach also applies to the 
other agencies we oversee. For example, past weaknesses in 
large-scale MCC-supported projects, such as insufficient 
planning and poor contractor performance, call for a 
comprehensive assessment of MCC's business model with a focus 
on infrastructure, which accounts for about half of MCC's 
compacts.
    These are the hard-hitting discussions we are having with 
the agencies that we oversee, and they have stood up and taken 
action. Let me explain. In response to our Syria work, USAID 
added award conditions that require implementers to have sound 
internal controls before funds are disbursed. USAID also hired 
a compliance officer for Syria to help ensure implementer 
controls and checks are in place and called for greater use of 
third-party monitors to visit sites and report findings.
    Officials at USAID, MCC, and the other agencies we oversee 
understand our role and its importance to the mission. Our 
authority was underscored by a USAID cooperation memo that I 
established with the then Administrator soon after I was sworn 
in.
    But there is still work to do to solidify our independence 
and further advance the impact of our work. For example, we are 
taking back responsibility for closing out our recommendations. 
We are working closely with USAID's Compliance Division to 
ensure steady and appropriate action in response to our 
investigative referrals. We continue to implement reforms and 
initiatives to establish our office as a model in the 
accountability community and a dogged steward of taxpayer 
dollars.
    I hope the information that I provide today will prove 
useful to you as you deliberate fiscal year 2018 budgets for 
us, USAID, MCC, and the other agencies that we oversee. We 
genuinely appreciate your past support and continued assistance 
as we address areas of congressional priority.
    That concludes my statement. I am available to take 
questions. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Mr. Rogers. Thank you very much.
    I want you to talk about the magnitude of the financial 
management deficiencies at State Department and USAID and make 
recommendations to us. Over the last decade, the Department of 
State has expanded its role in implementing foreign assistance 
alongside traditional development assistance that is managed by 
USAID. As more and more State Department offices and bureaus 
took on managing those assistance programs, it became apparent 
that the Department was not properly equipped for that huge new 
role.
    In 2015, you issued a management assistance report, which 
noted that 10 years' worth of audits and inspections found that 
none of the Department's data systems tracked funding and 
expenditures by program or project or country or purpose. That 
level of information is essential to track and manage funds as 
well as to be able to respond to external inquiries.
    That report led the Department to undertake a planning 
process called the Foreign Assistance Data Review, which I 
understand is still going on several years later. But since the 
2015 report, the OIG has issued numerous audits of bureaus and 
offices with concerning findings on financial management, such 
as ``staff is required to engage in time-consuming, 
inefficient, and parallel processes to track the bureau's 
finances,'' and ``without procedures to monitor the financial 
management of award recipients, NEA cannot easily determine if 
funds are being spent in accordance with laws and 
regulations.'' So, tell us, where are we?
    Mr. Linick.
    Mr. Linick. Mr. Chairman, you have accurately described the 
situation regarding the foreign assistance at the Department of 
State. We did make recommendations in 2015 for them to develop 
a system that could track, manage spending by program, by 
project, by country.
    As it stands now, supervisors and managers in the 
Department don't really have a way to manage foreign 
assistance. And if you want to find out how much foreign 
assistance has gone to a particular grantee, you can't just 
call up that information very quickly. You can't figure out 
exactly how much foreign assistance has gone to Africa versus 
Asia. You can't figure out how much money is in the pipeline 
that hasn't been spent, unliquidated obligations.
    There is no way to do this without engaging in a very time-
consuming effort, going bureau by bureau. And what has happened 
is a number of bureaus, to compensate for this, have decided to 
undertake these efforts on their own and have wasted a lot of 
money in doing so and designing their own systems.
    Unfortunately, although we have made those 
recommendations--we issued that report in 2015--the Department 
still doesn't have a financial assistance tracking system. 
There is a working group that was actually developed before we 
issued the report, and, as I understand it, the working group 
comprises maybe 10 to 14 different bureaus, but it really needs 
leadership to shore up the solution and come up with a system 
that would allow them to manage this huge amount of money.
    Mr. Rogers. Where would that leadership come from?
    Mr. Linick. Well, the leadership, we recommend that it be 
led at the deputy's level because it really needs somebody who 
is a supervisor of all the parties who are members of the 
working group.
    We are actually doing a compliance followup review, another 
report on the progress of this working group. And we should 
have that, you know, in short order.
    Mr. Rogers. Would that leadership come from the Department, 
the Deputy Secretary for Management?
    Mr. Linick. There is no Deputy Secretary of Management at 
the current time. When we made these recommendations, that 
would be under her purview. Heather Higginbottom would have 
been the individual responsible for shoring this up.
    Mr. Rogers. So this problem is another argument for us to 
have a Deputy Secretary for Management and Resources. Would you 
say that?
    Mr. Linick. I would say it is an argument for having a 
deputy who is very focused on management, whether it is a 
Deputy Secretary for Management or another Deputy Secretary. I 
know there is a debate now as to whether there should be one or 
two Secretaries. Regardless of whether there is one or two, the 
deputy needs to be focused on management in the Department, and 
this is one area where we need the deputy's assistance.
    Mr. Rogers. While the Secretary of State is out around the 
world doing what needs to be done from his point of view, 
policymaking and the like, do you agree that there needs to be 
somebody back here in headquarters running the day-to-day 
operations of the Department, including this item that you have 
talked about this morning?
    Mr. Linick. Yes. I think that is very important.
    Mr. Rogers. Ms. Calvaresi Barr.
    Ms. Calvaresi Barr. I would be happy to talk about some of 
the state of financial reporting and transparency into the data 
systems at USAID. What I can share with you is that they have 
essentially two systems. One is called Phoenix, and it is their 
financial accounting system. The other is called GLAAS, and it 
is essentially their procurement system.
    They have made some progress in that these two systems are 
able to interface with one another. Whether they can be fully 
integrated is another question, something that they are working 
on going forward.
    What I would like to call your attention to is a 
recommendation that came out of our FISMA work on information 
security, which talked about--and I think it coincides here 
with sort of having a person having a seat at the table on 
these issues--with having the CIO report directly to the 
Administrator or the Deputy Administrator. Right now, the CIO 
is reporting to the head of management. And this is a 
requirement that was established under Clinger-Cohen.
    The importance of having someone there like that, they can 
have a view across the board of the systems. They can have a 
more strategic view, move away from the tactical and get away 
from the decentralization of the information. So that is one 
thing that I would sort of bring your attention to.
    The other issue related to this that does concern me, even 
though they have a financial accounting system, that system 
does not compile information for the financial statement audits 
at the end of each year. That module doesn't exist. That means 
that there is a lot of manual entry. And when you have manual 
entry, you are going to have errors. So those are some of the 
risks associated with the financial reporting. I think our work 
as we go forward, you know, on the DATA Act, where we focus a 
little bit more on the information and the reporting and the 
transparency of that reporting, will be key.
    Final point on this is our work has found across the board 
significant data reliability concerns. Seventy-one percent of 
our reports from the time period 2011 through 2013 noted 
overreporting, underreporting of contracts, grants, and 
accomplishments.
    So there is work to be done. Those are the items that I 
wanted to highlight in response to your question.
    Mr. Rogers. What can you do beyond what you are already 
doing? What can you do to help us remedy this problem? I mean, 
as you say, you can't tell us whether the money that we 
appropriate is being spent wisely or not, right? What can you 
do beyond what you are doing now to help remedy this?
    Mr. Linick. Well, in terms of the Foreign Assistance 
Tracking System, we can certainly make recommendations, and it 
is up to the Department to adopt them. But if Congress were to 
incorporate some of our recommendations into legislation or 
explanatory statements and require the Department to do them 
and have milestones and so forth, I think that would be very 
helpful. And, in fact, that has occurred in the case of some of 
our recommendations we have made with respect to contracts and 
grant management and IT management.
    Mr. Rogers. Thank you. We will look into that very 
carefully.
    Ms. Calvaresi Barr. And as far as from where we sit, it is 
implementing those recommendations. We are pushing very, very 
hard on this issue of decentralized data quality, lack of data 
reliability checks. It all starts there.
    If the information going in isn't good, then the contract, 
the agreement isn't going to be good, the monitoring and 
evaluation system isn't going to be good. And what that results 
in is, when folks are reporting information to officials such 
as yourself, there is a question about the information that is 
being presented.
    So we are pushing very, very hard on the data quality 
issue. We are also pushing very, very hard to have the CIO have 
a seat at the table and report directly to the Administrator or 
the Deputy Administrator so that they can have a view of these 
systems across the board and link them to the goals and ensure 
that the reliability of the data is there. So those would be 
the two things I would push the most on.
    Mr. Rogers. Okay. We are going to have you both back up 
here----
    Ms. Calvaresi Barr. Very good.
    Mr. Rogers [continuing]. For a little check of the oil in a 
few months. We have not set a date yet, but I want you back to 
report on how things are going, whether or not the Department 
is heeding your wise advice or not. And maybe they will hear 
about this and know that we are going to be keeping an eye on 
whether or not they live up to these recommendations.
    Is that agreeable?
    Ms. Calvaresi Barr. Absolutely.
    Mr. Linick. Absolutely.
    Mr. Rogers. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    And I know this has been an ongoing challenge, and I look 
forward to working with the Chairman and with you on this very 
important issue.
    At the start of a new administration, hundreds of new 
personnel come into State Department and USAID to fill critical 
and oftentimes senior positions. Conflicts of interest have 
become a particular concern in the confirmation process of 
several Cabinet-level nominees, but scrutiny of possible 
conflicts of interest needs to go further than just those 
officials requiring Senate confirmation.
    This came to mind this morning, Mr. Chairman, because I 
awoke, as I always do, to listening to the news on the radio. 
And I understand that China approved 38 Trump trademarks. There 
are those who say it violates the Emoluments Clause of the 
Constitution. It may present a potential constitutional 
problem. These are reported as being lucrative trademarks and 
could be a conflict. Plus, it is taking value from a foreign 
country not approved by Congress.
    So what role does the Inspector General's Office play in 
investigating conflicts of interest or assessing the 
effectiveness of existing processes? And how are concerns 
brought to the IG's attention? And what responsibility does the 
office have to deal with conflicts of interest? And how does 
your office handle potential conflicts of interest after a 
high-ranking officer is confirmed? Do you review their ethics 
filings proactively? Are you free to investigate potential 
conflicts of interest before a complaint is registered?
    Maybe I will ask another related question. Then you can 
talk about the whole issue, because in addition to the press 
that I woke up to this morning, recent press has focused on the 
AG's recusal from probes of Russian interference in the 2016 
election.
    In your opinion, is recusal an acceptable step to shield a 
senior Department official from conflict of interest, Mr. 
Linick? And taking that a step further--I want to be clear I am 
not making accusations--would you recommend Secretary Tillerson 
recuse himself from decisions related to U.S. sanctions against 
Russia since his former employer, ExxonMobil, would likely 
benefit from loosening these restrictions? And does the 
leadership role create a conflict for the whole Department?
    So perhaps you can just talk about that whole issue of 
conflict of interest.
    Mr. Linick. There are a lot of questions there.
    Mrs. Lowey. I thought I would give you a good challenge, 
sir.
    Mr. Linick. You did. Let me start----
    Mrs. Lowey. Do I need to repeat them or you understand?
    Mr. Linick. No, that is okay. I will give it a shot. I will 
give it my best shot.
    Let me start with conflicts of interest generally and how 
we process them and so forth. We have an office of 
investigations. We receive complaints through a hotline, 
through Congress, through various other channels.
    Conflicts of interest are clearly one of those areas that 
we look at. There are different kinds of conflicts of interest. 
There are conflicts of interest that may justify a criminal 
prosecution. There are conflicts of interest that may be 
administrative in nature.
    To the extent that they--if they arise to the level of 
criminal, what we would do is we would investigate those and we 
would make a referral to the Department of Justice for 
appropriate action.
    To the extent that they don't qualify as criminal and only 
administrative, then we would also do a report, and then we 
would make recommendations to the Department or, rather, we 
would send a report to the Department and ask the Department to 
take appropriate action, depending on the nature of the 
conflict. That is how we process those.
    In terms of your specific questions about Secretary 
Tillerson, I am really not in a position--I would be 
speculating. I don't have work on that. I am not in a position 
to give you an opinion about whether he should recuse or not.
    Mrs. Lowey. You don't have an opinion on that?
    Mr. Linick. I actually don't. I would need work. I don't 
have an opinion on that. I don't have any work.
    Mrs. Lowey. Now, isn't China within the responsibilities of 
the Department for which you are the inspector general? Do you 
have an opinion on that?
    Mr. Linick. I don't have work to support an opinion. And, 
unfortunately, you know, I don't offer personal opinions unless 
I have a body of work to support it. And I just don't. I would 
be speculating as to whether there are conflicts or not.
    Mrs. Lowey. So you are not aware that the Secretary of 
State has had very--I won't say positive. He has been a 
successful businessman with regard to Russia. And you are not 
aware of any conflict of interest?
    Mr. Linick. I mean, I have read about some of his dealings 
with Russia and so forth, but other than that, I can't really 
speak to it.
    Mrs. Lowey. You are continuing in this job. So I understand 
this response. Okay.
    Do you have any views about this?
    Ms. Calvaresi Barr. Let me just say, with regard to the 
conflict of interest, I think what Mr. Linick described as the 
process that all IGs use in terms of when issues like that 
arise, these are things that we follow.
    I can tell you our investigators, when issues have come in, 
we have followed issues regarding conflicts of interest. I am 
aware of one report that somewhat predated me, my arrival to 
USAID, and it was regarding a Cuba Twitter report where there 
was a noted sort of conflict of interest in the award and the 
grant where action was taken. And I recall that going forward. 
So we are on top of those types of issues.
    I think when it comes to individual conflicts of interest, 
we are required to submit sort of our standings, our holdings, 
the same with all the officials in USAID. Those things are 
reviewed. Where conflicts of interest are seen, then actions 
are recommended, whether it be recusals or otherwise.
    I am at USAID. I am not, you know, over at State 
Department. But I would hope that, after the due diligence that 
is given to looking at the information and if there are 
conflicts of interest, then the appropriate actions are taken, 
whether they be recusals or something else. But it needs to be 
looked at, and it needs to be effectively dealt with and 
managed, and that risk needs to be mitigated. And there are 
processes to do that.
    Mrs. Lowey. Well, thank you, Mr. Chairman.
    And thank you. So I just want to, in conclusion, you cannot 
look into potential conflicts of interest, such as conflicts in 
Russia or in China, unless there is a specific request from--I 
don't know who--the public?
    Mr. Linick. No. We can look at--if there are conflicts of 
interest that affect the operations and programs of the 
Department, we can certainly look at them.
    Mrs. Lowey. Do you think conflicts of interest of the 
Secretary of State's dealings in Russia, or the fact that there 
are 38 new trademarks in China, is that something worth looking 
at?
    Mr. Linick. Again, I am happy to work with you and your 
staff if you think there are conflicts of interest that we 
should be looking at. But, again, I can't offer an opinion as 
to whether it is worth looking at or not.
    But when there are conflicts of interest and allegations 
against senior officials, we look at them. And that is our job, 
and that is how we operate.
    Mrs. Lowey. Thank you very much. And you are staying on in 
these positions. Is that correct?
    Mr. Linick. I am subject to the pleasure of the President 
in terms of staying on.
    Mrs. Lowey. Thank you very much.
    Mr. Rogers. Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    The oversight work of your office has helped shed light on 
how our taxpayer dollars are spent across the world and how its 
policies developed in Washington are actually being implemented 
on the ground by our diplomatic and humanitarian staff.
    In addition to your oversight work, the media plays an 
important role in reporting and revealing potential issues of 
waste, fraud, and abuse of our taxpayer money which I spoke of, 
which sometimes requires response from those of us up here on 
the panel in Congress.
    A couple reports ran in the New York Times, as you may 
recall, in September of 2015, alleging that U.S.-backed Afghan 
security forces were sexually abusing young children in 
Afghanistan and that U.S. servicemembers felt that they had no 
recourse or protocol to report such allegations up their chain 
of command or fear reprimand.
    Senator Leahy and I, as you may know, along with more than 
90 of my colleagues here in Congress, asked the Special 
Inspector General for Afghanistan Reconstruction, or SIGAR, to 
investigate whether the U.S. Government had violated the Leahy 
law, which prohibits DOD and State from providing assistance to 
foreign military forces that have committed gross human rights 
violations.
    So I notice that in many of your embassy inspection 
reports, you include an assessment of the embassy's compliance 
with these Leahy laws and policies as well as the embassy's 
vetting processes. How would you characterize the overall Leahy 
compliance across all of our embassies and consulates 
throughout the world, and have you noticed any regional or 
country-specific implementation challenges?
    And, secondly, it is my understanding that while State has 
the International Vetting and Security Tracking system to 
report Leahy law violations, DOD does not have a similar 
formalized system to process these kinds of complaints on their 
own. So how does State coordinate with their Defense attaches 
to ensure proper vetting of foreign security forces receiving 
our U.S. assistance? Thank you.
    Mr. Linick. Congressman, as to Leahy vetting, as you 
mentioned, we do look at Leahy vetting in every embassy that we 
inspect. And I would say I can't draw an overall conclusion as 
to how the Department is doing. It is mixed. I mean, sometimes 
it is working well, and sometimes it isn't. I don't have 
specifics at this point.
    I am happy to work with you or your staff to discuss this 
more about some of the particulars. But we issue, you know, 
many, many inspection reports with many conclusions about Leahy 
vetting in particular locations.
    And, also, I am happy to get back to you on the 
coordination issue. I don't have those facts handy, but I would 
be happy to get back and look into that.
    As to the sexually abused children, as you mentioned, SIGAR 
and DOD IG are both looking at that issue right as we speak. So 
I think that has been going on for about 6 months now.
    Mr. Rooney. I think, Mr. Chairman, and to the panel, I 
think that obviously, there has been a lot of discussion with 
regard to State cuts potentially in funding. And I think that 
this obviously is one area where U.S. taxpayers would demand 
that this be done the right way and make sure that we are not 
assisting countries that do not comport with those rules and 
with the spirit of the Leahy law.
    So thanks very much. I appreciate it.
    I yield back.
    Mr. Rogers. Ms. Lee.
    Ms. Lee. Thank you very much.
    Thank you both for being here and for your service.
    I want to ask first, Mr. Linick, a question about the 
Office of Cuba Broadcasting Radio and TV Marti. I have long 
held the position that it should be eliminated. I think it is 
counterproductive at best.
    As this committee looks to review our efforts to, quote, 
``promote democracy,'' more broadly, I want to sound a word of 
caution. Our Subcommittee and this Congress must ensure that 
our efforts to, quote, ``promote democracy'' abroad do not end 
up undermining our goals and objectives. So we have to be 
careful that our efforts are not viewed as efforts to undermine 
and promote regime change in sovereign nations.
    I want to ask you if you have done any audits of these 
efforts. Are they working? If so, what are the metrics of 
efficacy? And, also, do we factor in the views of people in 
sovereign nations? And with this huge cut that is being 
proposed, the 37-percent cut, my math says it would be 
$19,775,000,000 if we just zero out the Office of Cuba 
Broadcasting. I think taxpayers deserve more. And I would like 
to find out what you all have learned as a result of your 
audits.
    Mr. Linick. Our audits and inspections on the BBG have 
primarily focused on their operations and how they are running, 
how they are managing their money to begin with.
    And what we have found--I can't speak to the Office of Cuba 
Broadcasting in particular. Whether it should exist or not 
exist is a policy question that I don't have an opinion on. But 
I can tell you that, with respect to the BBG and its grantees, 
there are problems with the way in which they manage grants, 
problems in which they manage contracts. There have been 
problems with leadership at the BBG in general. And some of 
those problems have been remediated. Now they have a full-time 
CEO. They had problems with the board. There was a lot of 
dysfunction a couple of years ago, which we reported on 
extensively. But a lot of the sort of leadership problems have 
been remediated, but they still have problems in the contracts 
and grants area and in financial management as well.
    Ms. Lee. This is I believe $28 million for fiscal 2016. I 
think taxpayers deserve better. And at some point, and I 
understand you don't agree or disagree with the policy, but we 
have to know if taxpayers are getting a bang for their buck and 
if, you know, this $28 million could be used elsewhere in terms 
of what this committee's priorities are.
    And some may believe this is a priority, but if we are not 
spending this money wisely and if it is not accomplishing 
whatever the goals were--I was on staff with Congressman 
Dellums when this thing was put into place, and I still don't 
know what the purpose is of it. And in this era and in this 
environment, this committee understands we have to be very 
careful with these efforts.
    Let me ask Ms. Barr: With regard to Haiti, we have 
committed, I think it was $4 billion in assistance to Haiti 
recovery and transition into sustainable development. And, 
unfortunately, there has been poor coordination between donors, 
implementers, and governments, you know, coupled with 
environmental challenges, like Hurricane Matthew, which struck 
Haiti last October.
    My bill, which was bipartisan, the Assessing Progress in 
Haiti Act, it was signed into law by President Obama. It 
requires the State Department to send Congress regular reports 
on progress in terms of development assistance in Haiti. And it 
has been very difficult in terms of having difficulty--Haiti 
has--in overcoming some of the significant obstacles, including 
the lack of infrastructure, sustainability of programs, 
partnerships, and, of course, the ongoing cholera epidemic.
    So what is your sense of how things are going in terms of 
progress? We haven't had a report recently, and I would just 
like to get your sense of what is going on.
    Ms. Calvaresi Barr. Thanks very much for the question. And 
I am sitting here, as I am listening to you talk about the 
bill, trying to reflect on some work that relates to Haiti. And 
there are two that, you know, immediately come to mind where we 
found issues, whether it be the investment that we made, $88 
million, into, you know, agricultural development, you know, 
for Haiti.
    And what essentially we found there is difficulties with 
the design of the contract in that there were, you know, 
contract flaws. They did not have enough warranted officers in 
place to handle the huge flow of money. And I believe that one 
was like $88 million. So, to get to your point, you know, of 
what kind of impact is this having, are we doing well, we are 
seeing programs--and it is not just for Haiti; it is sort of 
across the board--ineffective design and implementation of the 
grants or, you know, the agreements that go forward.
    In terms of sustainability efforts, there was Local 
Solutions, which is part of USAID's USAID Forward initiative, 
which is that, for sustainability, it makes sense to invest in 
the countries, country ownership. And what we found is that, 
after USAID's, you know, investment in healthcare facilities 
and other facilities, that the government was not in a position 
to carry the salaries of healthcare workers for 80 facilities 
once the U.S. investment ended.
    So those are two examples that point, I think, to the 
question and the issue that you are raising that I could bring 
to the fore. So is there work that has to be done? There 
definitely is work that needs to be done. And there are a lot 
of basic things, at the design and the awarding of the grants 
to the monitoring and the evaluation to assessing local 
capacity, that has to work better in terms of how we design, 
implement, and oversee these programs.
    Ms. Lee. Mr. Chairman, just finally, just let me ask you to 
give us a report, if possible, of who the grantees are. At one 
point, the grantees were primarily foreign NGOs.
    Ms. Calvaresi Barr. Yes.
    Ms. Lee. And based on what I heard and learned on the 
ground in Haiti and also here, a lot of the services, a lot of 
the work, a lot of the infrastructure had not really trickled 
down to the people who need it the most. And these foreign NGOs 
didn't have that grasp of what was needed.
    Ms. Calvaresi Barr. You raise a great point. This goes to 
an assessment of when we are using other implementers on the 
ground, whether they are foreign NGOs, it is incumbent upon 
USAID, MCC, whatever entity, to identify what are these 
implementers' internal controls, procurement processes. Do they 
know the vendors they are working with? Do they know how to 
track the receipt of those goods and those services?
    And where it is breaking down, the big takeaway is it 
speaks to, what are USAID and the other agencies doing to 
understand those NGOs that the money is flowing to? What is 
their capacity? What are their governance structures? And if 
there are risks, then there should be monitoring and evaluation 
plans that mitigate those risks, going forward.
    So you are on to a tremendous point that, unfortunately, I 
would say cuts across all of our programs across the board. But 
our work really speaks to that issue.
    Ms. Lee. Thank you very much.
    Ms. Calvaresi Barr. Sure.
    Mr. Rogers. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. Good morning.
    Mr. Linick, since the conflict began in Syria, the State 
Department has provided over $730 million to the Syrian 
opposition, including more than $170 million in nonlethal 
assistance to the so-called moderate armed opposition. This 
began as support to strengthen the moderate opposition to 
Assad, but now much of it is characterized as counter-ISIL. 
Regardless, members remain concerned about who we are working 
with and over the risk that these funds will be misused or 
diverted to extremists.
    Last November, you released an audit report on the State 
Department's vetting process for Syrian nonlethal assistance. 
The report uncovered troubling information with respect to 
vetting for these programs.
    So, if you could tell us, who are we working with? What is 
the purpose of these programs? And what is the vetting policy, 
and what steps are being taken to ensure these funds do not end 
up in the wrong hands or are diverted for illicit purposes?
    Mr. Linick. Congressman, we have done quite a bit of work 
on provision of nonlethal assistance to Syria. In the report 
that you mentioned, the government provided about $400 million 
of nonlethal assistance from 2011 to the present. And that 
money is managed by two bureaus, really, NEA and DRL, 
Democracy, Human Rights and Labor.
    They are working with implementers overseas to distribute 
this nonlethal aid. And we are talking about, you know, 
blankets and food and trucks and equipment and things like 
that. And the rules at the State Department require that 
vetting occurs of both the participants, the implementer, 
staff, as well as recipients. Unfortunately, the guidance at 
the Department, it was all over the place. And they were not--
the implementers are supposed to provide this information to 
the two bureaus that I just mentioned, and they weren't always 
doing that.
    So we made a number of recommendations to improve the way 
in which the vetting is done. The vetting, obviously, is 
important to ensure that the goods or the money are not going 
to the bad guys. And those recommendations are open. I mean, 
that report is relatively recent. I understand the Department 
has agreed to implement those recommendations, and we continue 
to monitor them.
    Mr. Dent. Thank you.
    And, Ms. Calvaresi Barr, on a related subject, the 2016 
investigation led by the USAID IG found that corruption 
practices, bid rigging, bribery, et cetera, were taking place 
in some of the Syrian aid programs. How have USAID's efforts to 
reduce corruption or improper practices in their international 
aid programs improved since last year?
    Ms. Calvaresi Barr. Thank you very much for raising that. 
When we talk about sort of our greatest accomplishments, it has 
been through the work that our agents have done looking at 
these cross-border programs, mainly out of Turkey and Jordan, 
into Syria. When you look at the amount of funding in Syria, at 
this point, across the board, we are talking about $2.65 
billion to date.
    Once that operation was----
    Mr. Dent. You are talking about the refugee assistance?
    Ms. Calvaresi Barr. We are talking about humanitarian 
assistance, yes. Yes, in general.
    Once the operation was declared and the contingency 
operation was stood up, our agents went out to Turkey and 
Jordan and did a series of fraud awareness briefings, put 
compliance handbooks together to talk to all of the 
implementers, because what happens in these contingency 
operations, the money flows. It is fast. It is furious. You are 
working with vendors that maybe you have never worked with 
before. You don't know their systems.
    What our work has spoken to is the fact that we got, with 
that initial outreach, to date, 160 allegations and 30 cases. 
How it has gotten better, to get right to how it has gotten 
better, we have seen tremendous effort from USAID, that when we 
brought concerns to the table about implementers--and we 
brought 48 referrals on 9 implementers to USAID and to other 
entities--it has resulted in 6 program suspensions, valued at 
$305 million, $19 million in savings, and 17 suspension and 
debarment actions.
    And having been in this community my entire career, I can 
tell you that--and this is something I want to say specifically 
with USAID--our agents go forward sometimes without the full 
record of investigation. And I have seen the Compliance Office, 
the Office of Security take tremendous responsive actions to 
what we are finding and have suspended those programs, found 
other vendors to move them forward. And I think we have the 
data, the numbers that speak to that.
    So I am very pleased with the responsiveness that we are 
getting.
    Mr. Dent. That sounds very impressive. Thank you.
    Mr. Linick, does your team conduct regular assessments of 
potential vulnerabilities at the State Department's overseas 
embassies and outposts, and, if so, do your corrective action 
plans typically convey recommendations to improve crisis 
preparedness plans at those posts? And if so, do you feel the 
State Department has taken adequate steps to address any items 
raised in your investigations?
    Mr. Linick. Congressman, our number one priority is 
ensuring the safety of our American diplomats abroad and our 
local employed staff as well. Almost every inspection we do, we 
look at security issues. A number of our audits also focus on 
security issues. And we continue to find vulnerabilities 
wherever we go overseas.
    Particularly, you mentioned sort of crisis management. One 
of the issues that has come up recently is emergency action 
plans. And we found a lot of problems with emergency action 
plans: making sure that they are accurate, up-to-date, the 
people know how to implement them, that the supplies are there 
if there is an emergency. So we take that very seriously.
    We have also found a lot of issues with residential 
security and health and safety issues. So we do make 
recommendations to the Department. And if I had to sort of 
highlight one of the most important recommendations which 
really addresses a systemic issue, it is this one; and that is, 
the Department really needs to have an inventory of its 
security deficiencies and security needs around the world so 
they know where their highest priority security needs are and 
they can properly fund them and prioritize them.
    Mr. Dent. Thank you.
    Mr. Chairman, do I have time for one more question?
    Mr. Rogers. Yes.
    Mr. Dent. Ms. Calvaresi Barr, what are the main lessons 
learned from USAID's role in the Ebola response that can be 
applied to future global health crisis responses? And do you 
feel that USAID has adequately addressed and responded to any 
shortcomings identified by your investigations related to their 
Ebola response efforts?
    Ms. Calvaresi Barr. So, with regard to the Ebola response, 
our work has pointed to the fact that--we found that the 
contract vehicles that were used for the response were the 
right contract vehicles based upon, sort of, all the 
requirements that you follow, sort of, in the FAR or other best 
practices.
    Where we saw things kind of falling down with regard to the 
Ebola response is in the design of some of the efforts that 
were going out there. And this just spoke to the folks that 
were on the ground rolling the programs out, designing the 
programs--that there were rather lengthy award approval 
processes that were built in. It was in the design of the 
contracts. So what happened is there was a delay, in the aid 
getting out as quickly as it needed to get out.
    There were also concerns with the government's ability to 
handle things like cash vouchers. So it goes to the point I 
think I was making, a little bit earlier, that when we are in 
these environments and we are responding real-time and this is 
a matter of life or death in containing these things, we have 
to really understand that environment that we are operating in. 
So using cash transfers, using vouchers, are those on the 
receiving end, ready and ripe to receive that? Do they have the 
infrastructure to do that?
    So where we have seen problems is problems in those 
assessments. So oftentimes what happens when an emergency 
happens that quick, the first thing that goes out the door is 
there is no country development coordination strategy, there is 
no quick rapid assessment of the country's capabilities--all of 
those things that would better position us to have a good plan 
in place to know what the risks are and then mitigate them.
    To your point, I think you would be very happy to know 
this. One of our--and I am striving to move our work, which has 
been very tactical, to more strategic going forward. We are 
actually going to do an audit that is going to look at USAID 
and other agencies' response to public health emergencies. When 
they got it right, what did it look like, what are the 
characteristics, what needs to be done? And when it didn't go 
well, you know, what are those things? And the key case study 
is going to be the case study in Ebola.
    So I would be very happy to talk to you about that work 
once we get it off the ground, but I think that would be 
responsive to the core the question.
    Mr. Rogers. Mr. Ruppersberger.
    Mr. Dent. Thank you.
    Mr. Ruppersberger. Ms. Calvaresi Barr and Mr. Linick, thank 
you for your testimony and your service.
    First thing, before I ask a question, I want you to know--
and this is for Mr. Linick--I am going to submit a question for 
the record about worldwide aviation support service.
    Mr. Ruppersberger. Now, my questions. I am going to focus 
in the area of cybersecurity.
    Protecting our government communications are vitally 
important, especially our national security secrets. In terms 
of management, it seems--and this is within our whole 
government basically--it seems that making cybersecurity a 
priority always seems to fall by the wayside for a number of 
agencies. And it seems like USAID and State have the same 
problems. And, too often, these Federal agencies are so focused 
on completing their missions that the management projects, like 
information and network security, get pushed to the side to 
make sure core missions are always moving ahead. And we 
understand that.
    But what the questions will be--and I am going to ask a 
couple questions, and then I will stop and let you answer. What 
more can we do to make this a priority for the Secretary of 
State and USAID Administrator?
    Ms. Calvaresi Barr, in your testimony, you said that the 
USAID Chief Information Officer reports to someone who might 
not have the authority to prioritize and fund projects 
necessary to keep their network secure. Now, is the problem 
that network and information security isn't a priority, and is 
it a cultural problem where the mission of USAID comes first 
and management issues come second?
    And then I am going to ask these and then stop. Is there 
any Federal agency or department that is doing it the right 
way? I would like to know that.
    And, also--and I think this is really important--based on 
what we hear from the President's budget and what his 
priorities are at this time, from the IG perspective, how would 
a 37-percent cut to the State Department impact the efforts to 
protect themselves from cyber attacks?
    Ms. Calvaresi Barr. I will begin with regard to the issue 
you raised--and we did talk about a little bit the importance 
of having the Chief Information Officer have a real seat at the 
table. They have to look at all the systems. They need to make 
sure that there aren't random buys that could, you know, 
compromise things like cybersecurity efforts.
    They need to have a strategic plan that addresses the 
goals, addresses the requirements as spelled out in FISMA. So 
when you asked what would be a best practice, what would be an 
agency, they have to follow the FISMA requirements. What are 
those? What does a good information security control 
environment look like?
    In addition to the CIO issue, one thing that we found that 
I find particularly troublesome--and I am pushing on this 
recommendation that came out of our FISMA work--is the fact 
that the Chief Information Security Officer is the same person 
as the Deputy Chief Information Officer--wherein lies the 
problem, is that the person that is responsible for testing the 
systems for security is also the person that signs off on 
compliance with it. We think that is, to the earlier question, 
a conflict of interest. We think that that could get in the way 
of revealing concerns. And we are calling for a degree of 
separation between those roles, because the testers and the 
ones responsible for it shouldn't be saying, ``Hey, guess what. 
It is all good.'' Right? You have to separate those two things.
    So that is just another point of emphasis I wanted to bring 
up.
    Mr. Linick. Congressman, cybersecurity is a top management 
challenge at the State Department, as you mentioned. And, like 
USAID, OIG has found the CIO also needs to have a seat at the 
table. And a lot of the issues that we have discovered at State 
Department involve lack of coordination, because IT is shared 
between the IRM, Information Resources Management, and DS. Both 
of those, the CIO who works for IRM and the head of the Bureau 
of Diplomatic Security, both report to the Under Secretary of 
Management. And we recommended that the Department give real 
consideration to repositioning the CIO so that the CIO can 
implement information security across the Department.
    It is the stovepiping which is the real problem. Inventory 
is a major problem. They don't even know what they have. And if 
you don't know what you have, it is hard to know what to 
protect.
    So that is one major recommendation we have made. And the 
other, which Inspector General Calvaresi Barr mentioned also, 
is they need to implement a risk management plan which 
assesses, monitors, identifies, and responds to risk around the 
Department so you know what your current state is, you know 
what your target state is, and you know how to communicate what 
the risk vulnerabilities are across the Department.
    So those are the two things I would recommend in terms of--
and we have made those recommendations. In terms of what 
Congress can do, it is something that I mentioned earlier, 
which is incorporate that into legislation. I think that would 
give real teeth to these recommendations.
    As far as what a 37-percent cut would do, I really don't 
know. All I can tell you is that IT security is a top 
management challenge, that they need to continue to focus on IT 
security, they need to do the things that we have recommended. 
Otherwise, there is a tremendous amount of national security 
information that is at risk.
    Mr. Ruppersberger. Is my time up?
    Mr. Rogers. I am afraid so.
    Mr. Ruppersberger. Got it. I yield back.
    Mr. Rogers. Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman.
    And to the witnesses, thank you.
    Dutch and I come from a little bit of the same background, 
having sat on some of the same intel committees that focus on 
this. So, not surprisingly, I have some of the same interests 
that he does. I would like to follow up specifically to his 
questions and then ask something in addition to that.
    And I want to quote, if I could, from your testimony, 
Steve, here regarding cybersecurity, or your written testimony 
at least.
    ``In fiscal year 2016, OIG reported weaknesses in the 
Department's cybersecurity incident response and reporting 
program.''
    And you know where I am going with this, I am sure.
    ``The Department's efforts to respond to incidents, 
including denial of service, malicious code, and unauthorized 
access, showed that it had not complied with its own 
information security policies in more than half of the 
incidents the OIG reviewed.''
    So two questions to you. The first is, if you run that 
analysis for 2017, are we going to have the same answers? Are 
55 percent of them going to be not in compliance? And how do we 
drive that down?
    And the second one, and this may be sensitive, and I am not 
sure you will be able to answer it, but having traveled and 
spent some time in overseas embassies in, you know, very hard 
target nations, I am aware that you have a concern with secure 
resupply and sometimes even maintenance. Is there something 
that you could tell us there about that and how we could help, 
if that is something that we could help with?
    Mr. Linick. Congressman, on the incident reporting, that is 
primarily a function of the lack of coordination between the 
two bureaus in the Department that share responsibility for 
enforcing and then complying with the requirements for incident 
reporting.
    I can't tell you whether or not that number is going to go 
down. I can tell you that we have reported this deficiency for 
years, and so, if I had to predict, it will probably be 
something that will appear in our next FISMA report. So I can't 
tell you.
    But these problems, you know, are also including--the 
contingency planning is another problem. They are not planning 
for if the system shuts down sufficiently. These all result 
from this coordination problem. And, to me, if you get at that 
root cause, you are going to see improvements.
    Mr. Stewart. Are we going to get at that root cause?
    Mr. Linick. Well, we have made recommendations that affect 
them, hoping that Congress does incorporate our recommendations 
into legislation so that the CIO is properly positioned, you 
know, to have oversight over the entire IT network at the 
Department. I mean, that is the basic problem.
    Mr. Stewart. These are extreme examples, but you look at 
what we know about CIA the last few days, right? You look at 
OPM--23 million Americans, very, very private information. And, 
we could keep going back, even the State Department, with some 
of your own hacking and going back to 2015 and that timeframe.
    Take a moment, if you would, and talk about secure 
resupply. Is that something we can talk about here? And is 
there something we can help you with on that?
    Mr. Linick. If you could just clarify your question. 
Security supply? I am not sure what you are referring to.
    Mr. Stewart. Secure resupply. For example, in some nations, 
it is very difficult to get in even maintenance materials 
because you have to take everything in and out in a secure 
package.
    Mr. Linick. Yes. That I would rather speak about in a 
classified environment.
    Mr. Stewart. Okay. If you do have things that you think we 
can help you with, please come to us in a classified 
environment and let us know, because it is a real concern for 
obvious reasons.
    Thank you.
    Mr. Linick. I will do that.
    Mr. Stewart. I yield back, Mr. Chairman.
    Mr. Rogers. Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman.
    And thank you to our ranking member.
    And thank you to our witnesses for being here and for the 
good work that you do. I will ask each of you a question, and 
then my second and last question will be for both of you.
    To Inspector General Calvaresi Barr, in the November 18, 
2016, audit report, ``USAID/West Bank and Gaza's Financial 
Reporting Should Be Clearer on Use and Results of Foreign 
Assistance Spending,'' your office found with respect to the 
USAID West Bank and Gaza mission that, for obligations and 
disbursements, reporting was not always accurate or clear. 
Further, reporting obscured which funds went to which 
activities.
    In response, your office recommended that USAID evaluate 
the current practice of recording disbursements disaggregated 
by foreign assistance objective and the associated impact on 
external reporting.
    To your knowledge, has the USAID West Bank and Gaza mission 
responded to the report, as your office requested? And if so, 
was it adequate? And by what date has the mission committed to 
taking corrective action?
    And in the interest of time, I will just ask--Inspector 
Linick, according to your office's work plan for fiscal years 
2017 and 2018, you intend to audit the Department of State 
Refugee Admissions Program resettlement support centers.
    The objectives of the audit will be to determine whether 
the Bureau of Population, Refugees, and Migration provides 
sufficient oversight of resettlement support centers, whether 
these centers ensure that refugee applicants undergo the 
appropriate security checks, and whether they ensure that 
required documentation and case files are complete for each 
refugee before admission into the U.S.
    I wanted to ask, what is the status of this audit? How much 
do you think this audit might cost your office? And has anyone 
from the Trump administration contacted you or your staff 
directly or indirectly about this proposed matter?
    And then my final question for both of you: There are some 
individuals in and around Washington, D.C., who wish to see 
funding that flows from this subcommittee cut by a third or 
more. If this were to happen to either of your offices, what 
impact would that have?
    Thank you.
    Ms. Calvaresi Barr. Thank you very much for your question 
regarding our West Bank-Gaza work. And I will have to get back 
to you on the specifics of the status of each of the 
recommendations we made and the extent to which those have been 
addressed and closed. So we will be happy to do that.
    But in line with the question that you are posing, we 
certainly have found--and it really speaks to the body of work 
that we do on our non-Federal audits. And we have a team of 
great Foreign Service Nationals that are out there doing those 
financial reports on all the activities in West Bank and Gaza. 
And they sit, you know, in our Cairo office doing that. And 
time and time again, what they find is, sort of, you know, an 
underreporting or an overreporting of programs' 
accomplishments. Going forward, it speaks to the issue of data 
reliability that I talked about before.
    When you are in environments that are difficult to access 
directly, to go into the sites, you are relying on others. You 
are relying on implementers. You are relying on what they are 
reporting. So it makes it very difficult that they can't get 
out.
    But we have found in instances where, actually, site visits 
to verify and to check the impact of the delivery of those 
goods and services, it is not always done. So we have made some 
recommendations even beyond that report that you referenced 
that speak to those issues.
    So, by the nature of having our financial folks, you know, 
following these programs and doing those assessments, I think 
that it continues to put pressure on getting the reporting 
right and making sure that that reporting, which then comes to 
you all to reflect the success of this big investment that we 
make in these programs, are things that you can rely upon.
    Mr. Linick. Congresswoman, beginning with your first 
question about the refugee admissions settlement audit, I don't 
have the cost handy, but I am happy to get back to you on that. 
It will be starting this spring sometime. And no one from the 
administration has contacted us about that audit.
    As far as funding cuts, if there are funding cuts, how 
would they affect OIG, they would have dramatic impacts on OIG. 
Right now, we are operating on a CR, as you know, that is 30 
percent below our fiscal year 2016 amounts. Our mission is 
mostly conducted overseas. We send auditors all over and 
inspectors all over the world. It is very costly. We are 
required to inspect every embassy all over the world. We are 
required to oversee overseas contingency operations. We have 
staff, boots on the ground in Afghanistan and Iraq and so 
forth--very expensive.
    If there are cuts in the budget, it will have a dramatic 
effect on us, and it is possible that we may have to pull back 
on some of those international commitments.
    Ms. Meng. Do you think that cuts would impact severely our 
national security?
    Mr. Linick. Well, all I can say is that if we have to pull 
back staff from traveling to places where they are inspecting 
embassies--we do look at safety and security of our embassies, 
and to the extent that we are not able to look at those 
embassies, then of course it would affect the national 
security.
    Ms. Meng. Do you agree, Inspector General Calvaresi Barr?
    Ms. Calvaresi Barr. I agree with Inspector General Linick 
completely. You know, having your budget flatlined or then 
potential cuts to that magnitude, if you just look at USAID in 
terms of the money that goes out, $20 billion per year, and you 
look at the number of staff we had, you know, if I did the 
math, each person would be responsible for, like, overseeing 
$100 million. So if you start just with that--and that is just 
USAID. I have five other agencies that I have oversight 
responsibility for. So that is a heavy lift.
    We have to be really smart. We have to be careful about how 
we identify where are the highest risks, where could we be most 
responsive to congressional interests that need to be informed 
from facts and from data.
    But I think when you are talking about those kinds of cuts 
and you are also talking about a hiring freeze, you put those 
things together, if you are not at your authorized level, and 
there are going to be some, you know, real serious tradeoffs 
that need to be made about those programs that we look at and 
we follow.
    And I am sure that if that does happen--and I will give it 
my best. My mother and father always taught me you work with 
what you have got, and you put it to the best use possible, and 
you go after the right thing. And that is what my job as the IG 
is, and we will do that.
    But I would suffice it to say that our return on 
investment, some of those numbers that I pointed to and 
currently a $3 return for every dollar invested, will most 
certainly go down.
    Mr. Rogers. Mr. Fortenberry.
    Ms. Meng. Thank you.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Thank you all for coming today.
    Before I ask my question, I want to preface my remarks by 
saying this Committee, Subcommittee, as well as you, have a 
very critical job. It really is dealing with three tensions.
    The first is to be able to explain to the American people 
the importance of the State Department and particularly the 
sensitive subject of foreign aid, as it is related to our 
rightful desire to participate in humanitarian causes, the fact 
that we do benefit from this exchange economically and 
culturally, but also its inextricable link to international 
stability and our own national security.
    With that said, the second tension, though, is, in a time 
of tight budgets, it is absolutely critical that we be able to 
justify these expenditures and that the continuity of impact is 
not only sustainable but measurable.
    Third is, I believe, we have to be innovative. And when we 
are dealing in places that don't have rules-based systems or no 
enforceable norms, a lot of times that gets messy.
    To the questions that I have. And they particularly are 
pointed to the investments we make in leveraging capital for 
Overseas Private Investment Corporation, Millennium Challenge, 
there's a smaller one embedded in USAID and then another one 
outside of State.
    I learned recently about a very innovative project, to this 
third point about innovation, that actually has OPIC helping 
underwrite a portion of a loan guarantee in a private equity 
fund, which is invested in by private investors, certain 
American businesses, as well as a large American charity.
    Now, at first glance, that might seem peculiar. Why in the 
world are U.S. taxpayer dollars participating in what appears 
to be a for-profit business? Which it is. Well, the model is 
very interesting, because what worries me sometimes, again, 
when you are in places that don't have rules-based norms or 
sustainable governance systems, if you build something, we can 
feel good about ourselves and check it off that we built a 
school, but in 3, 4, 5 years later that school might be 
completely abandoned, stripped of its hardware, and housing 
livestock. And you see that.
    This is a methodology whereby, with a little bit of 
taxpayer dollars, you are leveraging a portion of an equity 
fund that creates a return for investors but creates a model of 
sustainability. So it moves beyond just thinking that a 
nonprofit investment, that is good; a for-profit investment, 
well, that is for business. It is a hybrid model of the two 
that, again, creates scalability and sustainability for the 
long term. I think that is an innovation that we ought to look 
closely at.
    But the question, though, is to ensure that that nexus of 
benefit to America, particularly in the loan guarantee 
portions, whether that is Millennium Challenge or OPIC, is 
strong. It has been my understanding that there is some gray 
area there, and I would like you to address that.
    Ms. Calvaresi Barr. Sure. I would be happy to address that.
    I think, you know, you raised very good points about some 
of these environments that we are in and the extent to which 
these kinds of investments, important investments, can be 
sustained.
    We have had a lot of work that report--whether it be our 
work that came out of, you know, MCC. Nine of 23, you know, 
compacts had significant, you know, cost growth, contractor 
problems, sustainability problems going forward.
    In the case of OPIC, we did do one risk assessment--I am 
sorry, I am forgetting what year that was--essentially. But an 
issue that we brought up with regard to OPIC was, is there an 
incentive on their part to focus mainly on financial returns, 
sort of, at the cost of development and humanitarian----
    Mr. Fortenberry. So it has to converge, those three points 
have to converge: development, proper social outcomes, 
necessary financial returns----
    Ms. Calvaresi Barr. Absolutely.
    Mr. Fortenberry [continuing]. But also American benefit.
    Ms. Calvaresi Barr. And also American----
    Mr. Fortenberry. This is the question: Are we indirectly 
subsidizing international entities at the expense of America?
    Again, that is not to be traded off for the other two, 
necessarily, but it is an important evaluation point----
    Ms. Calvaresi Barr. Yes.
    Mr. Fortenberry [continuing]. For you.
    Ms. Calvaresi Barr. Yes. And I think we don't have work 
that actually looked at those three things. I mentioned our 
work when we did, sort of, the risk assessment going forward, 
but one thing that we are going to focus on and we want to 
focus on going forward is looking at, sort of, the core 
business, you know, operations. And with OPIC, there are 
percentages to invest in small businesses and otherwise. So the 
work that----
    Mr. Fortenberry. You audit this?
    Ms. Calvaresi Barr. And we are going to audit this going 
forward. This is an audit sort of on the book, where we are 
actually going to a look at, sort of, what are--all of the 
goals that we are trying to achieve here, if we look at certain 
projects, are they achieving that.
    Mr. Fortenberry. And this is a slightly different question, 
Millennium Challenge, but the spirit of question still applies.
    Ms. Calvaresi Barr. Uh-huh, yep, same with Millennium 
Challenge Corporation. That is work that we are talking about 
doing, as well, going forward because these are somewhat unique 
investment models.
    Mr. Fortenberry. They have not been done before. And I 
think it is absolutely fascinating.
    Ms. Calvaresi Barr. Yes. Yes.
    Mr. Fortenberry. But it also creates the conditions in 
which we have to be able to justify this and potentially use it 
further, if it is successful, as a new innovative model for the 
21st century in terms of foreign aid, with this sustainability 
idea in mind.
    Ms. Calvaresi Barr. Yeah.
    Mr. Fortenberry. That is the key. And that is where you 
have to help here.
    Ms. Calvaresi Barr. Okay. And we will most certainly do 
that.
    If I can raise just one thing----
    Mr. Fortenberry. Sorry. Yes, please.
    Ms. Calvaresi Barr [continuing]. With regard to OPIC? And 
it is an issue where you all could help us out a bit.
    We do not have full audit access authority with Overseas 
Private Investment Corporation. Through the Foreign Assistant 
Act, it allows us to do, investigations. It says inspections, 
but it doesn't mention audits. We are not allowed do their 
financial statement.
    The issue with the authority that I have, or I would say 
the lack of, I feel like I have responsibility for overseeing 
OPIC but I don't have the authority to do it, the full backing 
of the IG Act to do that. Every year, we have to negotiate an 
MOU with them about what work we are going to do, what we are 
going to look at. And when I think of, again, my 33 years in 
this community----
    Mr. Fortenberry. Well, this is all said--my question is 
said not in the spirit of ``gotcha'' because I----
    Ms. Calvaresi Barr. Yes.
    Mr. Fortenberry [continuing]. Suspect something is wrong, 
but this actually could be proven to show as that new 
architecture for a development model, so with limited 
financing, as you underwrite certain capital investments that 
are leveraged for multiple, multiple returns, rather than just 
direct funding.
    That is why it is so important to make sure that this is 
being done right, so that we can ensure it is done well and 
then be replicated.
    Ms. Calvaresi Barr. Right. And my point in bringing this up 
is that we have to negotiate with them on what looks and what 
audit----
    Mr. Fortenberry. Was this an oversight in the law, or was 
it purposefully left out?
    Ms. Calvaresi Barr. It is something that has been, sort of, 
written in the Foreign Assistance Act like that and then 
requiring, sort of, these annual MOUs. So we have been working 
with Congress to correct that going forward. Whether I remain 
the IG of that or someone else, they need the full backing so 
we can look at the kinds of questions that you are proposing 
need to be looked at.
    Mr. Fortenberry. Thank you.
    Thank you, Mr. Chair.
    Mr. Rogers. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    I want to join others on the committee in thanking our 
witnesses for your good work and your forthright testimony here 
today.
    I want to return to the question Ms. Meng raised and pose 
it more broadly. That has to do with the impact of reported 
cuts in the budget that may be coming.
    These are news reports. They indicate that the State 
Department and international assistance budget may be cut by as 
much as a third. And then even the reports of Secretary 
Tillerson's counteroffer sound pretty draconian. Like, we are 
going to phase that in instead of doing it all at once, and 
then the first-year cuts would be something like 20 percent. I 
have no idea, of course, whether that is going to come to pass, 
but I think we need to understand the implications.
    You began to answer the question when Ms. Meng raised the 
issue of your own operations and the reach of your own offices 
and what you are able to do. I want to pose the question a bit 
more broadly, and that is how the more discretionary items in 
the foreign affairs budget would be affected, as opposed to 
costs that would seem to be more or less fixed, institutional 
costs that would be more or less fixed.
    Now, I am new to this subcommittee. I would imagine that 
foreign assistance items, many of them are fixed costs, more or 
less--in other words, the embassy costs, the personnel costs of 
the Foreign Service, our diplomatic corps. So if that is true 
and if there is--and, of course, you are in a position to 
comment on that. That is why I am asking you the question.
    If it is true that there is limited slack there, then it 
would seem that the more discretionary part of the budget--
things like global health, things like foreign aid, a lot of it 
to the world's poorest places, things like the kind of work 
that I am particularly involved in with the House Democracy 
Partnership, the support for good governance and civil society 
development, and those kinds of efforts--it would seem that 
one-third might be a low estimate for the kind of blow those 
programs would suffer.
     I am asking--of course, we will get more details on this 
later. But I am asking for your top-line impression about the 
way those fixed costs and discretionary costs sort out and what 
the real impact on the foreign aid budget would be of a one-
third cut overall.
    Mr. Linick. Congressman, so we haven't looked at what the 
effect would be on the discretionary versus fixed part of the 
budget, so I am not able to comment on that. But what we do 
look at is how the Department manages its programs. And this is 
an area which has frequently been given short shrift in the 
past, program management.
    If these budget cuts affect program management, in my view, 
that is a problem, because we have identified oversight of 
contracts and grants as a top priority in the Department. We 
have identified millions and millions of dollars of questioned 
costs as a result of the Department not doing an adequate job 
in staffing its oversight of contracts and grants and training 
people to do it. There are problems with--you know, in some 
instances, we found they are not reviewing invoices, so it is 
not clear that taxpayers are getting the benefit of the 
bargain.
    To the extent that cuts affect that, that is something that 
is an alarm for me, because that has obviously been on my radar 
for the last 3\1/2\ years.
    Mr. Price. Yes. And you began to address that with the 
previous question. And, of course, this is in the realm of 
pennywise and pound-foolish, in terms of the work you do and 
the kind of savings that can ultimately produce.
    But I am really asking you for a broader view of--is there 
some kind of ballpark estimate you could give of how much slack 
you are finding in the institutional side of the budget? I 
mean, is there a lot of room there for cutbacks in embassy 
expenses, diplomatic corps salaries, and so forth? Where would 
the brunt of a one-third cut fall?
    Mr. Linick. Well, I can tell you that, through our work, we 
do certainly find fat there. So, for example, we make 
recommendations when we believe an embassy or a consulate is 
unutilized, and we have made recommendations to sell. So that 
is one area. So, for example, the consulate in Hamburg, we 
recommended the Department sell it and lease, and there was 
multimillion dollars in savings from doing that. We do that all 
the time.
    Mr. Price. Sure. There have been many examples of that. Are 
there a whole lot more examples like that?
    Mr. Linick. There are many examples like that. And I can 
only give--I am just coming up with those examples, I think, 
through the reports we have done. I don't have an overall 
estimate to give you.
    Mr. Price. I am talking about prospectively. Are there 
consulates all over the world that we really don't need?
    Mr. Linick. That I can't tell you. I can tell you that, in 
some instances, when we go out and do these inspections, we 
find there are--you know, sometimes there are consulates we 
don't need, and we make those recommendations. I don't have 
that information at my fingertips now, but I can certainly get 
back to you on what we have found in the past.
    Same thing with positions. Same thing with cost-of-living 
increases; we are looking at that.
    So, I mean, this is what we do. The bread and butter of our 
work is looking at how can we most effectively and efficiently 
make recommendations that save taxpayers money.
    Ms. Calvaresi Barr. With regard to USAID, I can tell you 
that this is first and foremost on their minds, the agency, you 
know, itself. And I know that discussions are underway about, 
you know, a whole range of options; if those kinds of cuts come 
in, where are we going to take them. You know, there are going 
to be some winners, there are going to be some losers.
    As far as what our work speaks to, and I think it is 
similar to what Inspector General Linick mentioned, is, where 
we find opportunities to say you have this large pipeline of 
money, you are putting this money out, we don't have a complete 
verification that the money is meeting the intended goal of the 
program, those are areas which we have to scale back and 
redefine before we go forward.
    With that being said, I think this raises an interesting 
question about the role the IGs can play going forward. If we 
are talking about these kinds of budget cuts, it is for us to 
be able to step back and take that strategic look. How did 
USAID, how did the other agencies determine where those cuts 
would be made? What drove those decisions? Were those the right 
decisions? What are the positives about it? What are the 
negative aspects of that? What is going to be lost? Are we 
going to lose prior investments that we had that are going to 
completely go away?
    And we just have not done that kind of holistic look. But I 
think, with these kinds of questions that are being raised, 
that can be an appropriate role for an IG to take during this 
time of change.
    Mr. Price. Thank you.
    Mr. Chairman, do I have another minute?
    Mr. Rogers. If the gentleman needs it, yes, sir.
    Mr. Price. I will be brief, because this is another broad 
gauge question, so I don't really expect an extensive answer.
    But I just want to commend you for the work you have done 
in stressing sustainability, in stressing the importance with 
these aid programs of there being a capacity after our aid is 
gone, with whatever is left on the ground, a capacity to go 
forward. That is especially important, I think, with health 
programs.
    The question I want to pose, I am really asking if you have 
worked on this, but it is for future reference really.
    In the work we do with governance, it seems to me that 
question of sustainability is especially hard to deal with. 
Let's just take the work we do at the House Democracy 
Partnership in parliamentary support. Almost always, that 
parliamentary support is backed up by work on the ground by 
NDI, IRI, various USAID contractors. And it is a good synergy, 
you know? The members come in, we give this cache. The members 
are engaged in these parliaments, and then, of course, the work 
on the ground goes on much more than we could ever do from our 
perch.
    When is that work done? When does a parliament graduate? 
When do you determine that this is sustainable?
    I tell you, we have intervened a number of times in saying 
the aid was being pulled prematurely. It wasn't that the 
dependance was being extended too long; it was the opposite, 
that this work wasn't quite done, and yet, because of economic 
pressures or whatever, of course, it can't go on indefinitely 
and decisions have to be made.
    So, I don't know, are you into this as an area of research, 
particularly with respect to the democracy support efforts we 
make? It strikes me that that is a real challenge, is to figure 
out when is the work at least sufficiently done to pull back 
and what does sustainability look like.
    Ms. Calvaresi Barr. One of our top management challenges 
this past year dealt with that issue, strengthening local 
capacity and sustainability while ensuring monitoring and 
oversight.
    And one particular example that I think we cited in that 
top management report had to do with governance initiatives in 
Paraguay, where we were working with local implementers to help 
stand up that kind of, like, technical support, make stronger, 
sort of, governance structures going forward. And what we found 
is that the implementers that we put the money through didn't 
have their own structure to ensure that they could handle that 
flow of money, and they didn't have the technical teeth to 
actually achieve the outcomes that were called for in the 
governance setting. So that is one example where that didn't go 
well.
    One job that we are doing going forward, because we just 
wrapped up looking at our audit plan moving forward, is taking 
a look at, as opposed to doing these--you heard me talk through 
a number of these questions that we got, here is an example of 
this, here is an example of that. We have to get more strategic 
in our office. That is a big goal that I am pushing, being a 
relatively new IG to USAID. And one of the initiatives that we 
are going to look at is this local solutions approach.
    And we need to look at a number of the programs across all 
of USAID and even MCC. When they were successful, what did they 
look like? When they weren't, what isn't there?
    I can tell you, having just come back--and, actually, 
Inspector General Linick, myself, and Acting Inspector General 
for the Department of Defense Glenn Fine did a trip out to 
Afghanistan and Pakistan. And we were in Jordan, and I visited 
a compact there from MCC that was focused on a water irrigation 
project. So this is one of the few that came out under-budget, 
achieved its goals, and went forward.
    And there are a couple things that are present there, when 
you are talking about sustainability: longstanding history of 
U.S. involvement with Jordan. They get our systems, they 
understand our governance structures, they know what they want.
    But the key to it is building in that hook, that tension 
that says it has to be of interest to that government to 
continue to invest when we go out. So, in the case of these 
water sanitation programs, the folks that are on the ground, 
that are building, where the jobs are being stood up, they have 
to prove to the Government of Jordan that that water tests at a 
certain quotient that makes it safe, or those tranches of money 
aren't coming in.
    So there are some key nuggets that we need to think about, 
whether it be governance, whether it be infrastructure, that 
need to be in place for these projects to take hold and be 
sustainable going forward. And I am hoping our new work will 
speak to that.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Price.
    The gentleman raised a question, his first series of 
questions, on possible cuts of spending. And that is a very 
relevant topic, it seems, these days. It will fall upon this 
subcommittee to eventually try to decide and recommend where 
those cuts take place, if they do take place.
    The public is under such a misunderstanding of what we do 
in foreign operations. You ask the average citizen out there 
how much foreign aid do we give, and they will say half the 
budget or two-thirds of the budget or what have you. In truth, 
it is what, around 1 percent or less?
    Ms. Calvaresi Barr. Yes.
    Mr. Rogers. So we have a lot of misconceptions to try to 
remedy. And then we will have to eventually finally work with 
you and everyone else to try to figure out where these cuts 
take place. It is not a fun operation, but the gentleman 
brought up a very, very interesting series of questions.
    Let me ask you briefly about the armored car, armored 
vehicle program. When I chaired the State, Commerce, Justice 
Subcommittee years ago, we were the ones that mandated that 
every ambassador have an armored car. But, since that time, 
this program apparently has exploded. You estimate that between 
1998 and 2016 the Department expended over $900 million to 
procure and outfit armored vehicles, roughly half of that since 
2010.
    You did an audit, and the findings were shocking, 
recommendations were numerous. The sheer carelessness of the 
Department is troubling and inexcusable, particularly given the 
risk to employee safety and mission readiness. We could spend 
the rest of the day talking about that audit, but could you 
quickly summarize it for us?
    And we are interested in the root cause of the problem and 
whether it affects other Department programs. And is this 
another result of lack of a Deputy Secretary of Management and 
Resources? I keep coming back to that, as I have for the last 
20 years. In fact, it was the State, Commerce, Justice 
Subcommittee, when I chaired it, that mandated the Secretary 
name a Deputy Secretary for Management and Resources so he, the 
Secretary, could focus on policy and the like and let an expert 
run the inter-operations of the Department.
    Is this another fruit of the lack of management at State?
    Mr. Linick. Mr. Chairman, this is really a quintessential 
example of the themes that I have raised in my written 
testimony and during this hearing. It is an example of lack of 
focus on program management and accountability.
    This is, as you mention, an almost billion-dollar program. 
And there were no internal controls, a lack of processes and 
procedures to guide the bureaus and the posts that were in 
charge of this particular program, namely Bureau of Diplomatic 
Security, the Administration Bureau.
    Lack of accountability--an example of that is it wasn't 
clear who was responsible for running this program. Bureau of 
Diplomatic Security thought it was merely sort of a service 
provider, when it was supposed to be the program manager.
    So there was a lot of finger-pointing going on. And this is 
what we have seen in other areas; it is not just the armored 
vehicle area. As a result, no one takes responsibility, you 
know, for management of these big programs.
    And what is the result? In this case, you had a number of 
overseas posts which needed armored vehicles but didn't get 
them, because there wasn't a system in place to allocate them 
in an efficient way. You had many unused vehicles, over 200, 
sitting on a lot wasting away, while the rest of the Department 
was in need of these vehicles.
    And these vehicles were also stolen and unaccounted for. We 
had a criminal case involving an owner of an auto shop who pled 
guilty to conspiring with a State Department official in taking 
these armored vehicles and selling them. They are worth about 
$150,000 apiece.
    And we had disposal problems as well.
    So this is just--this whole program was fraught with 
problems.
    Mr. Rogers. Over the years that I have been fooling around 
with this question of management at the Department, we kept 
bumping up against resistance within the Department. They don't 
want anybody overseeing them, apparently, and I am beginning to 
understand why.
    But I will be meeting with the Secretary right away, and 
this is the one thing I am going to try to urge him to do, and 
that is to name a good CEO, a person in charge of the daily 
operations of the Department, to get at problems like you have 
just talked about with the armor.
    But this deals with security and safety of personnel, which 
I find abhorrent that they have let this go to this extreme 
without remedying it. Do you see a remedy on the horizon? Are 
they taking steps?
    Mr. Linick. I don't know the answer to that question.
    But just to follow on with your point about the importance 
of having somebody at the top of the Department responsible for 
security, just two examples. I think that is critically 
important, and we have made recommendations to that effect.
    Number one, after the Benghazi Accountability Review Board 
issued its recommendations, we did work which suggested there 
were a lot of repeat recommendations over the 12 or so years in 
which we have had accountability review boards make 
recommendations. And we found part of the reason that there 
were repeat recommendations over and over and over again is 
because there was lack of sustained commitment at the highest 
levels of the Department to ensure those recommendations were 
implemented properly. So that is one area.
    The second example I would give is this. Again, this came 
out of the Benghazi Accountability Review Board. The Department 
needs to do--they recommend the Department do a better job at 
risk management. They have come up with something called VP2, 
which is a risk management system, where, if we are going to 
close embassies or open embassies, we articulate in writing the 
costs versus the benefits and--this is a key point--if we are 
going to place people in harm's way and we can't mitigate, we 
can't get around our inability to comply with policies, for 
example, that somebody at the top sign the dotted line as 
responsible. And that we recommended be under the purview of 
the Deputy or the Secretary.
    So that is why it is so important for someone at the top of 
the Department to be, you know, pushing program management down 
and setting the right tone at the top.
    Mr. Rogers. Not only a person responsible for the security, 
security personnel and the like, but also an overall Deputy 
Secretary for Management and Resources, period, to run the 
Department in the absence of the Secretary, who is dealing with 
policy.
    Mrs. Lowey, do you have questions?
    Mrs. Lowey. I thank you. And I just want to say I thank the 
Chair for your pursuing this issue. I have been in this 
Congress and on this Committee for a long time, and sometimes I 
feel like a broken record on this issue. And it really is a 
challenge.
    For example, on the Haiti program--Mr. Fortenberry, you 
have been on this Committee a while too--the two people who 
were running that program, a male and female, were probably the 
best we have had. I don't know why we are not successful. Now, 
there are a lot of reasons. It is the government, it is crime. 
But I always looked at Haiti as a place where maybe we could 
just see--at least to this date, you don't have terrorists 
taking over the country, you know? I don't think. You don't 
have an ISIS active in Haiti.
    So I really look forward, once again, to work with the 
chair, with you, to see what we can do to transform--I am not 
sure if it is attitude or talents or focus. But there is a lot 
of money being spent there, and we really have to look more 
carefully.
    Now, I will give you one example, the MCC. There has been a 
repeated finding from the IG that the Millennium--I think it 
has been a finding from you. I am just trying to see if it was 
you--the Millennium Challenge Corporation's difficulty in 
realistically assessing partner-country capacity before 
approving a contract. And for a long time, everyone was saying, 
this is the model, you know, MCC is the model.
    This factor, in my judgment, is more important than ever. 
Before approving a compact, MCC does engage with newer lower-
capacity countries. And especially as we face potentially 
drastic budget cuts in foreign assistance--I hope we can change 
some minds over there about that. Compacts are limited to 5 
years, aimed at supporting country capacity. Unrealistic 
expectations do a disservice both to our partners and MCC 
effectiveness.
    I see you shaking your head. So if you could share with us 
what you have recommended to better assess country capacity. 
And have you seen any improvement in the way they engage with 
countries regarding realistic expectations and timelines? And 
are there lessons learned from the MCC experience that can be 
shared with USAID and other partners as we look more carefully 
about how we work with host-country governments and local 
institutions?
    So I see you shaking your head. Can you share your wisdom 
with us?
    Ms. Calvaresi Barr. I am happy to respond.
    One of our top management challenges, the few that we had, 
the sixth in the lineup with achieving effective development 
and implementation of MCC programs and stewardship over 
resources.
    So there are certainly challenges that remain in terms of 
the process that is used to determine whether a country is 
ready for prime time or not. There are the threshold programs, 
which essentially involve, sort of, more technical assistance 
to get the countries ready and primed up for the length of a 5-
year compact. And then there are those countries that meet the 
indicators that are set out that make them eligible for it.
    While there have been success stories with these compacts--
and we are not saying that there aren't--there still remains 
these challenges. Hence, it is in our top management challenges 
report that we don't always get it right.
    So, clearly, the assessments on the country's, you know, 
ability to handle the flow of funds. When you have an MCA, the 
account holders are, as should be, are local-country employees, 
officials that are running, sort of, the accounts. What we have 
to do, whether it be for MCC, whether it be for USAID or ADF or 
IAF or any of them, we rely on others for the effective 
delivery of foreign assistance. In relying on others, we can't 
rely without doing pre-assessments, without identifying risks, 
and without identifying plans to mitigate those risks. And 
sometimes decisions need to be made that say, you know what, we 
looked at this, and maybe it isn't time yet. And those hard 
decisions aren't often made, because I don't think those 
assessments are properly done.
    So do we have an area of concern or risk here? We do. Our 
work, going forward, is going to look at MCC's core business 
structures, the process for how the threshold programs are 
decided, the compact programs are decided, and looking at, you 
know, models where success has been achieved versus not, what 
got in the way of it.
    So we hope that that future work will further inform--I 
think we have informed it very much, or we wouldn't have been 
able to put it as a top management challenge currently. But you 
are right, Congresswoman, there is more work to do in that 
area. And it is not just related to MCC; it is related to 
everywhere our foreign assistance is.
    Mrs. Lowey. In closing, I just want to say, you have been 
there 1 year, I believe.
    Ms. Calvaresi Barr. Yes.
    Mrs. Lowey. Mr. Linick, you have been there 3 years.
    Mr. Linick. Yes.
    Mrs. Lowey. And perhaps, as I know we are going to close 
this hearing, as someone who is so committed and so passionate 
about the important role the State Department and USAID play in 
the world, I will give you--unless our Chairman has any other 
statement, I would like your comment on that as well.
    Sometimes I think it is because the people who are working 
on these programs are so passionate about their work and so 
determined to do good work that sometimes their decisionmaking 
gets a little cloudy as to whether that program is really 
worthy of additional investment.
    But what is your view about this? In general or MCC, 
however you choose.
    Mr. Linick. Well, I don't oversee MCC.
    Mrs. Lowey. I didn't think so.
    Mr. Linick. But I guess I would say, particularly in the 
foreign assistance realm, if you are dealing in these overseas 
contingency operations, there is such a move afoot to get the 
money out the door, and in the contracts area people want to 
take shortcuts. In the grant area, I think the attitude is: 
Just get the money out the door, and we will worry about 
whether that money is used for its intended purpose later.
    You know, I think the people at the State Department are 
very passionate, they are dedicated public servants, but, you 
know, their objective is diplomacy, and it is not so much 
program management. And I think it is a cultural issue at the 
Department of State, in my opinion.
    Mrs. Lowey. I just want to say in closing, Mr. Chair, I 
remember a specific occasion. It was a summer evening, and I 
was sitting on the porch at my home in Westchester County. And 
I heard coming over the news that billions of dollars was 
coming out from Afghanistan. It was attributed to Karzai's 
brother. And I quickly called Nisha, who was the staff person, 
and I said, however you do it, stop every penny for the next 6 
months to Afghanistan until we can figure out what was going on 
there.
    I remember that issue with absolute clarity. And I know the 
chairman and I believe deeply in the work that the State 
Department and USAID are doing, but we have to continue to make 
sure that the money is spent efficiently and effectively.
    Thank you.
    Mr. Rogers. Thank you.
    Mr. Fortenberry, do you have a few questions?
    Mrs. Lowey. Oh, I am sorry.
    Mr. Fortenberry. It looked like you were eager to conclude, 
but I would like to add something else.
    Mrs. Lowey. No, I am sorry. I wasn't sure of the order 
here.
    Mr. Fortenberry. That is okay. I was listening intently and 
just did want to follow on on a couple things that Mrs. Lowey 
and Mr. Price and the Chairman have alluded to.
    And I think the example of Haiti is a good one. I recall I 
was there after the earthquake in the aftermath of some of 
that. And the Vice President told us, he said: Look, you all 
have given us $5 billion. We are extraordinarily grateful, but 
it is direct foreign investment that is going to help us have 
continuity for long-term sustainability.
    So we are in a tension here. You are in a tension in trying 
when there is a humanitarian crisis, yes, to move aid quickly. 
And that is just going to be messy, and it is going to be hard 
to measure as to its effectiveness because you are meeting the 
emergency conditions.
    You are trying, as I hear you saying, appropriately saying, 
and want to affirm you in saying it, that you are developing 
more advanced metrics to determine program sustainability prior 
to the investment and in a post-evaluation period as well. I 
think that is what you are saying, at least, right?
    Ms. Calvaresi Barr. We are recommending that that is what 
the USAID officials need to do, MCC needs to do, going forward.
    Mr. Fortenberry. We are going to probably have to figure 
out who is actually going to do that.
    Ms. Calvaresi Barr. Right, right.
    Mr. Fortenberry. Because I think this is very important 
because it comes back to the core point that is being raised. 
Look, we have got to have--it is important to always try to be 
innovative in government. We have got some very innovative 
things going on. And particularly in a time of tight budgets, 
in a time of question, even more intense questions about 
foreign aid, what does that deliver us, and is it sustainable 
over time in building up the conditions for proper humanitarian 
response but also stability so that it creates security for all 
peoples?
    Again, I think this is tied to the earlier point I was 
making, that as we look at innovative models and you ensuring 
that they are working and that they have a proper American 
nexus, that we are leveraging the limited funds we have in 
underwriting capital investments that attract other capital, 
that even potentially have a return on that capital for other 
people but nonetheless create the better conditions for 
sustainability whereas, again, just building something and 
leaving when in nongovernment space, you cannot guarantee that 
that is over the long term.
    This isn't to say we should shift from writing checks to 
NGOs to making sure that multinational corporations profit. 
That is not my point at all. But these new constructs of 
leveraging capital that is already out there that then is 
motivated to ensure there is continuity, as long as we have the 
social metrics to ensure that we have met our development goals 
and our humanitarian missions, I think is a new way forward if 
you can show us that these are sustainable and that they have 
that strong American nexus.
    Ms. Calvaresi Barr. I agree 100 percent with you. These are 
the questions that we are asking those that use these unique 
models. What are your metrics? What are you measuring? How can 
you prove that this is successful? Some of the problems that we 
have is, how long do you wait to see whether it sticks and it 
lasts? Like when is the right time to go in and say, ``Yep, 
they got it right''? You know, sometimes with some of the 
programs----
    Mr. Fortenberry. That is a problem we have because our 
budget cycles are artificially short and we want an answer 
within months and some of these things--again, this is a 
problem to reconcile what you are dealing with because the very 
point of sustainable development is to go into places that 
don't have sustainable development. So to create those 
conditions takes some time, and it is difficult and messy. But 
if the trajectory is right and these new models are proving 
themselves worthy, it leverages the limited funds that we have 
for the same mission outcome.
    Ms. Calvaresi Barr. Understood. We will make sure that we 
take a particular look at that. Thank you.
    Mr. Rogers. Thank you.
    Thank both of you for your generous donation of time to us 
this morning and, obviously, your attention. You have got a 
really tough chore, both of you do, especially now. It is 
important that this Committee know the work that you are doing 
because we need guidance on where things need to be corrected 
to perfect the system. So keep us posted and feel free to 
communicate with us often and in detail.
    Thank you for your testimony. Good luck to you.
    Ms. Calvaresi Barr. Thank you.
    Mr. Linick. Thank you.
    Mr. Rogers. The hearing is adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Tillerson, Hon. Rex..............................................     1
Mnuchin, Hon. Steven.............................................   219
Haley, N.R.......................................................   281
Green, Mark......................................................   349
Calvaresi Barr, Ann..............................................   483
Linick, Steve....................................................   483
</pre></body></html>
